<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                   DEPARTMENT OF TRANSPORTATION AND

                    RELATED AGENCIES APPROPRIATIONS

                                FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia            MARTIN OLAV SABO, Minnesota
 TOM DeLAY, Texas                   JOHN W. OLVER, Massachusetts
 SONNY CALLAHAN, Alabama            ED PASTOR, Arizona
 TODD TIAHRT, Kansas                CAROLYN C. KILPATRICK, Michigan
 ROBERT B. ADERHOLT, Alabama        JOSE E. SERRANO, New York
 KAY GRANGER, Texas                 JAMES E. CLYBURN, South Carolina
 JO ANN EMERSON, Missouri
 JOHN E. SWEENEY, New York          
                                    

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Richard E. Efford, Stephanie K. Gupta, Cheryle R. Tucker, and Linda J. 
                        Muir, Subcommittee Staff
                                ________
                                 PART 6
                                                                   Page
AIRLINE DELAYS AND AVIATION SYSTEM CAPACITY:
   March 15.......................................................    1
   May 3..........................................................  471
   August 2.......................................................  643
FEDERAL AVIATION ADMINISTRATION MANAGEMENT:
   March 28.......................................................  243
DEPARTMENT OF TRANSPORTATION:
   Federal Aviation Administration................................  825

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 77-322                     WASHINGTON : 2002


                         COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                   DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California              JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky              NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico                MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia              STENY H. HOYER, Maryland
 TOM DeLAY, Texas                     ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                   MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama              NANCY PELOSI, California
 JAMES T. WALSH, New York             PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina    NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio                JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma      ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                 JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan            JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                  ED PASTOR, Arizona
 JACK KINGSTON, Georgia               CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi         CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,           ROBERT E. ``BUD'' CRAMER, Jr.,
Washington                             Alabama
 RANDY ``DUKE'' CUNNINGHAM,           PATRICK J. KENNEDY, Rhode Island
California                            JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                  MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                 LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                     SAM FARR, California
 ANNE M. NORTHUP, Kentucky            JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama          CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri             ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire        CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                   STEVEN R. ROTHMAN, New Jersey
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)


                DEPARTMENT OF TRANSPORTATION AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2002

                                         

                                           Thursday, March 15, 2001.

AIRLINE DELAYS AND AVIATION SYSTEM CAPACITY

                             MORNING SESSION

                                 WITNESSES

    JANE GARVEY, ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION..
    KENNETH M. MEAD, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
          TRANSPORTATION
    EDWARD A. MERLIS, SENIOR VICE-PRESIDENT, LEGISLATIVE AND 
          INTERNATIONALAFFAIRS, AIR TRANSPORT ASSOCIATION
    JOHN CARR, PRESIDENT, NATIONAL AIR TRAFFIC CONTROLLERS 
          ASSOCIATION
    CHARLES BARCLAY, PRESIDENT, AMERICAN ASSOCIATION OF AIRPORT 
          EXECUTIVES
    DUANE E. WOERTH, PRESIDENT, AIR LINE PILOTS ASSOCIATION

                            Opening Remarks

    Mr. Rogers. The Committee will be in order.
    This morning we will look in depth at the horrible and 
worsening problem of airline delays and cancellations. These 
seem to have descended upon the country like a plague over the 
last few years. Millions of passengers in this country are 
terribly inconvenienced, as all the Members on this dias can 
testify to; business meetings canceled, families disrupted, 
kids that do not get united with their families, to mention 
just a few of the problems. The personal and commercial 
disruptions are nothing short of horrendous, and they have to 
stop. If you cannot do your job, we will find somebody that 
will. It is as simple as that.
    Last year, one out of every four flights in the United 
States was delayed. The average delay now has increased to over 
50 minutes, and the Inspector General (IG) has reported on the 
growing number of ``chronically late'' flights, flights which 
are hardly ever on time. The news show Dateline reported a 
couple of nights ago on NBC a few examples, highlighting 
certain flights which are late almost all of the time. 
Cancellations are just as big a part of the problem as delays. 
The number of canceled flights has increased sevenfold in the 
last five years. Your chance of having your flight canceled in 
1995 was one-half of one percent. In 2000, that has risen to 
three and a half percent.
    With many of these people being funneled through a small 
number of hub airports for connecting flights, it does not take 
too many delays or cancellations to disrupt the plans of tens 
of thousands of people, and because these aircraft are now 70 
percent full it is almost impossible to rebook all these 
passengers on the next available flight if there is one. The 
delay experience by passengers is far greater than is even 
being reported in the statistics, and that is why people are so 
furious about airline travel today.
    Instead of dealing with these problems head on, there tends 
to be a lot of finger pointing. The airlines blame the FAA. FAA 
blames pilots. Pilots blame the air traffic control system. 
Somebody blames the weather. I do not think God is a problem in 
airline delays.
    I intend to get beyond the finger pointing today. We have 
had enough of that. I do not want to hear it. I want to know 
the answers in a very frank and open discussion, in a very nice 
atmosphere.

                       introduction of witnesses

    We will hear from the FAA administrator, Jane Garvey; the 
Department of Transportation Inspector General Ken Mead; Chip 
Barclay, the president of American Association of Airport 
Executives; Ed Merlis, the senior vice-president of the Air 
Transport Association; John Carr, president of the National Air 
Traffic Controllers Association; and Captain Duane Woerth, 
president of the Air Line Pilots Association. I thank each one 
of you for being here today.

                           opening statements

    In the interest of time, we are going to dispense with oral 
statements from the witnesses and go directly to questions. We 
will enter your written statements, without objection, in the 
hearing record for Members to read and peruse.
    [The prepared statements and biographies of the witnesses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Before we proceed, let me recognize my partner, 
Marty Sabo, for any opening statements he cares to make.
    Mr. Sabo. Mr. Chairman, let us proceed.

                     IG--RESPONSIBILITY FOR DELAYS

    Mr. Rogers. That is a wonderful opening statement.
    Okay. Here we go. I am going to start with the Inspector 
General, and we are going to go down the line in order. The 
question is who is responsible for the problem and what are you 
going to do about it? Mr. Mead?
    Mr. Mead. Responsibility has to be laid at the feet of the 
Federal Aviation Administration, the airlines, the airports, 
the local communities and I think main DOT. I say that because 
they are all key players in the air traffic scenario and the 
congestion and gridlock we have today.
    What needs to be done about it? I think you need to move 
out on a multifaceted front, and by multifaceted I mean you 
have to examine the state of the air traffic control system and 
its modernization. We need more runways because that is where 
you are going to get your quantum leaps in capacity. You need 
to take some accountability measures to make sure that the 
people that are responsible for taking these actions are 
ultimately held accountable.
    Now, I think you take apart this problem in three pieces. 
You would want to look at the short term because a lot of the 
American traveling public wants to know: what are you going to 
do for me this summer? Am I going to have a repeat in the 
summer of 2001 of what we had in 2000? Like we had in 1999?
    The fact is that we cannot have more runways in time for 
the summer of 2001 or 2002. Air traffic control technology is 
not going to yield material gains in the short term. Some 
short-term actions need to be taken, and they need to be taken 
in the airline scheduling area.
    Also, FAA, DOT, and the airlines need to start tracking the 
delays. We have two or three different systems. They are 
recorded in our statement. They are very confusing. They are 
misleading to the traveling public. We have to straighten out 
the data on how many delays there are, how many cancellations 
there are, and what the causes of both are. I am incredulous 
that we do not have such a system in place today.
    Second, FAA needs to come out with capacity benchmarks. 
Those capacity benchmarks will state by airport, by the top 30 
airports, how much traffic that airport can handle by time of 
day under great weather conditions and under less great weather 
conditions. The airlines need to take heed to what those 
capacity benchmarks say, because the extent to which the 
scheduling exceeds those benchmark lines, the traveling public 
can expect problems.
    I think a third action that should be taken is that the 
Consumer Enforcement Division of the DOT needs to be beefed up. 
The resources there are woefully inadequate. You have less 
resources there now than you did in 1985, and it is all at a 
time when the complaints are skyrocketing, and the delays are 
skyrocketing, and the complaints are coming in. There are just 
not enough resources there to provide adequate protection for 
consumers when they do complain.
    On runways, there are about 14 runways I believe in this 
country that are posited for construction over the next say 
decade. About six of them could be completed in the next 
several years. I think we ought to set dates for completion of 
those runways, and we ought to monitor them very carefully.
    I think that is my short-term action plan.

                     FAA--RESPONSIBILITY FOR DELAYS

    Mr. Rogers. Thank you. Ms. Garvey?
    Ms. Garvey. Thank you very much, Mr. Chairman. I would echo 
in part some of the comments of Mr. Mead.
    First of all, all of us at this table have the 
responsibility for action, and I would focus as he did on both 
the short-term and then long-term issues. Certainly in the 
short-term effort, and I am going to speak specifically about 
what the FAA can do. I think we have really changed the way we 
do business. That is, we have opened Herndon, which is our 
command center, and I think we have an unprecedented 
collaboration both with the airlines, the partners of the 
airlines, the controllers, and the pilots. Every morning at 
5:00 a.m. we begin with conference calls, and they continue 
every two hours throughout the day to plan a course of action. 
I think that kind of collaboration is absolutely essential and 
key.
    The airlines with us have identified a triangle in this 
country that really acts as a kind of choke point. It is from 
Chicago to Washington to Boston. We have 21 short-term 
initiatives for those choke point areas. We have initiated and 
implemented half of those and are well on our way to the 
others. They essentially involve changing the procedures in and 
out of some of our busiest airports. Again, these are short-
term initiatives, but they have begun to produce some benefits. 
We have been able to reduce some of the departure delays at 
some of the New York airports. We need to stay the course on 
those initiatives and make sure we stay with and get them done.
    As Mr. Mead suggested, we are in the final stages of the 
capacity benchmarks working very closely with the airports to 
establish both the benchmarks at those airports, what the 
capacity is, what the demand is. I think that is another again 
very important short-term initiative.
    Improving our weather technology is another short-term 
initiative that we can do with the airlines. Again, I think 
collaboration is absolutely the key with the controllers as 
well.
    Long-term, the Inspector General's testimony speaks about 
the need to have a long-term strategic plan. We completed a 
draft of that on December 31. It is critical because it 
includes not just the technologies, but also the procedures, 
the benchmarks, the budgets, the certification that is 
required. Long term, it is a blueprint really for all of us. We 
are working right now very closely with the airlines to make 
sure that we all sign up to it. I think it is absolutely 
critical that we sign up to that together.
    So short-term initiatives around choke points and 
procedures and things we can do right now are training with the 
airlines, changing the way we do business through even more 
collaboration and a long-term strategic plan to have in place 
with the airlines. I think those are some important steps that 
we can take, and they are steps we can take together.

                    NATCA--RESPONSIBILITY FOR DELAYS

    Mr. Rogers. Thank you. Mr. Carr?
    Mr. Carr. Thank you, Chairman. I am very grateful you asked 
the question who is responsible, and I believe it is best 
answered by acknowledging that we are all responsible.
    Twenty-five years ago, aviation transportation was the 
transportation system of the elite. Now flying is mass transit. 
Any one of us can go down to the airport and hop the next 
flight to L.A. The country did not maintain the infrastructure 
needed to turn the transportation model of the elite into mass 
transit.
    For the last 25 years, we have accommodated growth and 
demand through scale by building bigger airplanes--727, 737, 
747, 757, 767--but not by building new runways. Due to market 
forces, labor difficulties, and, quite frankly, the decisions 
of the corporations, we have most recently started 
accommodating demand through frequency. We go every hour on the 
hour with smaller aircraft. That increased frequency is 
straining the infrastructure that has basically been static for 
the last 25 years.
    I could not agree with you more. It is time to stop laying 
blame. It is probably time to start laying down some concrete. 
We believe and most people in industry will tell you that 25 
airports getting one new runway apiece or 50 miles of runway at 
the 25 busiest airports would probably absorb most of the 
delays that we encounter in the system now, arrival delays, as 
well as departure delays, but we are not going to be able to 
get any runways poured by this summer, and I acknowledge that.
    What can be done short term? I think we have to continue to 
support AIR-21. I think we have to fully fund the initiatives 
in AIR-21, and I think we have to give the Administration and 
the FAA Administrator, quite frankly, a chance to make those 
things work.
    I believe that we have to name a very proactive and 
aggressive Chief Operating Officer (COO) to lead the FAA 
Performance Based Organization (PBO). I believe we have to give 
the Management Advisory Council (MAC) and the Air Traffic 
Services Subcommittee an opportunity to lead rather than just 
follow. I believe that we need to hire more controllers.
    Twenty years ago this August the Professional Air Traffic 
controllers Organization (PATCO) strike of 1981 caused 11,500 
air traffic controllers to be fired. Well, their replacements 
are coming up on retirement age now, and we need to very, very 
carefully monitor that situation so that the people I represent 
know that replacements are coming on line.
    I think we are all to blame for it. I think that the 
answers to this dilemma are right here in this room. I would 
like to thank you for the opportunity to contribute to the 
debate, and I look forward to working with everyone here on 
proactive solutions.

                    ALPA--RESPONSIBILITY FOR DELAYS

    Mr. Rogers. Thank you. Captain Woerth of the Air Line 
Pilots Association?
    Mr. Woerth. Thank you, Mr. Chairman. After three previous 
speakers I concur with almost everything I have heard so far, 
so I feel sorry for my colleagues even to the right of me.
    I think I would like to emphasize a little bit what Mr. 
Carr also just emphasized that over most of my nearly quarter 
century as an airline pilot, airplanes are getting larger and 
larger and larger, and the economies of scale are being used to 
compete, both to get lower consumer prices and to get more 
people to destinations.
    A competitive reality today, and all the airlines do this, 
and I understand why because it works, is especially for the 
high yield business customer who is buying those fully 
refundable tickets whose business plans are changing hourly, if 
not daily. They want to be able to go any time they want to go. 
They want to have hourly service to almost any place they go.
    To respond to that, in a rational way the airlines have not 
built bigger airplanes. Instead, they are using smaller and 
smaller aircraft to accommodate high frequencies because that 
is the business strategy that works. Nobody can argue with an 
airline that is using a business strategy that works. The 
problem is eight or nine major network systems cannot all have 
the business strategy with the infrastructure we have right 
now.
    Let us look at the poster child. An example sometimes is 
worth a thousand words. LaGuardia. Let us just say LaGuardia, 
and let us say last year. To borrow a phrase from Chairman 
Greenspan, when we lifted what we used to call slots--now we 
want to call it capacity enhancement benchmarks or whatever. It 
was the same thing.
    The fact of the matter is we relaxed it, and the response 
by the airlines was irrational, competitive exuberance. They 
put so many flights into LaGuardia it had zero chance. On a 
blue sky day with calm winds, there would be no chance that 
airport has any chance of operating on time.
    We have tried to deal in different ways with LaGuardia, but 
those are the type of choke points that affect it. Not just New 
York. They affect Los Angeles and San Francisco. Those 
airplanes are supposed to end up in those destinations, and 
they are an hour on the runway in LaGuardia. We are going to 
have to do something practical and realistic about when we know 
we have a choke point. We cannot pretend we do not know what 
one of those problems is.
    Part of our answer is going to have to be to make sure we 
get all those passengers into airports like LaGuardia, keep the 
capacity up, but not try to have a lot more airplanes than 
necessary to do the same job. So that is one simple thing that 
I am trying to deal with that we can actually do this year and 
next year.
    I think we all have to acknowledge that the technological 
fixes, the stuff that is going to enable air traffic 
controllers and pilots to deviate around weather more safely 
and with less of the same rules and limitations we have today 
are five, six and seven years away. If everything goes great, 
if AIR-21 is supported and there is no drop in funding and five 
other miracles happen, then everything is going to be okay 
technologically five or six years from now.
    In the meantime, we are going to have to make some very 
hard decisions amongst all of us together and cooperate with 
the limitations we have and not fool each other about what we 
can schedule or operate in a type of system that simply is not 
going to work. At one point I have even suggested that the 
airlines might even be given antitrust immunity to, frankly, 
work out some of their scheduling practices four or five times 
a year. Let us just admit that nobody is going to unilaterally 
withdraw. They cannot. If they pull down flights or 
frequencies, their competitors will probably just add them. 
Whether they are cooperating with each other I will leave that 
to them to determine, but we need some practical solutions 
because there are no technological miracles available to us, 
sir.
    Thank you.

                     ATA--RESPONSIBILITY FOR DELAYS

    Mr. Rogers. Thank you. Mr. Merlis with the Air Transport 
Association?
    Mr. Merlis. Thank you, Mr. Chairman, and thank you for this 
opportunity. I cannot disagree at all with the previous 
speakers. I think the shared responsibility for the situation 
we are in is a description of the system being out of kilter. 
In an attempt to meet demand, we have put planes into an 
infrastructure that is not adequate to meet the demand that we 
have in this country, and what we have to do is find ways to 
resolve that both short term and long term.
    In the short term, among the initiatives that we have 
undertaken, as Administrator Garvey described, is the daily 
collaborative decision making to figure out how we deal with 
the current weather of the day in order to accommodate the 
passengers who want to travel in this system. Weather is a fact 
of life, and we have to figure out a way to deal with it when 
we have that situation.
    Among the ways carriers are trying to deal with it is 
dedicating fleets out of certain hubs so that if there is 
adverse weather conditions it will not necessarily affect the 
entire system. It will limit the adverse consequences to 
traffic in and out of that particular hub. Other carriers are 
spreading out their flights during the course of the day. 
Instead of having let us say eight or ten banks of flights, 
flights in and out of a hub, they have spread it out, reducing 
the number in each bank and increasing the number of banks 
starting earlier in the day and ending later in the day, and 
that way there is less strain on the system at any one point.
    Additionally, carriers are implementing technologies to 
coordinate their dispatch systems with their reservation and 
customer service systems so that we can do a better job. 
Clearly we have a long way to go in doing a better job of 
informing consumers and handling interrupted operations 
situations when they do arise.
    Another thing that some carriers are doing is taking planes 
out of the regular fleet and putting them in as backup spares 
so that if a problem arises because of weather, or a plane 
cannot get into a destination because of a mechanical, there 
are more planes available to be used as spares in order to take 
those people to the destination and try to accommodate them in 
that respect.
    In the longer term, we have been working with the airport 
community in attempting to find ways to deal with the 
environmental hurdles which have been such significant 
obstacles to expanding the runway capacity in this country.
    Those are just a few of the initiatives that we have been 
engaged in. There is more to be done, and I would be happy to 
respond to further questions about that.

                    AAAE--RESPONSIBILITY FOR DELAYS

    Mr. Rogers. Thank you. Charles Barclay with the American 
Association of Airport Executives.
    Mr. Barclay. Thank you, Mr. Chairman. I would join my 
colleagues and say we are all responsible, and one of the main 
things we are responsible for not doing is being convincing 
enough in some cases or looking forward enough in others to see 
that we had in the 1990s, 200,000,000 people added to this 
system who wanted to fly, and yet we have only added six 
runways to the system at major airports. That is an equation 
that simply does not work.
    It is difficult in this complicated system to get people to 
agree to build capacity in advance of demand. I think we are 
now paying the price for a booming economy. We have great 
demand for this system. It is enormously important to a country 
as large as ours.
    If you think of Germany and Japan and other competitors in 
the world with smaller geographic countries, they can move 
their economies with roads and railroads internally. Countries 
the size of the United States have to make sure that we have 
the airport and air traffic capacity to handle all the demand 
that wants to get into the system.
    One of the answers I firmly believe is not coming up with 
really good controls, really good ways to allocate the 
scarcities at different airports. We have to find a way to add 
the capacity to make sure that we can meet all the demand that 
wants to fit into this system.
    I think it is helpful to understand that we have a network 
airport system, 550 air carrier airports. Ninety percent of the 
traffic, however, travels between the top 75, and it is a 
network that is built around really only a few key, very 
important connecting hubs. Those hubs have been getting a lot 
of attention lately for their problems, and their problems are 
real, but in looking at the system's airport capacity you have 
to start with the understanding that that is a very 
advantageous system.
    By having a network that focuses on only a few key 
connecting hubs, you get exponential growth, particularly for 
small communities, in the frequency of service you can provide 
and in load factors. This means you can have lower fares and 
still the airlines can make a profit. Those network effects of 
the way we run the system have great advantages.
    The dark side of that same equation is that when one of 
those hubs has a problem the same exponential effects ripple 
blaze throughout the system. That is usually, in normal times, 
an equation that you can put up with. If it is only an 
occasional thunderstorm that rolls through Atlanta and the 
network system is running properly, you wind up saying we can 
accept those negatives. When we have an epidemic of delays like 
we did last year where one out of every four flights is delayed 
or canceled, it becomes a much more difficult equation to say 
this is a good system.
    What I hope we see is a network system where we can focus 
on relatively few airports and add capacity at airports that 
are the key choke points. With that you get enormous, 
inordinate, positive curative factors for the efficiency of the 
system as a whole. So if we can do something, and I am not 
underestimating the fact that ten to 15 airports that we are 
going to focus on are also some of the toughest places to add 
capacity, but tough is not impossible. That is where we, in the 
airport community, are going to focus our attention--not on 
reducing environmental standards, but on streamlining the 
process for getting to applying those standards.
    Our difficulty in adding capacity has been when we measure 
adding runways in decades rather than in years. That by 
definition is a broken process. We want to simply speed up the 
process of getting to the decision whether a project is a go or 
a no go against today's environmental standards, and then we 
can either build the project, or we can move on to finding 
another solution.
    We are all responsible. I really think there are solutions 
to focus on, and that is what we in the airport community 
intend to do.

              FIVE SOLUTIONS TO THE AIRLINE DELAY PROBLEM

    Mr. Rogers. Thank you. I thank all of you. Now, each of you 
has said that what the previous speaker said was accurate and 
correct. I am not going to let you get by with that. This is 
not a circular firing squad that you are in here. We have a 
line of sight to each one of you. You are not in a circle, and 
we are going to come to some conclusions here today.
    I am going to yield to the panel here for other questions 
before I come back at you, but I will be back, and I want you 
to be thinking. I want each of you to write down during the 
course of this morning the five things that need to be done 
that you can do to solve the problem. I do not want you to 
confer with your compatriot there. I want five answers from 
you.
    We will take those and put them in a box and shake them up, 
and I think we are going to find some common elements amongst 
you. We are going to devise us a work plan. We are going to lay 
out a plan, and each of your respective groups is going to have 
then a work plan that this subcommittee is going to expect from 
you.
    We are not going to play around. Funding will go to the 
places where solutions exist and where synergism exists, and it 
is not going to be doled out the old, usual way. We are looking 
for answers. We are looking for solutions. We will not rest 
with anything short of that.
    I am glad to have my full committee chairman with us today, 
who is as interested as anybody is in this problem, and I 
expect he will have some words to say at the appropriate time.
    Now let me say this. I have nothing to lose. The flights, 
my air travel schedule, could not be worse, so you cannot do 
much to me. I am going to be very objective about this, and I 
am going to be very harsh about this, and I am going to be 
expectant that we will see improvements. If we do not see 
improvements, there will be consequences. There will be 
consequences to each one of your groups, like it or not.
    As I said, I do not have anything to lose, but we are going 
to see improvements. You are going to serve the American public 
better. They deserve it. They are paying for it, and the 
government has an obligation to see that that takes place. The 
economy of the country, as has been said, is dependent upon 
airline service. The largeness of the country dictates that.
    So it is not just a matter of private concerns making 
profits, although that is good. There is a public interest here 
that supersedes most of that, and that is our concern. That 
public interest is not being served today. You are turning us 
into a bunch of travel ragers, and that is not good. That is 
not good for stomachs. It is not good for families. It is not 
good for business. It is not good for the well being of our 
nation.
    I want your five answers after a while, and then we are 
going to compare notes. Then the work plan will be devised, and 
there we go. Funding will follow or not follow. I do not know 
how to be any more plain.
    Mr. Sabo?

                         PEAK DEMANDS AND NOISE

    Mr. Sabo. Thank you, Mr. Chairman. We just had a whole 
series of Members testifying before our committee yesterday 
with a whole series of requests related to different modes of 
transportation. Some related to transit development. Others 
related to highways.
    I am struck that our problem in dealing with how we handle 
other types of transportation fundamentally involves how we 
handle peak demand. Often there the solution is simply to build 
more capacity rather than to manage the existing capacity, and 
our experience often is as it relates to highways the more we 
build the quicker they are filled up and that we really have 
not accomplished much at the end, so before we rush to simply 
build more capacity, I think we have to pay particular 
attention to how we handle peak demand.
    Also, I may be different than the other Members of this 
committee. The air problems I hear about, delays are minor in 
comparison to the complaints I hear from citizens on noise. It 
is large. It is immense. When people are asked what issue do I 
hear about the most of my local constituency, it is noise. I 
suspect our airport is typical of many in this country. They 
were located years ago close to major population centers. 
People bought homes with an old traffic system, with old 
capacities, and it grows and grows and grows.
    I would just suggest to you, and I happen to think our 
airport commission is fairly aggressive in dealing with noise, 
but it still leaves people very, very unhappy, and we are 
increasingly discovering that we not only have the overhead 
noise. We now have what is called low frequency noise from 
ground level noise that FAA is going to have to figure out how 
to deal with. The problem is real, and it is different than 
overhead noise.
    When you say it is going to take some time to build 
runways, the local opposition is immense, and it relates to the 
noise issue. The suggestions to move further out with new 
airports, I do not find the industry jumping on board in most 
cases. I guess occasionally. I am not sure what happened in 
Denver. I think that was over opposition of industry in many 
ways, so when you deal with all your suggestions I would 
suggest that part of your solution is you ask for more capacity 
and also how you deal with the noise issue.

                AIRPORT CAPACITY--LANDINGS AND TAKEOFFS

    Let me ask this question of the airport operators. What 
capacity do you have today to regulate capacity during peak 
hour demands? My understanding is you have limited control 
basically because of federal law, and it involves a very 
difficult issue and a hot one. I do not know how we resolve it 
between passenger, between freight and between general 
aviation.
    As I understand law, it is equal priority for landings or 
takeoffs involving very few people versus takeoffs for lots of 
people. That is long and historic and not easily changed. Why 
do you not tell us what you can or cannot do?
    Mr. Barclay. All right. I can shed a little light on it, I 
think.
    There are a few airports like the Port Authority of New 
York and New Jersey that have minimum landing fees they put in 
place to do some small thing about the airplanes coming in--the 
general aviation aircraft, most of which in New York's case 
have moved over to Teterboro as a result of those fees.
    One of the key difficulties when people talk about why not 
use more peak hour pricing at the airport? Even if you could, 
without worrying about what the federal regulations are, you 
are talking about an equation where the landing fees at an 
airport are about four percent of an airline's operating cost. 
So you have to make such a huge change in landing fees to hope 
to have any impact on the decision of that airplane coming in. 
That is one problem.
    The second problem is the airlines do not always pass those 
added fees for that airplane's landing on to the passengers in 
that airplane. Sometimes if this is a real important hub to 
them they tend to say well, I am going to keep my hub working, 
so I am going to keep the planes coming in with that. I will 
spread those added costs around my system differently.
    So the airport is not really getting at the demand element, 
which is that the passenger who wants to peak up. They like 
traveling at 9:00 and 5:00 and getting home early. They need to 
make those connecting bank peaks if it is a hub like 
Minneapolis. So your ability to shift that demand around from 
looking at it strictly from an airport operator's point of view 
has some limitations.
    There is also the question of if you raised a huge amount 
of money with peak hour charges and you are, for example, 
LaGuardia where you cannot add capacity. What normally happens 
in our open market system is when you run out of capacity you 
start charging monopoly rents, and the monopoly rents 
eventually find their way to adding more capacity, which brings 
the pressure back down on prices.
    When you cannot add more capacity at a place like a 
LaGuardia, for example, the question comes up. You are charging 
these huge charges to spread things out. What do you do? What 
do you do with that funding to help the system itself? Just 
collecting it up as the Port of New York and New Jersey is not 
one of the solutions either.

                              PEAK DEMANDS

    Mr. Sabo. I am really not following your answer.
    Mr. Barclay. Sorry. Where can I start again? The economics 
of peak hour pricing are just much more complicated than 
simply----
    Mr. Sabo. My question was not simply peak hour pricing, but 
just your general capacity to regulate peak hour. It might not 
necessarily be pricing.
    Mr. Barclay. Right. Yes. We cannot discriminate among 
classes of carriers.
    Mr. Sabo. What about during any time of the day?
    Mr. Barclay. Other than economically, I do not think you 
could start putting--the Airline Deregulation Act said that 
local and state governments could not get into regulating which 
rates and services----
    Mr. Sabo. Yes. It is a national system where local 
governments, you know, are frustrated because as they deal with 
the problems we have preempted them in most cases. Is that not 
right?
    Mr. Barclay. That is correct. In order to have a national 
system, you cannot have a patchwork of regulation out there.
    Mr. Sabo. Ms. Garvey, do you have anything?
    Ms. Garvey. Just to add, Congressman, in the case, for 
example, of LaGuardia what we are trying to do, because 
recognizing that there really is a federal interest in the 
national system, we are working closely with LaGuardia to try 
to come up with a couple of alternatives of demand management 
strategies. All of us I think have come to that somewhat 
reluctantly.
    On the other hand, as everyone has indicated, we cannot get 
a runway down there in a short period of time, if ever, so in 
LaGuardia you really have to take some different steps and look 
at it differently. We tried the lottery. That was definitely a 
short-term answer. We are now looking at a couple of 
alternatives to put in the Federal Register to get some 
comments, but they would be demand management strategies. They 
might be something like an auction.
    Chip has raised a really interesting question. If you have 
a premium landing fee, what do you do with the money? We would 
suggest that maybe there might be some interest for small 
communities to use that money, but there are certainly some 
legal questions around that. We think getting it in the Federal 
Register and getting some comments around it and showing some 
action around it is really important.
    I know as Mr. Sweeney knows, there are some very, very 
important public policy questions, though, any time you do that 
trying to make sure that we are still protecting access to 
small communities. We have some opportunities with demand 
management. I think the important thing is to get something in 
the Federal Register to give the airlines and airports an 
opportunity to comment.
    We are trying to focus primarily on a place like LaGuardia 
where there is a real problem rather than thinking of, you 
know, maybe a broad policy that might be pretty controversial, 
but let us look at a place where we have a problem, see if we 
can figure out a solution that is some kind of a compromise and 
move forward.

                        PASSENGER ONLY AIRPORTS

    Mr. Sabo. I suppose my most fundamental question is to what 
degree should our major hub airports and major other passenger 
carrying airports be geared primarily as passenger airports?
    Ms. Garvey. I think that is a very good question. I think 
when you look at where airports are heading, it is very 
possible that at some point there will be some airports that 
will become more cargo airports. Certainly Memphis is almost 
that today. We might have kind of niche airports. In the case 
of LaGuardia, for example, are there some incentives we can put 
in place to encourage even some of the passenger air carriers 
to go more to John F. Kennedy Airport (JFK).
    We are looking at a whole range of those issues. Niche 
airports are a possibility for the future, and some are perhaps 
even encouraged by the federal government or the local airport 
authorities to encourage air carriers to go perhaps to other 
airports. I think that is important.
    Frankly, the work that AIR-21 or the incentives that you 
put in place where small airports are given a lot more money 
are going out to some of the small and mid size airports. I 
think that is a big help as well if we really look at the 
system.
    Mr. Rogers. Mr. Chairman?

               SAFETY RELATED DELAYS AND RUNWAY CAPACITY

    Mr. Young. Mr. Chairman, thank you very much. I wanted to 
say a word of welcome to all of the witnesses at the table and 
say thank you very much for being here. I want to say a special 
welcome to Captain Woerth, who happens to live in the same 
community where I do. I just learned this morning we actually 
lived in the same building for a while. It is good to have all 
of you here.
    The issues that have been raised so far are important 
issues to all of us who travel, and that is everyone at this 
table, our families, our constituents, but I wanted to be here 
for one reason, Mr. Chairman. I would not want to solve the 
problem of on-time service at the risk of safety.
    I am a survivor of an airplane crash, and I know what it is 
like to feel that thud and see the flames and the explosion and 
barely get out alive, and so when I go to the airport with my 
family I am concerned about getting where I want to go, but I 
am primarily concerned about getting there safely.
    I have two questions I would just like to throw out, and 
anybody can respond that would like to. Number one. Of the 
delays that we are talking about and the difficulties we are 
talking about, how many of them or what percentage of them are 
related to safety? Something that I am satisfied that Captain 
Woerth is concerned about because he is in that airplane.
    Secondly, I wanted to ask Mr. Carr about runways. Are we 
talking about building new runways or extending existing 
runways? Just what is the need as it relates to runways?
    Those are my two issues here today, Mr. Chairman.
    Mr. Carr. I would be happy to address them both. I am very, 
very glad to hear you mention safety because safety is our 
business. As air traffic controllers, that is our only 
business, and business is very good.
    We hold the safety of the flying public as a sacred trust, 
and I have to tell you that I do not know the percentage of 
delays that can be attributed to a safety margin, but I can 
tell you that it is more than just a little. Seventy-five 
percent of all delays are weather related, and I would much 
rather delay you five minutes too many than one minute too few. 
So to the extent that we add margin for safety in real time as 
we work the aircraft, absolutely. Delays are added to the 
system incrementally by air traffic controllers who have 
nothing but the safety of the flying public at their very 
foremost.
    With respect to runways, I think everybody will agree that 
at the airports where capacity has reached its limits and, 
quite frankly, where demand exceeds capacity, the only way you 
can increase it is by adding new concrete, by increasing the 
number and types of runways at that airport.
    O'Hare has three different sets of parallel runways that 
can be configured 27 different ways, but the addition of 
another runway at Chicago O'Hare would increase capacity there 
by almost 40 flights an hour. I happen to know that because I 
worked there for ten years. So as it relates to runways, it is 
going to take brand new concrete to accommodate the increased 
growth.

                  AIRLINE DELAY RELATIONSHIP TO SAFETY

    Mr. Young. Captain, before you respond, I was very 
interested in your written statement where you say the issue of 
air traffic service delays and their relationship to system 
safety is an issue in which the Air Line Pilots Association 
(ALPA) has a deep and lengthy history of interest. I find that 
very assuring.
    Mr. Woerth. Well, you should. As you know, our motto has 
been the same and we are having our seventieth anniversary this 
year. ALPA was formed in 1931. From the beginning it has been 
``Schedule with safety,'' Always understanding whether it be 
cargo or passengers always wanting to arrive on time. That is 
what a commercial business does, but if you do not have the 
emphasis on safety you are not going to have much of an 
industry. Having said that, that has never changed and never 
will change.
    To address some of the things that Mr. Carr just said, 
until we get some better tools, to increase the margins of 
safety, we are going to have to work with what we have. Now, we 
are trying to maximize capacity, but there are limits of what 
the tools and information and between what a pilot can accept 
and what a controller can authorize.
    We have to be not 50 percent certain or 60 percent certain. 
We want to be as close to 100 percent certain that what he just 
authorized and we just accepted is something that says there 
are no other airplanes in the vicinity, and that in the 
interest of hurrying up it does not cause a problem that none 
of us could live with.
    One of the things I think we can do better and we are 
starting to is, I think the spring initiative, as we called it, 
S2K. The collaborative stuff between certainly the FAA, the 
controllers, the dispatchers and the pilots is working. We can 
even do better.
    Information is always power, and I am operating on the 
information I have. John's people are working on the 
information they have, and hopefully we can have the national 
command center have a better national picture because one of 
the things that we have in this system is that it is truly all 
interrelated. LaGuardia causes problems in Los Angeles, and 
Denver causes problems in Miami.
    In the National Command Centers we cooperate better and 
have more information. Usually sometimes we do not have the 
same information. That is why we have disagreements. What the 
controller in Chicago or over Cleveland Center where there is a 
bottleneck sees or believes is the weather pattern, we need to 
insure that we all agree on what is in front of us and what the 
alternatives are. We can do a better job of that. The spring 
initiative is a good start. I think we are all committed.
    I will give you one of my answers ahead of time, Mr. 
Chairman. More cooperation with the National Command Center 
between all the principal parties in making those decisions on 
where the delays are and what our alternatives are is something 
we can do better. I think we had a good start last year, but I 
have committed the Air Line Pilots Association to working even 
harder on that initiative.

                   AIR-21 RUNWAY CONSTRUCTION FUNDING

    Mr. Young. Mr. Chairman, just one final question for Ms. 
Garvey. AIR-21. Somebody mentioned AIR-21 in their response. 
AIR-21 basically made runway construction mandated, if I 
remember correctly. Those monies would now come from mandatory 
accounts, as opposed to discretionary accounts. Am I correct 
there?
    Ms. Garvey. Well, it certainly has a level of protection. 
Rich will know this better. I guess you would call it a fire 
wall, and I have to say that has been extraordinarily helpful. 
I think the airports are very, very grateful for that 
additional funding.
    The challenge for us at the federal level is to make sure 
that we can do everything we can, as Chip said, to help really 
streamline the process where it is appropriate. We do not want 
to short circuit any of the environmental laws, but streamline 
it where we can.
    We have some teams in place for airports that really have 
an impact on the national system. Dedicated teams in place, 
streamline the process, do more simultaneously. Secretary 
Mineta has talked about coordinating more with the Cabinet 
Secretaries on some of the environmental issues, and I think 
that is a great help as well.
    Mr. Young. Mr. Chairman, thank you very much.
    Mr. Rogers. Thank you.
    Mr. Mead. Mr. Chairman? I wanted to comment on AIR-21. I 
think the jury is still out, sir, on how much of that money is 
going to go to runways. It is true that a large portion of that 
pot is to go to the airports. That is different from saying 
that it is going to go to the runways. The jury is clearly 
still out.
    With respect to your safety points, I, too, am glad to hear 
that point made. People talk about delays, congestion, and 
cancellations in efficiency terms, but there is a safety issue 
involved. This past year we had 420-odd runway incursions, 
which is where the planes come too close together on the 
ground. We also had a record year for operational errors, which 
usually occur in the air where there is a loss of the 
separation minimum, so those are two priority areas.
    Mr. Rogers. Just quickly to follow up before yielding 
further, you said the monies would go to the local airports, 
not necessarily for runways. Where else would the money be 
spent? Could it be spent?
    Mr. Mead. It could go to a wide range of things. It could 
go to safety features. I think it could go along with PFCs 
(Passenger Facility Charges), which you authorized increasing 
to a wide range of things like parking lots. There is a very 
long list. Noise barriers--noise is a popular one.
    Mr. Barclay. Mr. Chairman, if I could add? Certainly we are 
all focused on runways at a couple of these key airports where 
there is not enough runway capacity, but there is a wide 
variety of problems in the system.
    An airport is a system locally, so it does not matter at a 
big airport whether you do not have enough runway capacity or 
enough road capacity to get the passengers in and out of the 
airport. You still cannot operate efficiently, or if you do not 
have enough gates for all the carriers that want to provide 
service.
    There are a number of needs airports have to meet, so when 
you look at the total spending you do not see it all 
concentrated only on the air side on runways. There are a 
variety of needs, and if you then start examining each 
situation they usually wind up making sense.
    As I was saying in my opening, from a network point of 
view, though, we do now at these key hub airports need to focus 
on those runways because they are impacting the capacity at all 
the airports in the system.

                 airport grant funding for hub airports

    Mr. Rogers. Mr. Mead, under the AIR-21 is there any formula 
that would direct a disproportionate amount of those monies to 
these hub airports where the choke points are?
    Mr. Mead. Well, there is a formula certainly that is based 
on enplanements, and if these airports, the hub airports, have 
a passenger facility charge, which most of them do, they take a 
hit on the amount of AIP (Airport Improvement Program) money, 
the airport improvement grant money, that they would otherwise 
be entitled to under formula, but the PFC benefit far outweighs 
the amount of money that you would get under a formula. There 
is also a discretionary grant program that FAA uses to fund hub 
airports as well as others, but that is not something that they 
are entitled to by law.
    Mr. Rogers. Well, there may be ways to adjust formulas to 
where the real problems are, and if there is no way now there 
very well may be a way because we are going to force a 
solution. If it takes an act of Congress, and authorization 
act, that is not without precedent.
    Mr. Mead. I would encourage the Subcommittee, if it goes in 
that direction, that you also consider the passenger facility 
charge because the airport improvement grant program monies, 
per se, as a proportion of the total funding of these large 
airports is not that great. When you add the passenger facility 
charge in, which is authorized under federal law, it increases 
quite a bit.
    Mr. Rogers. Thank you. Mr. Olver?

       new runway construction in chicago-boston-new york region

    Mr. Olver. Thank you very much, Mr. Chairman. I appreciate 
you taking me at this point. I have another committee that I 
rank on that is meeting at the same time, and I would like to 
get back to it.
    Chip Barclay, you made a comment, which I am close to 
quoting, that it is tough to build capacity, but tough is not 
impossible. I wonder if you have identified for yourself a 
future profession. Maybe you should be handed the LaGuardia 
situation.
    Mr. Barclay. As someone once said, if nominated I will move 
to Mexico, and if elected I will fight extradition.
    Mr. Olver. I see. Mr. Mead, you had mentioned that there 
were 14 runways that were actually under consideration around 
the country. Mr. Carr, you used the number 25. Now, I do not 
know whether that was a kind of a speculative number or a 
hypothetical number, whereas Mead was talking about the ones 
that are under consideration.
    I wanted to ask Ms. Garvey. How many of those 14 or 25, 
whichever it is, are in the iron triangle, the delay triangle 
from Chicago to Boston to New York?
    Ms. Garvey. Congressman, that is exactly the challenge. 
They are important runways, like Atlanta, for example, is very 
critical in some of the choke point issues. In fact, Atlanta 
ranks up there in terms of delays. Some of the most critical 
ones like San Francisco and Los Angeles are in the very, very 
early planning stages, so that is really the challenge. We have 
a number that are on deck, so to speak, like Detroit and 
Charlotte and so forth, and those are very good. They are 
important to the system, but they do not have the same 
criticality that a Los Angeles or a San Francisco would have, 
and that is really the challenge, or LaGuardia where you cannot 
really put a runway, and you have to think of something else.
    Mr. Olver. Well, how many of the 14 that are in the 
planning stages, even early, I take it, given your comments 
about what is at the very early stage. How many of those 14 are 
in the critical triangle?
    Ms. Garvey. I think----
    Mr. Olver. Your Boston-New York-Chicago triangle.
    Ms. Garvey. I would like to go back and get the actual 
number for you. I notice that Mr. Mead has a chart here.
    Mr. Olver. Would you like to tell me how many are in that 
area?
    Mr. Mead. Yes. I can run right down the list, sir. Houston 
is short-term. By short term, I mean by 2003, that time frame. 
Houston, Minneapolis, Orlando, Denver, Miami, Charlotte, 
Atlanta. Well, Atlanta is 2005. Cincinnati, Boston, 2005-2006, 
Dallas-Fort Worth, 2005-2006.
    One of the problems here is that when we were preparing for 
this testimony, we tried to get a list of the runways that were 
included in the top 40 airports in the country and what the 
schedules were. What we found in a number of instances were 
three different numbers. One number the FAA had, another number 
the airport had, and another number Mitre Corporation, which 
was helping to prepare the strategic plan that Ms. Garvey 
referred to, had.
    One of our recommendations in the testimony is that for 
airports that are on this list that we settle on a date, and we 
track that date, and we hold ourselves accountable for meeting 
it.
    Mr. Olver. I thank you for that. In listening, I do not 
know whether you got to all 14, whether you actually named all 
14, but I only noticed that Boston and Cincinnati were within 
that triangle of the ones that you mentioned.
    The corollary or the conclusion is that the capacity issue 
is not going to be significantly solved within that triangle by 
anything that we can do very quickly on the basis of runways. I 
am not sure that there is anything--well, there are the various 
management techniques that will have to serve in the short run.
    In the long run, within that triangle, it seems to me, 
knowing most about the Boston to Washington route, that is most 
likely to be solved by high speed rail, that portion of it. 
That would be helped by that in reducing the number of landings 
and takeoffs.
    I saw an analysis of what the timing was on the Washington 
to New York run now by plane, by car, by air in the last few 
days, and now finally with the new Amtrak Acelas going, and I 
do not know exactly how reliable that is yet, but the center to 
center of the cities, Washington to New York, was within about 
ten minutes of each other between rail and air. Driving was 
quite a bit farther behind like an hour more behind.
    That was just recently analyzed, so that is certainly an 
area where this committee also has the responsibility for 
making certain that we maybe make certain that those places 
where high speed rail would be effective can get at the 
problem. Our traffic problem cannot totally be solved either by 
autos or planes or viewing them each in very separate kinds of 
ways. They need to be viewed together. The triangle is 400 
miles on one side from Boston to Washington and about 800 from 
Washington to Chicago and about 1,000 from Boston to Chicago.
    I thank you very much, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Olver. My feeling is that in situations like this there 
may have to be a situation where you can with a change of law, 
and certainly the tradition in law has been there, that general 
aviation maybe has to be moved out of the central really choke 
point.
    In New York there is Westchester, Islip, and Teterboro and 
some others that are not too far. In Boston there is Beverly 
and Norwood. I hesitate facing anybody and appearing again 
after having suggested that.
    Thank you, Mr. Chairman.
    Mr. Rogers. Does anybody want to comment on that 
suggestion?
    Ms. Garvey. Mr. Chairman, if I could? Not on the general 
aviation question, but on Congressman Olver's earlier comment.
    One, I think your point about other modes of transportation 
is important. When we think in terms of the system, we also 
need to think particularly along the Northeast corridor of 
other modes of transportation, but also your point about what 
will be the solution.
    Frankly, when we think in terms of the capacity benchmarks 
that is one of the data points that we hope we can use in 
sitting down with airlines and with airports and saying look, 
what makes sense here? If it is not a runway, are there 
procedural changes? Is there technology? Is there data 
management? Are there scheduling issues? What can we figure out 
together to deal with the solution?
    I will defer to others on the general aviation question.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    air traffic congestion response

    Mr. Rogers. Mr. Callahan?
    Mr. Callahan. Thank you, Mr. Chairman.
    Following along with that same line, and I hope Dog Patch, 
USA, is not in Kentucky. I think it is in Arkansas, but I 
recall reading once that they had a tremendous problem in Dog 
Patch, USA. They had a U-turn at the edge of a cliff at the 
approach to Dog Patch, and people were always running over the 
cliff. They were breaking their arms and their legs, so they 
comprised a committee to find a solution to that, and the 
committee came up with a solution, and that was to build a wing 
onto the hospital.
    Let me tell you. What I am hearing here today is that you 
all are indicating that maybe the solution is to provide more 
runways to the already congested air traffic problems. For 
instance, in Atlanta I am sure that you can use additional 
runways there, and I am sure that would facilitate some of the 
problem, but the traffic in Atlanta is approaching a crisis 
stage.
    With the least bit of weather problem, Atlanta, and I am 
sure that O'Hare and I am sure that all the hub areas have the 
same problem, but we have a problem, and the problem cannot be 
resolved by more concrete.
    You have not had any problem, your entire industry, getting 
money out of this Congress. We have been most generous. Last 
year we were more generous than ever before, and we are willing 
to make these type of efforts to get you the necessary money, 
but the solutions that have been taking place, compounded I 
know by the problems of increased air traffic, are not working.
    The passenger rage that Chairman Rogers mentioned is 
something that we can witness nearly every weekend in Atlanta, 
whether the sun is shining or whether there is a tornado within 
50 miles of Atlanta. There has got to be a solution, and the 
solution is not to build more runways to an already overcrowded 
terminal. You have got to find a vehicle to transfer the 
routes.
    I am from Mobile, Alabama, and we have to in most every 
instance go through Atlanta to get anywhere. We have to go 
through Atlanta to get to New Orleans or to San Francisco, and 
there are opportunities available if we could find a way 
whereby we could divert our western traffic to the west rather 
than to the east.
    I do not know what the solution is. Certainly you six are 
the experts in this field, and you represent every area of our 
concerns. Certainly with your talent you ought to be able to 
come up with some solution to this problem. We try to resolve 
it on the local level. We try to encourage airlines to come in 
to compete against Delta.
    I fly Delta every week, and they are most courteous to me. 
They give me good service. I fly home every week. I have only 
had to spend one night in Atlanta in the last ten years, so 
Delta takes care of me, but the average passenger is not a 
United States Congressman, and the average passenger being 
bumped in Atlanta or having the last flight out of Atlanta to 
Mobile canceled or delayed or over booked is a serious problem.
    We have undertaken the step to get more carriers into our 
captive little city because we are captive to Delta, but we are 
even having difficulty there. I know I wrote to the chairman of 
one of the airlines and asked for his audience if he came to 
Washington for anything. You know, that was February 14, and I 
have not even heard back from him.
    They are not interested, number one. They do not have 
planes. Number two, it is difficult to establish new routes, 
but you all in your capacity have got to redirect this traffic 
instead of concentrating on the same system that we have. If 
you build more runways in Atlanta, you are going to have more 
airplanes in the air, and every time a small weather problem 
comes up it is going to be even more congested. That is not 
going to stop it.
    If we can find a system with your talents with the money 
that the Chairman just told you would be available if you can 
provide us with some concrete solutions, but other than the one 
solution that we build more runways, and I certainly respect 
that, sir, and I would also echo the Chairman's concerns about 
our primary concern is safety. We do not care how much it is 
delayed, and we do not care how many are canceled. We want to 
make absolutely certain that the planes you fly us in are safe 
and protective of us.
    We will provide you with whatever resources you need to 
ensure that and whatever inspections you need, but our concern 
I do not think can be resolved if we are going to have 
continued increases in capacity and travel simply by expanding 
the problems that are there now.
    Mr. Carr. Yes, sir. I do not want to pretend that new 
runways are the silver bullet solution to the dilemma that is 
currently facing the traveling public. It is but one piece of 
the puzzle. We are working with the agency collaboratively 
right now on designing new sectors that can off load some of 
that work, that can redesign some airspace, that can move some 
air waves around so as to spread the workload.
    This is not a new problem. I like to call it a good news/
bad news problem. The good news is the crisis has gotten so bad 
that on August 8 Life magazine ran a cover story called Stack 
Up: The Air Traffic Control Problem. The bad news is they ran 
that on August 8, 1968, 33 years ago, so we are not digging up 
new ground here.
    That article on August 9, 1968, said that we need a fourth 
airport in New York, and that need has been known for over a 
decade, so that predates that need to 1958. That article also 
said that traffic in the New York area gets so acute the 
airplanes are forced to wait on the ground as far away as 
Atlanta and Miami and Los Angeles. That is not new. That is 33 
year old information I am regurgitating to you out of Life 
magazine.
    New runways are just one part of the solution that I think 
the community has come up with to collaboratively deal with the 
issue. Another part of it is airspace redesign. Another part of 
it is the margins that we can nibble at with respect to new 
technology.
    I could not agree with you more that everything has to be 
measured up against that litmus test. Is it safe? If it is 
safe, then I think we should all work collaboratively to 
implement it.
    Mr. Callahan. Thank you. Thank you, Mr. Chairman.

                      AIRPORT CAPACITY UTILIZATION

    Mr. Rogers. Thank you, Mr. Callahan.
    True or false? There is plenty of capacity out there that 
is not being used. There are hundreds of airports, dozens at 
least, of some significant size whose runways are practically 
empty today, whose terminals are perfectly good and have plenty 
of capacity. They are just not being used. Is that true or 
false?
    Mr. Carr. That is true.
    Mr. Rogers. But the airlines have chosen to establish their 
own hub systems which have focused traffic in just a few of the 
airports of the country. True or false?
    Mr. Carr. I think they have focused it where market forces 
have sent them.
    Mr. Rogers. True or false?
    Mr. Carr. I would say that is true.
    Mr. Rogers. Is a solution at least in the short term to get 
more capacity in the air system immediately if the airlines 
dispersed their hubs a bit more? True or false?
    Mr. Carr. I do not know that I am necessarily qualified to 
answer that, sir.
    Mr. Rogers. Well, somebody is here. What do you think?
    Mr. Merlis. While it might be short term, I do not know 
what the adverse economic consequences of it would be.
    One of the reasons hubs are where they are is they 
generally generate a lot of originating traffic. A number of 
hubs that previously existed--for instance, U.S. Airways had 
Indianapolis--it had Dayton. American Airlines at one time had 
Raleigh-Durham and Nashville, and Continental once had 
Greensboro--apparently did not generate enough local traffic 
for that hub to remain financially viable.
    Mr. Rogers. But hubs by definition are transfer points. It 
is not local traffic that is keeping those hubs hubs. It is the 
traffic from all the rest of the country that feeds through the 
hub to somewhere else that makes it a hub. Is that right?
    Mr. Merlis. Generally, sir.
    Mr. Rogers. My question is there are tons of airports out 
there with beautiful runways that are sitting empty that could 
give us immediate capacity if the airlines would merely either 
subhub and disperse some of the heavy traffic into the 
concentrated big hubs that we have now. Is that a realistic 
possibility?
    Mr. Merlis. As I was about to say, sir, I do not think so 
because generally 50 percent of the traffic at a hub originates 
there, and the financial viability of a locale which has ten 
percent or 15 percent----
    Mr. Rogers. Hang on.
    Mr. Merlis. Yes, sir?
    Mr. Rogers. Half of the traffic in Pittsburgh is not local. 
You have to prove that to me. Pittsburgh for U.S. Air, their 
hub.
    We fly in there from all over the country and transfer to 
another plane. A minuscule percent of the travelers through the 
Pittsburgh Airport are local travelers.
    Mr. Merlis. I do not have that. I will get the facts. I was 
saying generally. There are some hubs which obviously are less 
than that.
    Mr. Rogers. Atlanta?
    Mr. Merlis. I will get the data for you, sir.
    Mr. Rogers. LaGuardia?
    Mr. Merlis. LaGuardia? Maybe LaGuardia.
    Mr. Rogers. I do not think any of the major hubs are kept 
in business by the local traffic. It is the fly through 
traffic.
    I am just saying why can we not utilize some of the other 
airports that are laying there wide open like St. Louis and 
disperse the traffic away from these super hubs that have 
become the choke points for American travelers?
    Mr. Merlis. I think one of the things some carriers have 
done is more point to point flying where the volume does take 
it.
    For instance, there are now flights on American Airlines, I 
believe, to San Jose from the east coast instead of going 
through Dallas or Chicago, so where there is enough traffic 
carriers do. Is it at the rate which diminishes the congestion? 
Clearly not.

                         INCREASED FLYING TIMES

    Mr. Rogers. You are not doing enough of that because the 
delays keep going up. I wish for the days when you had more 
point to point flying non-stops. The hub system has just 
increased the flying time for most American travelers normally.
    I used to be able to travel from Lexington to Washington in 
an hour or less. Now it takes me five or six hours to get to 
the same spot at probably triple the cost. I suspect most of 
American travelers have the same problem. If you are flying hub 
to hub you have it made. If you do not live in a hub city, you 
are up a creek.
    Mr. Mead. Mr. Chairman?
    Mr. Rogers. Yes? Who?
    Mr. Mead. That was me.

                          CAPACITY BENCHMARKS

    Mr. Rogers. Oh, yes. Mr. Mead?
    Mr. Mead. I think there is something to what you are saying 
on Mr. Callahan's point and some of the other Members on this 
dispersion issue.
    Soon FAA will be coming out with these capacity benchmarks 
for the top 30 airports. You will be able to see by looking at 
those what is happening in the way of scheduling in 
relationship to what that airport can physically handle.
    Currently, though, there are no consequences for just 
unlimited scheduling other than hearings like this, public ire. 
I think if there were some consequences, whether they are 
simply cajoling or they are legal in nature, I think you would 
begin to see some dispersion and some more sensible pattern in 
the air traffic control system.
    I also think Mr. Merlis is right. At the present time, 
these mega hubs, they are economic gravy trains, for want of 
another term, and they economically make sense. That is where 
the most revenue can be generated, and the airline does not see 
the same financial incentive for going to another airport.
    The thesis, though, that there is lots of unused capacity 
in this country, particularly on the ground, is absolutely 
correct.
    Mr. Rogers. Well, I would hope the airlines would see the 
ire that is building in the country and the demands upon us to 
do something about it, whatever it is.
    None of us want to reregulate. That is not a conversation 
piece at the moment, but if the demands from our public 
continues upon us we will do whatever it takes to make this 
system work. I would hope that dispersal from these super hubs 
would be immediately addressed as a possible at least short-
term answer to today's capacity limitations that we have.
    We have about eight minutes before a vote. It is a single 
vote, so we will stand in recess for a few minutes as we go 
vote.
    [Recess.]

                          COMPETITIVE PRICING

    Mr. Rogers. We thank you for your indulgence, and now we 
will turn to Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman. Welcome to the panel 
members.
    This weekend I was a participant in the bipartisan retreat, 
and I learned two things that I will talk about. One is that 
you support the Chairman whenever you can, and you hopefully 
have many occasions to do that, and the second thing I found 
out is that Mother Nature is still unhappy about the 
deregulation and the hub system as it developed.
    Taking John's position and Chairman Callahan and Chairman 
Rogers, if I look at Los Angeles, which I hear is going to 
build or is in the process of building a new runway and having 
traveled in that part of the country frequently, you find that 
now if the prices were comparable to flying into L.A. that I 
can go to Burbank, I can go to Ontario, I can go to Orange 
County, and probably there is another one there you do not know 
about, just as easily as flying to Los Angeles (LAX), but 
because of the price of the ticket--it is not the convenience 
of getting from LAX to downtown, but getting to where I am 
flying from to L.A., the price of the ticket--we go to LAX.
    In the line of questioning that the Chairman and some of my 
peers have asked, in the short term is it possible to use and 
provide incentives both to the airports that are under utilized 
and to the airlines who obviously have made political decisions 
so that we might be able to distribute the landing capacity and 
remove some of those choke points?
    I think that maybe the six of you there and those of us on 
the committee may look to what can we do to provide incentives 
because I would agree with John Olver. If you go to New York, 
there are other smaller airports that might be feasible to land 
in if there were incentives to have the airlines fly there and 
provide incentives so that the prices will be competitive in 
this area.
    I had the pleasure of being at a meeting with Ms. Garvey, 
and we talked about the potential technology that is being 
developed. One of the things that struck me was that 
information is not shared by the airport, by the airlines, by 
the air traffic controllers and whoever else is in the system. 
Sometimes that lack of sharing of information--and the pilot up 
in the plane--causes sometimes delays.
    Weather. Mother Nature is what, 80 or at least 60 or 70 
percent of the problem, and we were told in this particular 
briefing that sometimes the airline may have information that 
it may not want to share with the airport people or share with 
the air traffic controller, and so sometimes delays may grow 
longer. Weather is the reason it is being delayed, but not 
compromising safety the planes could be taken off quicker or 
different routes.
    The other thing that I found at that briefing is that we 
tend to only think of the management of the airplane only if it 
is in the air, but if there was information shared from the 
time the plane took off in terms of when it is going to land, 
what the weather conditions and the groundwork preparation was 
made in terms of crews being able to be there on time to get it 
off, get the luggage off on time, that sometimes better 
coordination between the whole system will cause the airlines 
to maybe run a little better, and you will not have some of the 
problems that we are experiencing today.
    We also talked about the aircraft itself, that maybe the 
technology will be there sometime when the mechanics will know 
while the airplane is in the air some of the problems that they 
are experiencing so when they land immediately you can go and 
get to the source of the problem.
    The other technology I was impressed with was communication 
between the pilot and the air traffic controller, but somehow 
we have to if we can improve the speed of it and that basically 
this voice communication can be improved. Maybe it can be done 
electronically through whatever instrument the pilot can see, 
and that would help out.
    What I would like to hear from you is this short-term 
solution because concrete is going to be problem. I can tell 
you in Phoenix we just built a runway. It took us almost 20 
years from the day they thought about it until the day we 
dedicated it, which was about a month ago.
    I will tell you that with that third runway we now have the 
constituents not around the airport, but constituents out in 
Owatuki, which is miles away, complaining about the noise. I 
think that Sky Harbor would have a very difficult time in terms 
of people supporting a fourth runway, but they are going to try 
it to increase capacity. Noise that is created by additional 
aircraft is impacting the outer suburbs of Phoenix and not only 
the downtown area, but the outer suburbs.

                      AIRPORT CAPACITY UTILIZATION

    Just contemplating on concrete and causing that to be the 
solution may be one that is going to be hard to reach, so I 
would ask is it possible to look at another alternative, and 
that is using under utilized airports close to the major hub 
that we can distribute the wealth and other incentives you can 
provide to the airlines that would cause them to look at that 
solution?
    Whoever would like to respond to that.
    Mr. Woerth. I will be foolish enough to try to answer that.
    One thing, and it goes to some of the other questioning 
from the Chairman and others, is that I might be a surprising 
witness who has as many arguments with airline management as 
anybody could ever possibly have, but I also recognize that a 
number of years ago that they did start to try to eliminate 
some of the delays in their own hubs before it reached the 
crisis proportion we are in here and to try to get excess 
capacity and went to a multiple hub strategy.
    What happened in every case is it failed. None of the small 
hubs made money. I mean, they did try it. Whether they have 
better yield curves today or whether they could do it 
differently I do not know if I could speak to that, but I do 
know they tried. There are only about five or six hubs in the 
country that make money, and there is a certain critical mass. 
At some point they do not.
    If we need to change, and again the variable is, is there 
something as a matter of public policy and interest that we can 
do to incentivize a different financial outcome? Because they 
are not going to move there with the wrong financial outcome.
    Mr. Pastor. Right.

                          AIRLINE COMPETITION

    Mr. Woerth. I think efforts to explore that are going to be 
required, but they are going to need an incentive. It might be 
on the cost side, and I am really leery about interfering in 
pricing. I think that is a very dangerous place to go, and I 
think we really need to make it work for the consumer and 
everybody else allowing the market to determine the pricing, 
but we can influence it if we want to incentivize cost, because 
there is a matter of public policy.
    We recognize we have a problem. The Chairman made it very 
clear. We want solutions. We are tired of talking about it. We 
want to do things. I think evaluation of what we used to have 
essential air services. That was one way to incentivize for 
small communities.
    We need other airports incentivized to have the cost 
lowered or subsidized in some way. That airline has an 
incentive. He has a lower cost. Now he has a pricing model that 
he can make sense out of. All these things. You cannot have one 
without the other. We have to do it together.
    We are not going to be able to go, and I do not think in a 
competitive environment they are not going to volunteer to go 
someplace that loses money, so we are going to have to as a 
matter of public policy and to make it work and not kid 
ourselves if it is going to be incentives it is going to be on 
the cost side to incentivize them to go someplace they are not 
incentivized to go right now to make it work with the pricing 
models that they all compete against each other with.
    All these hubs compete. If you are going from Los Angeles 
to Boston, there are about eight ways you can get there through 
some hubs, and they are all going to compete with each other. 
That is going to be a pricing model. They are going to use a 
different airport. That pricing model is going to have to work 
in there as well.
    I think we should not necessarily look away from any 
solutions, but in all these things in public policy there are 
conflicts. You fix one problem, and it might be the noise 
problem. I know people do not want noise, this is the seventh 
ATC hearing I have testified at, but they do not want delays 
either.
    As long as runways are one of the choke points--not the 
only choke point. As John said, with runways you are either 
waiting to take off or you are waiting to land on a runway, so 
we cannot pretend runways are not a big part of it, but the 
other part, as John mentioned, is the ATC system itself, the 
sectors, how much traffic do you have in the air at any given 
point. We know where those choke points are as well, so I think 
we should really focus on all of it.
    We are not going to have the silver bullet that is going to 
fix the nation at every airport and every community and every 
state. But if we can fix the top seven choke points both on the 
ground and in the air, then the way to approach the problem is 
to go after the biggest problem. That is where the most bang 
for your buck is going to occur.
    The seven top airports and the seven top airspace problems. 
If we can attack them, we will have the biggest again solution 
in the quickest possible time, sir.

                           AIRLINE INCENTIVES

    Mr. Pastor. Mr. Chairman, can I just follow up?
    In the airports themselves, can we provide incentives to 
help? Can the airports themselves provide incentives for 
greater utilization? How can this committee intervene in doing 
that?
    Mr. Barclay. A number of smaller airports or airports 
within reach of competition from major airports have actually 
gone into marketing agreements with airlines to help advertise 
the services and those kind of incentives.
    I do not know that there has been any kind of set subsidies 
or anything like that except in some very small communities to 
get just one or two flights. There have been a few examples of 
those, but the problem is just the scope of the economics, 
trying to get in to change behavior, and this way is very, very 
expensive and beyond the reach of most local communities.
    Mr. Pastor. Is there an incentive for the airlines that we 
might pursue?
    Mr. Merlis. I think the issue you differentiated from the 
Chairman, who raised the issue of hubs, and you were using the 
example of spokes. Burbank, Los Angeles, Ontario are spokes. I 
think it does indicate that is an area that both of them ought 
to be explored, but it may be less complex to do it at the 
spokes than it is in the hubs.
    In response to your question, Mr. Chairman, about how much 
originating traffic, during the break I found those numbers 
out. I was not aware of this, but in Pittsburgh 64 percent of 
the traffic originates and ends in Pittsburgh. In Atlanta it is 
62.6, so even the whole hub is a lot of people who would then 
have to go from--well, they would not have to go from 
Pittsburgh to a different hub. They still have originating 
traffic, but it is a bigger deal than to find incentives to get 
people who want to go to Los Angeles to fly to Burbank instead 
or to Ontario.
    Whether that could be done through landing fees, which are 
not a large component--they are about five percent--or other 
kinds of incentives, is worth exploring.
    Mr. Pastor. Thank you. Thank you, Mr. Chairman.

                         LOCAL AIRLINE TRAFFIC

    Mr. Rogers. On your Pittsburgh and Atlanta figures, 60 
percent of Pittsburgh is what?
    Mr. Merlis. Sixty-four. This is from Aviation Daily on 
March 7. Sixty-four point nine percent of the traffic at 
Pittsburgh either begins there or ends there. It does not 
connect.
    Mr. Rogers. The question is passengers.
    Mr. Merlis. Passengers. Excuse me. Of the passengers. I 
used the word----
    Mr. Rogers. Are you telling me that 64 percent of the 
passengers that fly out of Pittsburgh are Pittsburgh area 
people rather than us people that fly through Pittsburgh, the 
major hub?
    Mr. Merlis. They are either Pittsburgh area people or, 
alternatively, they are ending their trip in Pittsburgh because 
they are going there for business exclusively. It is 
passengers. I should not have said traffic. I should have said 
passengers. It is 64.9 percent of Pittsburgh's passengers are 
originating or destined to Pittsburgh, not passing through to 
some other location. In Atlanta it was 62.6 percent.
    Mr. Rogers. I do not believe it.
    Mr. Merlis. It is not my data, so I cannot take pride of 
authorship. This comes from the O & D survey data and T-100, 
filings with the DOT, and has been computed by Aviation Daily.

                              CHOKE POINTS

    Mr. Rogers. It is beyond belief. Anyway, we will leave that 
for another time.
    The so-called seven choke points that are causing I think 
by unanimous agreement most of the delays and cancellations and 
all of that, those choke points are really the creation of the 
airlines. They are the ones who are choosing to use those hubs 
as their hub.
    Adding more runways, it seems to me, would require adding 
more gates, which in turn requires bigger terminals and all of 
the infrastructure that is associated with that. We are talking 
really long-term solutions here, but I hasten to add a second 
time there is airport capacity beyond belief out there that 
could alleviate our problem overnight but for the decisions, 
whether it be economic or otherwise, of the airlines to choose 
to just fly into and out of those seven major hubs. Is that 
right or wrong?
    Mr. Merlis. You are correct, sir.
    Mr. Rogers. So what are you going to do about it?
    Mr. Merlis. Well, let me address the choke points because 
choke points are twofold. One is sectors in the air traffic 
control system, not airports, and the other is airports.
    With respect to the sectors in the air traffic control 
system, we have been working with the FAA and the controllers 
in trying to resectorize, and perhaps a controller should 
explain the language rather than I, in order to increase the 
capacity through these bottlenecks so that traffic moving east 
to west and west to east through these points, which are east 
of Chicago principally related, I think, to the Cleveland 
Center--is that correct--can accommodate more planes. That 
should have a lot to do with those delays, though it does not 
have a lot to do with those places where additional concrete is 
needed.
    I think where additional landing capacity is needed, 
carriers are exploring alternatives, as I mentioned earlier, 
moving their traffic through a wider part of the day so that 
you do not peak as much in let us say the 10 hours between 7:00 
a.m. and 5:00 p.m. If you can move some of it a little earlier 
and some of it a little later, then what you do is you smooth 
out some of those peaks. Carriers have been exploring that.
    As I mentioned, Delta has actually embarked upon doing 
that. I think as of April 1 in Atlanta it is going to do that, 
and other carriers are currently in that exploration right now.

                            AIRLINE MONOPOLY

    Mr. Rogers. Are any of the airlines considering subhubbing, 
creating more hubs?
    Mr. Merlis. I am not aware. They may be, but that is the 
kind of business plan that more often than not I find out about 
when it shows up in print. They do not share that with the 
trade association.
    Mr. Rogers. I want to get back to this when it comes my 
turn again and have you discuss with us the question of 
competition, the question of whether or not airlines in effect 
are monopolizing in regions of the country to the practical 
exclusion of all other competition. I will save that for 
another round.
    Mrs. Emerson?

                          international delays

    Mrs. Emerson. Thank you, Mr. Chairman, and I appreciate the 
opportunity of serving on this subcommittee as one of the two 
newest Members. I also look forward to working with all of you.
    This is a real general question and one that strikes me as 
perhaps being applicable. What about airports, other airports 
around the world, those of comparable size to our major choke 
points, if you will, or the larger airports? Do they have 
similar types of delays?
    Mr. Merlis. If I can address that? Yes. They are far worse 
in most countries. One of the ways they handle it is by 
managing demand.
    In the United States, in the deregulated environment what 
we try to do is encourage people to travel by air, and the 
competitive marketplace has resulted in more people traveling. 
In other countries there are slot limits at each individual 
airport in some cities or some countries, and so the pool of 
planes that can land is very limited.
    In some of them, I think Malpensa in Milan, 50 percent of 
the flights are delayed, so some places are far worse. I think 
most places are far worse than the United States.
    Mr. Woerth. If I can testify as somebody who has flown 
every region of the world? As bad as we think the United States 
is right now, this is dream land compared to Europe. Europe is 
a terrible place.
    Almost 22 different air traffic control centers are trying 
to make Euro Control to make it one thing, but the delays and 
limits in Europe and the restrictions are very much worse than 
here in the United States. We do not ever want to get to be 
like Europe. I can appreciate that very much.
    Ms. Garvey. Congresswoman, we had a recent visit from the 
European countries to the Command Center to see how we manage 
it here. I think, and this is really to the controllers' 
credit, we still control about 50 percent of the world's 
traffic in this country, so it is an extraordinary challenge 
that we have.

                          definition of delays

    Mrs. Emerson. Quite frankly, my major flying overseas is 
from here to there and not within or on the continent or 
whatever. That is very interesting.
    Let me just switch to, and I appreciate your answers. Let 
me ask you all why there seem to be so many different standards 
in determining if a flight is going to be delayed or not.
    I was interested in reading the Subcommittee on Aviation 
hearing transcript or overview from last year. I cannot make 
head nor tails out of, you know, why, you know, the airlines 
say one thing, the FAA says something else, you know, and air 
traffic controllers say something else. I mean, why are there 
so many different standards?
    Mr. Mead. A couple of us may want to take a shot at that.
    Last September we testified on this because we were doing a 
job with Congress and the Secretary on delays. We were trying 
to quantify the delays, a very, you would think, kind of basic 
task since everybody is complaining about them.
    As a second order request, we wanted to identify: what are 
the causes? We found out that there are different systems for 
keeping track of things. The airlines keep track. The airlines 
internally individually keep track of their delays and what 
they believe are the causes. The Federal Aviation 
Administration has a system where they keep track of delays 
once a plane is under their control. The Bureau of 
Transportation Statistics, which is part of the Department of 
Transportation, also keeps statistics on delays, but that 
information is without assigned causes. In other words, it does 
not keep causal data.
    We recommend that there be a unitary system. I think the 
committees in both the House and Senate thought likewise, and 
so, too, did the Secretary of Transportation. A task force was 
convened and they came up with a set of recommendations on how 
to fix it.
    Those recommendations have not been satisfactorily 
addressed. Indeed----
    Mrs. Emerson. By whom?
    Mr. Mead. By the Department of Transportation, by the FAA 
or the airlines.
    Mrs. Emerson. Why?
    Mr. Mead. Because, among other things, the last 
Administration made the recommendation in its closing weeks, 
and the issue was left for this Administration.
    Frankly, if you asked me under oath to say who is 
accountable or responsible for doing it, I could not tell you. 
I know this is of concern to the Secretary. Beyond that, I 
cannot give you assurances.
    I do want to say, though, to show you just for the record 
how absurd this is in my statement. ``Under current rules, you 
can leave the gate within 15 minutes of scheduled departure and 
then wait on the runway for three hours and be considered on 
time by the Bureau of Transportation Statistics, but late by 
FAA,'' because the airplane was under their control so they 
count it.
    ``Conversely, you can wait at the gate for three hours past 
scheduled takeoff time and take off within 15 minutes of 
backing away from the gate, and FAA will say you are on time. 
The Bureau of Transportation Statistics will say you are 
late.''
    One other example--just to hammer home the importance of 
this point. On March 9, Aviation Daily, which is a trade 
publication, using data from FAA, reported there were 1,900-odd 
more delays in January, 2001, than in January, 2000. That same 
day, the Washington Post, using Bureau of Transportation 
Statistics data, reports that the percentage of flights 
arriving on time had improved over the identical time period.
    This is an absurd situation, and I think it could be 
corrected and has to be corrected if we are going to 
analytically get to the bottom of the problem. That is my 
speech for the day.

                          definition of delays

    Mrs. Emerson. Yes. I would be interested because, I mean, 
of all things this is the one thing that does not take a rocket 
scientist to figure out how to make it uniform. I mean, that is 
easy in my opinion. I mean, some of the other things require 
lots of money. This does not require a whole bunch of money to 
fix it. Anyway, I am curious to hear what the administrator----
    Ms. Garvey. Thank you very much, Congresswoman. I will just 
comment on three points. First, just to step back for a minute, 
Mr. Mead is absolutely right when he says the FAA collects data 
for the period of time when the plane is under our domain. So 
to speak, and that is really to understand the performance of 
the system better and do something about it, we have really 
focused on that piece of it.
    The Bureau of Transportation Statistics, as Mr. Mead has 
said, has focused more on data that has come from the airlines 
about on-time arrival and delays and lost baggage, et cetera, 
so we are really two parts of a whole.
    From a customer's point of view, though, you are absolutely 
right. You want a standard that makes sense. You want a 
standard that is uniform. Absolute agreement on that.
    Mr. Mead talked about the task force that was put together 
in the last minutes of the last Administration. They did some 
work, some initial work. I think this Secretary--in fact I know 
this Secretary--is very, very eager to get back to those 
recommendations, and is putting his team in place. I know it is 
going to be headed by an Assistant Secretary that will really 
jump start the process.
    I do not, though, want to leave anyone with the impression 
that we are not taking that seriously. In the meantime, until 
the task force really gets underway, both the airlines and the 
FAA have been working for about a year to establish a common 
set of metrics. We have them in six categories. We are 
collecting them from 13 airlines now at about 20 airports. We 
will be at 30 by the end of this month. It is, I think, 
definitely a step in the right direction. We want that task 
force to take a look at that when they are back underway to see 
if that is a common ground that we can arrive at. I think you 
are absolutely right. We want to make sure that we have a 
standard that is understood by the customer who is really being 
served.
    Mrs. Emerson. Does anyone else want to comment on that 
particular question?
    Mr. Woerth. I would just say that you are right. It is 
almost like the rest of our information--we cannot analyze and 
agree on a solution if we cannot agree on what the facts are. 
If we are going to argue over if we were late or we were early 
or on time, we really need to be on the same database and agree 
with what that is before we can make any good decisions.

                             public service

    Mrs. Emerson. I agree. It is kind of like the Health Care 
Financing Administration trying to fix medicare. I mean, that 
is a little more complicated. There are certain sets of data 
here, and we all know what it is.
    You know, I missed seeing the Dateline TV show the other 
day, but I did actually read the transcript of it. I am a 
little confused about how Dateline, and this probably, Mr. 
Merlis, would go to you. I am confused how Dateline could 
figure out more than two hours early that a plane was going to 
be delayed, and yet the public is only notified a short period 
of time in advance, or the people working at the gate are 
notified a little bit, you know, later or quite a bit later.
    Why not just tell the public earlier when you all know? If 
a plane has not taken off from New York and yet it is supposed 
to be in D.C., for example, I mean, why not just tell us?
    Mr. Merlis. I think that is a goal we have. It is a very 
complex, ironically, issue because our computer reservation 
systems are not tied into that data. Carriers are committed to 
getting better data out to their customers by creating the 
links so that when a dispatcher knows a flight is late or 
whatever the time for the flight is it will get put into that. 
It should not be left out. It should be included, and that is 
one of the things that we, as we move forward with our customer 
service program, intend to do.
    Mrs. Emerson. Well, excuse me. Maybe I did not articulate 
that right.
    If I am at the airport and there is something on the board 
that says the plane is delayed 15 minutes, or let us just say 
it is on time and it is half an hour before the flight is 
taking off, but yet the plane has not even left from New York 
or from St. Louis, which is generally where I fly back and 
forth to every week. You know, obviously somebody knows.
    Mr. Merlis. You are correct.
    Mrs. Emerson. But yet the people at the point where I am 
supposed to be departing from either do not know that, are not 
told. I mean, why try to pull the wool over our eyes? I mean, I 
would be a lot happier if I simply knew what the real story 
was.
    You know, it is that, and then all of a sudden, you know, I 
am delayed going to St. Louis because of weather. I am talking 
to my husband in St. Louis. He says well, it is sunny here. We 
are ten minutes from the airport. The plane is sitting in D.C.
    I mean, I guess I have to ask why? You know, why is it so 
difficult to just tell us the real skinny?
    Mr. Merlis. I think there are two pieces. There are two 
pieces.
    Mrs. Emerson. Okay.
    Mr. Merlis. One, we can do a better job. We are committed 
to doing a better job, but it cannot be done overnight. We have 
to put links together to link the flights and the information 
that we have from our dispatchers into the computer reservation 
systems. It has not been done yet. It ought to be done, and 
people are committed to do it.
    Mr. Rogers. Why has it not been done?
    Mr. Merlis. Because it was not the highest priority it 
should have been.
    Mr. Rogers. I know that. The highest priority of the 
airlines is profit, not service to the public.
    How soon will you have this information in your computers 
so that the public, the traveling public, who paid the good 
money can have that information?
    Mr. Merlis. I do not have the answer, but I will get it for 
you.
    Mr. Rogers. How soon will you have the answer?
    Mr. Merlis. I will try to get it by the end of the week.
    Mr. Rogers. No. That is not satisfactory. By the end of the 
day.
    Mr. Merlis. I will try to get it by the end of the day.
    Mr. Rogers. You will not try. You will get it by the end of 
the day. By close of business today, I want the answer.
    Mr. Merlis. Yes, sir.

                        collection of delay data

    Mr. Rogers. The gentlelady has raised a very, very 
important question.
    The airlines, by my information, according to the IG in 
fact, Mr. Mead, the FAA does not collect data on delays due to 
air carrier activities such as aircraft equipment failure, late 
aircraft or flight crew, fueling delay, late boarding of 
passengers, meals or baggage, but the airlines do keep that 
data. Is that right?
    Mr. Merlis. Yes, sir.
    Mr. Rogers. Why is that information not available to the 
FAA?
    Mr. Merlis. I do not know if it has been requested.
    Mr. Rogers. Has it been requested, madam?
    Ms. Garvey. Actually, I think generally it is through the 
Department of Transportation. Is that correct, Ken?
    Mr. Rogers. Has the information been requested of the 
airlines, Mr. Mead?
    Mr. Mead. This was what I just was referring to, Mr. 
Chairman, where in the last Administration they recommended 
that that type of information be provided and meshed with the 
FAA information, and that still has not been implemented.
    Mr. Rogers. Why?
    Mr. Mead. With all respect, sir, I do not know who is in 
charge of this particular responsibility. It was a task force 
operation. Those people left, and now somebody needs to be put 
in charge.
    Mr. Rogers. Where?
    Mr. Mead. I would say in the Office of the Secretary--at 
the Office of the Secretary level.
    Mr. Rogers. Why not FAA?
    Mr. Mead. Well, because, by law, collection of delay 
information from the airlines is vested in the Bureau of 
Transportation Statistics, which is separate from FAA.
    It could be placed in FAA, but I think it would require 
somebody at the Secretary's level to say this is how it is 
going to be done because you have two different agencies 
involved.
    Mrs. Emerson. Can I ask one more follow up question to 
yours, Mr. Chairman?
    Mr. Rogers. Yes.

                TIME FRAME FOR DELAY STANDARDIZED SYSTEM

    Mrs. Emerson. Mr. Mead and Administrator Garvey, let us say 
this task force is working, and it is set up under the 
Secretary in the Secretary's office. How long would it take 
once we have it operational?
    Now, granted, let us just say everybody is in place, so we 
will start from that point in time. How long would it take to 
figure out a standardized system with all of the agencies 
involved, as well as the airlines and everybody else? How long 
do you think it would take to put in place a standardized 
system?
    Mr. Mead. I think if the airlines were all to cooperate, 
you could have the design of the system done in about two or 
three weeks. I would allow probably a month or two to implement 
it. I think the basic information sets are out there already.
    FAA, as Administrator Garvey was saying, for FAA's part, I 
think they have moved the envelope forward, and now the airline 
data need to be meshed in with it. In other words, delays that 
are the responsibility of FAA, I think they are collecting that 
information.
    Mrs. Emerson. And then the airlines I assume would be 
willing also to provide that data so you could all put it 
together. That way, you know, once we have it and it is 
standardized, at least then you do not always have to be the 
bad guy.
    Mr. Mead. With due respect, that assumption about what the 
airlines would be prepared to do is not one that I would be 
prepared to vouch for.
    Mrs. Emerson. Mr. Merlis?
    Mr. Merlis. We have been participating in that advisory 
committee. I think ultimately the recommendations that advisory 
committee comes out with we are going to implement.
    I mean, it has been a collaborative process, and I think it 
has worked. It is just that no one wants to unilaterally put 
out data and still have these two other data sets, and another 
carrier does not put out the same data because there is no 
standard. We will do whatever is required.
    Mrs. Emerson. Okay. Let us say we will give you a little 
extra time. Two months from the inception? You think that would 
be long enough to certainly standardize three or four different 
sets of data, correct?
    Mr. Mead. Yes, at least with three or four carriers.
    Mrs. Emerson. Okay.
    Mr. Mead. Big carriers.
    Mrs. Emerson. Okay. I appreciate that.
    Mr. Mead. Yes. Thank you for your line of questioning.
    Mrs. Emerson. Thank you.
    Mr. Rogers. Look, you were talking about this in 1993, the 
airlines and FAA, and we are still talking about it. Time is 
up. This afternoon before close of business.
    Mr. Merlis. Yes, sir.
    Mr. Rogers. If the task force will not do it, we have a 
task force right here, I guess.
    That would be a major step forward, in my opinion. Do you 
agree with that?
    Mr. Merlis. Yes, sir.
    Mr. Rogers. Is that satisfactory?
    Ms. Garvey. Absolutely, Mr. Chairman.
    Mr. Rogers. Okay. Ms. Garvey, you are going to be back up 
here in a couple of weeks to testify?
    Ms. Garvey. I am, Mr. Chairman, yes.

                          DEFINITION OF DELAY

    Mr. Rogers. That would be a perfect time for you to have 
for us a definition of a delay. That is plenty of time, is it 
not?
    Ms. Garvey. I could probably give you at least our 
definition probably before then, but yes. I mean, you are 
talking about the agreement with the airlines?
    Mr. Rogers. Yes.
    Ms. Garvey. We certainly will be able to do our part.
    Mr. Rogers. Well, the goal of the airlines is to provide 
the information and mesh that into the computers so that we are 
all sharing information.
    Ms. Garvey. And, Mr. Chairman, part of the work of the task 
force is again determining this definition of what is a delay 
and what the standard is.
    Mr. Rogers. Yes, but the task force time is up. When you 
testify here in two weeks, I want a definition of a delay. If 
it is not agreeable to everybody, then that is too bad because 
it is going to be defined.
    If we have to define it in this bill, the Appropriations 
bill this year, I have no problem with that. Task force/mask 
force in this case.
    Ms. Kilpatrick?

                              PARTNERSHIP

    Ms. Kilpatrick. I love this, Mr. Chairman. Thank you, Mr. 
Chairman, and thank you for framing at 10:00, almost two and a 
half hours ago, what this hearing would be about so that we 
would not get totally smoked.
    At the table are the people who are responsible for almost 
700,000,000 people a year using our aviation system. Sitting 
here now two and a half hours later, though you look like you 
work together it is very clear to me you do not. There is 
competition and finger pointing and all of that, and I think 
the Chairman said at the onset he was not even going to deal 
with that. You all accepted the responsibility. There is a 
problem. Let us try to change it and fix it.
    I visited VOLPE the Tech Center last year and, among other 
things, went into one of their rooms where they have this big 
visual and dots of the United States map. This shows where 
planes leave and take off all day long, and they know when a 
plane is there on time and when it is not and how late it is 
going to be by the dots in the communication system that they 
have.
    What I hear this morning has no connection to what the 
airlines know or do. I think Congresswoman Emerson is right on 
point in terms of you know when there is a delay. Why do you 
not tell the 700,000,000 of us so we do not all get hyper and 
mad? They call it road rage in a truck. I think it is air rage. 
Then they come home and beat their wives or hit their kids up 
side the head.
    It is a way to fix it, and I am not sure, Chairman Rogers, 
who has been spending these last couple hours, that you all got 
the message. I think you got it. It has to be a partnership. 
Policy is always better when the parties come together and tell 
us what you need rather than letting us tell you what you need. 
I am hopeful that as we leave here today and as we move forward 
that all the pieces will begin to work together.
    Ms. Garvey, you hit it right on point in doing my briefing 
for this. Why is it different, their figures different, first 
of all, and then how do you compute it? You know, the people we 
represent and all 535 of us, and my ticket is $500 plus a week. 
We pay big money.
    You are in for profit, and we want you to stay in for 
profit. We want you to employ and train other people and our 
constituents so that they can take care of their families, but 
I had not felt, and maybe the Chairman in the last 15 minutes 
has made an appeal here. I do not feel the urgency from the 
operators of the system that you are going to work on this 
together and work it out.
    By business today? Now, that is a mandate. That is pretty 
quick. You said yes, sir, you are going to take care of that. 
Hopefully you will, but, you know, as a Member of the 
subcommittee and one who flies twice a week, as do most of us 
500 plus people, the problems are severe, but they are not too 
complicated to fix.
    The IG was here last week, Mr. Mead, telling us distinctly 
what the problems are in the industry. Most of our constituents 
and us, we feel it as we take the service, so safety is the 
number one issue for us. Profit and safety has to be for you.
    The pilots association, the airports--we have a couple of 
airports in our district--the hubs, the subhubs. Why can some 
of that not be changed? Profit is obviously a motive, but how 
do you work to make that change, to make the 700,000,000 who 
use the service?
    Wait. If I can save $100 and fly 20 miles away I might do 
that with the proper kind of public relations effort on it. 
There are ways to fix it without just doing the concrete. The 
concrete is a long way out and certainly needed. We also need 
additional people, Mr. Air Traffic Controller.
    Mr. Carr. Yes.

                         AIR TRAFFIC CONGESTION

    Ms. Kilpatrick. This is the Committee that can give them to 
you, but you have to say that and ask for what you want. Some 
things we can do right away. Other things we cannot.
    I am not sure that as a group those of you who are the 
heads of the airports and the airlines and the pilots who fly 
and the controllers who keep us safe, and, Ms. Garvey, you are 
just overall. Mr. Mead, you are the guy. You can be called 
that. Do your job. That is all we are asking. Safety. Profit. 
We want you to do that.
    We were told last week that the airlines really have very 
little to do with what comes in and out. How can we flood 
LaGuardia and then at the same time, you know, you do not have 
to check with anybody? You just put ten more flights in. They 
are going up.
    I tried to get to LaGuardia last week. I could not get 
there on an 8:00 flight. Hey, we could not get in. We sat for 
two hours. They opened the door, and I got out before. I was in 
Detroit. I left. There is a better way to do it. Mr. Chairman, 
so many questions have been already asked. I just say ditto to 
all of that.
    As the air traffic control gentleman said earlier, Mr. 
Carr, aviation is one part of the mass transit system that we 
have in our country, and if England is worse than ours God help 
them because the good thing about your industry is there have 
not been any major tragedies, and we commend you for that, but 
there are tragedies waiting to happen with the number of 
incursions we hear about.
    The profit/loss has got to be a thing of the past. You 
know, people have to get from Point A to B. Aviation is 
probably the best way to get there. That it is safe, convenient 
and affordable is what we hope that you will make it.
    Mr. Chairman, I do not really have a question. If VOLPE 
Center knows in the morning what is going to be late at 5:00, 
then you all ought to know it, too. But, more than that, so 
should our constituents.
    Thank you for your strength, Mr. Chairman, and hold them to 
their word, please. Thank you.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you. Mr. Sweeney?

                   AIRLINE PROFIT, COMPETITION, HUBS

    Mr. Sweeney. Thank you, Mr. Chairman. Let me start by 
saying hello to all of our witnesses who have testified in one 
capacity or the other in the past when I served on the 
authorizing side as Vice-Chairman of Aviation.
    Let me commend you, Mr. Chairman, for not just conducting 
this hearing, but setting a tenor and a tone that I think is 
long overdue. I am proud to be here. I made the right decision. 
I am very happy.
    Let me also say my name is Sweeney. In a couple days it is 
kind of an important day for my family. I am supposed to be 
sitting at a dinner right now with the President and the Prime 
Minister of Ireland. I am here because this is critical, and it 
is important.
    Mr. Merlis, I have to tell you. They talk about air rage. 
This is one Member of Congress, and I think you have heard it 
from many others. That rage is real and witnessed by many of 
us, so I want to start my questioning by focusing very 
specifically on what I think is the complicity of the airlines 
in all of this. I am going to start with a series of facts. You 
stop me if you do not think any of these are accurate.
    Fact. Airlines use hub airports to maximize economies of 
scale.
    Mr. Merlis. Yes.
    Mr. Sweeney. Airlines work hard to push more passengers 
through their hubs to maximize profits?
    Mr. Merlis. Correct.
    Mr. Sweeney. The major airlines do not compete against each 
other's hubs?
    Mr. Merlis. No. They do.
    Mr. Sweeney. In what instances?
    Mr. Merlis. When you say they do not compete against each 
other's hubs, you can go over different hubs to get to the same 
destination. Is that what you mean?
    Mr. Sweeney. No. I mean in direct competition. Scheduling 
of flights and diversifying those.
    Mr. Merlis. I think there is competition.

                    RUNWAY PLANNING AND DEVELOPMENT

    Mr. Sweeney. We disagree on that.
    Fact. Hubs are a tool of market domination and profit 
centers for the airlines as evidenced by how difficult it is 
for low fare carriers to gain access, as evidenced by the fact 
that many of the major airlines hold onto slots allocated to 
them and do not use them to their maximum capacity?
    Fact. Hub airport operators say that to reduce delays at 
airports, and we have already gone through this, additional 
runways are needed. We have heard a lot of questioning from the 
committee on the utility of that.
    Fact. Once an additional runway is built, the major airline 
will probably add more flights to the airport. This will 
maximize the economies of scale and grow their profit. The fact 
that the airport fills up, we are probably going to be asked at 
some point in the future for more funding for more runways.
    The fundamental question to you, Mr. Merlis, and, more 
specifically, to Administrator Garvey and maybe Inspector 
General Mead, is what have we done thus far? That is the 
question Mr. Chairman was asking. Is there anything you have 
not told us in terms of planning and development that is 
already underway?
    Ms. Garvey. Well, I did not speak, Congressman, a little 
bit earlier about the technology. I know I have appeared before 
you before in other committees and talked about a building 
block approach in getting out technology as aggressively as we 
can. I think there are enormous challenges in that, 
particularly with some of the satellite navigation pieces. I 
think staying the course on technology over the next several 
years is going to be critical, staying the course on a building 
block approach. We are focused now on our terminal areas, and 
we just have to get it done. That is a piece we did not talk 
about a little bit earlier.

                            STEWART AIRPORT

    Mr. Sweeney. How much work has the FAA or the DOT been able 
to do on looking at the viable alternatives that exist in 
airports other than LaGuardia like Stewart and Islip?
    Ms. Garvey. Actually, again with a lot of help from 
Congress we had the pilot program on the public/private 
partnerships in airports, and Stewart is one of those. I do 
think that when you look at the increased funding that this 
committee has provided for some of the smaller and mid size 
airports, I think that is a step in the right direction.
    I think someone mentioned earlier, and it may have been 
Captain Woerth, that there is this idea about are there other 
incentives. I do not know the answer to that, but I think it is 
the right question. Are there additional incentives we can put 
in place or we can think of putting in place to encourage the 
use of some of those airports?
    I know LaGuardia and the Port Authority have been looking 
at some of the ground transportation, for example, around JFK 
because certainly one of the issues is getting from JFK to 
downtown. Sometimes the incentives may even be on the ground 
side, as well as on the air side.

                           AIRLINE SCHEDULES

    Mr. Sweeney. I would like to work with you especially as it 
relates to Stewart. As you know, it services the southern part 
of my district. I would like to look at the development plans 
and alternatives.
    Let me go to the delay question, Mr. Merlis, more 
specifically. A recent report showed that 62 flights were 
scheduled to depart O'Hare between 7:00 and 7:15 p.m., but even 
if flying conditions were perfect only about half of those 
flights would actually be able to take off in that period on 
time.
    It is simple math, sir. The question is why are the 
airlines scheduling so many flights? Not only are they not 
notifying the public of when they know of delays, but they are 
actually scheduling in advance. It seems premeditated.
    Mr. Merlis. I think that the airlines cannot talk to one 
another to divvy that up, and it is very rare that you will 
find one airline schedules in a block of time in excess of the 
capacity at the block of time, but collectively they do.
    They cannot talk to one another, and also I think they fear 
that if one carrier drops out some of those flights another 
carrier will come in and fill those flights--not those flights, 
but those times--thus resulting in the same congestion that you 
had before, but the carrier who dropped out not being able to 
get any revenue out of it.
    Mr. Sweeney. So would a system in which we attempt to 
redistribute slots in some way, thereby developing some 
methodology to evaluate the effectiveness and the efficiency of 
what the airlines is doing, not make some sense?
    Mr. Merlis. Well, I think that is sort of what the lottery 
that took place at LaGuardia was attempting to do. Yes.
    Mr. Sweeney. I am talking about something longer term.
    Mr. Merlis. I think that longer term the goal would be to 
increase capacity, not to manage the demand. Short-term clearly 
there are demand management initiatives which the FAA has 
undertaken, but long term what we should try to do is meet the 
demand.

                        AIRLINE CUSTOMER SERVICE

    Mr. Sweeney. Let me just conclude. There are a number of 
very good pieces of legislation out there. Last year the last 
term of Congress, faced with enormous numbers of consumer 
complaints, and as Chairman Rogers aptly pointed out, the 
airlines seemingly--they are in the business for profit really 
at the expense both literally and figuratively of their 
customers.
    The airlines entered into some agreements saying that they 
would move their customer service process forward. Inspector 
General Mead did a very good report that indicated that that 
progress was very, very slow, which has motivated many of us to 
reintroduce pieces of legislation and, frankly, much tougher 
pieces of legislation.
    I think you can tell by the leadership being provided here 
today by the Chairman that Congress is very serious about this 
issue and very serious this term of Congress, so I would 
implore you to tell your constituents to pay attention. It is 
very real. The complaints and concerns are very real out there.
    Mr. Merlis. If I may respond, sir?
    Mr. Sweeney. Sure.
    Mr. Merlis. I think we did make progress. As the Inspector 
General's report showed, nine out of the 12 categories he 
graded us in an A to B. There are three which we clearly failed 
to get up to the level we should, and we intend to do that. We 
also have identified some other areas that the Inspector 
General recommended, and we are going to pursue those because 
we know we have to get better.
    Mr. Sweeney. If I can, in your response you fundamentally 
did not deal with the root cause of delays in the process. The 
airlines avoided that issue throughout. My example at O'Hare is 
just one of a number that we could provide for you, so more is 
required.
    I yield back. Thank you, Mr. Chairman.

                                 DELAYS

    Mr. Mead. Mr. Chairman?
    Mr. Rogers. Yes.
    Mr. Mead. You inquired of the three of us if there was 
something we had left out, and there was something I left out 
when the Chairman said, what actions do you deem need to be 
taken. My recollection of what I said is that I did leave one 
item out.
    I do not think it is unreasonable for the airlines to tell 
people at the time they are booking their ticket that the 
flight they are about to book is canceled a significant 
percentage of the time or is delayed 40 percent or more of the 
time.
    That is not necessarily a positive incentive that some of 
the Members have been asking for, but it is an incentive, and 
it seems to me a fair way of doing business. If you are going 
to be reasonably free to do the scheduling, then you tell 
people ahead of time before they make the financial commitment 
to fly at that time.
    Mr. Sweeney. My question then, Mr. Mead, is what standard 
are we going to use to define what a delay is, and how do we 
notify the customer of what that is?
    Mr. Rogers. Well, we are going to solve in a couple of 
weeks.
    Ms. Garvey. I am working on it now. I will tell you.

                            HUB COMPETITION

    Mr. Rogers. We already have that one down. Thank you, Mr. 
Sweeney. The new Member of the subcommittee is a very valuable 
addition, and we are delighted to have you.
    The meshing of the computers I think would solve a lot of 
the difficulties, Mr. Sweeney, as mentioned in terms of 
forewarning the traveler about an impending problem. I do not 
want to be personal here, but let me give you a small example 
of some time ago, not too long ago, I took a commuter from 
Lexington to Pittsburgh, there to transfer to a flight directly 
to Washington.
    No one told us in Lexington that there was a problem with 
the connector flight that would leave out of Pittsburgh, but 
that flight, because of weather in Orlando, had not yet taken 
off, nor was it going to take off for several hours, so when we 
got to Pittsburgh the connector plane was still in Orlando. It 
would have been a real easy, simple thing for the Lexington 
terminal to say look, do not take that flight because you 
cannot connect. That is a simple thing.
    If you were in real competition, if there was any real 
competition at that airport, you would be more aggressive in 
trying to please me and fellow travelers like me. Therefore, I 
want to get to the competition question here.
    Mr. Mead, I think maybe you have some thoughts about 
whether or not there is effective competition particularly in 
the hub areas and their feeder areas.
    Mr. Mead. That one catches me a bit off guard. It is not 
what we would like to see.
    Is there effective competition? I think it depends on your 
definition. I do not want to be too loose with this, but I 
think it depends on what market you are looking at. There is 
clearly less competition today than there has been. There is a 
lot of concern about the effect that these mergers will have.
    Certainly when you have dominance at a hub, that dominant 
carrier can control a lot about the prices, particularly when 
it has to do with you going to the spokes. That is why you see 
fares going to the spokes that are substantially greater than 
on the routes that there is competition, which are sometimes 
five or six times longer in distance.
    For example, if you fly from here to Los Angeles, there are 
several hubs you cross over, and you do not care what hub you 
go to. The airlines know that, and that is why the prices to 
Los Angeles if you booked in advance are much more competitive 
than a trip from here, for example, to Columbia, South 
Carolina.
    I am not familiar with the routing to your home state. I 
can probably draw another analogy to that, and it is, you said, 
$500. I believe that. Senator Hollings probably can beat you 
out on the fare to Charleston. It is the same type of issue.
    Mr. Rogers. I guess my question dealt not so much with the 
price of the ticket, although that is a huge consideration, but 
I guess I am thinking more of just the efforts of the airline 
to please people, to sell themselves to the public, to be 
accommodating.
    Mr. Mead. Oh yes. Absolutely.
    Mr. Rogers. I mean, there is an arrogance. I have to say 
this. There is an arrogance that we encounter on these 
airlines, an attitude of I do not care. Either fly with us or 
you do not fly, so take that and shove it up whatever.
    That is the attitude that we encounter, and it is not just 
that we are trying to report on what our constituents are 
hearing or saying, although that is a big part of it. It is 
what we have all experienced ourselves. There is an arrogance 
that you would not find if there was a competitive carrier 
saying hey, if you do not like them come with us. We will serve 
you this. We will do that for you.
    Mr. Mead. I misunderstood your question, sir.
    Mr. Rogers. Yes. Now that you understand it, what do you 
say?
    Mr. Mead. Yes. I say absolutely, although I would hasten to 
add since we did that customer work on the report we issued 
very recently, I have to say that Congress has gotten the 
attention of the airlines. I have had CEOs of at least four 
carriers tell me that things had gotten way out of balance in 
their attitudes towards customers.
    When the carriers entered into those voluntary commitments, 
they did so because they saw the threat of legislation. I think 
they are taking customer service a lot more seriously today, 
but I think these messages need to be reinforced.
    Mr. Sweeney had it quite right that the results of our 
review show that there was real progress by the airlines in all 
the areas they made commitments on except when it came to the 
fundamental reasons people are dissatisfied, which are delays, 
cancellations, and baggage not showing up on time.
    Mr. Rogers. Well, I just want the world to know that this 
subcommittee is not going to go away. We are going to be here, 
and we are going to be here, and we are going to be here. We 
are going to check on, and we are going to insist upon, and we 
are going to do whatever is necessary.
    There is a storm brewing, my friends, and we will not rest 
until it eases up. Our constituents are demanding it. We have 
no choice. You can make it easy, or you can make it hard. If 
you make it hard, you require hard answers from the Congress, 
we are prepared to do that. I will do it either way. Be nice or 
be mean, but until we get some response I am going to be mean. 
There we are.
    Now, we need to close down here. We are past your lunch 
hour, but we do have one final thing we need to attend to, and 
that is your five things that you are going to do to solve our 
problem.

                    MINNEAPOLIS AND DETROIT AIRPORTS

    Mr. Sabo. Mr. Chairman, can I ask a question?
    Mr. Rogers. Please.
    Mr. Sabo. Thank you, Mr. Chairman. I am just sitting 
looking at some data on size of airports in terms of passengers 
and landings and takeoffs. I looked at my own, and I discovered 
Minneapolis is larger than I expected. In terms of domestic 
airports, it is seventh both in terms of total passengers 
enplaned/deplaned and seventh in terms of landings and 
takeoffs, but we are not on the list of ten airports with the 
most arrival delays and cancellations. Detroit is roughly 
equivalent to us in both of those categories, and they are not 
on the list.
    I do not know that our weather is better than the rest of 
the country. We tend to have winter storms. I look at in the 
listing of airports I have is of the 30 largest 
internationally. LaGuardia is not on the list of the 30 largest 
airports--this is from 1999--in terms of either passengers or 
landings, and I gather lots of problems generate there. I am 
just curious why. If both Detroit and Minneapolis are 
northwest, are they doing a better job with the airplanes? Is 
our weather better?
    Mr. Merlis. If I may, sir?
    Mr. Sabo. Yes.
    Mr. Merlis. One of the issues may be related to the 
discussion about Cleveland Center and the choke points. One of 
the issues may be that there are not as many markets served out 
of Minneapolis to the east as they are west. As a result, and I 
just have a list of the top 20, Seattle is the second largest, 
Los Angeles the third largest, San Francisco the fourth 
largest, and Phoenix the fifth largest served out of 
Minneapolis, so it may be just the volume of aircraft into and 
out of Minneapolis is not passing through that choke point, the 
eastern choke point. That is only part of the answer, but that 
alone could explain some of it.
    Ms. Garvey. Congressman?
    Mr. Sabo. But I keep hearing lots of delays and 
cancellations are due to weather. That is the number one 
reason.
    Ms. Garvey. I might add just maybe one or two other points. 
One is that the sectors that we are opening up that John talked 
about a little bit earlier, one is in that area so we do have 
some new airspace. I again credit the Department of Defense, 
who worked very closely with us.
    I will tell you, Northwest, to their credit, has played 
full out in the spring/summer plan. They are hooking in every 
day at the Command Center and really I think taking advantage. 
Not to single them out because there are a number of airlines 
that have done that as well, but I think if you ask them they 
would say that collaborating in that way has made a difference. 
Richard Anderson has said that directly to us; that he thinks 
that really helped their delay numbers last year.
    Mr. Mead. Well, another factor here is that, at the two 
airports you have mentioned, Northwest is an extremely dominant 
carrier. Therefore, they have greater control over the 
scheduling of those facilities.
    I would also say Minneapolis ended up 17 on the list, and 
Detroit ended up as number 13. I think our testimony just had 
the top ten. I wanted you to know what those two airports did.

                              CHOKE POINTS

    Mr. Sabo. But it just strikes me. So the choke points are 
fundamentally an east problem, although I see Phoenix, L.A., 
San Francisco, Phoenix, Denver, Las Vegas are on this list.
    Ms. Garvey. The choke points, Congressman, are principally 
from the Chicago to the Washington-Boston area. That is not to 
say that we do not have delays and difficulties at some of 
those local airports that you mentioned as well. Those are also 
very crowded airspaces, and those areas we are focusing on as 
well.
    Last year we said where are the biggest problems? Where are 
we having the most difficulty? That was in spring/summer 2000, 
and that is what really focused us on that triangle.
    Mr. Sabo. But somewhere did we not hear that weather was 70 
percent of the problem?
    Mr. Carr. Well, The air waves that the choke points deal 
with are identical to a highway map. Most of the congestion is 
east of the Mississippi. If you look at a map of the interstate 
highway system, once you get east of the Mississippi River it 
is just a spaghetti bowl. West, in the western states, where 
you not only have larger land to work with, you have fewer 
highways. The congestion is not as dense.
    It is identical in the air above our heads. I will even 
widen the triangle to include from Chicago to Washington, D.C., 
to Miami. If you want to really have a Bermuda Triangle of 
airplane difficulty, that would be how big I would draw it 
because there are sectors down over Atlanta that are impacted 
by what we call choke points.
    Choke points are nothing more than the funneling of 
numerous streams of aircraft into a single stream for the next 
controller or the next facility because while you can have 
almost an infinite number of streams of airplanes heading 
towards Atlanta, eventually you have to reduce those streams 
from 20 to ten to six to four to two to however many runways 
they are landing on. That creates bottlenecks. It creates choke 
points during peak periods.
    What we are working with the agency on collaboratively is 
identifying where those choke points exist and mitigating the 
impact by redesigning the airspace. Airspace is nothing more 
than similar to a wedding cake, actually. It just depends on 
how many layers you have control over. We are going to stratify 
those layers to allow for more controllers to work a more 
finite piece of airspace and try to spread out some of the 
impact.

                             ARRIVAL DELAYS

    Mr. Sabo. Although when I look at arrival delays, Los 
Angeles is there. Phoenix is there. San Francisco is there. 
Denver is there. Las Vegas is there. St. Louis is there.
    Mr. Carr. And that is exactly descriptive of what happens 
when you have an infinite number of potential incoming arrival 
routes reduced to a finite number of concrete planning surfaces 
because you can have airplanes taking off from 2,000 cities in 
the United States headed for Los Angeles, but when you get to 
L.A. you are landing on two pieces of concrete, and you are 
landing two by two.
    Mr. Sabo. Well, in terms of takeoffs and landings in 1999, 
I think L.A. had 517,000. We had 482,000.
    Mr. Carr. And I would have to look. To be honest with you, 
I would have to look at the construction of the airport. Like I 
said earlier, O'Hare has three sets of parallel runways. You 
can configure them 27 different ways.
    Mr. Sabo. I understand O'Hare.
    Mr. Carr. So it would depend on the configuration of the 
airport versus--Los Angeles has two parallels. You can land 
east or west, and that is it. They have two pieces of concrete 
only.
    They predominantly land from the east to the west and take 
off west over the ocean for noise abatement reasons, which you 
have mentioned earlier as being a great concern, so L.A. is a 
single direction airport.
    Mr. Sabo. Denver, with the new airport, is seventh on 
arrival delays.
    Mr. Carr. And that I would attribute to weather.
    Mr. Mead. Mr. Sabo, be careful how far you take the 70 
percent on weather figure. The 70 percent figure is derived 
from FAA data for the flights for what they tracked, for the 
reasons they tracked. They do not keep track of all the other 
reasons that you have for delays.
    They report delays that they track. For example, when I 
compare the FAA delay number for Minneapolis, their number is 
6,658 for 2000. The actual number of arrival delays there were 
about 30,000, so that is another reason why----
    Mr. Sabo. Which is comparable to the figure on your 
testimony?
    Mr. Mead. Yes, the 30,000.
    Mr. Sabo. It is comparable?
    Mr. Mead. Just split the number in half because what goes 
up must come down, but that is just a further illustration of 
why it is important to mesh these different databases.
    Mr. Sabo. Thank you, Mr. Chairman.

                           PITTSBURGH AIRPORT

    Mr. Rogers. Mr. Merlis, one piece of business here.
    We called the Pittsburgh Airport and asked them how many 
parking spaces they have in their parking lot. They have 9,375. 
We also asked them how many enplanements they had in 
Pittsburgh, and it runs about 200,000 a week. What do you think 
of their parking?
    Mr. Merlis. I really do not know much about Pittsburgh.
    Mr. Rogers. Well, let me tell you about Pittsburgh. You 
told me earlier that most of the traffic coming out of 
Pittsburgh was local generated traffic. Aviation Week had it 
wrong. Perfectly wrong.
    According to the DOT for the 12 month period ending in June 
1999, local traffic was 36 percent, not 63. The fly through 
traffic was 64 percent, just the flip side of what you said, 
which makes sense to me. I mean, I told you at the time I did 
not believe it.
    Mr. Merlis. I stand corrected. I was quoting somebody else. 
It was not our data, sir.

               AAAE FIVE STEPS TO SOLVE THE DELAY PROBLEM

    Mr. Rogers. Yes. Okay. Now the five steps. Here is what I 
will do to help solve the problem with travel rage in America.
    I am going to save Mr. Mead until last because I think 
maybe he will have a different seat. We will start at the other 
end of the table.
    Mr. Barclay. Very good.
    Mr. Rogers. And we will ask Mr. Barclay.
    Mr. Barclay. Number one, we are going to push for 
streamlining the construction process of adding runways. Two, 
we are going to seek the ability to pay for FAA employees to 
speed up the approval of runway projects when that would help. 
In other words, similar to pharmaceutical companies when they 
want to speed up the approval of a new drug can actually pay 
the added costs that are imposed on the Food and Drug 
Administration (FDA) to do that, the major airports are also 
going to be asking for that ability to help FAA out in those 
circumstances where they need special employees to move things 
quickly through.
    Mr. Rogers. Halt. What do you think, Ms. Garvey?
    Ms. Garvey. Great idea and we are very enthusiastic.
    Mr. Rogers. Congratulations.
    Mr. Barclay. Well, I am worried about getting to this one. 
These do not have to be easy political things that we are 
seeking. We have been recommending that we lift the cap on PFCs 
because it primarily benefits the largest airports with the 
most passengers and, as part of that, give the airports more 
flexibility on how to spend those funds.
    One of the things that would help a lot in adding capacity 
is if airports had more flexibility, for example, to do off-
airport remediation. If you want to build a new Bay runway at 
San Francisco, but you are willing to do a lot more to help the 
Bay than damage you are going to do and you are willing to 
spend a lot of money to do that, that makes that capacity 
addition a lot more doable. So at these larger airports where 
today money is not their biggest problem, usually, but if we 
add this element of remediation that could be a positive for 
the system. That is number 3.
    Mr. Pastor. Mr. Chairman?
    Mr. Rogers. Yes?
    Mr. Pastor. In Phoenix, we are trying to deal with these 
problems with additional runways, how do you get light rails 
into the airport, and one of the comments that was made by the 
people who serve us in our federal agencies, both the Federal 
Transit Administration (FTA) and the FAA, is that through some 
of the laws we have passed and regulations that have been 
developed that we have diminished the flexibility with the FAA 
and with the airports to have the flexibility to work out 
unique situations.
    Not every airport is the same and by having general 
regulations sometimes a way of saving money to solve some of 
the problems the airports have those strict regulations and 
laws have caused us not to be able to do things. And so I would 
suggest, Mr. Chairman, that maybe that may be something we 
would want to look at as a committee because I have recently 
encountered that and would be a proponent of maybe looking at 
regulations, how we can give flexibility to the FAA and to the 
airports, including all the charges that are there, to see if 
we can speed up the infrastructure development.
    Mr. Rogers. Mr. Barclay, proceed.
    Mr. Barclay. Let me footnote that and say that we do agree 
that in general you should keep airport revenues on the 
airport. These are for some useful exceptions to add capacity. 
Fourth, we would like to see what we can do to help improve the 
sharing of information with customers and among industry 
partners. Airports have not had a direct role in that, but we 
really also have not been involved in the committees that have 
been working on it and I think we ought to see what we can do 
to help get better information to customers when we do have it 
under our control.
    And, finally, we also need to be involved in the 
coordination on ATC operations that has been talked about here. 
That is something that is primarily again an airline/FAA 
function that goes on, but it is something that airports, if 
they know in advance what the flow control plan is for that 
day, they can also make plans that may help the system. So that 
was the best I could come up with in a couple of hours, Mr. 
Chairman.
    Mr. Rogers. Does anybody see a problem with any of those?
    [No response.]

               ata five steps to solve the delay problem

    Mr. Rogers. Mr. Merlis, you are next.
    Mr. Merlis. Yes, sir. First, these are not in order of 
priority, they are just in order of my jotting them down. We 
will commit to better utilizing the products of the Herndon 
Command Center conference calls to address the daily schedule 
so that we can identify places where delays may be occurring 
and deal with those accordingly so that we reduce inconvenience 
to the customers.
    Mr. Rogers. How much better will you cooperate on that?
    Mr. Merlis. I do not know how much we cooperate now, so I 
cannot put a number on it, but clearly from the Administrator's 
description, some carriers are doing better than others and so 
what we need to do is identify which carriers are not paying as 
much attention and admonish them to participate in this process 
so that they can do a better job with their customers, as she 
identified is the case with one of them.
    Mr. Rogers. Any thoughts on that, Ms. Garvey?
    Ms. Garvey. That would be wonderful and welcome indeed to 
have Mr. Merlis make that kind of a commitment.
    Mr. Rogers. How soon would that take place?
    Mr. Merlis. I will have our president, as soon as she 
returns from out of town, send a letter to the CEOs saying it 
is an important step that must be taken in order to meet the 
expectations of not just the traveling public, but also the 
Congress of the United States.
    Mr. Rogers. Well, the administrator is coming back to 
testify in a couple of weeks. We should see the attitudes at 
that time to see if it has improved. We will know by then, will 
we not?
    Ms. Garvey. You certainly will, Mr. Chairman. Yes.
    Mr. Rogers. All right. We will let you know in a couple of 
weeks. Number two?
    Mr. Merlis. Number two. Subject to approval by DOT, put in 
place the recommendations of that DOT delay reporting advisory 
committee so that we can have a common system by which we 
inform our customers of the reasons for delay and also can 
identify the reasons for delay so that we can individually try 
to remediate the causes.
    Mr. Rogers. That is what you are going to let us know by 
close of business today, is it not?
    Mr. Merlis. No, sir. The next one is the one.
    Mr. Rogers. All right.
    Mr. Merlis. Which is to aggressively pursue the transfer of 
the delay data from the FAA database into on-line computers 
that are used to provide customer information. These are two 
separate components, sir.
    Mr. Rogers. Okay. You are going to let us know about that 
by 5:00.
    Mr. Merlis. Yes, sir. Yes, sir.
    Mr. Rogers. All right.
    Mr. Merlis. Third, we will work with the airport community 
to identify capacity expansion projects and ways of 
accomplishing them and financing them.
    Mr. Olver. Can you repeat that?
    Mr. Merlis. Yes. We will work with the airport community to 
identify capacity expansion projects which have the goal of 
reducing delays and work with the airport community to find 
ways to fulfill those, both financially and through the 
regulatory process.
    Mr. Rogers. Does that include sub-hubbing or extra-hubbing?
    Mr. Merlis. Well, I think that is one of the things that we 
will bring to the carriers' attention. Clearly, we have heard 
your message, sir, but I do not know how much it is the airport 
community as the airlines themselves have to make the business 
decision. Once they have made a business decision, they have to 
work with an airport to see if it has the capacity to do what 
it is they may want to do.
    Mr. Rogers. What do you think, Mr. Barclay?
    Mr. Barclay. I think you are going to see some sub-hubbing, 
as you called it. In other words, when American, as Effective 
date said, tried National and Raleigh-Durham and San Jose in 
the mid 1990s, at that time, we were not seeing the cost of 
delays they are now absorbing at Chicago and Dallas and Atlanta 
and the other major hubs. So the economics are going to drive 
them to say we have to consider having more hubs in the system. 
The interesting question you brought up is whether there are 
incentives that we can get them to speed up that consideration 
that the marketplace will get them to eventually.
    Mr. Rogers. Of course, your airports have a passing 
interest in this because more and more people are driving long 
distances to get to that mega hub, bypassing a lot of airports 
who are going out of business, who are withering on the vines. 
And not only would creating more mini-hubs or sub-hubs, if you 
will, improve the travelers' convenience and, I hope, pricing, 
but it will also help those local airports to survive and not 
cost so much to their city fathers.
    Mr. Barclay. Airports are out there in the marketing 
business these days. Airports go and visit airlines, trying to 
attract their business when they are not a congested major hub 
and they are pretty aggressive about competing with each other.
    Mr. Pastor. Mr. Chairman?
    Mr. Rogers. Yes?
    Mr. Pastor. Could I request that as part of that resolution 
the airline industry give us what are reasonable incentives 
that they would consider to develop and go to spoke hubs, sub-
hubs or whatever you want to call it, because I think it would 
be important for us to know what would be some incentives and 
then how we could assist them in providing those.
    Mr. Barclay. Surely, sir.
    Mr. Rogers. All right.
    Mr. Merlis. And the last one, we will petition the DOT to 
reconsider the denied boarding compensation rules in order to 
better accommodate passengers who are bumped and otherwise 
inconvenienced. These rules are quite old, sir, and I think 
they should be updated to take account of current 
circumstances.

                 regulation for passenger compensation

    Mr. Rogers. Mr. Mead, what is your reaction to that?
    Mr. Mead. Yes. The people that get involuntarily bumped, 
they get paid less than the people that voluntarily get off and 
the limits have not been changed in two decades.
    Mr. Rogers. So you are going to change them?
    Mr. Merlis. Yes, sir. We will petition to change them. It 
is done by rule, so unilaterally it is not done, but the 
carriers will petition to change them.
    Mr. Rogers. How soon will that take place?
    Mr. Merlis. I would anticipate within the next two weeks or 
so the documents will be prepared. I cannot be sure because I 
do not know which lawyer is writing it. I do not know what his 
schedule is. But I anticipate within two weeks or so.
    Mr. Rogers. I am sure you will speak with whatever lawyer 
it is and encourage him.
    Mr. Merlis. Yes, sir. I will encourage him. And I will 
provide him with your phone number if he does not take my 
encouragement.
    Mr. Rogers. All right. I would love to hear from him if he 
has a problem.
    Mr. Merlis. He will not.
    Mr. Rogers. How long will it take the DOT to react and act 
on that, do you think, Mr. Mead?
    Mr. Mead. If it comes in as a concrete proposal, I think 
they can move pretty quickly when the airlines are behind it. A 
case in point is the increase in the baggage liability limit 
from $1250 to $2500. The airlines petitioned for that and it 
moved like lightning, especially in comparison to that 3.8 
years I was telling you about last week.
    Mr. Rogers. Well, okay. That is a good step. Proposed step.
    Mr. Merlis. Sir, I just wanted to affirm that we are 
committed to doing the right thing and we have been tardy in 
doing so and you have our assurance that we want to serve our 
customers better. No one should be treated poorly and steps 
that can be taken to improve are a high priority for the 
airlines.

               alpa five steps to solve the delay problem

    Mr. Rogers. Glad to know that. We will test their actions 
by your words. By their acts shall ye know them. All right. 
That is your five. Thank you very much.
    Captain?
    Mr. Woerth. Well, the first thing, as I am a member of the 
Free Flight Steering Committee and if there is any committee 
that has a chance to bring forth realistic proposals and more 
importantly to Appropriations Committee, a budget is one of the 
things we can do together, and as a member of that committee 
committing to absolutely eliminating all competing bids. We 
cannot fund every project in the world and what happens all the 
time, we try to ask you guys for an awful lot of things but we 
have not coordinated amongst ourselves.
    Let us agree amongst ourselves what we need so we do not 
put five requests to you. Let us put two requests before you 
that you can fund and will actually work. All of us will not 
get what we want, but we will be better off coming to Congress 
with a plan the industry agrees on. That is all the operators, 
controllers, the pilots, the military is involved with it, the 
operators. Do a better job of prioritizing what we want from 
you so you are not always having so many requests to deal with 
and you are not trying to fund a lot of projects that never 
come to fruition. Because I am a member of that Free Flight 
Steering Committee as the president of the Air Line Pilots 
Association, we will do that.
    And with John, I commit really to John, we have an 
alliance, a liaison, rather, with the National Air Traffic 
Controllers Association (NATCA). There are two people directly 
involved with the scope and with the flight controls, 
everything we can do together to improve that liaison to make 
sure that we are not in conflict. We coordinate a lot together, 
but every once in a while we bump up against each other because 
of our different responsibilities and to work with air traffic 
controllers to smooth that out.
    The third was to bring into that liaison and dialogue that 
we have had between NATCA and the Air Line Pilots Association, 
frankly, the flight dispatchers, that is where the company 
comes in, that is where the rubber meets the road, that is the 
company's representative on an hour-to-hour, minute-by-minute 
basis. We need to do a better job of bringing the flight 
dispatchers into our decision making group to make significant 
improvements there.
    And the fourth would certainly be, frankly, to take--we are 
going to do everything we can in the Air Line Pilots 
Association to standardize flight time and duty time across the 
industry and not allow egregious behavior by--not all these 
competitors are the same and I want to tell you why that is 
important. Inside a lot of this reporting that the FAA cannot 
agree on, the DOT cannot agree on, what the airlines cannot 
agree on, there are an awful lot of things that end up as being 
reported as crew delay. Well, it was really a crew delay 
because the crew has been scheduled up and passed their legal 
limits by the Federal Aviation Regulations (FARs). That is a 
16-hour duty day.
    And we especially in a lot of our regional carriers that is 
common practice and I am intent on eliminating it, not just for 
the pilots' benefit, for the public's safety benefit, but it 
has a corollary. We are going to have a lot of improvement in 
delays if we do not have unrealistic and candidly unsafe 
scheduling practices by a lot of our carriers that have not 
come to grips with their responsibility on scheduling something 
that has a realistic chance, not just of serving the customer, 
but its flight crew is not going to end up 16 hours later still 
having two legs to go. So we are committed to do that.
    And the fifth thing is the buck stops with us, to never 
lose sight of what we have to do. We are going to cooperate 
with efforts to improve capacity where we can. There is Land 
and Hold Short Operations (LAHSO), there is Precision Runway 
Monitor (PRM), there are a number of different things and we 
will move aggressively to do what is possible, but know the 
difference when we are pushing the safety margins, but give our 
best efforts in every one of those, improve capacity while 
maintaining the highest levels of safety.

              natca five steps to solve the delay problem

    Mr. Rogers. All right. Thank you, Captain.
    And Mr. Carr?
    Mr. Carr. Yes, sir. The very first thing that I am going to 
do and that the people I represent are going to do is to ensure 
that anything else anybody else in this room comes up with is 
measured against the safety of the flying public. We actually 
are at the point of service delivery for that safety and 
between ourselves and the pilots, it is at either end of that 
microphone where the safety of the flying public lies. I am 
going to commit to everyone in this room that any of these 
initiatives that we all come up with and can agree upon are 
measured against that very basic litmus test.
    The second thing I am going to do is I am going to come 
before the Congress at some point and ask you to hire some more 
controllers. I think we need to hire more air traffic 
controllers sooner rather than later. As I previously 
described, we are on the 20th anniversary of the PATCO strike 
of 1981. The men and women that I represent are coming up on 
retirement and I think that we need to proactively hire the 
workforce that is going to replace the workforce that has been 
working the traffic for the last 20 years.
    The third thing I can commit to doing is to working with 
the FAA to reach agreement on key national air space redesign 
initiatives. In addition to freeing up controllers to work on 
national air space redesign by hiring new ones, we can work to 
unleash the human capital that we both represent.
    I believe that the answers to a lot of the questions with 
respect to air space redesign, with respect to choke point 
sectors, with respect to over saturation, is within the 
workforce that I represent. Like I say, they are at the point 
of service delivery. I think they are uniquely qualified to 
give the answers to the agency that they seek on air space 
redesign and I can commit to you that we are going to continue 
to work towards the goal of a clean sheet of paper approach to 
redesigning the air space because the air space has not been 
redesigned since manned flight began.
    Speaking of things that have not been redesigned since 
manned flight began, the fourth thing I would like to commit to 
you is that we are ready, willing and able to join with NASA, 
National Transportation Safety Board (NTSB), the pilots, the 
FAA and any interested parties that think it might be prudent 
to conduct a study and a very careful examination of separation 
standards. The separation standards that are currently in use 
date back to the late 1940s and early 1950s. They were invented 
out of whole cloth. They were basically agreed upon due to 
limitations in radar, limitations in equipment, and they date 
to the dawn of radar itself.
    I find it extraordinarily hard to believe that the 
separation standards which literally were made up 50 years ago 
are the actual, real number. So I can commit to you that any 
time the community of aviation wishes to take a realistic 
reexamination of those separation standards, we are ready, 
willing and able to do that. Any marginal or fractional 
decrease in separation standards, again, has to be measured 
against the litmus test of safety, but could instantaneously 
free up unused capacity in the system.
    Fifty years ago they said five miles is an adequate 
separation distance. I am not so certain that they knew that 
then. I think they knew that it was plenty, I do not know if 
they knew if it was the number. So we stand ready to take a 
look at those any time anybody is willing.
    And the last thing that I say that we will commit to do, in 
1996 the Congress passed FAA reform. The FAA reform bill 
created the Management Advisory Council (MAC). AIR-21 last year 
identified the players on the Management Advisory Council. It 
provided for a labor seat on the MAC. The MAC has already met 
several times and yet the labor seat on the MAC continues to 
languish. So I would like to encourage the members of this 
subcommittee to work with the administration to fill the labor 
seat on the MAC. That committee continues to meet without 
labor's participation. I think the labor seat on the MAC should 
be filled and as long as I have the microphone I think you 
should fill it with me. And those are my five.

               faa five steps to solve the delay problem

    Mr. Rogers. Ms. Garvey?
    Ms. Garvey. Mr. Chairman, thank you. I have actually six 
because I added delays.
    First of all, complete the implementation of the choke 
point initiatives and to measure the results. I think that is 
almost as important as implementing the initiatives, but really 
taking a look at what we are getting from it, is it making a 
difference. So measuring the results, I think, is very 
important.
    Secondly, use the capacity benchmarks as a springboard for 
action boards for the top 10 airports. Each one may be 
different, but I think an action plan for the top 10 is 
important.
    Number three, keep Free Flight Phase 1 and Free Flight 
Phase 2 on track, get it implemented and deployed. We have met 
every schedule and stayed on budget with Free Flight Phase 1. 
We want to make sure we keep at that and also implement Free 
Flight Phase 2.
    Number four is to reach agreement with the airlines on the 
National Operation Evolution Plan. That is the 10-year 
strategic plan that the Inspector General referred to. We think 
it is critical and it is important. We look forward to really 
reaching a conclusion with the airlines on that.
    Number five would be to work with the airport community and 
the initiative around streamlining some of the projects for 
capacity. Again, we would probably focus on the top airports. 
We are committed to getting a report to Congress in April with 
some recommendations around environmental streamlining. We will 
meet that deadline and also continue to work with Mr. Barclay 
and others on other initiatives around streamlining. And then 
finally, of course, define delays in time for the budget 
hearing. We will take that on willingly.

                ig five steps to solve the delay problem

    Mr. Rogers. All right. Thank you. And Mr. Mead.
    Mr. Mead. I was taking notes here as my colleagues were 
laying out their lists and I think consistent with what our 
role is, we have the good fortune of not having to run these 
programs. We audit them, review them and investigate them, so 
we grouped what we would do into five categories also, but they 
lend themselves more in terms of reporting to the community and 
to you and to the Secretary on the status of these various 
initiatives, chief among which were the causal tracking system. 
We think we need to run that to ground and we will stay on top 
of that and report to you and others on the exact status of it 
and what needs to be done to fix it.
    Once the airport capacity benchmarks are issued, we think 
we probably could play a good role there in tracking dispersal 
of flights from your main hubs to sub-hub activity; we'll also 
analyze what these benchmarks mean in terms of the future 
because we do not want them to be static. We do not want to 
live with the status quo.
    On the runway projects, we feel we need to establish what 
the milestones are and to track where they are in relationship 
to the costs of the projects.
    Also, a number of initiatives that Ms. Garvey mentioned, we 
think we could usefully be some eyes and ears to check on the 
status of the implementation of those.
    And you should also know that on the demand management 
front, how you manage demand during the short-term period is an 
area that I think is going to get increasing attention in the 
next year or two and we would provide you, the Congress and the 
secretary, with an analysis of that.

                        whistleblower protection

    Mr. Rogers. All right. Does anybody want to comment on any 
of the others' points before we wind down here?
    Mr. Woerth. One point, if I could, Mr. Chairman. One of the 
things that is going to be a key in this whole process, working 
with the FAA and NATCA, is really if we are going to get to the 
truth of what separation can be and what is the safety system 
and what are our real margin of safety, we need to have what we 
call a no-fault reporting system. The air traffic controllers 
and the pilots, to keep it safe, need to tell everybody the 
absolute truth of what is going on there but not fear that 
every single time we are going to get fired for telling you 
what is really wrong with the system.
    That is what we have right now, we have a punishment system 
and it is designed that way because of FAA enforcement. We are 
working with Ms. Garvey to ensure that--and with NATCA, whether 
it be ``snitch patch'' on busting five-mile separation rules or 
anything that a pilot might be involved with deviation, if we 
are going to find out what this capacity can actually do, we 
need to know the absolute truth so we can have absolute safety 
at the same time. And we are not going to get there until we 
have no-fault reporting, especially on the basis of pilots and 
air traffic controllers.
    If we can do that, we will find out what we can really do. 
That is getting to the point about having the right data, the 
right facts, we can all agree on something. I know John and Ms. 
Garvey agree with us, if we can get to that, we will find out 
what we can really do with this system.
    Mr. Rogers. What do you say about that, Ms. Garvey?
    Ms. Garvey. Mr. Chairman, we agree fully. We are in the 
process of developing a rule just to that effect. As Mr. Mead 
knows, we have had some difficulties with some of the other 
agencies, they have a slightly different point of view, but I 
know that this Secretary seems very prepared to work that 
through the current Administration, so we look forward to that.
    Mr. Mead. Do you recall, sir, last week we were discussing 
rulemakings? And one I mentioned, I said I thought in our 
judgment the FAA had taken it about as far as they could? It's 
the one on the sophisticated black boxes and there were issues 
with the Justice Department and the Environmental Protection 
Agency and OMB. This is the rulemaking that Ms. Garvey was 
referring to.

                          separation standards

    Mr. Rogers. And on the separation question, what is your 
reaction to that?
    Ms. Garvey. Mr. Chairman, I just actually made a note to 
myself to talk with John. I think that is absolutely the right 
question that we need to be asking. And his point about 
bringing in the NTSB is, I think, to be applauded. I think it 
is a standard that is very old and is worth reexamining. It is 
not easy because obviously we all care very deeply about 
safety, but I think having the controllers, the pilots, the 
NTSB at the table, I think you would have the right players 
certainly.

                               conclusion

    Mr. Rogers. Okay. Now, we have your five goals that each of 
you have set for yourselves and for the system and it is quite 
a bite out of the apple. If we can achieve these five steps 
that each of you have outlined, we will have gone a long way.
    So what I propose is that we have had such a good time 
today that we reassemble this group in about a month or six 
weeks and we want a chance to give you a report card about how 
well you will have achieved the goals that you are setting out 
because the only way I think we will make these things happen 
is if somebody forces all of us to pull the same direction and 
communicate with each other, as well as the Congress.
    So you will be receiving an invitation to reappear here and 
to let us chat with you about how well you are doing and we 
will keep that brief. It will be probably--I do not want to set 
the date at this time, but the Secretary of Transportation is 
scheduled to testify in about a month, I think, about six 
weeks, and I would like to be able to do that before he comes 
so that we can all cheerfully report to the Secretary that we 
have all of these problems solved.
    Is that agreeable with everyone?
    Anything further?
    [No response.]
    Mr. Rogers. Mr. Clyburn, you have not had a chance to ask 
questions. Would you like to be recognized?
    Mr. Clyburn. No, Mr. Chairman. I have really been on the 
phone for the last 45 minutes trying to get from here to San 
Jose and it is proving to be quite an issue to try and get that 
done today. So maybe in six weeks I will have something to say 
about it.
    Mr. Rogers. Well, as somebody once said, I would just as 
soon be in Philadelphia.
    Well, thank you very much for your time. We have kept you 
beyond what we had hope. So we will see you in a few weeks and 
thank you so much for participating.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 15, 2001.

                           Afternoon Session


                               WITNESSES

AMR EL SAWY, PRESIDENT, CENTER FOR ADVANCED AVIATION SYSTEMS 
    DEVELOPMENT, MITRE CORPORATION
JOHN HANSMAN, MASSACHUSETTS INSTITUTE OF TECHNOLOGY
GEORGE L. DONOHUE, GEORGE MASON UNIVERSITY
CYNTHIA BARNHART, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

                            Opening Remarks

    Mr. Rogers. The Subcommittee will be in order.
    This afternoon, we are returning for a second session on 
the subject of airline delays and cancellations.
    This morning, we had representatives of the major 
government agencies and associations representing the aviation 
community and they have told us what they were going to do and 
be held accountable for over the next few weeks to address the 
delay problem which has reached epidemic proportions, as you 
know, in this country.
    They gave us five solutions each that they will be working 
on. We intend to have them back here in this room in five or 
six weeks to see how they are doing on those five chores that 
they have set for themselves each.
    This afternoon, we want to delve more deeply into an 
understanding of the delay problem itself, receiving testimony 
from a group of independent university professors and from 
Mitre Corporation's Aviation Research and Development Center.
    I hope this analysis will help us verify whether or not the 
items selected this morning are on the right track. Your 
independent perspective is greatly appreciated.

                       Introduction of Witnesses

    So I welcome the panel today. We will first hear from Mr. 
Amr ElSawy, the senior vice president of the Mitre Corporation 
and General Manager of Center for Advanced Aviation System 
Development; then we will receive testimony from Dr. Cynthia 
Barnhart and Dr. John Hansman from the Massachusetts Institute 
of Technology (MIT) and from Dr. George Donohue of George Mason 
University. And Dr. Donohue has appeared before the 
Subcommittee before as FAA's head of acquisition and research. 
The others, I think, are new before the Subcommittee.
    We will receive your oral statements in the order that I 
described and then proceed to questions. We will file your 
written statement as part of the record and you will be invited 
to summarize it orally for us as briefly as you can.
    Before we proceed, though, let me yield to my colleague.
    Mr. Sabo.
    Mr. Sabo. No opening, Mr. Chairman.

                   Mitre Corporation Opening Remarks

    Mr. Rogers. Okay. Mr. ElSawy, the floor is yours.
    Mr. ElSawy. Mr. Chairman, good afternoon, and thank you 
very much for the opportunity to be here.
    What I would like to share with you today is the result of 
work that was done with the Federal Aviation Administration in 
collaboration with airlines, airport authorities, air traffic 
control facilities, the command center. So what you see here is 
analysis that takes a variety of different perspectives. I will 
cover three scenarios from actual operations in June 2000, 
focusing primarily on three areas that we feel really 
demonstrate some of the causes for enroute delays that you 
addressed earlier in this morning's session.
    And then I will talk about what is happening on the ground 
and how those two mesh together to provide some clarity on the 
problem of delays.
    This is a picture of the en route centers of the contiguous 
USA. We heard a lot this morning about the northeast and what 
is happening with the northeast.
    The boundaries that you see on this picture represent the 
air traffic control center boundaries. Of course, each of those 
centers is responsible for traffic and for the control of 
traffic in its boundaries and then as airplanes and users cross 
those boundaries, then there is communications between the 
centers.
    What I show here are the routes for the Newark arrivals 
from the west. As I start adding the arrival routes for Kennedy 
and JFK and LaGuardia, the density of those routes increases 
quite substantially and it really starts demonstrating the 
funnelling effect that you heard about this morning in the 
statements by Mr. Carr.
    Now, those are the routes in the system today and those are 
based upon the existence of ground-based navigational aids. As 
we start moving towards GPS and more sophisticated navigation 
systems, you will get some flexibility in those routes and you 
will start seeing some improvements in the navigational 
capability for aircraft to take advantage of that increased 
accuracy. But, even though you are adding flexibility and 
capacity in the air space, you will still need to be able to 
land those airplanes and funnel them through the particular 
airports that they are destined for.
    So in fact the first scenario that I want to address, and 
this was all done in preparation for the establishment of the 
creation of the NAS Operational Evolution Plan that 
Administrator Garvey referenced this morning, that strategic 
plan that starts to look at what are the causes of the delays, 
what are the basic problems in the system and how do we address 
them.
    I am going to step through this scenario very quickly.
    The first problem we characterized as widespread delays 
resulting from local problems.
    What you can see is Newark airport right here and Newark 
airport has traffic destined for it. Five arrivals show up in 
the air traffic system more than were expected in Newark and 
certainly more than the scheduled capacity of Newark at that 
time.
    At that point in time, the New York center notified the 
Cleveland center that it cannot accept any more arrivals into 
the Newark airport.
    The result is that the Cleveland center begins to hold 
incoming Newark aircraft further out into the enroute system 
and you start seeing a propagation of that holding pattern in 
those areas.
    Now, that does not mean that all of those aircraft are 
going to be delayed. They are simply impacted by that capacity 
constraint in Newark.
    The problems can then cascade in a very short time. As far 
back as Minneapolis, and Chicago, centers start seeing 
congestion and, in fact, the problem that started out as an 
airport demand capacity imbalance quickly translates into a 
problem of en route congestion because there is simply no more 
air space available to relieve that congestion.
    And so, in fact, what you start seeing in the system, and 
this is--we discussed this this morning and you heard many 
discussions about this--the various airports start being 
affected and the flows from various parts of the country into 
those airports also start being affected because the air space 
is congested.
    So when talking about capacity and delays, we have to talk 
not only about the capacity of the air space, but also the 
flexibility of the air space to move traffic around. Some of 
the initiatives related to air space design, and this was one 
of the commitments that was made this morning, I think is a 
very, very important element of the solution set that you were 
starting to ask about.
    The air space in the northeast to accommodate and to 
resolve the choke points is extremely important, the 
resectorization is extremely important and the staffing 
associated with those sectors is also extremely important. So I 
wholeheartedly agree with those commitments.
    The second scenario is one that was also raised this 
morning where this is an example, and everything I am showing 
you is based upon actual information, it is not simulated, this 
is actual data that we used to analyze the situation.
    On one day, the New York area traffic flows were affected 
by a very thin line of thunderstorms that persisted over an 
extended period of time.
    The New York area metro traffic was then diverted to avoid 
the weather and to take advantage of holes in the weather 
pattern. That in turn started affecting the D.C. metro flows 
and the other airports that you heard about today like Atlanta 
and DFW and Houston. And this scenario repeats on a regular 
basis as you start shifting the traffic flows. There are always 
aircraft coming into the system and I think Professor Hansman 
will show you a very clear demonstration of what that looks 
like.
    Even as the controllers in the command centers start 
shifting that traffic to allow the maximum number to go 
through, you still are impacting other parts of the system in 
ways that in fact are pretty clear here.
    So, in fact, in Atlanta, you could very well get a delay as 
a result--if you are going from Atlanta to Minneapolis, for 
example, or if you are going from Atlanta to the New York area, 
you would very much get a delay that is ``weather related,'' 
but when you look outside the weather is perfectly clear.
    So in terms of the communication that we talked about and 
the information sharing and so forth, this is an example of why 
timely, shared information is needed.
    Also what you can see is that as this scenario develops the 
density of the traffic in Atlanta and around the northeast 
becomes very, very high and that is an essential element of 
some of the improvements that Administrator Garvey talked about 
in the free flight programs. To, in fact, provide the tools to 
the controllers to be able to handle that increased level of 
congestion. That is another component of the commitments this 
morning that I think was very much valued and exactly right on 
track.
    The third scenario is a little bit different, but just as 
predictable, and this is what happens in San Francisco. San 
Francisco has fog on a regular basis. That fog results in 
essentially a halving of the capacity for the San Francisco 
airport and, in fact, the result is that the departures and the 
arrivals cannot come into the airport which then ripples 
through the system on a regular basis. And that is an example 
of where some of the technologies are really needed in order to 
improve the capacity of the airport.
    I think there was a commitment made to look at parallel 
runway monitor technologies as well as LAHSO procedures and 
things like that and I think those are the kinds of activities, 
although LAHSO would not help in San Francisco, it certainly 
would help in other places. Again, so I would agree with that 
recommendation as well.
    So this is what is happening in the air. We are now going 
to shift gears a little bit and go to what is happening on the 
ground.
    This is an actual simulation of the LaGuardia operation at 
four p.m. This work is the result of, again, a lot of 
collaboration with the air traffic control facilities, with the 
LaGuardia authorities, with the tower controllers, and this is 
a very high fidelity simulation, so every aircraft, the gates, 
the taxiways, the runways, and the air space around the 
LaGuardia airport is very much true to the actual operation, 
but this is sped up.
    It will just take you a minute here to see what is 
happening in the airport and what you can see are the arrivals 
coming in from the top, and the departures lining up.
    The length of the departure queue that you see is close to 
a mile. And so you could see a tremendous number of aircraft 
that are sitting on the runway waiting to depart and it really 
indicates very clearly how the resource in the airport is so 
over constrained there is no capacity and there is no 
flexibility and there is no margin for anything out of the 
ordinary to happen.
    What I showed you here is what happens on a perfectly clear 
day. You can imagine as conditions deteriorate, as runways are 
affected by debris or other issues how the capacity of 
LaGuardia becomes severely affected.
    So we asked the question, so what is the impact of one 
airport or any number of airports on the rest of the system? 
And, again, we took some actual data, we looked at delayed 
flights as defined in the airline service quality performance 
data and actually ``flew'' the system on an airframe by 
airframe basis and this is what it looks like.
    So in the morning, this is an example of LaGuardia, and I 
am only using LaGuardia to illustrate a set of the points that 
we discussed today. Out of 34 airports early in the morning, 
204 flights are destined to go to LaGuardia. Conditions at 
LaGuardia are such that 144 of those flights are delayed. 
Seventy-one percent of the flights going into LaGuardia get 
affected.
    At LaGuardia, there are other flights that are sitting 
ready to take off and so the 204 that came in plus an 
additional 34 that were already at LaGuardia start getting 
ready to take off. They also are delayed. The percentage of the 
delay there, this is the first leg now out of LaGuardia to 37 
other airports and you can see that the percentage of delay 
there increases to 77 percent.
    Those aircraft that have now arrived on their first leg are 
now preparing for the second leg and they move to 62 other 
airports. You could see the percentage delays there are not 
much better, 69 percent. And then finally, in the third and 
fourth leg of the system, by the end of the day, you have 
affected essentially 74 airports and the percent delay in the 
system has not changed substantially because we are now still 
operating with that delay, that resource that is common gets 
used over and over and over again as part of the system 
strategies that the airlines are using and therefore you see 
that effect propagate through the system.
    Now, this is on a day where things were bad, but they were 
not bad enough for a lot of cancellations to be there. So as a 
result, what you can see here is that--and we have done this 
for the seven top airports that you were asking about earlier 
today, both on good days and on bad days.
    On a good day, you see a very interesting effect, which is 
that if LaGuardia's delays are reduced by 20 percent, then you 
see a very quick dampening effect in the other airports, so the 
effect is not as great.
    All this points to the plan that Administrator Garvey 
referred to where we basically looked at the four basic 
problems in the national airspace system, en route congestion, 
arrival/departure throughput, airport weather conditions and en 
route severe weather, and we have identified solutions in each 
of those areas that are agreed to by the community. We are 
working with the airlines, with the general aviation community, 
with the controllers as well as with the pilots to put together 
a set of solutions that make sense and that people will think 
will start addressing the problem.
    None of these are easy by themselves and will require the 
commitment that I think, Mr. Chairman, you expected this 
morning and also will require a great deal of consistency in 
the execution of these plans.
    One of the areas that did not come up this morning as a 
recommendation and I would certainly think it is very important 
is that when you start thinking about the new technologies that 
need to be introduced into the system, not only from the air 
traffic control side but also from the airframe side, the 
aircraft themselves need to be equipped to be able to meet the 
higher standards of required navigational performance and 
required communications performance.
    As we start talking about adding flexibility, as we start 
talking about adding precision to the way that we fly and to 
the way that the aircraft use the system, we also need to 
incentivize the accelerated implementation of avionics that can 
support that. And this is one of those areas that can in fact 
start leveling the playing field a little bit in terms of the 
capabilities of the various aircraft, small and large, and also 
provide the controllers with the ability to manage the system 
in a more effective way.
    With that, I will take any questions you may have. Thank 
you for your time, sir.
    [The prepared statement of Mr. ElSawy follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 MIT Professor Barnhart Opening Remarks

    Mr. Rogers. Thank you very much. Dr. Barnhart.
    Ms. Barnhart. Let me begin by saying thank you for the 
opportunity to talk to you today. I have prepared a short 
presentation to describe some of the work that is going on at 
MIT under the umbrella of the Global Airline Industry Program, 
which is a new program we have. It is about a year and a half 
old, funded by the Alfred P. Sloan Foundation, and this is just 
one of the many research activities that we are undertaking.
    In this presentation I am going to describe some of the 
work we have done in looking at airline flight delays and 
cancellations and I think importantly the impact on passengers. 
So let me begin with some simple statistics.
    If you take a look at the delays experienced by aircraft 
over the time period from 1995 to 2000, you see that the 
percentage of flights that are arriving later than scheduled is 
not changing all that much in this timeframe. So you see in 
2000, the percentage of flights arriving late is about 50 
percent, not so different from the previous years.
    You go a little bit further and you look at the average 
delay experienced by flights that are being operated, you see 
again something that might be somewhat surprising. In 1995, the 
average delay was six minutes; in 2000, it has increased, but 
to an average of 10 minutes per flight.
    Let us take one more look at a statistic and here we are 
looking at the on-time performance as defined within 15 minutes 
of scheduled arrival time. And here you see that from 1995 to 
2000, on-time performance has worsened, but it is still showing 
that over 70 percent of flights in 2000 are on time.
    So the question we asked was why, then, if you look at 
these statistics are passengers so disgruntled?
    And our response is that simple statistics are misleading. 
They do not tell the whole story. The statistics that I just 
presented talk about aircraft delays, but there is not a direct 
correlation between aircraft delays and passenger delays, so 
let me give you a couple of slides here that try to explain as 
you delve more deeply into this why aircraft delays seem to be 
somewhat controlled while passenger delays are growing at a 
much quicker rate.
    So here what I show is if you contrast 1995 and 2000 and 
you look at the number of flights that are delayed, you will 
see that there is a shift from flights experiencing short 
delays, that is, 15 minutes or less, to flights experiencing 
long delays, more than 45 minutes.
    So you see that between 1995 and 2000, the number of 
flights delayed more than 45 minutes is almost doubling. And 
you further see that the total minutes of delay associated with 
those flights, these long-delayed flights, is increasing 
rapidly.
    Now, why is this important?
    Well, it is important because it has really critical 
effects on what the passenger experiences, so what I have done 
here is I have put a summary chart and we have taken data 
provided by the ASQP that shows both the scheduled flights on a 
given day and the actual schedule for those flights.
    As part of this Global Airline Industry Program, we have 
gotten data from one of the major airlines in the U.S. that 
shows their passenger demand data for that day. And what it 
shows is that although on average aircraft arrived early, the 
average passenger delay was 25 minutes.
    So the question is how can this be, that aircraft on 
average arrive early but passenger delays are 25 minutes?
    And the key to understanding this is to look at the mix of 
passengers, the local passengers and the connecting passengers.
    A local passenger who flies on a single leg, the delay they 
experience is much more closely related to the delay the 
aircraft experiences, so they experience here an average 10-
minute delay.
    Well, you might ask, why do they experience any delay at 
all on average when the average flight delay is negative?
    And the answer to that question is that there are 
cancellations in the system and when you compute average delay 
minutes for the aircraft, canceled flights do not come into the 
calculation, but they do for the passenger because when their 
flight is canceled then they have to be reassigned. Their 
arrival time can be delayed significantly.
    Now, if you take a look at the purple bar here, you see the 
average delay for the connecting passengers is more than 30 
minutes and what is happening here is that as you shift from 
the shorter delays to the longer delays, more and more 
passengers miss their connections, and so although the flight 
they were supposed to connect to might have arrived on time 
they are not on it and they have to wait until the next flight 
or, with these increasing load factors, perhaps even the flight 
after that before they are able to finally get to their 
destination. So you see that the delay experienced by the 
aircraft can be very different from that experienced by the 
passenger.
    Another important point to look at is canceled flights. 
Again, because the delay experienced by passengers is a 
function of canceled flights, we took a look at this and what 
we found was that from 1995 to 2000, the cancellation rate 
increased significantly. And as we delved a little more deeply, 
we found that there are two things to look at here: the green 
plot and the blue one.
    The green one represents the cancellation rate starting at 
about 1 percent in 1995 to about 4 percent in 2000 for all the 
major U.S. airlines except Southwest.
    Southwest is the bottom blue line. That shows that from 
1995 to 2000, their cancellation rate has been maintained at a 
pretty constant rate of about 1 percent.
    So the question that arises here is why this difference?
    And so we took a look at hubs and what we found was that if 
you look at the hubs for the various large airlines and you 
compare the cancellation rate in 1995 with that in 2000, you 
see that there has been a tremendous increase in the rate of 
flight cancellations. And so this phenomenon at the hubs has 
resulted in an increase in flight cancellations for the major 
airlines using these hubs.
    So let me just summarize that what we are finding with this 
work is that the simple statistics that measure aircraft delays 
are not adequate to measure passenger delays because there is 
the issue that passenger delays can outpace aircraft delays, 
sometimes significantly, especially as the number of connecting 
passengers increases, as cancellation rates increase and as 
load factors increase, and so managing passenger delays and 
congested hub and spoke networks can be especially challenging.
    As part of our work, we will further investigate the 
impacts of these various network structures and schedules on 
both aircraft and passenger delays.
    Thank you.
    [The prepared statement and biography of Ms. Barnhart 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 MIT Professor Hansman Opening Remarks

    Mr. Rogers. Thank you. Dr. Hansman.
    Mr. Hansman. Before I start with the comments, I thought I 
would show you this movie which to me is the nicest 
illustration of the dynamics of the U.S. system.
    This is a depiction of traffic in the U.S. from real data 
on a particular day, I think it was in April. It is 24 hours of 
traffic. When I start the movie, hopefully we will get it 
starting, you are sort of late in the day here and you can see 
traffic flowing into the hubs such as Chicago, New York and 
whatever.
    We are going to go into the overnight time, you will see 
the traffic will die down. You can actually see traffic going 
into the cargo hubs, Memphis and Louisville.
    About this time, this is late in the night, you can see the 
traffic going out of the cargo hubs to the East Coast.
    And look very carefully, here at dawn you can see this 
blossoming of traffic on the East Coast and a wave of traffic 
moving across the country until----
    About here you are sort of midday U.S. where we have about 
5500 airplanes in the air being controlled at any one time.
    So you can see that this is a very dynamic system, a 
tightly coupled network, where any interruption is going to 
propagate into the system.
    Now, let me go to the slides.
    So what is the U.S. capacity issue?
    Our transportation is approaching--this is my position--a 
critical saturation threshold where nominal interruptions such 
as weather result in a non-linear amplification of delay. The 
U.S. and regional economies are highly dependent on air 
transportation for business, freight and personal travel.
    The system is sufficient complex and interdependent that I 
would argue that nobody really fully understands the dynamics 
of the system and we need to better understand it to guide and 
justify the efforts to upgrade the system.
    I will try and show you that the current efforts will not 
provide sufficient capacity to meet demand and we really do not 
understand the impact, both in terms of its operational impact 
and economic impact.
    This just shows you the same thing. We have been too 
successful in our air transportation system. This shows you the 
growth over the last 40 years in traffic demand.
    If you look at the classic queuing model, delay versus 
demand curve, this is demand here, this is delay, we are 
starting to approach the capacity limit. And when you do that, 
a small increase in demand results in a large increase in 
delay, so you can think of this as a particular airport in the 
system, particularly the hub airports, or it could be the 
overall system. And really what is going on with the hub and 
spoke system is you are getting peak problems in the capacity 
demand.
    The delays are getting worse. I will not spend a lot of 
time talking about this, you have heard that today.
    I want to tell you a little bit more about the national 
airspace system and air traffic control. Air traffic management 
is not really a designed system, it is an evolved system.
    Air traffic management, the way we practice it today, is 
really a contract process where we negotiate for air space and 
airport service resources. It has evolved over 60 years. The 
system has local adaptations which make it non-homogeneous, and 
as a result, air traffic in New England is actually very 
different from air traffic in the middle of the U.S. 
Controllers cannot easily switch sites. It takes three to five 
years for a controller to be trained at a new site.
    Another thing to remember is that major operational changes 
in the system were actually driven by crises coupled with 
technical capability, so positive radar control was the result 
of a collision over the Grand Canyon in 1956 and TCAS was a 
result of a collision in Cerritos, California in 1982. There is 
an interesting question as to what will be the impetus to cause 
us to really go to a different paradigm in our system.
    If you look at the overall capacity of the system, there 
are factors which limit capacity. In terms of the airport, the 
capacity is limited by the runways, the gates, land side limits 
and the weather affects the capacity. The air space is also a 
factor and Amr talked a little bit about it, the air space 
design is an issue. Controller workload is an issue in what I 
call Balkanization here.
    Air space was originally really organized under a sort of 
independent strategy where each air space unit could really be 
controlled and operated independently and as the system has 
become more tightly coupled, we now have issues that show up 
when you have problems that propagate across air space 
boundaries.
    The demand has grown by the hub and spoke and we have a 
hard time increasing our runway capacity due to environmental 
problems, particularly noise.
    I just want to take you through why airlines do a hub and 
spoke system.
    If you were an airline and you wanted to run a network, 
this is a simple example of a 50-airport network. If I have hub 
and spoke, I can fly through the entire network with two times 
the total--N minus one flights, which means for 50 airports, I 
can cover the network with 98 flights.
    If I wanted to cover that entire network with direct 
flights, it would take N times N minus one, so it would take me 
2450 flights to cover the same network.
    So from an airline standpoint, it is very efficient to fly 
the hub and spoke. And what this really means to the traveling 
public is that the airlines can justify service into weak 
markets that they could not otherwise justify if they had to do 
it in point-to-point.
    If we look at the airport system in terms of its capacity 
limits factors in more detail, the way we view it is you can 
think about the airport and the way airplanes flow through the 
airport so they flow in through an entry fix, through the 
arrival fixes, they share runways, taxiways and ramp resources, 
and then they turn at the gates and then become departures on 
the outbound.
    The constraints, the number one constraint is runways, 
which is a major factor for both safety reasons and 
environmental reasons. The runway capacity varies with weather 
and I think you heard that this morning, which is a major 
issue. If you were to resolve the runway problems, we actually 
have a shortage of gates in many airports in the U.S.
    The big problem, and Amr showed you an example, is that 
downstream constraints, constraints at other airports, actually 
back propagate to the runway and we hold airplanes on the 
runway because of problems at other airports.
    The controller workload is actually a limiting factor and 
we see this. There are problems in the land side limits. It is 
interesting, for example, at Newark, the constraint on 
departure capacity for Continental Airlines is actually how 
many cars they can get through the terminal in front of them.
    Environmental constraints and safety are real issues. One 
of the problems is that we really do not understand we do not 
know how to do the safety versus capacity tradeoff. If I am 
going to increase the capacity of the system without adding any 
more resources such as runways, inherently I am going to have 
to have the airplanes fly closer together and we really do not 
know how to look at that. So let me give you one example in 
terms of radar separation.
    The radar separation assurance can be thought of this way. 
I have an airplane and there is some real hazard zone around 
the airplane. If I go in here, I hit the airplane.
    The purple area here is uncertainty as to where that 
airplane is due to my surveillance, due to my radar 
performance.
    The minimum separation standard is here as a dashed line 
and the difference between the separation standard, for 
example, en route separation is five miles and the radar 
performance is what I call the procedural safety buffer.
    Now, it turns out, outside of that minimum separation 
standard is an additional personal safety buffer that the 
controllers will add because they get violated if they go 
within the minimum separated standards, so because they cannot 
perfectly control the situation, they are going to add some 
buffer.
    Now, the interesting thing is if you look at the 
performance of the radars, the en route radars, when these 
standards were set up in 1950 at five-mile radar separation, 
the performance of the radar was only about four and a half 
miles uncertainty, so there was significant uncertainty in 
terms of the position of the airplane.
    Now, the radars have gotten significantly better. They have 
gotten better by about a factor of two. So you would think that 
we have taken advantage of the technology, but in fact we have 
not. This is again a cartoon. Here are the radar separation 
standards in the 1950s. The surveillance has gotten better, but 
what we have done is we have used the increase in the 
procedural safety buffer to improve the effective safety buffer 
in the system. Because we never designed this in, this was not 
an engineering factor, we do not really know what is in here, 
we do not really know why people are using it, so it becomes 
very hard to say close up the separation and, in fact, we 
really have no process for closing the separation.
    What can you do against the capacity shortfall?
    Well, let me say that there is talk about full or partial 
privatization. That may improve modernization costs and 
strategic management. It will not really make a significant 
impact on capacity. You can re-regulate or do peak demand 
pricing to control the demand. That will reduce the service to 
weaker markets. You need to make sure that the monies received 
from peak demand pricing are going to go into improving 
capacity.
    You can run the system tighter which requires improvements 
in the communications navigation surveillance that Amr talked 
about. However, you have to figure out how to do the safety 
versus capacity tradeoff.
    You can build more capacity, but that has problems with 
local community resistance.
    You can look at multi-modal transportation, but that is 
something we have not done very effectively in the U.S.
    So the conclusion is the technology in the pipeline will 
have limited impact on the peak capacity of currently stressed 
airports, I say 20 to 40 percent optimistically, this is way 
optimistic. The system is currently capacity restricted.
    Airlines will ultimately schedule in response to the market 
demand, but they will schedule to tolerable level of delay from 
their own operations. It is a phenomena we call delay 
homeostasis.
    There will be increased traffic at secondary airports. For 
example, in my area, Manchester, in Providence, they are seeing 
increased demand, but the high value passengers still are 
demanding high frequency service.
    You probably know the average size of airplanes for the 
large air carriers has gone down by about 10 percent in the 
past few years.
    Overall system response not clear. We need more runways. We 
need new air traffic management paradigms and ultimately we 
need forcible leadership to convince people to make the 
changes, which is very hard. There are a lot of people who will 
fight the changes, but we need that unless we want to live with 
the capacity of the system as we currently have it.
    Thanks.
    [The prepared statement and biography of Mr. Hansman 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                George Mason University Opening Remarks

    Mr. Rogers. Thank you.
    Dr. Donohue.
    Mr. Donohue. Yes, sir. You can bring up the house lights. I 
am going to forego any slides.
    Mr. Donohue. Thank you, Mr. Chairman. It is a privilege to 
appear before you and your committee this afternoon.
    The full testimony I have submitted for the record and so 
with your permission I will just give a brief summary. The 
graphics that I think are important to my testimony are 
included in my submission and I will forego them this 
afternoon.
    To a great extent, I support the major observations of my 
colleagues at the witness table. In my opinion, the delays in 
flight cancellations experienced in 1999 and 2000 will continue 
to increase for the foreseeable future, absent a major economic 
downturn which would decrease demand on the system. This is no 
matter what the FAA or the airlines do.
    Also, due to budget constraints and a lack of industry 
confidence in the FAA's ability to successfully make 
substantial changes, the FAA blueprint for modernization, 
sometimes called the NAS Architecture 4.0, is not designed to 
substantially increase the air transportation safety or 
capacity until well past the year 2010.
    As you know, the U.S. hub and spoke system is approaching a 
capacity crisis. Both safety and capacity are intertwined, as 
several of my colleagues have already told you. With current 
technology and procedures, the fundamental capacity cannot be 
increased much further without decreasing safety.
    Today, most air traffic modernization research is done by 
NASA, not the FAA, and NASA's aeronautics budget is of enormous 
importance to the FAA capacity improvement. This is a 
congressional problem because of the different committee 
structures overseeing their budgets and there is always a 
coordination issue.
    The FAA's research budget, however, including funds for air 
traffic, airports and certification, must be increased to 
permit a close involvement with NASA's AvSTAR and SATS 
programs. Technology transfer is a contact sport and unless the 
FAA is involved with what NASA does, whatever technology comes 
out of that research will not be effectively transferred to the 
FAA.
    Specifically, the increase in system throughput by a factor 
of three, which is NASA's stated goal, in my opinion is not 
achievable using current paradigms, especially while reducing 
accident rates by an order of magnitude.
    There are five primary capacity limitations that lead to 
delay.
    First of all, as Professor Hansman has said, aircraft 
spacing, I will say especially on approach to landing, is 
fundamental to system capacity and therefore to schedule 
delays. Aircraft spacing is limited by current surveillance 
system accuracy and, more importantly, communication system 
time lag delays, which generates some of that safety buffer 
that Professor Hansman was talking about, in my opinion.
    New, more accurate GPS technology is available to safely 
reduce current spacing. However, an internationally accepted 
data communications standard is required to implement this 
technology for surveillance. Such an agreement has not been 
reached and the FAA has not certified this technology for 
aircraft certification.
    The FAA needs to make a clear, unambiguous decision on this 
data link system, preferably this year. It is called ADS-B or 
Automatic Dependent Surveillance Broadcast.
    The second primary cause for delays and capacity limitation 
is bad weather. You have heard this from some of the other 
witnesses. Bad weather causes the FAA to increase separation 
between aircraft or institute a system wide ground delay 
program, which you may have heard about this morning, which 
greatly reduces system capacity during times of severe winter 
weather or spring/summer storms.
    Better utilization of new convective weather forecasts is 
required to prevent overly restricting the NAS capacity which 
causes unnecessary flight delays and cancellations. Better 
National Weather Service aviation forecasts and procedures for 
making decisions based upon those forecasts are needed and the 
National Weather Service Aviation Initiative should be funded. 
Again, something that is somewhat outside of the control of the 
FAA's budget, but absolutely essential to being able to deal 
with some of these severe capacity problems.
    Third, wake vortex separation sets the closest spacing that 
aircraft can safely separate on approach to landing. Technology 
is available and new systems are required to sense and monitor 
the strength of aircraft wake vortices. The FAA needs a strong 
wake turbulence research program and the FAA needs to fund the 
airport modernization matching grants to begin implementation 
of these systems.
    Fourth, en route sector loading constraints due to human 
factors cognitive workload limitations. This is an important 
factor for the en route problems that you may have heard about. 
It reduces capacity in a limited number of high density, high 
workload sectors that affect the entire East Coast flight 
operations.
    More attention than the FAA plan currently envisions will 
be required, in my opinion, to overcome this obstacle. Actions 
may include ultimately moving to autonomous, airplane-to-
airplane separation systems. The FAA needs to support the NASA 
AvSTAR and SATS programs which are addressing how those things 
can be safely implemented.
    Safety and operational realities must be part of the NASA 
program which can tend to be separated from these issues that 
the FAA deals with every day.
    Fifth and last, the number of existing runways and runway 
configurations are also a fundamental limitation to NAS 
capacity, as Mr. ElSawy pointed out. Unfortunately, more 
runways added at large hub airports will not increase capacity 
much because of ground movement congestion and taxi times. 
Aircraft ground movement, traffic controls and system wide time 
coordinated time slots may have to be implemented at major hub 
airports. The queuing problems that Professor Hansman talked 
about are intrinsic to some of the large delays that we see. 
Europeans take a somewhat different view from ``free flight'' 
on what they call 4-D control which tries to get around some of 
that large queuing delay.
    If we go to slots, slot controls at all of the major hub 
airports (which I believe is where we will have to go,) these 
slots have large economic value and the FAA should conduct slot 
auctions much as the FCC conducts spectrum auctions.
    In the short term, increased use of larger airplanes at 
major hubs and more use of reliever airports will increase 
system capacity. In the medium term, more runways at airports 
with one or two runways, therefore simple airports, and 
additional runways between existing ones which would require 
new technology to allow closer spacing on landing, will help.
    In summary, both NASA, the FAA and the airlines need to do 
more in the development, operational evaluation and 
certification of automatic aircraft sequencing, separation and 
collision avoidance. The airlines must accept increased 
avionics equipage and increased FAA regulations such as 
mandatory avionics equipage and slot controls. The development 
of an international spectrally efficient broadband wireless 
data communications system is required for ADS-B and automatic 
sequencing technology that NASA is looking at. It is essential 
to most of the new capacity enhancing technology.
    Actions the FAA is taking will not solve this problem, in 
my opinion. DOD is developing a similar system for its own use. 
Civil aviation needs an equally capable system. In my view, DOD 
should be given the lead development responsibility for this 
with the FAA in a support role, instead of the way it is today.
    In my opinion, as a four-year associate administrator for 
research, systems engineering and acquisition at the FAA, I 
believe that the FAA should begin to implement these new 
systems by outsourcing first oceanic and then high altitude 
sectors to the private industry which would capitalize, 
implement and operate portions of the ATC system using these 
technologies, much as FAA does today with small airport 
contract control towers. The precedent is already set for doing 
this but not in the high altitude regions.
    Automatic collision avoidance is routinely discussed in the 
context of the Federal Highway Administration's intelligent 
transportation program, I am sure you have heard testimony on 
that, where it is extremely difficult to implement. However, 
the Department of Transportation has never to my knowledge 
discussed such a system for aviation where the technology is 
much more mature and the problem is more tractable. This 
technology will be required in the future to increase both the 
safety and the capacity of the air transportation system, but 
substantial funding for research at both NASA and the FAA would 
be required before we could implement such a system.
    That concludes my remarks this afternoon. I want to thank 
you for the opportunity to appear before your committee.
    [The prepared statement of Mr. Donohue follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you.
    Dr. Barnhart, Southwest Airlines in your presentation 
showed that dramatically lower cancellation rate, lower than 
any other major airline in each year between 1995 and 1999.
    What are they doing that others are not?
    Ms. Barnhart. I think the thing that this alludes to is the 
fact that they are flying into less congested airports. The 
chart I showed that had hub cancellation rates at the busy 
airports, what is happening there is you have points during the 
day at which more flights are scheduled in than there is 
capacity in the best of times and so on days when weather 
affects the airport and capacity is reduced, to be able to 
handle operations at that airport, you must cancel some of the 
flights. And what Southwest is doing differently is it is 
avoiding to a large extent those airports.
    Mr. Rogers. So they are finding capacity outside the hub 
areas. There are existing runways out there at airports with 
good terminals that are sitting there idle and Southwest is 
finding those?
    Ms. Barnhart. Absolutely.
    Mr. Rogers. Why are not some of the others doing that?
    Ms. Barnhart. Does anyone else want to answer to that?
    Mr. Hansman. I think they are, but Southwest in our 
observation, and Cindy and I have worked together on this, are 
looking for opportunity, so they are sort of looking for 
markets where they have very high reliability of service 
because they value that in their system design.
    They are not attempting to completely cover the U.S. so 
there are a lot of places you cannot get to in the U.S. on 
Southwest. So in some sense you can think of them sort of 
creaming the system, they are looking for the good 
opportunities, and they are really much more of a point-to-
point market, so they find two markets and fly to it so they 
are not trying to cover the whole system.
    Mr. Donohue. Mr. Chairman, if all of the airlines adopted 
Southwest's strategy, then this N squared type of growth that 
Professor Hansman talked about would absolutely saturate the 
air traffic control system en route. And so they are taking 
advantage of something that if all the airlines took it it 
would be even worse, but for a different reason. All people 
cannot play that game.
    Mr. Rogers. Is there any alternative to the present 
structure of the hub and spoke system that is realistic?
    Ms. Barnhart. Well, as part of our Global Airline Industry 
Program and visiting a number of airlines, there are things 
that the airlines have been doing and investigating that move 
to try to help ameliorate the problem. For example, they look 
at introducing flights that jump hubs, avoid the hub, where 
there is sufficient demand.
    They have looked at introducing additional hubs, some refer 
to them as mini-hubs. They have looked at trying to spread 
arrivals and departures through the day at their hub, to spread 
out these hubs and try to utilize capacity more evenly through 
the day. And there are things like that that the hub and spoke 
airlines are looking at.
    Mr. Rogers. But we have seen no real results yet, have we?
    Mr. Donohue. Mr. Chairman, if I could----
    Mr. Rogers. Have we seen the results?
    Mr. Donohue. Not yet.
    Ms. Barnhart. Not yet. Well, perhaps in Newark.
    Mr. ElSawy. There is also another result that happened and 
that is the airlines are complementing their hub-to-hub 
operations with feeder airlines, regional airlines, to 
essentially provide that feeder system into the hub, to get the 
point-to-point service as well.
    Mr. Rogers. Tell me about it.
    Mr. ElSawy. But that exacerbates the hub capacity. I know 
you just experienced that.
    Mr. Rogers. I mean, it is every time you fly.
    Mr. ElSawy. Yes, sir.
    Mr. Rogers. It used to be occasionally you had a problem 
and now it is every time you fly it is an adventure.
    Mr. ElSawy. But to Dr. Donohue's point, so now you have a 
very active hub and spoke system, plus you have a very active 
point-to-point system, so you are getting both effects at the 
same time.
    Mr. Donohue. The hub and spoke system happened almost 
instantly after deregulation. It is compellingly economicly 
efficient. It is very hard for the airlines not to want to do 
the hub and spoke system. In Europe, where they have had a very 
regulated structure, as they are slowly deregulating, they are 
slowly developing a hub and spoke system, so I think that this 
is kind of an economic drive in this direction, but I think 
there is an interesting analogy. With deregulation in 1978, we 
took the regulations off the airlines to find economic ways of 
delivering service and that has helped generate a gigantic 
growth that Professor Hansman talked about.
    On the other hand, we did not deregulate the operation of 
the air transportation services, which is the FAA's air 
transportation management system. And just as they did in 
California with energy, you cannot take one of the regulations 
away and not take the other away. You start winding up with a 
squeeze and I think that is part of what we are seeing.
    Mr. Rogers. This is not that important a question, but did 
we not see the hub and spoke system develop as the result of 
the UPS/Fed Ex freight hub system development? Which came 
first?
    Mr. Donohue. I think the airlines came first.
    Mr. Hansman. I think American Airlines--I think the 
airlines started it, but it was really Fred Smith with Federal 
Express who really looked at it as a way to cover the entire 
network, so he was really the guy who came in with the 
philosophy of we can cover the entire country with one hub, 
with the Memphis hub.
    Mr. Donohue. And now he has gone out to multiple hubs, with 
satellite hubs.
    Mr. Hansman. Well, I understand that. Once one hub becomes 
saturated, then----
    Mr. Donohue. Then you open satellite hubs.
    Mr. Rogers. Would you like to comment on the significance 
of airline over scheduling? You have sort of covered it, 
talking about peak hour saturation, but airlines are scheduling 
more flights into an airport than they can handle on even the 
best of days.
    How can they justify that and why is that taking place?
    Mr. ElSawy. Well, I will take a shot at it to start.
    I think the key point was made earlier this morning, that 
in fact the rules as they are stated today, the competition 
rules, essentially, make the opportunity costs for them 
extremely high and so they have to play the game the way that 
it is essentially structured. And so to the extent that the 
constraints in the system today remain the same, I think you 
will find that the behavior is the same. So you have to change 
the constraints under which they are operating and change the 
dialogue so the conversation becomes much more passenger 
focused as I think you have indicated this morning.
    Mr. Hansman. I think the other effect is that the airlines 
know, the schedulers know, that all airplanes are not going to 
arrive when they were scheduled, so they are actually banking 
on a certain spread in the schedule because of the earlier 
delays.
    Mr. Rogers. Rather than banking, it is probably betting.
    Mr. Hansman. Okay. Betting. Right. Yes. So in fact, it is 
critical--if you look at the schedule structure you have these 
waves that come in, but then there are lull periods between 
them and you need the lulls to recover for the airplanes that 
are delayed. If you did not have that, any delay right at the 
beginning of the day would propagate through the system.
    Mr. ElSawy. And, in fact, if I may add to that point, 
because it is critical, if you look at LaGuardia, LaGuardia has 
no lulls.
    Mr. Hansman. That is the problem.
    Mr. ElSawy. LaGuardia has no recovery time associated with 
either the arrival banks or the departure banks and so you have 
essentially 12 to 14-hour days just full out.
    Mr. Rogers. Well, I mean, looking at your moving map of all 
airline flights during that 24-hour period of time, except two 
to four a.m., I did not see much window for anything. I mean, 
it is all peak hours, it seems like, in looking at that.
    Mr. Donohue. About 16 hours a day now is high tempo 
operations.
    Mr. Rogers. Yes. Well, how are you going to spread that 
out? There is no place to spread it out.
    Mr. Hansman. Yes. What I meant by that is if you looked in 
more detail at like Chicago or one of the hubs, Dallas-Fort 
Worth, you would actually see a wave of airplanes coming in, 
that is the bank, then they would trade passengers and then the 
wave goes out. And in between those waves, there is normally an 
hour or two between waves, and so the airplanes that are 
delayed sort of start to fill up the gap between them. So if 
you were to have waves coming right on top of each other, the 
airport would go into gridlock, which is sort of what is 
happening in LaGuardia.
    Mr. Rogers. So what is your conclusion?
    Mr. Hansman. My conclusion is actually that the airlines 
will schedule to--the airlines have to design a schedule that 
will work in some sense and they appreciate now that the delays 
are becoming a major factor, so we are seeing the airlines 
start to value robustness in their schedules.
    Mr. Rogers. What do you mean?
    Mr. Hansman. What it means is that they--let me say it a 
different way. In the U.S., traditionally we schedule to the 
good weather capacity of the airports and we bet on good 
weather. And when the weather is bad, we take the delays, but 
it turns out you are making a value judgment that cost is more 
important than reliability--that is a strategy that you can 
use.
    In Europe, for example, they schedule to bad weather 
capacity, so they do not push their system as hard.
    So we actually run many more people through our system than 
the Europeans would run for the same network. So that is a 
reasonable strategy, but the problem is that it is not very 
robust--it breaks down easily. It is not very predictable, it 
is not very robust. So if you have some bad weather, the system 
starts to break down.
    You can design a schedule which is more robust but is not 
as efficient, so what I do is, I do not schedule the airplanes 
to turn as quickly, to spend more time. And it is not as 
efficient in terms of my utilization of resources, I cannot fly 
as many flights, I cannot fly as many passengers, so 
traditionally airlines in the U.S. have tried to schedule as 
much capacity out of the system as they could. Because the 
public is now starting to value reliability they are starting 
to--the market respond to which will start to push them back to 
schedules that have more reliability.
    In fact, you are starting to see it if you look carefully 
in the pricing. The prices for high reliability routes are 
actually higher than the prices for low reliability routes to 
the same destinations.
    Mr. Donohue. I think the comparison between the U.S. system 
and Europe is a very interesting one to look at because we 
basically fly the same JCAO rules, we basically use the same 
radars, communication equipment, but we employ them in a very 
different way.
    The Europeans value predictability in their transportation 
system. They do not like delays, they like the trains to leave 
on time and they like their airplanes to work the same way. So 
they always assume the weather is bad and every airport is 
virtually slot controlled. And so they do that, they are giving 
up capacity and they are giving up profit margin and 
profitability of the airlines but they regulate it.
    We have a much different philosophy towards regulation and 
so we have allowed the airlines to try to profit maximize, 
which is not a bad thing, but they are going to push the system 
as hard as they can, assuming the weather is good. And when it 
is, it is great. But when the weather is not so good, then we 
have delays, cancellations. But to some extent, they fill the 
seats on the next day or the next plane and so it is not 
necessarily--I mean, I hate to say this, but some of these 
delays are not necessarily that bad for the airlines. The lack 
of growth in capacity is not all that bad for the airlines 
because you have rising demand and capped capacity and 
therefore over time we are going to see rising prices.
    Ms. Barnhart. I would like to just follow up with that. A 
lot of the work we have done has been working with the airlines 
in developing schedules and what I have observed over the last 
few years is that there is increased awareness of this need for 
reliability in the schedule, but it is a tradeoff.
    What they are looking for is a schedule that is almost as 
profitable but has more reliability, so they are not, of 
course, going and saying let us adjust our schedule to maximize 
reliability at any cost. I think it is important to keep that 
in mind what is driving a lot of this--the airlines are well 
aware of the issues, of course, but what is driving it are the 
economics.
    Mr. ElSawy. Just two comments on Europe. Europe, as Dr. 
Donohue said, has a different approach to solving the problem, 
so some of the things that they started to do, for example, is 
they started to limit your ability to fly certain segment 
lengths and they started to say that if the segment length is, 
let us say, less than 100 miles, then you take the train, you 
do not fly. Then they also started to limit the altitude at 
which certain flights can go because what they are trying to 
maximize is the ability of people to cross the continent.
    So their approach to solving the problem is very, very 
different than the approach that we have adopted here in the 
U.S.
    Mr. Rogers. Well, sometimes, perhaps now even most times, 
the concerns of the traveling public are not being taken into 
account and that is where we come in.
    I guess we have driven or allowed--deregulation has given 
the airlines the notion and idea, rightfully so, I guess, go 
out there and make a living, go out and there do the best you 
can to make some bucks for your stockholders. And that is what 
they are doing and in most cases, in my opinion, in many parts 
of the country, there is no really effective competition for an 
airline.
    You know, US Air, if you are going to fly out of 
Pittsburgh, you may as well count on US Air. If you are going 
to fly out of Atlanta, it is probably going to be Delta. And 
Minneapolis, Northwest and so on. And they sort of leave each 
other's hubs alone. They do not mess with Texas. And that means 
that there is no effective competition.
    So therefore they do not have to be nice to their 
passengers and we are beginning to hear that in big time ways 
here in the Congress and they expect something to happen.
    What could we do to reinstill a sense of public service, if 
you will, to the airlines' practices?
    Mr. Donohue. Well, I will stick my foot in my mouth. I 
think that we are going to have to put some regulation back in 
the system. I think the deregulation that was done in 1978 was 
a very good thing and it really allowed the system to grow, the 
cost of air transportation has come down dramatically, I think 
that is good. It is probably directly tied to deregulation. 
Europe did it in about 1985 for the same reason. They finally 
realized they had to do it to keep up with the benefits of 
deregulation.
    It works great when you are not near the capacity limits of 
the system. And what has happened is that it has been, as John 
said, very successful and now we are getting close to the 
capacity limits of the system. We may be able to squeeze 
another 20 or 30 percent out, experts differ, but it is on that 
order. And then I think we are going to have to probably look 
at some gentle re-regulation that tries to make up for the 
excesses that can happen in a complete laissez faire process, 
but not throw out the baby with the bath water.
    Mr. Rogers. What kind of regulations would you think?
    Mr. Donohue. Well, I think moving towards more coordinated 
time schedules. Right now, the bankings are not coordinated. To 
move towards what the Europeans call 4-D control, which 
basically means you have avionics on the aircraft that can make 
a four-dimensional contract. That means that airplane will be 
where it says it will be in time and in space.
    Now, aircraft have the electronics that can by and large do 
that. And so then you very much try to regularize the aircraft 
coming in and out so you do not have these big banks of delays 
and you do not push the airport up to 85 or 95 percent of 
maximum capacity where the queuing delays go out of sight like 
Professor Hansman was showing you. You just do not let that 
happen.
    And, by the way, in the process of doing this and maybe by 
auctioning these slots off because they do have great economic 
value, you would encourage them to use bigger airplanes on some 
of these big trunk routes. So they are going to give up some in 
frequency to make up for emplanements because the limitations 
we are seeing are operational limitations. And the airlines, as 
John showed, and I think talked about, are going to smaller and 
smaller airplanes. Now, that is economically beneficial to 
them, but it is decreasing the nation's emplanement capacity.
    And the regulation will be complex. There is no simple 
formula. I do not have a simple answer, but I think that is the 
direction that we are going to have to move. We are going to 
have to start using some economic tools beyond what technology 
can do because technology can only do so much.
    Mr. ElSawy. I think in LaGuardia, for example, you can see 
that to the extent that the value of the resource is zero, then 
the demand will be infinite. I think there is no arguing that. 
But a couple of things in terms of what can be done.
    Clearly, as I had mentioned earlier, changing the rules as 
to how airlines can in fact address schedule concerns, 
especially in some of what I would consider to be the national 
resource airports, those five or six airports that really 
represent the backbone of the air transportation system is 
absolutely key.
    I think where you were heading this morning, Mr. Chairman, 
about the disclosure of information and the sharing of 
information on a timely basis is absolutely critical.
    As Administrator Garvey mentioned this morning, the 
collaborative decision making process that occurs on a daily 
basis, this is a very tactical system, some of the things that 
are happening have four-hour schedules, two-hour schedules and 
then very tactical 20-minute implications and so forth and so 
it is very important for the airlines and the FAA and the other 
users of the system to be aware of the condition of the system 
and where it is likely to be.
    There is a forecasting element associated with it within 
the four-hour period and the two-hour time window, so that in 
fact the system can adjust. If you do not have that 
information, if you are not participating in the process, if 
the controllers and the pilots are not trained as to what the 
implications are, the communications between the centers are 
not effective and so everybody essentially stays in the dark. 
And so the notion of more transparency in the information 
sharing, more coordination and communication on a regular basis 
is the only way in the short term that you are going to get out 
of some of the anomalies that you see in the system because, as 
Professor Hansman said, it does not take a big disruption, and 
this is what I tried to show in the Newark scenario, it does 
not take a big disruption to have a very huge effect on the 
system. And so instead of just talking about capacity, we need 
to talk about flexibility in the system as well as margin in 
the system because unless you have that little margin, you are 
not going to be able to adjust the operation.
    Mr. Hansman. I think in getting to your question, what can 
you do to sort of compel the airlines to really serve the 
traveling public is a very tough question. And I am really torn 
because there are two ways to go.
    You can let the free market act and ultimately if the 
service is bad enough then someone else will come in with 
better service.
    Mr. Rogers. If you cannot get the gate, you cannot compete. 
Or prices will go up.
    Mr. Hansman. So there is an issue of making sure that there 
is competition, so that is one strategy.
    Another strategy is to try to again put in some degree of 
regulation which makes it unattractive for the airlines to act 
in a way which does not serve the public. You have to be a 
little bit careful there because--I mean, I sort of struggle 
with what would you put in that would be effective but not 
drive the prices through the roof? I mean, I could tell the 
airlines, for example, you cannot over schedule your airplanes. 
And, you know, that would be an easy thing to do. And the 
airlines could do that and they would charge more for the 
prices.
    The real fundamental issue in terms of capacity, not 
necessarily the service part, is that we have too many people 
who want to go to a few places in the country and we can work 
the hub thing to some extent, but you are not going to solve 
New York, because there are too many people who want to go to 
New York.
    And so we are sort of in this space where we are running up 
against our capacity limits and more people want to go there, 
so do we provide the capacity to let them go or do we let the 
market reset itself one way or the other and make it more 
expensive to go?
    And I do not have the answer. It is a struggle.
    Mr. Rogers. If each of the major airlines established one 
additional hub each, would that not go a long way toward 
relieving the capacity problem?
    Mr. Donohue. Some work has been done on that and talking 
about actually putting new hubs where there is not new 
congestion. You could say let us go to the middle of Kansas and 
put a big hub there. That has not happened and one of the 
reasons it has not happened is because it is not economically 
viable for the airlines to do that.
    The airport people----
    Mr. Rogers. Cleveland is a hub.
    Mr. Donohue. Cleveland is a hub. There is a rule of thumb 
that the FAA uses in the airport program which they told me. 
They said to be a hub airport, an airline needs about a 50 
percent origin and destination passenger load to make it 
economically attractive to make it a hub.
    Now, why is that, I asked.
    And they said that is because those tend to be walk up 
business passengers who pay high fares and they carry the bulk 
of the profit for that flight. And so if you are just trying to 
put in a hub that has a lot of capacity. With law origin and 
destination passengers, it will not happen without regulation.
    In fact, the chairman of American Airlines one time said 
instead of putting extra runways at O'Hare, he could always 
just go and hub through Kansas City, it is already there, he 
did not have to put any extra infrastructure in. But he does 
not, yet. And the reason he does not is because there are not 
enough people who want to go to Kansas City to have him operate 
it economically for him as a hub. So there are these economic 
incentives that are very much tied to the way in which the 
network works.
    Mr. Rogers. Mr. Sabo.
    Mr. Sabo. As we listened to folks this morning, pouring 
more concrete was very high on their agenda. I listened to all 
of you and even listening to them, it just strikes me that if 
it is congestion we are dealing with, if we pour more concrete 
in the most congested airports with the troubles we have in the 
air congestion, that we would add to the problem rather than 
solve anything.
    Mr. Hansman. If it you look at it carefully, I did not 
spend the time to go through it, it is really right now the 
runways are the problem. They are the fundamental bottleneck 
that we cannot redesign the air space around. So if it is only 
safe to land 60 airplanes an hour due to wave vortex on a 
runway, then that is all I can safely get into that airport.
    And if you look, for example, you know, out there probably 
right now airplanes are lined up about 400 miles outside of 
Chicago already to get into Chicago because that is the 
limiting resource and they know that if they get them any 
tighter that they are going to run into a problem there.
    So it is true, I think, that pouring concrete at the places 
where people really want to go, you know, is something that you 
need to do or, you know, ultimately the prices are going to go 
up there. There are places like New York, I come from Boston, 
Boston is a place where the local or the regional economies 
will be capped, their growth will be capped because you just 
cannot increase economic activity in the region because you 
cannot support the travel which is necessary to maintain it. So 
there is a coupling between economic development and airports 
that I do not think we understand very well, which really 
should be the root of where you decide you put your airport.
    Mr. Donohue. There is another problem and I have recently 
been looking at large hub airports and looking at the effective 
marginal increase in capacity as you add another runway to a 
large hub, like a Dallas-Fort Worth or Chicago O'Hare or 
Schiphol in Europe. And what we see is that the marginal 
increase in capacity keeps decreasing the more and more runways 
you add at these big hub airports. And the model that Mr. 
ElSawy showed the simulation of we also use at George Mason 
University and we have looked at it and we say why is that 
happening?
    And what you see is that you start getting traffic 
congestion problems on the ground. In fact, adding a new runway 
can make it worse. You add an extra runway, you put more planes 
there, they all have to go across this particular node on the 
airport to get to where the gates are. And then they have their 
own queuing problem, as Professor Hansman said. There is a 
series of queues in this problem. So you can just shift the 
problem from one place to another, any one of them will stop 
the flow and produce the cork.
    So I see the strategy, and Southwest is kind of doing this, 
of going to the Manchesters and the Providences to serve Boston 
and I think that is what is going to happen, actually, for the 
foreseeable future. It is not a bad strategy because it gets 
them out of the air space, because the air space also gets 
congested, gives them different parking lots, different roads. 
As Professor Hansman said, you can clog up Boston or any of 
these places or Newark or LaGuardia from the road system as 
well.
    So we really have to, I think, in some sense distribute 
where we put the airports, probably using existing reliever 
airports, putting more infrastructure into them initially until 
they get filled. I mean, they will fill up, too, but that is 
what I said in my testimony. I think that is probably the best 
near-term strategy we have, is investing in the airports like 
the Manchesters and the Providences all over the country.
    It is still a hub in a sense, but now it is like a mega 
hub. It is like Washington, D.C. where we have three major 
airports. And, by the way, we have pretty good air service in 
Washington, D.C. because we are fortunate to have three 
airports that are distributed around the city that serve our 
needs.
    Mr. Sabo. In terms of peak demand, it just seems to me that 
if we simply build more runways for them there is no way they 
start adding bigger planes.
    Mr. Donohue. That is a tradeoff.
    Mr. Hansman. That is one of the questions, how do you 
compel people to add bigger airplanes. I think if you go look 
at Dallas-Fort Worth, at Dallas-Fort Worth they added an extra 
runway 12 years ago or something like that.
    Mr. Donohue. No, just recently, about three years ago, four 
years ago.
    Mr. Hansman. Okay. But if you actually look at the delays 
before and after the new runway, they are actually about the 
same. So what will happen is that the airlines that operate out 
of those airports will just expand their schedules to take 
advantage of the capacity.
    Now, you can say that that is a bad thing or you can say I 
am serving a lot more people. And I am not sure what the right 
trade off on it is, but what it tells you, though, is that the 
airlines will not schedule too much delay. If they see the 
schedule start to break down, they will back off, one way or 
the other.
    Mr. Donohue. But one of the problems with Dallas-Fort Worth 
is they are adding independent runways. To be an independent 
runway for the FAA, you have to have 4300 feet spacing for 
parallel independent arrivals, which is what you want to do in 
an airport today. That is almost a mile. So as you add more and 
more runways, the taxi time to get from where you land to where 
you want to go is increasing by one mile chunks at a time and 
then typically you have to cross active runways, which means 
they have to slow down the arrival rate on an active runway to 
let traffic cross.
    Mr. Sabo. One of our growing problems is runway incursions.
    Mr. Donohue. And we are having a serious problem with 
runway excursions. And so people are talking about putting 
light bars, active traffic control. The problem is we cannot 
put overpasses and underpasses--the way we would deal with this 
with surface transportation would be to build underpasses but 
think of a 747 wing span. You know, if you have 300-foot span 
underpasses so you can put 700,000 pound point sources over the 
top, civil engineers would love to take that on, but it is not 
an inexpensive underpass. And then Airbus will build a bigger 
airplane.
    So we actually start getting into this ground 
transportation problem at some point, so just adding more 
runways to the big mega hubs, in my view, is diminishing 
returns. So somehow, like in communication, we went from the 
big trunk systems to the Internet and we started distributing 
the loads because we were finding that we were clogging up the 
gateways, the big switching networks, with big main trunk 
systems and so I think the same sort of thing is going to 
happen here. We are going to have to start distributing where 
these airports are, but recognizing the population density is 
not distributed. So just putting a big hub in Wichita, Kansas 
is not necessarily going to help.
    Mr. ElSawy. As a matter of fact, there was a recent study 
by RAND that showed the population shifts and I am sure you are 
aware, you can see precisely that effect, where the population 
shifts are continuing to go to the eastern United States and to 
the West Coast and so that trend is likely going to increase 
and so you see people flying to where they live and work and so 
forth. And so the notion of distributing that load to smaller 
and smaller airports is, I think, a strategy that will emerge, 
it is just that the market has not really justified it yet.
    Mr. Sabo. I sit here looking at some data I have on 30 
airports and then I start--and LaGuardia does not show up on it 
and it is from airports participating in ACI monthly airport 
traffic statistics collection.
    How big is LaGuardia? Is the reason they are not on my 
chart because they do not participate with the other airports?
    Mr. ElSawy. It is probably a list of the smaller airports. 
I am really not sure.
    Mr. Sabo. No, it is Atlanta, Chicago, everything.
    Mr. Donohue. LaGuardia is in the top 15 at least for 
operations, maybe in the top ten.
    Mr. Sabo. They are not on this list. There must be a 
reason. I have been confused all day looking at this.
    Mr. Hansman. LaGuardia is not one of the biggest, but it 
has a prime real estate location. So in fact it is kind of like 
Washington National. It was one of the early airports that was 
close in to the city, they were on the water, they really did 
not have much room to grow.
    Mr. Sabo. How many runways do they have?
    Mr. ElSawy. They have two.
    Mr. Hansman. They have two. There are just two runways, but 
lots of people want to go there and they are willing to pay--
they are shuttle passengers who are very high revenue so that 
is why airlines want to run in there.
    Mr. Sabo. One is passenger total, the other is landings and 
takeoffs each day and unless there are some initials that I do 
not understand----
    Mr. Hansman. It should be LGA.
    Mr. Donohue. LGA. Yes.
    Mr. Sabo. They are not on here.
    Mr. Hansman. I can give you an estimate.
    Mr. Sabo. You know, JFK----
    Mr. Donohue. They do as much business as JFK, as I recall. 
Their operational rate is about the same as JFK and Newark.
    Mr. Sabo. Well, JFK is 21st internationally. Newark does 
not--it is 22nd in landings.
    Mr. Donohue. LaGuardia should be right very close to those 
other airports.
    Mr. Hansman. I only have 1995 data.
    Mr. Sabo. This is 1999.
    Mr. Hansman. Okay. The 1995 data I have shows LaGuardia at 
about 280,000 operations, I am not sure, but it is about the 
same level of operations as JFK or Houston.
    Mr. Donohue. Right. But it has fewer runways than they do.
    Mr. Hansman. This is the 1995 data and this shows LaGuardia 
here. This is actually total operations on the bottom and 
delayed flights and this is that curve I was showing you, that 
capacity demand curve, and you can see at the time these were 
the bad airports, San Francisco, LaGuardia, Newark, St. Louis 
and Boston. And you can see that the good weather airports like 
Las Vegas and Honolulu are below the curve. And the strategy 
Southwest uses is to fly into those airports that have 
relatively low delays so that they have a much more reliable 
schedule.
    Mr. Donohue. Newark, LaGuardia and JFK also have another 
problem, they are very close together. They are like less than 
10 miles from each other, so the air space also gets extremely 
complicated. Not only do they have runway delay queuing 
problems, they have airspace interaction problems between three 
airports. That is a very complicated piece of real estate.
    Mr. Hansman. These are radar tracks into and out of the New 
York area, so LaGuardia is up here, Kennedy is here.
    Mr. Sabo. Do they interfere with each other then?
    Mr. ElSawy. Oh, sure. Absolutely.
    Mr. Donohue. They have to deconflict. They have to make 
sure they do not run into each other.
    Mr. Hansman. That is one of the problems, that they do not 
have a lot of flexibility. They are carefully designed not to 
interfere with each other. But, as a result, when you do get 
bad weather in the New York metro area, then you have to shut 
down the flow because you cannot move it because you will 
interact with one of the other airports.
    Mr. ElSawy. As a matter of fact, there is a routine 
rotation of the runway configurations that are used in the New 
York airports, as one runway changes, the others have to shift 
in order to accommodate the flow in and out of the airport. 
This also is a very good indication of why that air space 
redesign activity that we talked about this morning are 
critical.
    Obviously, with air space redesign, you also have noise 
issues and environmental issues, but there are ways to in fact 
use the existing approved routes in a more efficient way and 
allow for the separation of some of the choke points that were 
discussed this morning. So those two things are happening right 
now and that is why the commitment this morning from NATCA, I 
think, and the FAA was so critical because we have to start 
deconflicting some of those streams, especially in the New York 
area.
    Ms. Barnhart. Actually, we had a speaker at MIT who was 
talking about designing the aircraft routes for their start-up 
airline out of JFK. And one of their strategies was to fly at a 
lower altitude, which is more costly, but they said that the 
fact that they are able to depart more quickly and get out 
there easily negated the higher cost of flying.
    Mr. Donohue. ConAir is doing the same thing in Cleveland 
and they are flying low to get out and then they will request 
an en route climb.
    Mr. ElSawy. The other thing you will see in New York is 
that especially on the departures instead of departing 
everybody to the same fix in the air space, they are also 
trying to identify what is called a fan out of those fixes so 
you can go to multiple places and get some efficiency from that 
as well.
    Mr. Sabo. To what degree in the major airports--to what 
degree does general aviation use those major airports? To what 
degree?
    Mr. ElSawy. Well, I know, for example, that in LaGuardia, 
30 percent of operations are carrying 10 percent of the 
passengers. That is just a statistic I know for LaGuardia in 
particular. I think the issue is less general aviation per se 
but more the capability of the aircraft that are flying into 
the various streams. So, for example, if you have a jet behind 
a turbo prop behind a smaller aircraft in front of another jet, 
what you find is that because of the physics of flight and 
because of how safety considerations and the speed 
considerations and wave vortex and so forth, that mixture in 
the stream of aircraft using that runway has a very large 
effect on how effectively you can use that runway.
    And, as a result, as we start talking about new aircraft, 
new capabilities, it is very important to start increasing the 
navigational capability of the aircraft by incentivizing 
equipage to a higher level of equipage.
    Dr. Donohue talked about communication systems, 
navigational systems, but also some of the work on wake vortex 
protection, for example, becomes very important because that 
governs how close you are and also the speeds at which you can 
use the airports.
    Mr. Donohue. To add to that, many airports actually have 
some short runways which they tend to use for general aviation, 
so they do not get in the stream. You do not have a 70-knot 
landing speed Cessna 172, arriving behind a 130-knot landing 
speed, a Boeing 777 or something like that. So they will put 
them off on a separate runway.
    What is happening with some of this general aviation 
activity, though, is that they are moving more to jets and even 
some of the propeller planes that were in the regional feeder 
airlines are moving to RJs and they both require longer 
runways. And so now they are tending to want to move into the 
mainstream runways because they need jet-like landing distances 
and they are decreasing the emplanement capacity. I mean, even 
an RJ, which is not a general aviation issue, but it is a 30-
passenger or a 50-passenger jet that takes up a whole slot in 
the queue. It is great for flexibility and this goes back to 
the regulation issue. I asked an airline executive, I said why 
are you buying more RJs going through your hub?
    This was when I was at the FAA and they were hammering me 
for not giving them more modernization. And I started figuring 
this out and I said, well, you are buying RJs, you are flowing 
them in there, you are decreasing enplanement at your major 
hub.
    And his answer to me was because we make money at it, okay? 
And we have good profit on those RJs. And his view was that the 
FAA should give them the capacity.
    Well, it turns out there are some physical limitations. 
There is only so much capacity, with all the technology you 
have you can give them. And so this is the tension I see 
between public policy, regulation and the benefits of 
deregulation and economic incentives.
    Mr. Hansman. Also in answer to your question, there are not 
a lot of GA airplanes. The problem is not really the GA 
airplanes. There are a lot of turbo props or smaller airplanes, 
but they are feeding from the smaller communities. So, again, 
when we go back and look at it in terms of serving the public, 
you do not want to cut off the smaller community, so it is a 
real trade. So it varies, but the really heavily loaded 
airports like LaGuardia you do not see a lot of GA traffic.
    Mr. ElSawy. The other point that I would like to make, if 
you remember Professor Hansman's procedural protection zone 
that was in the chart? Air traffic control has clearly the 
pilot in command, has the air traffic controller providing 
separation assurance, and then it has a number of systems that 
provide for backup so that any failure in the system is a very 
gradual failure so you do not see catastrophic failures.
    One of the critical elements of that is that air traffic 
control and flying is very procedural and so one of the things 
that happened is as soon as you enter into that procedural 
zone, there are lots of human factors, training and so forth. 
And one of the issues that we are working, for example, with 
NATCA on is that to the extent that you can have similar 
procedures for all the traffic flowing in a particular area, 
then that air traffic controller will be able to handle it with 
a certain level of efficiency higher than the efficiency that 
would exist if they had to constantly modify the procedures.
    And so as a result, what you find is that the procedures 
will operate at the lowest common denominator as opposed to the 
most efficient way of doing it to provide for that procedural 
integrity in the system and that is something that I do not 
think that we want to take away.
    On the contrary, I would say let us increase the 
navigational and communication capacity of the aircraft to 
provide procedural integrity because you never want to take 
that away.
    Mr. Sabo. I always thought the Osprey technology was going 
to probably help us out.
    Mr. Hansman. Do not hold your breath.
    Mr. Sabo. Does not sound very good.
    Mr. Donohue. It has a ways to go.

                            Closing Remarks

    Mr. Rogers. Well, thank you, lady and gentlemen for your 
very interesting testimony and helpful testimony and your 
research that you have brought to us. We appreciate your 
testimony and we will likely call upon you again at some point 
in time, with your willingness.
    Thank you very much.
                                         Wednesday, March 28, 2001.

                    FEDERAL AVIATION ADMINISTRATION

                           MANAGEMENT ISSUES

                               WITNESSES

JANE F. GARVEY, ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION
CAROL CARMODY, ACTING CHAIRMAN, NATIONAL TRANSPORTATION SAFETY BOARD
KEITH D. DeBERRY, PROFESSIONAL AIRWAYS SYSTEMS SPECIALISTS, AVIATION 
    SAFETY INSPECTOR, FEDERAL AVIATION ADMINISTRATION
ROBERT KERNER, PROFESSIONAL AIRWAYS SYSTEMS SPECIALISTS, AVIATION 
    SAFETY INSPECTOR, FEDERAL AVIATION ADMINISTRATION
JOHN P. FISHER, PRESIDENT, FAA CONFERENCE, FEDERAL MANAGERS ASSOCIATION
ARTHUR C. EICKENBERG, FAA CONFERENCE, FEDERAL MANAGERS ASSOCIATION

                            Opening Remarks

    Mr. Rogers. The Committee will be in order.
    Good morning to everyone. This morning we will receive 
testimony on management issues within the Federal Aviation 
Administration, by far the largest operating agency under this 
Subcommittee's jurisdiction and the one with some of the 
biggest and most intractable problems.
    Today I guess could be considered chapter two or three in 
the continuing saga of airline service in this country and the 
delays and the unacceptable cancellations that we are seeing in 
the business today.
    As we begin this hearing, let me again say at the outset 
that we expect answers and plain talk today, and if you are 
part of the problem of airline delays and cancellations wherein 
one out of every four flights is either canceled or delayed, if 
you are a part of the problem we want to talk to you in nice, 
but very blunt terms.
    We do not want to hear fluff today or filibusters. We want 
to talk turkey. We are going to get to the bottom of things. If 
you are part of the industry's part of the problem, then you 
have a problem from this Subcommittee, and we will stay with 
you until something freezes over.
    You will notice to my rear that we have placed on a placard 
the promises that were made by six witnesses who testified 
before us a couple of weeks ago on airline delays, all major 
portions of the industry from the pilots to the controllers to 
the FAA to the industry and to the Inspector General of the 
department. They each gave us five promises that they would 
perform or see performed that would contribute to the easing of 
the problem.
    We have placed those on this board and placed them 
permanently in this hearing room for a purpose, and that is to 
remind them and all of us that these promises were made to the 
Congress, to the people of the country and that we expect that 
these promises will be fulfilled as quickly as humanly 
possible.
    This panel that made these promises will be reinvited to 
appear before the committee in a short while, and we will grade 
them on how well or how bad they have done in upholding the 
promises that they made, and we will be inviting them back 
periodically, every month or six weeks or so, until we see some 
solutions to the unacceptable delays and rude service that 
airlines are trying to furnish the American people today, so 
just bear that in mind. If you are a part of this board, then 
you are going to have repeat appearances. Ms. Garvey, you are 
one of the fabulous six.
    Now, as I said, this agency, FAA, is the biggest agency 
under the jurisdiction of this Subcommittee. I know it is 
difficult to get a 50,000 person agency to move quickly or to 
follow the instructions of its political leaders. I spent many 
years over on my other Subcommittee that I chaired overseeing 
the Justice Department, but especially the INS, Immigration 
Service, and we saw this kind of problem all the while in that 
agency, an agency unresponsive to its political leaders.
    I am here to tell you if there is a problem in the FAA, as 
I think there is, of the leadership's instructions and 
directions not being followed that day has come and gone. If 
there is somebody within the agency that is not doing their 
job, as I have told the director, the Administrator, we are not 
above on this subcommittee writing into the appropriations bill 
that none of these funds shall be used to pay the salary of Joe 
Dokes.
    So let the word go forth that you will obey the directions 
of the leadership of this agency. I do not want anyone to come 
to me later and say well, I did not know you meant it. If that 
language appears in one of these appropriations bills that the 
salary of some of you may not be paid, remember this day.
    I want the Administrator's directions to be followed all 
the way down the line, and if anybody has a problem with that 
you better come see us pretty quick because we expect 
accountability in this agency. We expected accountability in 
the INS. It did not happen, and this year I am hopeful that we 
will pass the bill that will abolish the INS and replace it 
with somebody who can do the job.
    I am saying to you here in the FAA if you cannot do the 
job, believe me, we will find somebody that will. Whatever the 
job you have, we aim to be sure that this problem with the 
American people by the millions being put out and business lost 
and lives disrupted and families separated by airline delays 
and cancellations, if the FAA is contributing to that problem 
that is the one agency, it being a government agency whose 
funds we appropriate, that I am sure this subcommittee is going 
to be sure is straightened out.
    Are we clear? Anybody got a question? Performance and 
accountability is what we expect. It is what we are paying for. 
It is what the taxpayers are paying for, and it is what we are 
going to demand from this agency from this point on as long as 
I have a say on this subcommittee.
    We personally asked Administrator Garvey to bring her top 
management team here today. Those in the room that are a part 
of that team, would you raise your hand for us? I want them to 
know that all of this is serious business. I am a new chairman 
of this subcommittee, and if I have anything to say about it it 
is going to be a new day at this agency.
    We are going to be watching agency heads and top executives 
who do not meet their performance goals. We are going to hold 
feet to the fire. When the FAA does well, we will applaud them, 
and the managers' bonuses will be forthcoming and additional 
staff will be there if you need it.
    When you do not perform, there will be consequences. That 
has not been the case in the past, and perhaps the nest has 
gotten nice and cozy. Budgets will be scrutinized, bonuses 
withheld, staff withdrawn, transfers imminent. Consequences 
will be felt not as punishment, but as an incentive to the rest 
of you to get with it.
    When the Inspector General was up here three weeks ago we 
asked him a simple question. If you could change only one thing 
at the FAA, what would you change? The thing he picked? Not 
more money. Not better equipment. Not a bigger staff. The thing 
he picked was to begin holding top agency officials accountable 
for their actions or their inactions.
    The amazing thing is that the previous IG said the same 
thing in 1996, so we are going to look into the agency's 
performance in the hearing today and in the days and months to 
come. We are going to hold it up to the light. We are going to 
take a good, hard look at how things are being done and who is 
doing it and who is not doing it.
    I want names, ranks and serial numbers of those who are not 
doing their job, madam and the rest of you, and then we will 
see whether the FAA is using bonuses and other management tools 
to properly motivate individuals to do a better job. If not, we 
might be able to help you out with that.
    We will also receive testimony this morning on a number of 
concerns from field personnel in both air traffic services and 
aviation safety oversight. We have air traffic control 
supervisors from Florida, maintenance inspectors form Ohio and 
Kentucky. I especially appreciate these witnesses taking their 
time to come here to give us a perspective of what their work 
is like in the field with FAA.
    It is a long chain of command from the FAA administrator 
down to the maintenance inspector in Cleveland. I know 
sometimes concerns have a hard time working their way up that 
long chain. We hope we can cut through some of that bureaucracy 
today and hear directly from some of them about some of their 
problems.

                       Introduction of Witnesses

    We want to welcome all the witnesses today, the Honorable 
Jane Garvey, FAA Administrator, who is now about three and a 
half years into your five year fixed term; the Honorable Carol 
Carmody. The acting chairman of the National Transportation 
Safety Board (NTSB); Keith DeBerry and Robert Kerner, both 
aviation safety inspectors representing the Professional 
Airways Systems Specialists, PASS; John Fisher and Arthur 
Eickenberg, air traffic control supervisors, representing the 
FAA Conference of the Federal Managers Association.
    We want to hear your oral testimony presented in the same 
order I just introduced you, and as soon as we hear form my 
colleague on the other side we would love to hear you summarize 
your testimony. Your written statement will be made a part of 
the record.
    Mr. Sabo?

                      Opening Remarks of Mr. Sabo

    Mr. Sabo. Thank you, Mr. Chairman. Let me welcome the 
Administrator and all the other people testifying today. I look 
forward to hearing your comments.
    To the Administrator I would simply say that I think all of 
us over the years have had questions about the FAA. We find 
programs have had difficulty being concluded. On the other 
hand, also let me say I have been tremendously impressed by the 
work you do, and I look forward to hearing from you and the 
other witnesses this morning. Thank you.
    Mr. Rogers. We have a vote on the Floor that is close to 
being concluded, so we must go to the Floor and cast our votes. 
We will recess the hearing momentarily.
    [Recess.]

                          FAA Opening Remarks

    Mr. Rogers. The hearing will be in order.
    Mrs. Garvey, we would love to hear your statement.
    Ms. Garvey. Thank you very much, Mr. Chairman, and thank 
you very much for allowing me to appear before this committee. 
I am looking forward to it.
    I do want to make note of our assignments, and I will note 
that Chip Barclay and I were the only two who took on six, so I 
am hoping that there may be a little extra credit in that, Mr. 
Chairman, if that is possible.

                          Definition of Delays

    I will tell you that as we promised, we have a definition 
of delays, which I will submit for the record, and I know we 
will be back to talk about all of those other issues, but good 
work is going on in each one of those areas.

                       FAA Workforce and Mission

    I will also mention, Mr. Chairman, that this morning in the 
audience, in addition to members of the FAA management team, we 
also have controllers. We have some of the technicians here 
and, of course, the inspectors from our flight service 
activities. Many of them actually own a piece of those 
initiatives, so I thought it was important that they be here, 
but I will also add that all of them are accountable and 
responsible for delivering the essential services that really 
make up the mission of the FAA.
    As you noted, Mr. Chairman, I have been at the FAA for 
slightly over three years. In that period of time I have seen 
some good progress, some results, but it is absolutely clear, 
and certainly from your comments, too, this morning, there is a 
great deal more we need to do.
    We are taking on an enormous challenge at this agency. We 
are advancing technology at the same time we are running a 24 
hour a day operation and doing it safely, and we are doing that 
in the midst of some very significant management changes, so 
that is no small task. My philosophy in approaching these 
challenges is essentially threefold. First of all, to value the 
front line workers who have a great deal to contribute. They 
are smart, they are professional, and they care deeply about 
what they do. As I look back at every initiative over the last 
three years, any time we have been successful it is because it 
has been a joint effort between the management team and the 
unions and the employees who really make up the front line, so 
engaging that work force is very, very important.
    Secondly, focusing on data and risk analysis to target our 
resources. It is very easy in the public sector to get pulled 
in many different directions. There are a lot of agendas out 
there, a lot of issues that are very, very important. We need 
to keep reminding ourselves that we need to look at the data to 
establish the priorities that we need to be focused on, and we 
need to target our resources.

                           Runway Incursions

    A good case in point is the runway safety program. Thanks 
very much to the efforts of this committee, last year we were 
able to engage Massachusetts Institute of Technology (MIT), 
National Aeronautics and Space Administration (NASA) and also 
Mitre Corporation to look at all of the runway incursions that 
have happened since 1997, and as a result of that work we have 
been able to group those into various risk categories. That is 
going to allow us to really target our resources on the 
category that presents the greatest risk. We know those growing 
numbers are a concern not only to us, but they are certainly a 
concern to the NTSB and to the Inspector General as well, so we 
appreciate the kind of support we have gotten from the 
committee for those efforts.

                              Safer Skies

    Secondly, our safer skies agenda, which is something that 
we have really come up with the industry, which again focuses 
our resources, targets our resources on the top priorities 
where we can get the greatest safety benefit. I think that 
approach is working well. That approach allows us to use the 
data and also to focus our resources, and I think that is very 
important.

                               FAA Reform

    Finally, we have heard a great deal from Congress about the 
need for the FAA to be more businesslike, and we have heard 
that from the public as well. The efforts that we have underway 
on cost accounting, the efforts that we have underway on 
acquisition reform, establishing metrics, measuring our 
performance, are critical and are important, and we absolutely 
must stay the course on those efforts.
    I want to give a little bit of credit here to Donna McLean, 
who is our Chief Financial Officer and who every month 
publishes with the help of each line of business a monthly 
performance report. We just started doing this recently.
    Both she and Dan Mehan, who is our Chief Information 
Officer, host discussions every month where we track the 
performance to date looking at all the critical corporate 
projects. It also allows us to take a look at where we are with 
our budget and where we are with our staffing needs. We think 
this has been a good and a very, very helpful management tool.
    We are asking people to take on more responsibilities. We 
are asking them in many ways to change the way we do business, 
and in some cases we are asking them to give up some very long 
held assumptions. I know that is difficult, but I think the 
effort is absolutely essential and absolutely important.
    As I said in the beginning, we still have a long way to go. 
These five years are going very, very quickly when I realize 
how much we want to accomplish. I think it is important to go 
back to a comment that was made earlier, and that is that in 
spite of all the challenges that we have we really should never 
lose sight of the extraordinary work that the men and women of 
this agency do.

                           Seattle Earthquake

    I know in the midst of the recent earthquake in Seattle 
there were two controllers who were on duty, and they did not 
leave the tower until they were able to bring every plane down 
safely. I was particularly struck by the comments in the 
interviews after the earthquake, and one of the controllers 
said that he really credited the technicians. He credited the 
managers. He credited his colleagues. He said, you know, 
ultimately I was just doing my job.
    I think that is your challenge to us; to do our job well, 
to provide an aviation system that is the safest and the most 
efficient in the world. We take that challenge on eagerly, Mr. 
Chairman.
    [The prepared statement and biography of Jane Garvey 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                Controller Recognition At Seattle Tower

    Mr. Rogers. What are their names?
    Ms. Garvey. Brian and Ben are both here. They are sitting 
in the back.
    Mr. Rogers. Would you stand up so we can see you?
    Both of you, gentlemen, from the Congress of the United 
States and the people of this country, we appreciate your duty 
and your attendance to your duty under very severe 
circumstances. We thank you. Ms. Carmody.

                         NTSB Opening Statement

    Ms. Carmody. Thank you, Mr. Chairman. Good morning. I am 
Carol Carmody from the National Transportation Safety Board, 
and I am here this morning to provide testimony as requested by 
the committee on aviation safety issues.

                  Runway Incursions and FAA Oversight

    The tremendous expansion in the commercial and general 
aviation fleets are straining the air traffic system. Extreme 
vigilance and additional oversight is needed to prevent any 
catastrophic accidents from occurring. The Board cannot 
emphasize strongly enough that a number of issues must be 
addressed promptly to prevent aviation catastrophes as 
operations increase. I would like to discuss a few of those 
today; runway incursions, errors committed by air traffic 
controllers and FAA oversight of the industry.
    First, as Ms. Garvey mentioned, runway incursions have been 
steadily increasing for the last few years from 200 in 1994, 
322 in 1999, 429 last year. Already this year through March we 
have 81 reported, which is higher than the same period last 
year. The possibility for catastrophe only increases with time 
if the number of errors is not reduced.
    Many of the runway incursions we have looked at over the 
past year all around the country involve two or more large 
commercial aircraft, and the possibility for loss of life is 
very sobering. Two years ago our then chairman, Jim Hall, said 
to this committee, ``The Safety Board is concerned that FAA 
efforts to address runway incursions through technology fall 
short of what is needed.''
    That is still our position today. The runway incursion 
issue has been with the Board since 1990 when we made it one of 
our top ten, so to speak, one of our most wanted issues. We 
have issued more than 100 safety recommendations on runway 
incursions since 1973. Just last summer we had a special 
hearing on runway incursion at the Board and issued still more 
recommendations. Our approach at that time was since technology 
had not closed the gap, we looked at some operational 
improvements and operational suggestions we thought would 
perhaps retard the increase in runway incursions.

              Airport Movement Area Safety System (AMASS)

    FAA has responded. They are evaluating those responses, but 
the crux or their program still seems to be the AMASS. This is 
the airport movement system to detect movement on a runway of 
either vehicles, aircraft or departing or arriving aircraft.
    There is a long history with the FAA and AMASS, and it is 
detailed in my lengthy testimony so I will not go through it 
again now, but in 1991 the Board made the first recommendation 
to the FAA to expedite development of this system. Just last 
year, nine years later, the Board determined that AMASS would 
no longer meet the safety standards set forth by the FAA when 
the system was initiated.
    Forty of the systems have been installed around the 
country, but they are not operational yet because the test and 
evaluation phase has not been completed. We understand testing 
has been going on of the software in San Francisco, and we also 
understand that has not been successful, so testing is still 
going on.
    With respect to airports with lower activities, FAA is 
looking at a number of ASDE systems, airport surface detection 
systems, and has recently signed a contract to initiate work.
    Nevertheless, we are here ten years after the fact, ten 
years after the initiation of the AMASS project, with still no 
operational surface detection system in the airports. We think 
the FAA must give this immediate attention. They must set some 
deadlines, determine dates for establishing service at the 
airports and hold to those. We think this is very, very 
important.

                 Air Traffic Control Operational Errors

    Moving on to the violations, on January 17, 2001, the FAA 
and National Air Traffic Controllers Association (NATCA) signed 
a memorandum of understanding, which I will call an MOU, to 
modify existing FAA procedures for identifying operational 
errors. Operational errors occur when an air traffic controller 
fails to ensure that separation standards are maintained 
between aircraft.
    The MOU establishes a new subcategory of operational errors 
and calls them technical violations. It precludes the FAA from 
requiring controllers to take remedial training following a 
technical violation. It also prohibits the FAA from suspending 
or revoking control tower operator licenses and air traffic 
facility ratings in response to demonstrated performance 
problems.
    According to the MOU, the FAA defines a technical violation 
as any operational error in which the aircraft involved pass 
each other with less than 80 percent of the standard 
separation. The Safety Board is concerned that this provision 
does not take into account the circumstances causing such an 
error, and that it could result in the classification of a 
clearly unsafe instance as merely a technical violation.
    Several serious instances have been classified this year as 
technical violations rather than operational errors, and the 
controllers involved have not been subject to any remedial 
training or adverse action. If the FAA believes that current 
standards are overly restrictive and can be reduced safely, it 
would have been prudent to have performed the appropriate 
analyses and make the results available before implementation.
    In February the entire Board, by letter, expressed our 
concern to the FAA about this memorandum, and the FAA has come 
over and briefed us. They have described the analytical system 
they have put in place to evaluate the operational errors. We 
think this is a very good way to go. We think it should have 
been done before the system was implemented, but we think they 
are on the right track.
    We would expect, however, that assessment would identify 
only those errors and deviations that resulted from very minor 
misjudgments and call those technical violations.
    Further, the MOU, as I said, bars the FAA from revoking or 
suspending controller, airman certificates, and facility 
ratings as a means of addressing performance deficiencies. It 
is difficult for us to discern the safety benefits of the FAA 
prospectively waiving the right to suspend or revoke facility 
ratings or initiate certificate action against a controller who 
demonstrates serious performance deficiencies.

                           Industry Oversight

    With respect to FAA oversight of the industry, this has 
been the subject of some concern to the Board for quite a 
while; most recently in the ValuJet accident. Our 
recommendations indicated that there were some deficiencies in 
FAA oversight of the carrier.
    At that time, FAA initiated a 90 day review of their 
system, and they came up with the conclusion that it needed 
overhauling. They developed the ATOS system, which is the air 
transportation oversight system. This is their new method of 
evaluating, looking at, and assessing the compliance of 
carriers.
    The concept is to collect information, allocate inspectors 
and other resources, look for trends and then take action 
resulting from those trends. I understand it currently includes 
ten major airlines. The FAA has developed a plan to extend ATOS 
to the other carriers, but evidently decided not to proceed 
until ATOS is fully developed and the necessary resources were 
available.
    The Safety Board has concerns that some of the operators 
that might benefit the most from additional scrutiny are not 
getting it. I think the major carriers probably get a fair 
amount of scrutiny now, so there is some concern that the 
others may be needing it.

                  Air Transportation Oversight System

    I will say the Safety Board is examining ATOS very, very 
closely as part of two ongoing investigations. One is the 
Little Rock accident involving American Airlines, and the other 
is the Alaska Airlines accident last year in California. We 
will have more to say about this subject at some time. At this 
point, since it is an ongoing investigation, I cannot give any 
specific details.
    However, I will point out that in the hearing we had on 
Alaska Airlines the FAA staff indicated that the ATOS would not 
have detected some of the changes in the Alaskan Airlines' 
maintenance practices. Those are the maintenance practices 
which affected the horizontal stabilizer jacks assembly and 
that may have resulted in the accelerated wear. It is of some 
concern if ATOS was the system that was supposed to be 
detecting deficiencies, it may have missed a big one there.
    In any event, we are going to be doing more work on ATOS, 
and we will be keeping the committee informed of that as we go 
along.
    That concludes my statement at this time, Mr. Chairman. 
Thank you very much.
    [The prepared statement and biography of Carol Carmody 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    PASS (DeBerry) Opening Statement

    Mr. Rogers. Thank you very much. Mr. DeBerry.
    Mr. DeBerry. Good morning, Chairman Rogers, Congressman 
Sabo, Members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss funding and 
safety for the FAA's Flight Standards Division. I am Keith 
DeBerry, a representative of the Professional Airways Systems 
Specialists and an aviation safety inspector in Louisville, 
Kentucky.

                       Flight Standards Workforce

    The Flight Standards work force enforces civil aviation 
safety regulations and standards for providing governmental 
oversight through daily worldwide surveillance of air carrier 
operations and maintenance. This monumental task can only be 
accomplished by ensuring Flight Standards has a sufficient 
number of highly trained inspectors who are provided the proper 
funds to accomplish our ultimate task, to ensure the continued 
safety of the flying public.
    As a retired Air Force Chief Master Sergeant with 25 years 
of aircraft maintenance experience and as a past director of 
maintenance for the United States Air Force Thunderbirds, I 
understand the need for aviation safety. As an inspector, I 
have lived through the FAA's changes in priority, a robust 
budget following the ValuJet accident and the current bare 
bones funding.
    While Congress has appropriated funds to meet the FAA's 
request for the Flight Standards Division, the money is being 
allocated for other priorities. As a result, the money for the 
inspectors to complete their job has decreased while aviation 
demand has increased significantly.
    As funds have dwindled for us to conduct our jobs, the 
numbers of required inspections mandated by Congress has 
continued to grow. More than half the needed certifications, 
surveillance, enforcement or compliance oversight is not being 
accomplished due to reduced funding. Funding levels are so 
anemic that office managers across the country, fearing funding 
will be exhausted in the latter part of the year, are pushing 
inspectors to complete their Congressionally mandated 
inspections in the early part of the year. This equates to 
intent surveillance for the first two quarters with little or 
no surveillance the last two quarters of the year. Under 
current budget constraints, inspectors cannot conduct important 
surveillance if it requires travel to a site away from the 
inspector's home base. In a recent situation, if I could have 
personally witnessed the final run through for a particular 
aircraft that had main landing gear problems, the public's best 
interests could have been better served.

                  flight standards travel and training

    Because of a lack of travel funds, I was unable to visually 
inspect the aircraft. While I will review the paperwork, I 
still have a nagging doubt in my mind because I was not in 
attendance to observe the actual testing while the plane was on 
jacks and the gear was being ran through its paces.
    Since 1998, training funds for Flights Standards has been 
significantly reduced. Without regular technical training, 
inspectors will not be able to function in this highly complex 
and ever changing and growing environment. How can an inspector 
such as myself be the front line of safety for the American 
flying public without regular, up-to-date training?

                  air transportation oversight system

    At the request of Congress, the FAA developed a safety 
system approach to oversight for the air carrier industry. The 
air transportation oversight system, commonly referred to as 
ATOS, was designed to use a proactive method to identify safety 
trends and determine the root causes of deficiencies or 
problems. The current ATOS inspection system has a significant 
fault; the lack of framework for oversight of out sourcing by 
the air carriers.
    Most American air carriers out source some or all of their 
aircraft maintenance, such as de-icing, refueling, ground 
handling, aircraft cleaning, and training. Until proper ATOS 
tools are developed and implemented to perform adequate out 
sourcing surveillance, this growing area will not receive the 
proper oversight it demands.
    In conclusion, I would ask this subcommittee to send a 
message to the FAA that safety is its number one priority and 
ensure the agency does not take needed funds from its inspector 
staffing, training and travel budgets.
    I would also like to say that I can state, and I cannot 
stress this enough, the aviation community would have suffered 
without the professionalism, dedication and the sheer tenacity 
of the inspector work force during this barren budget period.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions, Mr. Chairman.
    [The prepared statement and biography of Keith DeBerry 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    PASS (Kerner) Opening Statement

    Mr. Rogers. Thank you, Mr. DeBerry. Mr. Kerner.
    Mr. Kerner. Chairman Rogers, Congressman Sabo, Members of 
the Subcommittee, good morning. Thank you for the opportunity 
to appear before you today to discuss funding and safety for 
the FAA's Flight Standards division. I am Bob Kerner, a 
representative of the Professional Airways Systems Specialists 
and FAA principal maintenance inspector in Cleveland, Ohio. I 
have been involved in the aircraft maintenance industry for the 
past 33 years. I have held positions in maintenance, 
inspection, and management in both the air carrier and general 
aviation fields.

                           inspector staffing

    Inspector staffing levels remain well below what is needed 
to accomplish our mission and assure that safety is not 
compromised. On top of that, inspectors cannot spend enough 
time in the field doing inspections because of all the 
administrative tasks. This is a serious problem. The hiring of 
additional aviation safety technicians could help mitigate the 
effects of the staffing shortage. Inspectors would then be 
available to adequately perform our jobs in the field where it 
should be.
    Inadequate staffing has caused problems in other areas as 
well. FAA regulations require an FAA inspector to observe a 
pilot during the first few flights after completing initial or 
upgrade training. With the tremendous growth in the aviation 
industry, the number of requests to accomplish this task is 
staggering, given our current staffing.
    Instead of hiring more inspectors to accommodate the influx 
of requests, the FAA has authorized air carriers to deviate 
from the FAA regulations. The FAA has authorized air carriers 
to perform up to half of these pilot evaluations with their own 
company check airmen. More than 6,000 new pilots are being 
allowed into the system per year without ever interfacing with 
an FAA inspector.
    The FAA's response to staffing problems has been to 
authorize more designees. Originally implemented to assist in 
completion of simple tasks such as test administration, the FAA 
has expanded designees to nearly all aspects of aviation 
safety. Designees who are authorized to perform functions on 
behalf of the FAA do not work for the FAA, but are either self-
employed or industry employees
    By empowering the industry to police itself and relegating 
its own highly skilled work force to check list duties, the FAA 
is not fulfilling its regulatory oversight responsibility. An 
increase in the inspector work force to ensure these 
inspections are conducted appropriately and in compliance with 
the regulations is imperative.

                          en route inspections

    In addition to staffing, some problems could be corrected 
with common sense changes to the agency policy. For instance, 
the enroute inspection. One of many functions of inspectors 
could be more effective if we were allowed to perform them more 
appropriately. These inspections require an inspector in the 
aircraft throughout a flight. Our mere presence generates and 
promotes a focused safety conscience of the crew and provides 
instant real time feedback on any noted discrepancies or 
problems.
    FAA policy severely limits the conditions under which an 
enroute inspection can be performed. Essentially enroute 
inspections are performed Monday through Friday, 8:00 to 5:00. 
This is in direct conflict with the recommendations from the 90 
day safety review following the ValuJet crash in 1996, which 
found the general public is safer any time an inspector is on 
board an aircraft for any purpose.
    In conclusion, I would ask the subcommittee to ensure that 
the FAA provide proper staffing levels, adequate training and 
internal policies that promote the highest levels of aviation 
safety. With your influence and the process, we can ensure that 
the national air system has proper oversight, and America's 
flying public can be assured that air travel in this country 
remains as safe as it can be.
    Thank you for allowing me to testify. I would be happy to 
answer any questions.
    [The prepared statement and biography of Robert Kerner 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you, Mr. Kerner. Mr. Fisher.
    Mr. Eickenberg. Chairman Rogers, Congressman Sabo and 
Members of the subcommittee, with your permission I would like 
to precede Mr. Fisher and let him conserve his voice.
    Mr. Rogers. That is fine. Thank you.

      Federal Managers Association (Eickenberg) Opening Statement

    Mr. Eickenberg. Good morning. My name is Arthur Eickenberg, 
and I am currently an air traffic manager at the Tallahassee 
Tower, Tallahassee, Florida. I would like to thank the 
subcommittee for allowing me to appear as a representative of 
the Federal Managers Association to offer our insight.

                               faa reform

    I have 28 years of experience as an air traffic controller, 
supervisor, staff specialist, including terminal, center, 
regional and headquarters assignments and now as an air traffic 
manager. We are now seeing the results of a growth in air 
traffic, combined with a reduction in oversight and staff 
support at the very point in time we are attempting to bring on 
new hardware, software, and traffic management issues.
    The FAA failed to fulfill the intent of Congress when the 
agency was removed from Title 5 of the United States Code. The 
original goal of taking the FAA out from under Title 5 was to 
gain expediency in equipment procurement. Because the agency 
did not have a focused objective from the outset, it has 
squandered resources in an attempt to explore the ``freedoms'' 
that new personal management afforded.
    In an August 1999, three-year status report on personnel 
reform in the FAA that was commissioned by Congress, the 
National Academy of Public Administration, NAPA stated, ``The 
recent compensation agreement negotiated with the National Air 
Traffic Controllers Association (NATCA) has resulted in 
significant reductions in funds for training of both employees 
and managers. This is troubling for both its impact on the 
technical competence of employees and on the effectiveness of 
the new pay for performance system.''

                             pay disparity

    Today, we are saddled with the disparate treatment of our 
human capital as a result of mismanagement, coupled with a lack 
of leadership. This has been no more evident than in the pay 
inequities we are currently witnessing as a result of the 
actions taken by the agency leadership in October of 1998.
    Referring once again to the aforementioned NAPA report: 
``The pay increase negotiated by the National Air Traffic 
Controllers Association for its members created pay disparities 
that may present barriers to deployment of employees because 
field unit positions offer the prospect of more favorable 
compensation than regional and headquarters positions.''
    The decision to exclude a segment of the air traffic work 
force, in particular managers, supervisors and staff 
specialists in regional offices and headquarters positions 
created a significant decrease in morale that still exists as 
we speak. The victims of this exclusion were those who had 
diligently worked their way up from the controller ranks and 
had been promoted to managerial, supervisory, and staff 
positions.
    Despite their desire to accept the greater responsibility 
that comes with any management position, they were arbitrarily 
exempted from the compensation system applied to their 
colleagues. In fact, it was declared air traffic managers, 
supervisors and specialists in regional and headquarter offices 
were to be compensated at a rate lower than that of the field 
air traffic personnel occupying the position from which they 
had been promoted.
    When the agency recognized it would be extremely difficult 
to recruit personnel into the now devalued regional and 
headquarter positions due to the lower salaries, rules were 
changed to permit field personnel to retain the higher 
compensation levels when they accepted positions in the regions 
and headquarters. Subsequent rules were then promulgated which 
provided an additional increase in compensation for field 
personnel selected to regional and national headquarters 
positions. Again, the incumbent managers, supervisors, and 
staff were excluded.
    The net effect of these arbitrary action is that these 
individuals serving in regional and headquarters air traffic 
positions on October 1, 1998, have been hurt with respect to 
both their pocketbooks and their morale. It should be noted 
that this exclusion from the pay increase resulted from a 
desire to accept positions that were identified as promotional 
or career enhancing.
    The short-term impact in many cases, is a loss of a 
compensation exceeding $20,000 per year; the long-term effect 
include the cumulative loss in retirement benefits and thrift 
savings plan return, as well as lower morale created by these 
financial and professional disincentives for wanting to join 
management ranks.
    All attempts to resolve this issue within the agency have 
been unsuccessful. The message communicated to the affected 
employees has been that the agency has the authority to enact 
arbitrary compensation programs despite an independent analysis 
regarding the validity of the regional and headquarters 
position classifications.
    A vivid illustration of this pay disparity involves two 
individuals from the same air route traffic control center who 
accepted assignments in the same regional office. One was on a 
detail, had their detail terminated, went back to the center 
and was included in the pay raise. Shortly thereafter, this 
individual was detailed back to the regional office and brought 
the pay raise with him.
    Meanwhile, the other individual, who was permanently 
assigned and was unable to return to the center, was excluded 
from the pay raise. The net effect was that they were now both 
working in the same division within the same regional office at 
some $20,000 per year discrepancy in pay.
    In fact, Mr. Chairman, I personally have been severely 
impacted by the same injustice. I was a staff specialist in the 
ARTCC. The work I was performing had national implications, and 
I was brought into the regional office to give me greater 
latitude to perform that work.
    On October 1, 1998, the date the pay effectively changed 
with the agreement between the FAA and the controllers' union, 
I was prevented from returning to work at the center and 
thereby suffered the consequences of being in the wrong place 
at the wrong time.
    Meanwhile, my counterparts who remained in the center 
benefited substantially by virtue of being in the right place 
at the right time, entitling them to the pay raise that should 
have been distributed equitably throughout the agency.
    Since the passage of the reauthorization bill of 1996, 
which removed the FAA from Title 5, we have witnessed guidance 
for policy and personnel reform being implemented ``on the 
fly'' with little empirical data to justify the changes. There 
exists no shared vision nor a clear direction for the reform 
effort. The various lines of business have been unsuccessful in 
formulating their own individual policies. And perhaps most 
troublesome, there is no communication of the reform changes to 
the work force.
    The current state of the FAA is such that managers and 
supervisors in the field are being increasingly hamstrung by 
rules made ``on the fly'' that reduce the tools by which to 
manage and hold people accountable for their actions. 
Accountability is the issue. To this end, the FAA must 
immediately address the pay inequities within the agency.
    As the NAPA report accurately states: ``The majority of 
employees, managers and executives interviewed by the NAPA team 
expressed concern for supervisors' ability to handle the new 
complexities without a significant investment in training. The 
impact of the financial shortage is exasperated by the fact 
that the number of supervisors has been significantly 
diminished increasing the personal management responsibility of 
those remaining.''
    Mr. Chairman, I would like to provide this committee with a 
copy of a briefing package that completely covers the pay 
issue.
    This concludes my prepared statement, and I will be happy 
to answer any questions the committee may have at the 
conclusion of this discussion.
    [The prepared statement and biography of Arthur Eickenberg 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Federal Managers Association (Fisher) Opening Statement

    Mr. Rogers. Mr. Fisher.
    Mr. Fisher. Chairman Rogers, Congressman Sabo, and Members 
of the subcommittee, believe it or not, this is not my real 
voice. It will be back in December they tell me.

                faa management and supervisor oversight

    My name is John Fisher, and as president of the FAA 
Conference of the Federal Managers Association I am here today 
to represent the interests of managers, supervisors and support 
staff specialists throughout FAA. Our critical role in the Air 
Traffic Control (ATC) organization is to oversee the day to day 
operations at the field level.
    I come to you with more than 39 years of experience in the 
ATC field as a controller and operations supervisor. In 
essence, I have almost 40 years of experience pushing airplanes 
around. I have devoted two-thirds of my life to the FAA because 
I love what I do, but more importantly, because I believe in 
the importance of this agency's mission to ensure the safety of 
the flying public.
    It gives me tremendous grief and heartache to come to you 
today to discuss several issues that could compromise the 
margin of safety my colleagues and I protect every single day. 
But I ask you to bear with me for a few minutes because I feel 
so passionately about our concerns that not even my voice, or 
lack thereof, could prevent me from sharing with you what FMA 
believes to be several areas of serious concern for the FAA.
    What scares me is seeing in the field today that we simply 
do not have--do not have--sufficient management and supervisory 
oversight. The agency continues to reduce the number of 
supervisors and support staff in an effort to reach an 
arbitrarily determined ratio of ten to one.
    We supervisors are responsible for certifying that 
controllers are qualified to direct live traffic, while support 
staff personnel plan and provide training and ensure quality 
assurance. We serve as mentors by providing air traffic 
expertise and assistance to develop the members of the 
controller work force. During the training process we provide 
critical feedback to the trainee, the training team, as well as 
management. We are also certified to direct live traffic.
    We do not perform what you might consider to be the typical 
supervisory duties such as sitting behind a desk and watching 
from afar. To the contrary, we are ``plugged in''. I wear a 
headset. We supervisors in fact serve as a liaison between 
safety and efficiency in the operational environment.
    During events affected by equipment or system outages, 
heavy traffic situations or severe weather conditions, we 
supervisors are responsible for implementing traffic flow 
procedures to ensure safe and efficient movement of aircraft. 
We serve as the highly trained stabilizing element to assist 
controllers in effectively gauging and controlling these usual 
occurrences.
    Supervisors and managers play an essential role in bringing 
a systems view to traffic management that alleviates congestion 
between facilities. That is why we at FMA know the missing 
ingredient in the safety dilemma confronting the agency to be 
supervisory oversight.

                            supervisor ratio

    Since 1995, the FAA has embarked on an initiative to 
improve the agency's efficiency following the recommendations 
of the former Vice President's National Performance Review, 
subsequently known as the National Partnership for Reinventing 
Government, to move to a 15 to one employee to supervisor ratio 
throughout the federal government.
    The FAA, in an attempt to comply with this initiative, 
began reducing management oversight and staff support in its 
air traffic facilities. The increase in negative safety 
indicator, as well as aircraft delays can be attributed to the 
FAA's goal of meeting an arbitrary figure of ten to one. This 
continuing decrease in operational oversight and staff support 
has a comprehensive and detrimental effect on operations, 
including increases in delays, as well as safety factors, such 
as runway incursions, surface incidents, operational deviations 
and operational errors.

                faa management and supervisor oversight

    Training initiatives on changes to existing procedures and 
practices, safety trends and recurrent training suffer without 
proper oversight and staff support. Also, eagerness to act 
aggressively and accordingly to determine a new plan to 
accommodate changing weather conditions, and the willingness to 
take the time necessary to make on the spot corrections, 
however minor, are lost without this oversight.
    We have been down this path before. In 1996, the FAA 
reorganized its ATC management structure and removed the 
majority of its second level managers. The first level 
supervisor was forced thereby to absorb these duties and thus 
be pulled ``off the operations'' floor. This took the first 
level supervisors away from their primary responsibilities of: 
managing traffic flow; ensuring equipment needed for separation 
of aircraft is operating at peak effectiveness; and providing 
the necessary oversight to provide and ensure all facets of the 
air traffic system are operating at optimal efficiency.
    The FAA has not taken into account lessons learned from 
past efforts to implement policy before careful examination. 
According to FAA statistics, for example, in 1994 a reduction 
of operational supervisors at the Houston air traffic control 
center resulted in a 14 percent increase in operational errors. 
In the face of those rising errors, the FAA halted supervisory 
reductions, added back the supervisors, and this produced an 
immediate decrease in the error rate.
    It is no surprise that since 1996 operational errors have 
once again been on the rise. According to the DOT Inspector 
General, operational errors have risen 51 percent from fiscal 
year 1996 to fiscal year 2000. In 1999, the FAA experienced a 
record high in operational errors; in 2000, that record was 
broken; so far in 2001 the FAA is already ahead of last year's 
record pace. Runway incursions are occurring with unprecedented 
frequency, and delays to aircraft are angering passengers and 
severely affecting the aviation economy. Yet the FAA is again 
reducing its supervisory oversight.
    The DOT IG has ``found'' that the function of air traffic 
control supervisors is essential in providing successful air 
traffic operations. The FAA does not plan to eliminate the air 
traffic supervisor function but instead hopes to compensate for 
the loss of supervisors by expanding and enhancing the current 
practice of using ``controllers in charge'' or CICs. CICs have 
historically been utilized mainly when supervisors take short 
breaks and when operations are slow. However, beginning January 
1 of this year the CIC program has been expanded to allow CICs 
to perform supervisory functions during periods of high 
traffic.

                          controller-in-charge

    It is interesting to note that air traffic controllers have 
been paid a ten percent pay differential for performing the CIC 
work since October 1, 1998, even though the expanded CIC 
program went into effect this past January. It is due to this 
ten percent differential that: one, 100 percent of controllers 
are currently being designated as CICs in many facilities and 
are eventually expected to be in all facilities; and, two, that 
the CIC duties must be distributed equitably among these 
controllers.
    We at FMA have raised serious concerns about such an 
entitlement, which does not give management the right to select 
only the best qualified controllers to perform CIC duties. The 
DOT IG has expressed similar concerns. Moreover, the rotation 
of the CICs designed so that all controllers receive the ten 
percent differential, does not allow for consistent performance 
nor enhancement of the skill base required to fulfill the 
demanding responsibilities of a supervisor, all of which could 
lead to safety being compromised.

                           operational errors

    An area that is jeopardizing the safety net that the FAA 
has successfully created is the recent agreement between FAA 
and NATCA involving the increased leniency toward controllers 
who commit operational errors. Ms. Carmody has already 
commented on that.
    The NTSB posed a similar question about the methodology 
employed, saying that it does not know of any FAA studies 
showing that airplanes can be safely brought closer together, 
``which seems remarkable since pilots and the flying public are 
potentially most at risk from de facto reduction of separation 
standards.''
    The FAA standard is and has for many years been additional 
training or possible reassignment to a person who commits these 
errors. Typically that person is transferred to a less complex 
or less busy facility. Frankly, it is not in the interest of 
the FAA to put people out of work when so much time and 
resources have been invested in the training and development of 
that individual.

                          FMA recommendations

    Our recommendations. FMA firmly believes that the ``next 
steps'' need to be taken are Number one: reinstate supervisory, 
management, and support staff in air traffic facilities to 1994 
levels, just before the onset of a now exponential growth in 
negative safety indicators. Two, hire 900 entry level 
technicians in the Airways Facilities branch of FAA. These are 
the individuals that maintain our radar, navigational and 
communications systems. Because management oversight has also 
been stripped from the AF branch, along with the necessary 
dollars to fund training--both initial and recurring--critical 
systems cannot be immediately brought on line when something 
goes wrong. Three, fully fund the FAA operations budget. We 
have cut every corner imaginable. When we broaden the picture 
to include the systems we now wish to modernize, as well as the 
training needed to keep our agency a world leader, you can 
begin to realize the magnitude of this shortfall. Four, develop 
strategies to move quickly on all proposed runway construction 
at pacer airports so that it may be completed in the next four 
years. Five, the Federal Managers Association requests a 
position on the FAA's Management Advisory Council so that we 
may represent the field management perspective as part of the 
decision making process.
    In closing, Mr. Chairman, it is critical that we do 
everything within our power to remove any contributor to the 
degradation of the safety of the American flying public. Right 
now, we just do not have the adequate supervisory and 
management levels to provide oversight, yet the reduction of 
this oversight continues. It is with great concern that we 
approach the subject of negative impacts on the safety of the 
flying public.
    This concludes my prepared statement. We at the Federal 
Managers Association look forward to working with the FAA, 
Congress, and all interested stakeholders to ensure the safety 
of the flying public.
    I might add, Mr. Chairman, when you opened the meeting you 
talked about the fabulous six. I would like to make it a 
magnificent seven and include the FMA.
    Thank you, sir.
    [The prepared statement and biography of John Fisher 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          definition of delays

    Mr. Rogers. You got a deal.
    Thank you all for your statements. We are going to try to 
abbreviate our questions because of the shortage of time, so we 
hope that we can get through the questions here briskly.
    Ms. Garvey, you told us two weeks ago at this hearing when 
we had the group of six here that you would have a standard 
definition of delay by the time of today's hearing. This has 
been studied and task forced to death for the last decade, I 
guess, between the industry, the FAA and all the elements of 
the airline industry. Puzzling to me, no one could agree what 
delay meant.
    You promised two weeks ago that you would tell us today 
officially that the government has decided to define delay. Do 
you have a definition?
    Ms. Garvey. I do, Mr. Chairman, and I will say, as we 
talked about at the last hearing, there has always been a 
difference between what the FAA reports and what the Bureau of 
Transportation Statistics (BTS) reports, but we have arrived at 
a simple and I think very straightforward definition, which is, 
our definition is considered delayed if it arrives at the 
destination gate 15 minutes or more after its scheduled arrival 
time.
    We have focused on the arrival time because that, according 
to consumers and business groups, is really what people care 
about. Will I get to my meeting on time? Will I be able to be 
picked up on time?
    In addition, and I spoke with the Inspector General about 
this yesterday. It is important, though, to note that is the 
simple, straightforward definition, but we will continue to 
track the delays at any point of the flight so that we can 
understand better what to do about it.

                  AIR CARRIER REPORTING PILOT PROGRAM

    We have four airlines now as a result, frankly, of the 
hearing a couple of weeks ago who have stepped forward and said 
that they will act as a pilot program to collect the data so 
that we can divide it into the causes. We have three basic 
causes. They are going to begin to collect that data. I believe 
two of them have reported already to BTS. We are asking the 
other two to do that. Once we understand the data better, once 
we make sure we are collecting it in the right possible way, 
then we will expand it it to the other airlines. Again, a 
flight would be considered delayed if it arrives at its 
destination 15 minutes or more after its scheduled arrival 
time.
    Mr. Rogers. Let me be the first to award you a star for 
answering the first of the commitments that each of these 
people have made. This is a big achievement, ladies and 
gentlemen. The government has defined delay.
    Given the difficulty that we have gone through with the 
industry having their definition of it, the controllers have a 
different definition, the pilots have a different definition, 
the maintenance people have a different definition, whatever, 
all now have agreed.
    Ms. Garvey. They have agreed. Some a little bit 
reluctantly, but they have agreed.
    Mr. Rogers. And so we have earned our first star.
    Ms. Garvey. Excellent.
    [Applause.]

                            CAUSES OF DELAY

    Mr. Rogers. We are trying to find a more suitable symbol, 
maybe a plane going up to indicate good, a plane going down to 
indicate bad, and a plane crashing means you crashed out, but 
suffice it to say for the moment we will use stars.
    Now, what do you mean you are going to now start 
determining the causes of delays?
    Ms. Garvey. Well, there are three, and, frankly, I think 
this is going to be the most challenging part. There are three 
main categories of causes, if you will. One is circumstances 
under the air carrier's control, and that would be something 
like crew availability or a maintenance problem, something that 
the air carrier can actually control themselves. The second, of 
course, is weather, which is one we are all familiar with, and 
current or forecasted weather conditions. That would be a 
second cause.
    The third would be conditions in the national aviation 
system, and that is certainly those that are much more under 
the FAA's control or the airport's control. The airport might 
have a runway out of use for maintenance or whatever. We might 
be putting in some equipment that might affect some delays.
    Those would be the three categories, so those conditions 
under the air carrier's control, weather conditions and then 
finally conditions in the aviation system. We are asking the 
carriers, those four pilot programs, if you will, to collect 
the causes based on those three categories. We will take a look 
at it during the summer months to make sure we are collecting 
it in the right categories. There may be some fine tuning 
within those categories. We may expand it to the other carriers 
as well.
    Mr. Rogers. When a plane has been delayed, that is to say 
it arrives 15 minutes later than it was scheduled to, you are 
going to be asking--let me get this straight--the airlines to 
tell us why they were late?
    Ms. Garvey. Well, they will be, first of all, reporting its 
delay, and that is the information BTS has, and that is the 
information they will be releasing to consumers so consumers 
can help make their own judgement.Then secondly, in order to 
understand it, we are asking the airlines to collect the data 
in those three categories. For example, if we find out that--
well, let me just focus on our own since that is what we would 
be responsible for.
    If we find out they are putting in some equipment in 
Cleveland, for example, as did happen actually last year with 
Display System Replacement (DSR), if we find that we are 
putting it in at a time that we are creating unnecessary delays 
or difficult delays, we might take a look at it and say is 
there a better way to transition? Can we do this at a different 
time of the day? Are there some things that we can do?
    If an airport, for example, finds out that it is doing its 
maintenance activities on a runway at a particular time, we can 
perhaps communicate that that is creating some real problems 
for the systems, and then they can take the appropriate action.
    As the Inspector General has pointed out, and I think 
rightly so, the definition is the first step, but then really 
understanding the causes and respond appropriately. We may find 
out, and I know that sometimes the carriers do not like to hear 
this, but we may find out that some are within the air 
carriers' control, for example, some of the scheduling issues, 
the over scheduling. Well, what some might call over scheduling 
is creating some delays. They can then respond.
    We need the right data, which I think gets to one of the 
comments I made in the opening statement that we really need 
data to help determine these decisions.

                         ACCURACY OF DELAY DATA

    Mr. Rogers. I am somewhat concerned about the accuracy of 
the data that you are going to collect because we are depending 
on the airlines to classify these.
    Ms. Garvey. I do understand that, and we will be working 
with them very closely. I will tell you that this group that we 
are working with, we will be looking at this with them as well. 
Of course, we will be reporting some things, the conditions in 
the national aviation system, but I will go back and double 
check if there is a way to determine how comfortable we are 
with getting the right and the most accurate information. I do 
recognize that concern.
    Mr. Rogers. I mean, we have all experienced this, but I 
remember recently I was to have a connecting flight at the 
Pittsburgh Airport from Lexington and then catch another plane 
out of Pittsburgh for Washington. I waited there three or four 
hours for that plane, and I was told the problem was weather. 
It was beautiful outside. It was beautiful in Washington. It 
was a weather related problem they said. I just do not believe 
that. How can we trust the airlines to tell us the truth when 
the record is not too good in the past?
    Ms. Garvey. I think in the case, for example, Mr. Chairman 
of weather we can track that pretty well ourselves, and we can 
go back and look at that. I want to be sure that folks are 
agreeing with me. We can go back, and in fact we will make sure 
we do go back and check all of those.
    We certainly have had some questions on some of the data 
that we have seen reported. I will be honest. They probably 
have some questions on some things that we might be reporting 
as well, so we will keep good track of that.

                            DATA VALIDATION

    Mr. Rogers. What I am looking for and I think what we are 
looking for is a way to rate airlines based on delays. With one 
in four planes being delayed today or canceled, I think the 
consumer is entitled to know which airline has the best record 
at not having delays, cancellations. Which has the worse. In 
addition to the price that they charge for the ticket, I think 
part of the consideration the consumer goes through when they 
purchase or make their arrangements is how reliable that air 
carrier really is, so it is to the air carrier's benefit, is it 
not, to classify any problem as not their problem? It was the 
weather. God interfered here. Or it was because the airport 
does not have enough runways, or it was because the controllers 
would not let us land, or it was because the maintenance people 
were too picky, and the NTSB said we have to do so and so. It 
is always somebody else's fault.
    How can we now turn to these people and say hey, tell us 
what you think. Classify these reasons for our delays. We think 
most of them were weather. How are you going to police that?
    Ms. Garvey. Well, I think you are asking the fundamental 
question. How are we going to validate the information that we 
get? I would like to if I could, and I promise you I will get 
back by the end of the day. I have people back in the office 
who are hooked into this hearing by Internet with the express 
purpose of taking every IOU so we can get started on them 
before the hearing is over.
    Mr. Rogers. Let us say then hello everybody.
    Ms. Garvey. I would like to check with my colleagues at BTS 
because it really is the Secretary's Office that does collect 
that and then finally releases it at the end of the month. I 
will ask them if there is a way that we can provide some 
technical assistance and ask the question how can we validate 
the information we receive, so we will get back to you on that. 
Fair question.

                            RANKING AIRLINES

    Mr. Rogers. Do you agree that one of the biggest reasons 
for having this definition of delay is now we can begin to rank 
the airlines saying this airline has ten percent delay, this 
one has 33 percent and so on? Is that not a good reason for 
having the----
    Ms. Garvey. Well, I think that is something the consumers 
do want. They want to know what is the track record. I know 
that BTS and the Consumer's Office and the Secretary's Office 
collect a great deal of that information now.
    I think that our challenge, and I speak really for the 
Secretary's Office, has been in getting that information out in 
a way that people really understand. I think a simple, clear 
definition is the first step in that.
    Mr. Rogers. Well, one of these days soon I want to have 
another chart up here that we will keep in this room for lack 
of a better place that ranks the airlines' delay performance so 
that anybody can come in here or if they are watching a hearing 
see what airlines are doing their job well and who are not.
    If that is what it takes to make them feel more responsible 
about being on time, then so be it. As I said in the earlier 
hearing, I have nothing to lose because my service is so bad it 
could not get any worse. You know, I am the kamikaze pilot 
here. Congratulations on the definition. I am a little bit 
nervous about who you are turning to to provide the----
    Ms. Garvey. I understand, Mr. Chairman.
    Mr. Rogers [continuing]. Data to you. I have to be really 
reassured that you are going to keep on top of how they 
classify their delays so that we do not get faulty information 
out of the airlines as we so often have in the past.

                            DATA VALIDATION

    Ms. Garvey. I do know that as part of the pilot program 
this group that has been meeting will be coming back and taking 
a look at all of the information as it is coming in, so there 
will be a chance for all of us both to challenge each other, 
frankly, in the accuracy of the data. So that is the short 
term, but I think the real question is long term how would we 
validate the information as it is coming in, and we will get an 
answer for that.
    [The information follows:]

    We have the same actual flight time data that the carriers 
have. We can audit or review specific flights or specific 
airports. The air carrier reporting will permit the FAA and the 
carriers to work with each other's databases on a daily basis 
to increase confidence in the reports. The reporting can be 
audited after the fact. (This is the number one action item of 
the Inspector General from this March 15 hearing.)

                        Choke Point Initiatives

    Mr. Rogers. All right. Good. Before I turn you over to 
others, on your set of promises on the big board here you have 
a star beside your name now on defining delay. Can you tell us 
anything else about your chores?
    Ms. Garvey. I will now go through them very, very quickly.
    The choke point initiatives. Actually, one of the issues 
was to open up some new sectors, and we opened up four new 
sectors in the last couple of weeks working again very closely 
with the controllers. I think we had 21 initiatives. Eleven we 
completed several months ago. Opening up the new sectors was 
the next important initiative, and we have good progress on the 
remaining choke points.
    On capacity benchmarks, we are finishing our last few 
visits to the airports this week to make sure that they are 
comfortable with the numbers. I hope that the Secretary is 
going to be able to announce those very soon, so again I think 
it is interesting information and some good work going on 
there.
    Free Flight Phase 1 and Free Flight Phase 2 thanks to the 
Congress and the support we have gotten, are very much on 
track. I have a couple of questions on Phase 2, but that is 
still in the early phases, and we will stay focused on that.
    We are working hard on the National Operation Evolution 
Plan with the airlines. We have what I think is an excellent 
draft in place and completed a meeting with the airlines last 
week to look at the latest draft. Our goal is to have that in 
place within several weeks. Actually sooner than that, I hope.
    Then streamlining the approval procedures for airport 
capacity projects, something that I guess also Chip Barclay is 
doing or working with us on. We have a report that is due to 
Congress. I have seen one draft, had a few questions on it, but 
we will make that goal of getting it to Congress in April, and 
then we will continue to monitor and work on the issue of 
delays.
    Mr. Rogers. Well, we are going to have you and the other 
five gang of six back up here in maybe a month or so, and we 
will check off all of these items by everybody. We would expect 
that you would have made significant progress by that time.
    Ms. Garvey. I am sure we will, Mr. Chairman. I am sure the 
people sitting behind me know how important it is and will 
deliver as well.
    Mr. Rogers. After all, you have earned the first star.
    Ms. Garvey. I did note I am going to talk to my friend Ken 
Mead because he gets to monitor a lot of what we do, so that 
sounds good. I want to get that job.

                             Weather Delays

    Mr. Rogers. Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman. I have two or three 
questions.
    I am just curious on the weather cause. Do we subdivide 
that between weather at the airport they are departing from, 
weather at the arriving airport and weather enroute?
    Ms. Garvey. We do, Mr. Sabo, and in fact I think one of the 
challenges, again in particular, communicating this to 
consumers is that very often it is not the weather at the 
airport. It may not even be at your destination. It may be 
someplace in between.
    One of the issues I mentioned to the Chairman is that we 
are working with the airport channel and also with American 
Association of Airport Executives with Chip Barclay and his 
airport team to see if there is a way that we can hook into the 
airport channels, which would show what is on our website, what 
is on the FAA website, which essentially identifies the ground 
delays at whatever airport has a ground delay and then would 
give that kind of weather information.
    Sometimes I think it is very confusing to consumers. As the 
Chairman said, you know, the weather looks fine here. It is 
fine at the other end. Where is the problem? We would like to 
be able to show as much of that as we can to the customer, and 
we do divide it that way, as you have suggested.
    Mr. Sabo. I noticed the Secretary suggested yesterday that 
we be more accommodating in letting pilots fly around weather 
rather than simply wait for it to change.
    Ms. Garvey. That, Congressman, really has been an issue, 
the issue about whether or not we are being too conservative. I 
think actually the Secretary spoke about some of the new 
technology. I think at his speech he pointed out well, I wonder 
if that is making us a little more conservative. We are getting 
a little more cautious about some things.
    We have worked really hard over the last year. I am glad 
also to see one of the controllers who has been working on this 
very, hard is in the audience. We have been working very hard 
on a training program that really essentially I think clarifies 
the role even more, gives the pilot and the dispatcher much 
more flexibility, as the Secretary talked about, in making 
those decisions.
    Ultimately if there is very severe weather and there really 
is a safety issue that the Command Center or the controller 
sees, he is going to communicate that to the dispatcher. If it 
has a real effect on the system, clearly the controller has to 
step in and let the dispatcher know that.
    That issue about giving the pilot and the dispatcher as 
much flexibility and responsibility as we can has really been a 
cornerstone of this whole training we have done leading up to 
the spring/summer plan. That is why it was so important to have 
the airlines engaged in that training with us. I think the 
training has been very helpful and I think it will go a long 
way in addressing some of those issues through this spring/
summer.
    You know, I have to always say, I mean, I heard Dr. Arnie 
Barnett last week from MIT, and he talked about this summer. He 
said you know, as difficult as it was in terms of congestion 
and delays, we should always remember that the risk to safety 
last summer was zero, and we must, of course, as you have all 
said and as some of the panelists have said, never lose sight 
of the safety mandate that we have.

                           Runway Incursions

    Mr. Sabo. I am curious on the runway incursion. Do most of 
them involve an arriving plane and a departing plane, one of 
them waiting, or do most of them involve planes that are 
taxiing across runways to get to either their arrival 
destination or where they want to eventually take off from?
    Ms. Carmody. Most of them involve general aviation 
aircraft. I believe I have seen statistics that about 62 
percent have to do with crossing a taxiway improperly, whether 
it is landing or taking off, so the majority would be that. 
Another 22 percent involved misunderstood instructions on the 
part of the air traffic controller and the pilot, 
miscommunications.
    Mr. Sabo. What is the ratio of the general aviation to 
the----
    Ms. Carmody. I do not know the ratio, Mr. Sabo. It is by 
far the majority, and then there are others that involve 
general aviation and air carrier, and then there are some that 
are two air carriers.
    Mr. Sabo. All right.
    Ms. Carmody. We certainly have that available if I could--
--
    Mr. Sabo. Are they at the major airports, or are they 
mainly----
    Ms. Carmody. They are all over.
    Mr. Sabo [continuing]. At reliever airports?
    Ms. Carmody. The number one airport for runway incursions 
is a general aviation airport in Las Vegas, which is all 
general aviation traffic, but there are incursions at all of 
the major airports. Certainly Los Angeles has had their share, 
Chicago. They are all over. That is why we are so concerned 
about it.
    Ms. Garvey. If I could just add a couple of comments? I 
think Chairman Carmody has explained it very, well. General 
aviation is a big player in this.
    We have asked Phil Boyer to serve on an internal FAA team 
because we know the sort of network that Aircraft Owners and 
Pilots Association (AOPA) has in getting out to its members. 
They have been extraordinarily helpful in both identifying some 
very good education tools that we can use. They have a 
wonderful website that they have put up a lot of maps of the 
most critical airports, so AOPA, to their great credit, has put 
a tremendous amount of effort into educating the general 
aviation pilot.
    I would also go back to something that was said earlier, 
and that is the work that MIT and Mitre and NASA did for us I 
think really responds to the issues that Carol Carmody has 
raised, which is we really have to focus on the ones where 
there are the greatest risks. Some of the general aviation 
ones, certainly they are significant and we always want to see 
those numbers going down, but we really want to focus on the 
ones where there are the greatest risk for fatality, so I think 
that work is going to be enormously helpful.
    I happened to be in Reno not long ago, and the airport 
there, a wonderful airport director and the head of the tower, 
hosted an all day session of training for pilots to deal with 
some of the issues that are, as Ms. Carmody said, unique in 
Nevada.
    In those places where we have gone in and done the SWAT 
teams or the airport teams like Los Angeles we are beginning to 
see some numbers going down. You know, we obviously are 
concerned about it.
    We took on ten initiatives last year. They are all in play. 
They are all pretty much on schedule. Three I am concerned 
about, but seven very much on schedule. I also think the help 
from this committee in allowing us to hire runway experts in 
each one of the regions is really our greatest hope.
    What we are finding out is there is no national initiative 
you can do. You really have to get it at the local level and 
look at the unique characteristics at each one of those 
airports. That has been extraordinarily important. Again, 
thanks to this committee we will have about 100 of those 
evaluations at those top airports this year.
    Mr. Sabo. I am curious then at the commercial airports that 
involve large carriers. Again, is that primarily across one 
runway versus miscommunication on takeoff and landing?
    Ms. Carmody. I think the answer would be yes. It is 
primarily having to do with runways and cross taxiways with 
improper clearances and instructions or misunderstood 
instructions.
    Mr. Sabo. Okay. Thank you, Mr. Chairman.

                        Alabama Airport Projects

    Mr. Rogers. Thank you, Mr. Sabo. Chairman Callahan.
    Mr. Callahan. Thank you, Mr. Chairman. I am going to leave 
these technical questions on the national problems to the 
experts, either you or Mr. Sabo. I think you are doing both a 
good job in all of these hearings.
    I showed up to tell you, Mrs. Garvey, that I have my own 
chart in my office. All of my concerns are parochial in nature 
for authorized and appropriated projects. There are ten of them 
in my district. You already have three stars, and I showed up 
just to remind your colleagues and you and those watching you 
on television back in your office that I am a member of the 
panel that determines the economic destiny of your agency and 
that I am anxiously looking forward to filling in the blanks of 
my own chart in my own office.
    Ms. Garvey. Mr. Callahan, I learned a lesson very early on 
in Boston, and that is that all politics is local. I understand 
that, and we will take a look at those projects as soon as we 
get back.
    Mr. Callahan. Yes. I understand that. I want those ten 
stars before we vote on the final appropriation number. Thank 
you, Mr. Chairman.
    Mr. Rogers. Chairman Wolf, do you have anything you would 
like to----
    Mr. Wolf. No. I will wait.

                     Air Traffic Growth Projections

    Mr. Rogers. Okay. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    Ms. Garvey, looking at the whole of the commercial aviation 
system, air traffic seems to go up by leaps and bounds pretty 
much every year, and the projections of that traffic growth 
also continue to seem to go up very substantially. Who does the 
traffic projections? Are those under a set of standards? Is 
there a standardized system for that? Who is in control of 
that?
    Ms. Garvey. Congressman, there is. We put out forecasts 
every year, and that really is the basis for the projection, 
but in addition individual airports often do their own 
projections as well that are much more specific to the airport. 
We do put out the national forecast both for commercial 
aviation, as well as for cargo, and we have begun in the last 
couple of years to also take a look at general aviation as 
well.
    Mr. Olver. Do we have large discrepancies between your what 
sound like standardized and what might be the local sense of 
what those projections are likely or should be over a time?
    Ms. Garvey. We do not see, Congressman, many discrepancies. 
I mean, occasionally there might be one or two. Memphis, for 
example, I remember last year took just a huge jump, about 20 
percent, in the month of April. That was because of some 
additional cargo operations. That may not have been quite as 
reflective in some of the work we had done, but generally it is 
the same.
    The only time I think where we run into some differences is 
if you have something obviously unanticipated like the Gulf War 
or a recession that none of us were anticipating. You might see 
some dips in those irregularities.
    Mr. Olver. The Memphis case. Is that one where the airport 
had much larger numbers than the agency was able to keep up 
with?
    Ms. Garvey. I am not sure that the airport actually had 
different numbers from ours. I think there were some additional 
operations in that month that no one expected--FedEx added some 
additional operations that we had not anticipated.
    Mr. Olver. I am sort of curious. If you would care to, if 
you might suggest what are maybe three of the most problematic 
locations for a discrepancy between these traffic growth 
projections, which do seem to continue to rise rather 
substantially, and the capacity to accommodate that growth 
where the capacity I think involves runways, new runways?
    It might involve the age or upkeep of the present 
facilities and the equipment and so forth and maybe has 
measures that include such things as the delays and the record 
of safety and so on. That gives one an overall picture of where 
that gap between growth projections and capacity to accommodate 
would occur and then a sense of who really controls the 
development of that capacity to accommodate the growth.
    There are probably some of those features that you have 
control of, some that only the state has control of and so on. 
That is a pretty obtuse question, I suspect.
    Ms. Garvey. Well, let me give it a try. First of all, I 
think in terms of the discrepancies I do think we are pretty 
consistent, so that is sort of the good news. We do know what 
we can anticipate. We do know in many cases what is ahead, 
although I will add one caveat, and that is the regional jets. 
I think universally everyone has said that even with the 
forecasting that we have done, which is pretty sophisticated, I 
am not sure any of us really anticipated the popularity and 
growth of regional jets, so that is one caveat. On balance, I 
think it is pretty close to being accurate.
    One of the questions, and this certainly came up last week 
as well, is, are there some critical airports, as you have 
suggested, where there is a real gap between what the demand is 
and what the capacity of the system is.
    I think the work we are doing in benchmarks is going to 
help us really frame that issue even more precisely and clearly 
than we have done it in the past. I think all of us sort of 
have a pretty clear sense that a place like LaGuardia and the 
airports in New York are very crowded, straining the system in 
ways that are quite extraordinary.
    Certainly looking at a place like LaGuardia and figuring 
out with the airport and the airlines what are the right 
solutions both in the short-term and the long-term, that goes a 
long way I think in really determining what the right solutions 
would be.
    You said or you asked where does the responsibility in a 
sense lie. In some ways I think it is the same answer that we 
gave last week, which is we all have a piece of it. For 
example, any airport project, any runway, has to really be 
initiated at the local level, so you have to have tremendous 
local support for a runway to occur. We cannot simply go in and 
say we want a runway here. That would preempt the local 
decision making.
    What we can do, though, is what we will do with the 
benchmarks, which is to say here is what the projected growth 
is. Here is what we are seeing the demand to be, and here is 
what we believe the capacity of this airport is, and here are 
some potential solutions. We still have to have a local 
decision making, but I think we can provide a useful part of 
the debate, if you will, on that.
    On technology, it is clearly our responsibility, along with 
the airlines, to make sure that the technology moves ahead and 
is deployed, so in a sense both we and the airports own a piece 
of it. Of course, the airlines themselves, where they schedule 
and how often they schedule, that is really I think a piece as 
well.

                   AIRPORT GROWTH VERSUS PROJECTIONS

    Mr. Olver. Do you have a tool kit of carrots and sticks 
that you can apply to the places where you see a major 
discrepancy between growth potential or growth projection and 
capacity to accommodate?
    Ms. Garvey. That is really a good question. I mean, we 
certainly have discretionary grant money. With working with 
Congress, I mean, that certainly is a wonderful carrot, too. I 
think the direction of giving more of that money to small and 
mid-sized airports, which is a Congressional directive, is 
absolutely right on target. That certainly is a carrot, if you 
will, which is very, useful.
    I do find that most of the airports want to figure it out. 
It is sometimes so enormously difficult. It is not even so much 
that we do not have a stick, if you will. I think they want to 
get there. Some of the local issues are just, as you know from 
our own experience in Massachusetts, so hard.
    Mr. Rogers. Mr. Tiahrt.

                          DEFINITION OF DELAYS

    Mr. Tiahrt. Thank you, Mr. Chairman. First of all, 
Administrator Garvey, I want to comment on how you passed the 
eye test and were able to read that chart from the distance you 
are sitting. I also wanted to ask about these delays. I was not 
sure on our definition of a delay now. It is a 15 minute delay 
from the time you walk off an airplane, or is it wheels down? 
What is the actual----
    Ms. Garvey. From the arrival time at the gate.
    Mr. Tiahrt. At the gate.
    Ms. Garvey. At the gate.
    Mr. Tiahrt. In that delay is there different 
classifications for weather or for mechanical? Some routes do 
have more weather related problems than others.
    Ms. Garvey. Yes. That is exactly right, Congressman. There 
are three specific categories, one having to do with the air 
carrier's control, the second having to do with weather, which 
is the issue that you just referred to, and the third would be 
conditions in the national airspace system, so the causes would 
be broken down into those three categories.
    Again, as I mentioned, we have four airlines that are 
willing to and are stepping to the plate to be a pilot in this. 
We will see if we are getting the right data and if it is 
giving us the information that we need. That activity will take 
place over the next couple months. I must say, I know the 
Secretary cares about this, and I am sure that he is putting 
his team in place and he will put one of his very senior key 
members on to head this task force when his team is in place.

                 AIRLINE PARTICIPATION IN PILOT PROGRAM

    Mr. Rogers. Mr. Tiahrt, would you briefly yield?
    Mr. Tiahrt. Yes, I would be glad to yield.
    Mr. Rogers. Tell us what airlines are stepping forward to 
participate now and maybe earning a star in their column.
    Ms. Garvey. That is true. They should get good credit here. 
American Airlines, Delta, Southwest and United. Those are the 
four, and they are obviously a good mix I think of carriers.
    Mr. Rogers. Have any of the airlines refused?
    Ms. Garvey. I think we asked for volunteers so I do not 
know that any airlines have refused. I am not aware of any who 
have refused.
    Mr. Rogers. So some of the others are considering it?
    Ms. Garvey. They may be. I think we all agreed it was 
probably good to start with four. I must say, I was not at the 
most recent meeting, but I think we all agreed it was good to 
start with a smaller group, make sure we were collecting the 
right information. I give them a lot of credit. Russ Chew in 
particular at American is at these meetings all the time and 
has been very, supportive, as well as the other representatives 
from these four.
    Mr. Rogers. Thank you, ma'am.

                           RUNWAY INCURSIONS

    Mr. Tiahrt. Thank you, Mr. Chairman. I want to emphasize 
the need for certification on new aircraft and new technology. 
I think that this is very important for safety, and I know the 
inspectors here, Mr. DeBerry and Mr. Kerner, are very concerned 
about having adequate resources, and so am I.
    I think one of the ways we get more safety involved in air 
travel is making sure that new certification happens quickly so 
as to not delay things that are potential safety issues. I want 
to encourage you to continue your efforts to make sure that we 
have those resources along those lines.
    I have some questions on incursions. Perhaps it is Chairman 
Carmody that can give me a little better idea. Now, not all 
incursions are from aircraft. Sometimes incursions are fuel 
trucks or buses moving passengers.
    Is that classified separately than from say a private 
aircraft or commercial aircraft when you look at incursions?
    Ms. Carmody. I believe it is, yes.
    Mr. Tiahrt. So we could tell then how much? I just do not 
want to get----
    Ms. Carmody. We could tell if it involves another vehicle 
on the runway or if it involves another aircraft and what kind 
of aircraft. Yes.
    Mr. Tiahrt. I want to make sure that we have clear 
classifications between, you know, some of these.
    Ms. Carmody. Correct. An incursion does include any vehicle 
on the runway, be it a truck or a van. It is classified as an 
incursion, but we do know what those incursions involve, 
whether it is another aircraft or not.

                      ENGLISH LANGUAGE PROFICIENCY

    Mr. Tiahrt. I notice in reading your testimony that there 
is some question about whether we are using consistent phrasing 
in the way we are receiving directions. I know also I listen to 
the air traffic controllers when I travel occasionally. Not all 
the time. I know there are different accents. You know, it is 
different in Atlanta than it is in Chicago, and New York is 
different from Los Angeles Of course, in Wichita we are always 
the same. We are very consistent there.
    Ms. Carmody. Very.
    Mr. Tiahrt. Is there some effort that we know of for air 
traffic controllers to have a consistent phraseology and also 
trying to talk with a--I do not know how to address this, but 
without an accent like a newscaster or something?
    Ms. Carmody. Let me start with that, and then I know Ms. 
Garvey wants to respond as well. What we intended with our 
recommendation was to recommend that the FAA adopt what we call 
the ICAO phraseology. ICAO is the International Civil Aviation 
Organization, which is a United Nations body in Montreal. They 
set standards internationally for aviation.
    The beauty of ICAO phraseology is it is in English. It is 
understandable all around the world. It is clearly and 
immediately comprehensible to a pilot whose first language is 
not English.
    You are right about the different accents. Sometimes it is 
hard in your own native language to understand, so if you 
imagine you are not speaking your native tongue and you hear 
different phrases that are not those phrases used in other 
countries, it contributes to the confusion.
    We have recommended that the FAA adopt the ICAO standard. 
The FAA I believe has responded. They are looking into that. 
They have a work group, and I am going to let Ms. Garvey 
address that.
    Ms. Garvey. Chairman Carmody is absolutely right. That has 
been a big issue. As a matter of fact, that was one of the 
initiatives that was identified last summer at the national 
conference that we had on runway safety.
    I happened just by chance to meet the young woman who was 
working on this last Saturday. She was telling me that they 
have done a tremendous amount of work. They have found some 
wonderful software that can be used in the training and are 
looking at an implementation in August of this year. That was 
the schedule we had set and it looks like they are going to 
meet it, so I think that is going to be a big help.

                       AIR TAXI OPERATIONS REPORT

    Mr. Tiahrt. I speak two languages. I speak English and bad 
English. I just want to make sure they do not use my second 
language.
    In AIR-21 there was a report that was supposed to be due, 
and I know you do not have the answer here, but I would like to 
know. It is Section 735 of H.R. 1000 entitled Operations of Air 
Taxi Industry. This Part 135 air taxi industry has a report 
that was due. I believe it is supposed to be done in the last 
part of the summer, which is several months after the law takes 
effect. I just would like you to check on the status and get 
back to me----
    Ms. Garvey. I will, Congressman.
    [The information follows:]

    The study on the air taxi industry has begun. FAA is 
working with concerned aviation industry groups to provide a 
comprehensive picture of the industry. Although due one year 
after AIR-21, we anticipate final completion of the report by 
September 30, 2001.

                            supervisor ratio

    Mr. Tiahrt [continuing]. On how that is going.
    I had one other question for Mr. Fisher. I know your voice 
is coming back. Maybe Mr. Eickenberg can answer this.
    In the ratios that you talked about, ten to one supervision 
to air traffic controllers, what would your recommendation be 
on the ratio? In most of industry it is 17 to one for ratios of 
supervision. That is the ideal, 17 to one. In government we 
have reduced that to 15 to one. I am not sure what that 
reduction was. What would your recommendation be, and why is 
ten to one not sufficient?
    Mr. Fisher. Thanks for asking something I may be able to 
answer. The FAA put out a study in I believe it was 1993 that 
indicated the ratio in towers should be 6.4 to one. Further, in 
that same study it indicated that when a supervisor was on duty 
and not doing other than giving general supervision, it was 2.9 
times more likely not to have operational errors than without 
supervision in the tower, so that would be the base.
    Mr. Tiahrt. Somewhere between six to seven to one is what 
you are recommending?
    Mr. Fisher. That is correct. My whole career has pretty 
much been in the seven to one ratio prior to 1995.
    Mr. Tiahrt. We are eventually going to have new hardware 
for air traffic controllers. The sooner the better. What impact 
will that new hardware have on this ratio of six or seven to 
one that you would recommend?
    Mr. Fisher. Well, I have to go back. I started my FAA 
career in Birmingham, Alabama, Mr. Tiahrt, and then I went to 
Atlanta tower. We had ASDE in 1971 in Atlanta tower, and it 
worked. We got it from Chicago. We stole it from Chicago.
    That was the piece of equipment then that worked in the 
tower as we were moving the airplanes then. It is a tool. 
Somebody mentioned a tool in your toolbox. That is what it is, 
but it does not replace the supervisors in the towers, who 
provide the oversight. It is a tool. The new tools we cannot 
wait for. If it can be an improvement on the ASDE, which is 
almost 30 years old, we welcome that.
    Mr. Tiahrt. I wondered what was causing the delay in 
Chicago. You said it goes back 30 years now. It is going to 
catch up. Thank you for your time, Mr. Chairman.
    Mr. Rogers. Mr. Pastor.

                           airline schedules

    Mr. Pastor. Thank you, Mr. Chairman, and I thank the panel 
members.
    Administrator Garvey, after the last hearing that we had, 
and we talked about delays and the cause of delays, and now we 
have a definition. One of the reasons or one of the factors for 
these delays is that all the airlines want to leave at a 
certain time because the passengers are requesting to leave at 
8:00 in the morning and maybe get back at 4:00 in the 
afternoon.
    I know that airlines cannot get together and talk about 
scheduling because of the antitrust, but an idea that I had, 
and maybe you can look at it and let us know what barriers 
there are. Is it possible that maybe every quarter in the two 
or three choke points that we have that possibly the major 
carriers who are scheduling be able to come under your guidance 
and meet and maybe work out the situation where not as many 
planes are leaving at the same time?
    That might begin solving I guess some of the problems that 
you might have with delays in that the airlines themselves may 
decide what is reasonable and not in competition with each 
other, but they can accommodate each other.
    You might get back to me, because I thought that might be a 
way to do it.
    Ms. Garvey. We will take a look at that. Thank you very 
much, Congressman.

        joint industry/government meetings on airline schedules

    Mr. Pastor. Also give us the barriers involved in doing 
such a meeting or series of meetings.
    [The information follows:]

    The issue of airline collaboration on operations in the 
choke points above what is being done through the FAA Command 
Center must be carefully considered. Important federal 
antitrust laws administered by the Department of Justice may be 
the principle barrier to airline discussions of this nature in 
the absence of the type of exemption authority provided in 
pending House and Senate legislation. There are a variety of 
effective ways to counter congestion apart from FAA and airline 
operational initiatives. The Administration is therefore 
assessing all options for reducing airspace congestion 
effectively while preserving competition and consumer choice.

                              free flight

    Mr. Pastor. Also, I noticed that the Free Flight is 
something that you are looking at, Phase 1 and Phase 2. Very 
recently a concern in Arizona was because of the airport spaces 
we have that the military zones be protected. There was some 
concern whether or not this Free Flight would cause the 
military zones to be lessened or somehow there will be greater 
safety issues if we reduce the military zones, especially where 
we have Air Force bases.
    [The information follows:]

    Free Flight will not impact the airspace of military 
installations. Although Free Flight provides for the safe and 
efficient operation under instrument flight rules and allows 
operators the freedom to select their path and air speed in 
real time, flight in military airspace is prohibited unless the 
Department of Defense gives permission to fly in that airspace.
    Free Flight provides more widespread and dynamic sharing of 
special use airspace current and future status. Free Flight 
does not change the status of military airspace. It alerts 
pilots to when those areas are ``hot'' and ``cold,'' (in use or 
not in use by the military). By logging onto the Internet, 
pilots can see whether or not special use airspace--usually 
off-limits because of military use--is available during the 
time of their flight. This initiative may save time, money, and 
fuel.

                     inspector travel and training

    Mr. Pastor. I wanted to talk to you about two things. One 
is the inspectors', both gentlemen, lack of funding. The 
resources are not there for additional inspectors, training, 
lack of training and the inability to do enroute inspection and 
also to inspect out sourcing. Would you care to address those 
points so we have an idea of what your problems are?
    Ms. Garvey. Thank you very much, Congressman. Certainly I 
think some of the issues that the inspectors raised are issues 
that we have been very concerned about, and we are working hard 
with Mike Fanfalone and others on those issues. Again, with a 
lot of help from Congress we got a supplemental last year, so 
we are in the process now of addressing those issues. For 
example, the safety and the training issues, which the 
inspectors referred to. They were absolutely right. A couple of 
years ago with some of the constraints that we had, some of 
that training did not occur, and with the help from the 
supplemental budget we are able to both do some of the 
additional hiring that we had wanted to do and also do the 
training that we had wanted to do.
    I want to go back and take another look at the travel money 
because while I know that has been an issue for all of us 
across the agency, not just with the inspectors, my 
understanding is that we had walled off the travel money for 
the inspectors to make sure they could do the kind of 
inspections that they need to. It sounds like I need to look at 
that again, and I will. I want to give, though, a lot of credit 
to people like Mike Fanfalone who have also come forward to say 
let us think about a different way that we can do training not 
just for some of the technologies, but in all of the areas. I 
think the union itself is coming forward with some very 
efficient ideas; still training, but being done in ways that 
are more efficient.
    It is always a challenge with an operation that is the size 
of the FAA with the growth that we are seeing in the industry 
to try to use the resources in the best possible way. I do not 
pretend I have all the answers, and it is something I think we 
have to just keep focused on. Good news from Congress though 
with the supplemental to allow us to do more of the training 
and to hire some of the inspectors that we have not been able 
to.
    On the enroute, I will tell you it is a bit of a challenge. 
I understand exactly what the inspectors are saying about the 
need to get out there and really sort of do a one on one. There 
is nothing that substitutes for that.
    The Inspector General did raise some questions a couple of 
years ago with our controller program in the Familiarization 
Training Program and suggested some guidelines about not 
wanting to have that linked to sort of personal travel. Maybe 
we are being a little too conscientious in following those 
guidelines. We will go back and look at that again as well.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              OUTSOURCING

    Mr. Pastor. Okay. Also the issue of out sourcing. You have 
some of the airlines doing out sourcing.
    Ms. Garvey. That is a very----
    Mr. Pastor. Is that a problem?
    Ms. Garvey. Well, that is a difficult one, Congressman, 
because I remember when I was coming into the FAA reading an 
editorial that was in the Washington Post at the time, and the 
editorial writer was making the point that, we all have to own 
safety. Again, with the growth that we are seeing, with the 
kind of system integration, the complexity of the system, we 
all have to own it. Airlines have to own it, the FAA. We have 
had some success with the designated program where, for 
example, even with Boeing they have the designated inspectors 
on board. I, frankly, think we have to do some of that. We just 
cannot have and we will never have enough people to look at 
every aircraft. I hear what they are saying. You want to strike 
the right balance between having enough inspectors so that we 
are still doing our job and taking care of oversight. I 
understand that issue. It is a constant question we have to ask 
ourselves, but I think there is a balance, and I think there is 
a way that we can use some of the designees and use them 
effectively. We have to hold them to the highest standard. That 
is the key.

                      CONTROLLER SUPERVISOR RATIO

    Mr. Pastor. I have one more question. Basically, it seems 
like the air traffic controllers worked out a better deal in 
terms of their salaries and benefits, and I guess you cannot 
blame them for doing that. I guess the managers needed probably 
better representation at the table when they were negotiating.
    This issue of the ratio. What do you think is the 
appropriate ratio? We talked about, and I wrote down one, rules 
on the fly. Do you want to comment on rules on the fly?
    Ms. Garvey. Well, I will comment actually on both. First of 
all, in terms of the controller ratio, and I notice that 
Congressman Tiahrt mentioned what is occurring in industry and 
so forth. Frankly, that has been an issue for us that we have 
been trying to reduce the number of supervisors.
    John referred to a study that was done in the early 1990s. 
To be quite honest, I think there are a number of questions 
about the validity of that study, but I think there is a point 
that John made, and I want to go back to it because I think it 
is important.
    The role and the job of the supervisor is very important. 
We are going at this very slowly. We are going at a reduction 
of supervisors very slowly, and in fact before we make those 
decisions we really involve the managers and make sure that we 
are not certainly in any case where we think there is a safety 
issue, where the facility just seems to be having some 
particular difficulty. We would not make that. We would not 
reduce the number of supervisors.
    We have a very, smart work force. We have very talented 
managers. We have very talented supervisors. Believe me, we 
have very talented controllers. They are eager to take on some 
additional responsibilities, and I think giving the manager the 
right flexibility to make the decision, they will make the 
right decision.
    I am not interested at all in obviously short changing 
safety in any way. I think we need to continue to ask ourselves 
hard questions, but I think we are on the right track, and I 
think we are doing the right thing.
    Mr. Pastor. Thank you, Mr. Chairman.

                    DEPARTMENT OF TRANSPORTATION PAY

    Mr. Rogers. Thank you.
    To back up one of the things the gentleman has been 
pointing to is the pay at DOT. I am told that DOT has the 
highest paid personnel in the government of any Cabinet agency, 
and what is driving that is FAA. You can see in this chart here 
in yellow the average pay of the government wide pay and in 
blue is the FAA pay, and in red is the air controllers' pay 
after the increase of 1997, so you can see what is driving the 
cost of DOT, and I am wondering whether we are getting our 
money's worth, to be frank with you.
    Mr. Aderholt.

                          DEFINITION OF DELAY

    Mr. Aderholt. Thank you, Mr. Chairman.
    I think a couple of the questions that I had have already 
been answered in relation to your definition, Ms. Garvey, of 
delay.
    One small clarification. When you say at the gate, I would 
assume that would mean the passengers being able to disembark 
from the aircraft.
    Ms. Garvey. I think it actually means at the gate, but I 
will clarify that. In other words, that they are exiting once 
the----
    [The information follows:]

    The arrival definition is based upon the time the aircraft 
arrives at the gate. The definition is based on 
``Recommendations of the Air Carrier On-Time Reporting Advisory 
Committee,'' U.S. Department of Transportation, November 2000. 
The following Exhibit A is an excerpt from the report.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Aderholt. Right. Exactly.
    Also, you said that when you were coming together to try to 
define this definition or to define what delay was there was 
some reluctance on it. You do not have to use initially any 
names, but what were some of the reluctant comments that were 
made as far as not agreeing with that definition totally?
    Ms. Garvey. Well, I should actually be a little clearer. I 
am not sure there is as much disagreement around the definition 
as it is around the causes. When I referred to the three 
categories, I think there is always going to be some perhaps, 
and the Chairman referred to this. There may be perhaps some 
difference of opinion as to whether something is an airline 
controlled delay or, for example, an air traffic delay. I think 
it really does get to the point that airlines, and we all 
recognize we have a degree of accountability, so you want to be 
very clear on where you are putting that cause. So I think it 
is probably more appropriate to say around the causes.
    The discussions that occurred also were do you also count 
departures, so there were some disagreements on that. The 
committee felt or the task force felt that really, and, 
frankly, we listened to people like Kevin Mitchell and the 
folks from the consumer groups who were saying look, people are 
focused on when they get there. They are focused on am I going 
to get there in time for my meeting? Am I going to get there in 
time for my family to pick me up? So that is really why we 
ended up with that particular definition.
    Mr. Aderholt. Okay. Thank you for being here before the 
committee today.
    Thank you, Mr. Chairman.

                            CAUSES OF DELAY

    Mr. Rogers. Thank you, Mr. Aderholt.
    Along that line, how would this be categorized in your 
three categories? As I understand it, a pilot and his plane has 
their route for the day, and they stay with that route 
regardless of whatever else happens.
    Now, if that plane and pilot are late out of San Francisco, 
they are to pick up and stop and exchange passengers in let us 
say St. Louis, and they are late in St. Louis. The airline does 
not have another plane to pick up those passengers to go on 
their leg of the trip. They wait until that plane from San 
Francisco gets there. Is that not correct?
    Ms. Garvey. That is correct, Mr. Chairman.
    Mr. Rogers. And then it goes on to say Washington, D.C.
    Suppose the weather was bad in San Francisco, and the plane 
was an hour late leaving San Francisco. They get to St. Louis 
an hour late, and the passengers waiting to catch their flight 
to Washington are sitting there waiting an hour for this plane 
to get there from San Francisco.
    The plane gets to D.C., of course, more than 15 minutes 
late. Therefore a delay, correct?
    Ms. Garvey. Correct.
    Mr. Rogers. Under your categories who is at fault there, 
the weather?
    Ms. Garvey. It sounds to me as though it would be weather, 
but again I think when we put it into the causes one would hope 
that some of the issues that you talked about would be also 
revealed.
    You know, if I could go back to your delay? I just happened 
to be a little bit concerned about that. It happened I think 
the day before the last hearing. We did just take a look at it. 
I know that when you arrived in Cincinnati, for example, a 
plane had not arrived from Orlando--is that correct--because of 
weather in Orlando I am told?
    Mr. Rogers. That is correct.
    Ms. Garvey. So would that have been a weather delay? I want 
to make sure I am doing this correctly.
    Mr. Rogers. What I did is I switched airlines to US Air and 
flew to Pittsburgh, but that plane was late in getting there.
    Ms. Garvey. All I can say is I just hope it was not an air 
traffic issue. That is all. It would have been a weather delay.

                           AIRLINE OPERATIONS

    Mr. Rogers. Well, why can the traveling public not expect 
that on the scenario I mentioned, a plane from San Francisco 
bound for St. Louis and they are in the hub mixing with flights 
all over the country and they switch their flight there to 
D.C., they could care less which particular pilot or which 
particular plane is flying them to D.C. out of St. Louis. These 
are people who flew to St. Louis from all over creation, and 
they are hubbing there. Some are catching this flight to D.C. 
Why should they worry about that pilot and that plane who has 
determined by golly, that is going to be my route for the day 
come heck or high water. I am going to stay with it. I do not 
care how many people it inconveniences along the way.
    Why can we not expect that that airline would have 
available some spare planes to pick up those people on time and 
deliver them on time to D.C., even though their plane from San 
Francisco may have been an hour late? They could care less 
about that. How can we get over that hurdle?
    Ms. Garvey. That is a really good--I have to say. This is 
airlines operations, which I am not as familiar with, but I 
know that the consumer group here in Washington has made that 
same point, wondering if there ought to be a way to have some 
sort of a backup for the airlines. I have no idea what----

                            CAUSES OF DELAY

    Mr. Rogers. Well, under your three categories, carrier 
problems, the crew arrives late, the plane needs repair or 
whatever, or weather or something wrong with the system like 
the air controllers have a problem or the runway is shut down 
or whatever, I can imagine that somewhere in this country right 
this minute there is a terrible storm going on, or it is 
snowing, or there is some weather nominally happening that is 
preventing some planes from taking off. That is going to happen 
every day.
    Ms. Garvey. Sure.
    Mr. Rogers. Under your categorization, I can imagine the 
airlines blaming every single delay they have on bad weather 
somewhere in the country, and they could probably make some 
reasonable argument to justify that, so are we really anywhere 
yet with this definition of delay when we are going to allow 
the carriers to blame everything on the weather?
    Ms. Garvey. Well, here is what I hope we could get to, and 
again this is going to need more work. This is exactly why we 
want to have the pilot programs. If, for example, we were 
seeing a large number that were attributed to weather and they 
were occurring at particular hubs, the next questions might be 
well, all right. Can we do something about this? Is there 
something the airlines can do? One would hope that in these 
discussions it would raise the question because once you know 
the cause then you have to figure out the right answer. I am 
hopeful that in those discussions with all of us in the room, 
including the Inspector General, we are saying look, if it is 
the weather and it is happening at these hubs where the 
connections occur and where they are relying on aircraft coming 
from other places, is there something that the airlines can do? 
Is there something that government should do to really make 
sure that some sort of system really is working? Maybe it is 
partly what Congressman Pastor mentioned. Maybe in some of 
those cases there is much more sort of allowing of airline 
tickets to be used for other carriers. I do not know. I think 
that is a very good question, though, and one we are going to 
have to look at.
    Mr. Rogers. Mr. Wolf. Chairman Wolf.
    Mr. Wolf. I am going to defer to others who were here 
before me. I am going to come back. They were here before me.
    Mr. Rogers. All right. Ms. Emerson.

                      controller-in-charge program

    Mrs. Emerson. Thank you, Mr. Chairman.
    I have a couple of questions about air traffic controllers. 
Mr. Fisher, I hate to burden your voice, but I do have a couple 
of questions I would like to ask you just because, first of 
all, I will state that I fly every week, but I do not like to 
fly. I just am a nervous flyer.
    I also recently, as a result of our last meeting here, got 
some of the software, the Flight Explorer software, so that I 
could actually now track all the flights myself and figure out 
where everything is. I am fascinated with it, and I actually 
have had fun playing with it, but it scares me to death to see 
all those airlines, all those planes flying at the same time.
    That brings me to the question of air traffic controllers, 
who I greatly admire. I mean, I cannot imagine doing that job. 
That has to be the most high stress job in America. I would be 
very much in favor of lowering the threshold of supervisors to 
air traffic controllers even as one who has worked in the 
private sector and understands very well the ratio situation 
just because of the nature of that job.
    In moving to this new system of controller in charge, if 
you will, how is there any kind of consistency of direction 
from your standpoint first, Mr. Fisher, and then perhaps from 
Administrator Garvey? How is there a consistency of direction 
when you have a different supervisor every day or an acting 
controller in charge, a different person doing this job every 
day?
    Mr. Fisher. Well, there is no consistency. When I started 
as a supervisor 27 years ago, I did it 40 hours a week. I was 
mentored and coached.
    In today's environment, since January, 2001, with the 
expanded CIC program, a controller is rotated, so he or she may 
come in and work the position as CIC supervising the floor and 
may not do that again for the rest of the week because 
contractually they have to rotate the assignment to make it 
equitable among the controllers.
    Mrs. Emerson. Okay.
    Mr. Fisher. Therefore, we get limited expertise because 
there is no significant experience gained by the controller.

                     controller-in-charge training

    Mrs. Emerson. Right, but has that controller had the same 
training and certification that you had when you assumed your 
supervisory position?
    Mr. Fisher. No. Very limited training. The Inspector 
General spoke to this in one of his latest remarks about the 
fact that the FAA had to meet four recommendations prior to the 
implementation of the CIC program. The FAA has not met those.
    Mrs. Emerson. So if, for example, you have someone in 
charge for the day or the week or however you do it who has not 
had the training that other supervisors have had and if there 
is the need for some sort of a disciplinary action, if you 
will, I mean how can a subordinate actually know?
    I mean, if you are an air traffic controller without 
supervisory responsibilities but you assume those, you know, 
every day or one day a week or what have you, I mean, how does 
that supervisor discipline, if that is necessary, those 
colleagues with whom he or she has a regular relationship when 
they are not acting in a supervisory role I guess is the best 
way to put it?
    Mr. Fisher. Our opinion and what we see today is they will 
not because tomorrow that person that they might give that on 
the spot direction to will be the one doing the supervising, so 
their roles will change.
    Mrs. Emerson. Administrator Garvey, will you address that 
for me for a moment?
    Ms. Garvey. I guess I would see it slightly differently. 
First of all, we have always had controller in charge. That is 
particularly the case in the small facilities where everybody 
does everything. Everyone pitches in. We have always had 
controller in charge in some fashion in the agency.
    I actually believe that we have racheted up the training 
considerably. I think it is a much better program now. The 
training is more formal. John is right that the Inspector 
General raised some issues around the training. We addressed 
those. The feedback we have gotten from individual managers, 
the feedback we have gotten from supervisors and controllers is 
very positive on the training.
    I will add one point, and this is a very important point. 
It is the manager who really is calling the shots for this. I 
mean, the manager is making the determination whether or not he 
or she wants to use the controller in charge. I will also add 
one more thing. We are doing a pretty intensive evaluation of 
the controller-in-charge program in June. I am looking forward 
to that. I think it has been very good. I always think when you 
put a new program in place you can make some improvements. I 
expect the evaluation will reveal some of those improvements 
that we can make, but I believe the training is much better. 
Again, I get back to the point that we have a very talented 
work force. We ought to use them. They are professional. They 
are smart. They are bright. They are willing to take on more 
responsibilities. I would like to break down some of the 
barriers between the managers and the controllers.
    Mrs. Emerson. Well, most of the supervisors or managers I 
guess have been controllers themselves anyway, and, as I said 
earlier in my remarks, I mean, I admire anybody who does that 
job, which I think is far more difficult than the jobs that we 
do or you do or probably anybody in this room short of the 
controllers.

                                 recess

    Mr. Rogers. Mrs. Emerson, I have to interrupt. We have a 
vote in about three minutes on the Floor. We will have to 
resume when we return. It is the lunch hour, so I suggest we 
recess until 2:00 for the lunch hour. We can go vote, and you 
can resume at that time.
    Mrs. Emerson. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you very much.

                     controller-in-charge training

    Mr. Rogers. The committee will be in order.
    Mrs. Emerson, you were in the process of asking a question.
    Mrs. Emerson. Thank you, Mr. Chairman. I believe we were 
talking about the training of CICs and, Mr. Fisher, it looked 
like you had your hand up. You were going to respond, I 
believe. So let me--if you will--equivalency and that sort of 
thing. Please.
    Mr. Fisher. Okay. I think Ms. Garvey was commenting on 
differing from my opinion about the training as being 
sufficient.
    Ms. Garvey. With respect, though, John.
    Mr. Fisher. Yes. With respect. And in the field, we do not 
see that as being true. There is minimal training--there are no 
quality assurance baselines and Ms. Garvey, I believe, 
indicated there were some assurances by the IG that these were 
being worked on as well as the entitlement piece. We, however, 
have seen nothing to verify that that has been in place.
    Mrs. Emerson. So in other words, when you were trained to 
be a supervisor, did you have to go through a certain number of 
classes, spend a certain number of hours learning to be a 
supervisor? Since you started as an air traffic controller or 
is the training different, a hands-on type of training?
    Mr. Fisher. Well, it is on-the-job training (OJT). It is 
the mentoring by others. And it is a continuous duty that you 
would perform that is absent in today's environment with the 
new CIC program. So I worked at it and worked with people who 
could help me craft what I do. In addition, we went to 
different schools. Then, it was in Lawton, Oklahoma. Currently, 
it is in a nice place in Florida.
    Mrs. Emerson. So in other words, the current--in your 
opinion, the current air traffic controllers who are now taking 
on supervisory roles have not been trained as well as those of 
you who either are supervisors or have been let go as 
supervisors, through attrition or who have retired.
    Mr. Fisher. Yes, it is through attrition, that is true. 
What I can tell you, Congresswoman, is that in Federal Managers 
Association's (FMA) opinion, the CIC program is flawed and it 
needs to be scrapped. We need to get supervisors back to 
supervising. There has to be a balance between the ingredients 
that make a cake rise to be the best it can be. I heard that 
time and time again from my mom, who was a dietician. We need 
the best ingredients.
    Mrs. Emerson. Well, and I know, having been a manager in 
the private sector. When you are a line employee, it is hard to 
supervise your colleagues and then report if there are some 
problems.
    Mr. Fisher. We see that in the field today. That is 
correct.

                            supervisor ratio

    Mrs. Emerson. Ms. Garvey, let me ask you a question, then, 
to follow up on that because I read in one of these background 
pieces that the safety analysis figures since 1995 indicate a 
degradation in air traffic operation, including delays and I 
wonder, do you think, is there any kind of a correlation 
between the supervisor/staff reductions and the continuing 
trend toward degradation?
    Ms. Garvey. Congresswoman, I believe that is the report and 
I hope I am answering this correctly. We do not see a 
correlation between the two. In fact, if you look at some of 
the numbers over the last couple of years, that becomes very 
clear and we would be happy to provide that to you.
    I think when you try to determine the cause of either 
operational errors or runway errors, you have to really look at 
multiple factors. There is not a one-to-one correlation.
    And I want to continue to get back to a point that I made a 
little bit earlier, which is ultimately what we are doing is 
giving the manager the kind of flexibility that he or she needs 
in the field to make the determination about a CIC. So I really 
do not want to lose sight of that. In other words, if a manager 
feels that the controllers he or she has under their management 
supervision, if they feel they are not up to it, then they are 
certainly not going to put them in the CIC position. But, 
again, I want to stress these are very talented, very good 
people who are very willing to take on additional 
responsibility. I would again say that I think that the 
training--we certainly need to always look at it, but I think 
the training is very solid, very good, better than it has been 
in the past.
    [The information follows:]

    There are no current studies that correlate, nor do the 
fiscal year 2000 data appear to show a correlation or direct 
tie between the number of supervisors and operational errors, 
runway incursions, and other safety indicators.
    A review of fiscal year 2000 operational error data 
indicates that operational errors occur and are reported when 
either a supervisor or controller-in-charge (CIC) is on duty. 
Supervisors were on duty in 1,033 of the 1,145 operational 
errors reported and a CIC was on duty in 112 of the 1,145 
operational errors.

                   supervisor management risk factors

    Mrs. Emerson. I have no doubt that they are all very 
talented. I think it is hard as a line person when you are 
having to supervise your equals, the people who are your equals 
at other times during the week, it is very hard, in my opinion, 
having been in those positions in the past, to do the 
appropriate supervisory type roles, but let me ask you, then, 
back to the other question with regard to the degradation of 
air traffic operation.
    Have you all done studies, then, that would determine the 
role that supervisory management oversight might have on delays 
or operational errors or the incursions on runways? Has the FAA 
actually done those types of studies?
    Ms. Garvey. The studies that we have done, primarily those 
in the last, say, six or eight months focus on the risk 
factors. I think I mentioned that a little bit earlier, taking 
a look, for example, at the surface incidents, the runway 
incursions, taking a look at the operational--well, let me 
start with the runway incursions and breaking them down by 
various risk factors.
    The issue about the direct relationship between the number 
of supervisors and the controllers, we have not done a recent 
study per se. If that is a suggestion, it is probably a good 
one and we will certainly take a look at that.
    Mrs. Emerson. And I think to make us all feel better, we 
want to be sure that the American public is flying under the 
most safe possible conditions and so I appreciate that. So I 
appreciate that.

                            Supervisor Ratio

    Mr. Rogers. Thank very much. We have to move on to others. 
Whose chart is this?
    Mr. Fisher. Mine, sir.
    Mr. Rogers. Good. I saw it sitting down here and it was not 
being visible. Would you mind explaining what this is?
    Mr. Fisher. What that chart indicates is from 1995 up to 
this last year and you can see we use the agency's figures to 
show the increases in all the categories depicted.
    In 1996, when we went through a restructuring, we lost our 
second-level managers. There was sort of an even keel right 
there and as a result the supervisors were forced to come off 
the floor and sit behind a desk. So their duties are now 
stretched to where they cannot actively be on the floor and 
actively participate as they would like to because of so many 
other duties. So now you can see the 1998, 1999 and 2000 jump 
in all categories that affect the safety record of the agency. 
Operational errors this year are already ahead of where they 
were at this time last year. That is appalling to us.
    Ms. Garvey was referring, I think, to a yet-to-be-done 
study about the reduction of supervisors or a current study 
about the reduction of supervisors as it pertains to the 
errors. Our graph that we can bring to the committee shows that 
when we cross-reference all of these categories with the spikes 
we have now seen with the reduction of supervisors it is clear 
that the lack of oversight greatly contributes to the increase 
in these four categories.
    Mr. Rogers. Ms. Garvey, you need to respond, do you not, to 
that?
    Ms. Garvey. I guess I just would simply say I do not think 
the data does show that. I do not think you can make a one-to-
one correlation. I think you have to really look at it very 
carefully. In fact, if you look at the numbers over the last 
couple of years, it would be clear that the vast number of 
operational errors occur when the supervisor is in charge.
    And, believe me, when I say that, I am not--I am even 
hesitant to say it because I am not trying to cast any 
aspersions on the supervisors for whom I have great, great 
respect. I simply want to caution that we not jump to an 
immediate conclusion and say the cause for the increase in 
operational errors or the cause for the increase in runway 
incursions is because there has been any reduction in 
supervisors.
    Mr. Rogers. Is it a part of the problem?
    Ms. Garvey. I think that is a fair question. I think that 
is part of what we have to look at. Now that we have the risks 
in place, let us look at that. I agree with you. And we do have 
some----
    Mr. Rogers. What do you think?
    Ms. Garvey. I do not think you can make a one-to-one 
correlation. I just do not think you can do it.
    Mr. Rogers. Well, Mr. Fisher a moment ago said we should 
get rid of the CIC, the controller of the day, sort of, that 
gets a big bonus for doing that.
    Ms. Garvey. Controller in charge.

                      Controller-In-Charge Program

    Mr. Rogers. Controller in charge. What do you say about 
that?
    Ms. Garvey. I think it is a very good program. As I pointed 
out earlier, I think it is a program that has been used in 
small facilities for a long time at the FAA. I think the real 
question is--and these are legitimate questions--are we 
implementing it in the best possible way, are there any 
improvements that we can make to it.
    Mr. Rogers. Is it limited just to small airports?
    Ms. Garvey. No, it is not, Mr. Chairman. I said it was used 
originally in small airports, but it has been expanded under 
the contract.
    Mr. Rogers. Is it a good thing in the big airports?
    Ms. Garvey. To use some of them for controller in charge, I 
think it is good.
    Mr. Rogers. I asked you when we were here before two weeks 
about Kansas City, where I am told--or you told us, I think, 
there was one controller who was making $174,000. Was that the 
Kansas City operation we were talking about?
    Ms. Garvey. Actually, I think it was Mr. Mead, Mr. 
Chairman, who raised this at the hearing that he was at and we 
did look at that. It was actually a controller in Washington 
center and, as you know, that is one of our busiest facilities.
    That particular controller has been a controller for 30 
years, worked every bit of overtime, every bit of premium that 
he could. In fact, we broke down his schedule and it looked 
like he added a shift every week. So that was the rationale and 
we provided that to the Inspector General.
    Mr. Rogers. Well, on the CICs--is that what you said?
    Ms. Garvey. CIC.
    Mr. Rogers. Controller in charge.
    Ms. Garvey. Controller in charge.
    Mr. Rogers. He is a regular controller who takes over one 
day a week to supervise the others. Do you plan to continue 
that?
    Ms. Garvey. Well, we have an evaluation in June. We do plan 
to continue it, but we will evaluate it in June and see what we 
learn, see how it is going, what recommendations we make for 
either changing or strengthening the program.
    Mr. Fisher. Mr. Rogers, could I comment, sir?
    Mr. Rogers. Please.
    Mr. Fisher. Thank you. Ms. Garvey is indicating, and I 
would like to say that it would be so, that the managers at 
each facility have the right to say it is not working in our 
facility because the operational errors and runway incursions 
are so high. To my knowledge, there is not a manager out there 
who has said that.
    In fact, in the terminal facilities throughout the country, 
they have all embraced the CIC. They have embraced the fact 
that all controllers will be CICs because they have no choice 
but to. That is a concern because now management does not have 
the right to select. That is one of the problems that we see 
with the program.
    Mr. Rogers. Do they pick the CICs regardless of experience?
    Mr. Fisher. Affirmative.
    Mr. Rogers. That is a yes?
    Mr. Fisher. Yes, it is.
    Mr. Rogers. So a controller that has one year or less of 
experience could be controlling or supervising the balance of 
the controllers in the tower?
    Mr. Fisher. That is correct. That can be done.
    Mr. Rogers. Because they rotate this every day, so that 
everybody gets to be a controller at some point in time. Is 
that correct?
    Mr. Fisher. Yes.
    Mr. Eickenberg. If I may, Mr. Chairman?
    Mr. Sabo. Mr. Chairman, I notice folks in the audience 
shaking their heads.
    Mr. Rogers. We have to have a little order here.
    Some folks say that is not true. What do you say to that?
    Mr. Eickenberg. I would have to say that--I come from a 
facility, I manage a small facility, and we use CICs and CICs 
have been used for years. The role, though, was different. The 
role of the CIC in the past was an adjunct to the supervisor. 
If the supervisor took a break, went out to have a cigarette, 
went to have lunch, he/she placed the controller in charge and 
said, If you run into a problem, you know where to find me. The 
controller in charge was able to monitor the operation and, if 
things were easy enough to handle, handled them. If it became 
very serious, the controller knew where to reach the next level 
of supervision to get the assistance that he/she needed.
    Today, we are talking about replacing the supervisor with 
the CIC. Now the CIC has to make the determination what to do. 
And, in my facility, while it does work at times, as the issues 
get more serious, it does not work. The CIC does not make the 
decisions that are the same as a supervisor would make.
    And I would have to say that in my case, we have had to 
allow all the controllers to become CICs because of a staffing 
situation. If we do not certify all of them, due to the limited 
staffing nature and the rotational shifts, we will operate with 
an opening one morning where if we only designate a limited 
number, I can conceivably have the facility open without 
someone qualified to be either the controller in charge or the 
supervisor because I am having to work whole days and whole 
shifts without a supervisor present.
    So at that point, if I do not have everyone certified, I do 
not have the tools by which to keep supervision in the 
facility, both upstairs and downstairs.

                    Controller-In-Charge Experience

    Mr. Rogers. So I think I hear you saying that theoretically 
an inexperienced controller would be the controller in charge 
for a period of time. In theory. But in practice, is that true?
    Mr. Eickenberg. In practice, it happens. It happens on an 
everyday basis that you have to rotate the responsibility 
amongst the people that you have available and there are days 
when there are not as many experienced controllers available, 
so we would then use whoever is available. We will attempt to 
make the choice of the best available, but there is still going 
to be some very inexperienced people.
    Mr. Rogers. Well, Ms. Garvey, it is in your records, I 
think. You would have records on this, would you not?
    Ms. Garvey. Absolutely, Mr. Chairman.
    Mr. Rogers. Would you furnish that for us?
    Ms. Garvey. We certainly will.
    Mr. Rogers. So that we can settle the question once and for 
all by the records.
    Ms. Garvey. I would be very happy to do that, Mr. Chairman.
    Mr. Rogers. All right. And we will file that as part of the 
hearing record.
    [The information follows:]

    Prior to the changes we have made to the program, all 
persons with technical certification would have been eligible 
to perform as controllers-in-charge. Today, approximately 62 
percent of terminal and en route air traffic control 
specialists are ``eligible'' to be assigned CIC duties. 
Eligibility is defined as being selected for additional 
training, completing the training, and being certified as 
capable of performing the full range of the duties for the 
position by their supervisor/manager. This group was selected 
from a population that had previously performed a majority of 
these duties. A facility manager will validate the employee's 
skill level after prerequisite for additional training is 
completed.

    Ms. Garvey. Thank you.
    Mr. Rogers. Mr. Sweeney, you have been waiting long and 
patiently.

                Airport Improvement Program Obligations

    Mr. Sweeney. Thank you, Mr. Chairman.
    Let me welcome the panelists. I have a number of technical 
questions, but to dovetail a little bit on Mr. Callahan's 
subtle question earlier, someone once said imitation is the 
sincerest form of flattery but more to establish a relationship 
with Sonny I think I already have, let me say that we warmly 
welcome you and I have the Albany Airport, I have, I think, 
nine regional county airports, I have Stewart that services us, 
we are all keeping lists for back at the office, Administrator 
Garvey.
    I will start with one of those questions. In last year's 
hearing report on pages 525 and 526, there is a list of AIP 
projects for which obligations incurred more than two years ago 
no dollars and expenditures have been made. Three of those 
airports are in New York, I think LaGuardia is one, I know 
Stewart is one, Stewart is a $7.5 million figure, and for 
Stewart Airport, given what we want to do there, you know one 
of my ideas and plans along with a lot of other folks is to try 
to use Stewart as an offset to some of the congestion in the 
New York metropolitan area. Can you give me an update, 
Administrator? I do not need it today, but by the end of the 
week at least, in terms of what the status is?
    Ms. Garvey. Certainly, Congressman. I believe it is pretty 
good news.
    [The information follows:]

    LaGuardia Airport, Flushing, NY, $1,216,000.
    On January 10, 2001, an initial payment of $772,622 was 
made for the soundproofing of public school number 146B, Bronx, 
New York, Phase 2. The remaining $443,378 for this project will 
be used to complete the soundproofing project.
    Stewart Airport, Newburgh, NY, $5,097,277.
    The $5,097,277 grant used funds from the Military Airport 
Program for the relocation of an airfield lighting control 
vault. The vault will house FAA navigational aid equipment 
including those used for approach lighting, Instrument Landing 
System, Precision Approach Path Indicator, and Visual Approach 
Slope Indicator. The grant will also fund the relocation of 
Taxilane C. The project design is currently 90 percent 
complete. It is scheduled for bid September 2001. On February 
28, 2001, an initial payment was made for $67,249. The FAA 
expects that the remaining funds will be applied toward the 
work identified above.
    Stewart Airport, Newburgh, NY, $1,174,081.
    The $1,174,081 grant was used for the expansion of the 
Northwest cargo apron (Phase 4). On February 21, 2001, a final 
payment was made in the amount of $936,796 and the grant was 
closed. A recovery of Federal funds was made for $237,285.
    E. 34th Street, New York, NY, $488,099.
    The $488,099, grant was used for the development of a New 
York City helicopter study. On November 25, 2000, a final 
payment was made in the amount of $298,237 and the grant was 
closed. A recovery of federal funds was made for $189,862.

                           Airspace Redesign

    Mr. Sweeney. And to get a little more specific, in some of 
your earlier questioning, in response to what you said, there 
is no national runway system and you have made the point that 
those systems need to be localized in many respects.
    Confusing air space design along the eastern seaboard is 
something at the prior hearing we held we talked an awful lot 
about and how it contributes to the choke points and it 
increases delays, it causes controllers huge problems in the 
need to continually transfer authority of planes.
    It convulses the system in many respects nationwide, so it 
is kind of a significant place and point to kind of look at.
    Have you got a plan there? Is there an update on the status 
of the development of such planning? Is there a redesign in 
place? Where are we with that?
    Ms. Garvey. In terms of LaGuardia specifically, you are 
absolutely right. An airport like that contributes 
significantly to the system. When you look at delays at 
LaGuardia and, as I guess at your hearing two weeks ago, Mr. 
Chairman, I think one of the afternoon panelists laid out very 
well the impact that LaGuardia has on the rest of the system. I 
think we have to think of it almost in two ways, the short-term 
and the longer term. For the short-term, as you know, 
Congressman, we have had the lottery in place. Yesterday, the 
Port Authority was in to talk about sort of what steps beyond 
the lottery might make sense. I have not yet been briefed on 
that, but I understand it was a very good meeting. I suspect 
that they came forward with a couple of ideas on demand 
management that we would like to put in the Federal Register 
and get some comments. The concern we continue to have, as I 
mentioned before, is the access to small communities which are 
certainly the communities that you care about. In addition, we 
are looking at a number of procedural changes. Some of the 
controllers that are here today are working very hard to make 
some changes to the procedures as you are going in and out of 
New York's very crowded air space so we can make more efficient 
use of it. And some of the technologies, Departure Sequencing 
Program, a spacing tool that the controllers can use, those are 
some of the shorter term strategies as well that we are 
undertaking.And then finally, as you have indicated, the larger 
issue about redesigning the air space is, very challenging. I 
know you live it with your communities, every time you move the 
air space to another area, you create different environmental 
issues.
    We are focused on the high altitudes first where there are 
not so much of the environmental issues, but certainly that 
area in New York is a real high focus for us for redesigning 
that air space.
    Mr. Sweeney. The Port Authority folks have contacted me. 
They are coming in as well.
    Ms. Garvey. Oh, good.
    Mr. Sweeney. I would like to meet with you privately or 
with staff at least to ``talk'' a little bit about some 
planning.
    Ms. Garvey. I would like to do that very much. Thank you.

                            FAA organization

    Mr. Sweeney. Every hugely successful CEO in the world talks 
about the layers and the levels of management that are required 
for a successful organization, whether it is Jack Welch or 
Buffett or any of those folks, and they say essentially there 
ought to be six levels. And so I am kind of approaching it from 
a real broad perspective. The chairman provided a chart earlier 
that looked at the cost of DOT. What levels of management exist 
at the FAA? How many?
    Ms. Garvey. Too many is probably the short answer. I think 
I mentioned earlier we are really attempting to sort of change 
the way we do business, to approach things very differently, to 
do some reorganization. As I know you have heard from some of 
the panel members, there are different points of view about 
that, but I think certainly when you think about a bureaucracy 
as large as the FAA is, you have to ask yourself if there are 
different ways that we can organize, if there are different 
ways that we can approach some of these issues.
    I will tell you one thing we are doing that I think holds a 
lot of promise and that is creating what is called the terminal 
business unit. We have a tendency to think in terms of programs 
and not in terms of services. In response to some issues we 
have heard from Congress, some issues we have heard from some 
of our customers, we are pulling our folks together who are 
working on all of the terminal activities in the terminal area 
and organizing them that way, so we are focused on the service, 
not on the project.
    Mr. Sweeney. I do not mean to pick on you, but I still am 
not certain how many levels of management we have. And maybe 
you could help direct us at some point, but in earlier 
questioning, I think it was in response to some things that Mr. 
Fisher asked, you were asked the question what ratio you would 
recommend, supervisors to controllers. I do not think I heard 
an answer. Do you have one? Are you developing one? Is there a 
study on one?
    Ms. Garvey. We think that the ratio ten to one is a very 
achievable ratio. As Congressman Tiahrt pointed out, business 
and even in government, the reduction has been to reduce those 
levels. Having said that, I want to be very clear that I do 
agree with John Fisher and with Art when they talk about also 
being concerned about safety. As we do this, we are doing it 
very slowly and there are some facilities where that will never 
happen. It just simply will not happen. The managers will say 
this is not the right number here, we need more here for the 
following reasons and we will respect that.
    Mr. Sweeney. And I want to make two quick points. One, the 
CICs are collectively bargaining, correct?

                  Airport Movement Area Safety System

    Ms. Garvey. That is correct, Congressman.
    Mr. Sweeney. Just for my own thinking. And Chairwoman 
Carmody, I have one brief question. I have others, but I will 
wait and come back to them.
    The NTSB does not believe that AMASS, the FAA's solution 
for runway incursion, as it is currently designed meets the 
safety goals of the original planning and the original system 
ten years ago. The project is now $92 million over budget and a 
year late, correct? Any ideas?
    Ms. Carmody. First of all, with respect to AMASS, it was 
the FAA that said it did not meet the design that FAA 
originally had set forth. The parameters did not allow adequate 
response time on the part of controllers or flight crews to 
react to an event. It would prevent collisions, but not 
incursions.
    In terms of any ideas, our recommendation, which the board 
put forth this summer, for a ground-based system was one which 
would put an alert not only in the tower, but to the flight 
crew. In other words, the cockpit and the tower both need to be 
alerted to what is going on on the runway. And AMASS as 
currently envisioned does not include that capability.
    Mr. Sweeney. So what do we do about AMASS?
    Ms. Carmody. I will ask Ms. Garvey to answer that. We are 
concerned that AMASS is not there yet. It is being tested in 
San Francisco now and, as I said earlier, apparently that test 
has not been successful and it does not include the capability 
for alerting flight crews, so it is not responsive to what the 
recommendation of the board was.
    Ms. Garvey. Just a word on AMASS. We need to get to the 
Board and brief them because I do think that the more recent 
testing is very positive. We are still scheduled for June and 
we are going to stay with that. In terms of accountability, 
Steve Zaidman, who I think is still here, actually has his 
bonus which you referred to earlier, Mr. Chairman, his is tied 
to delivering eight AMASS systems by September. So that would 
be Steve Z-a-i-d-m-a-n. Carol is absolutely right when she said 
it did not--the technology is just not advanced to do some of 
the things that the NTSB is talking about. It is a still a good 
technology. It is, as someone said earlier, really a good tool. 
The challenges that we have had with AMASS is that it has given 
some false alerts and that has really been the technology 
challenge that we have had. It has created too many false 
alerts. And if you have that kind of a situation, controllers 
are not going to pay attention to the tool. I saw the AMASS 
program director this morning in the elevator and asked are we 
still going to make that June deadline? He said, yes, the 
latest test was very good, we are going to get initial 
operating capacity this month, April, in San Francisco, 
commissioning in June. And Steve will deliver the others by 
September. So I think it is a good tool. I think in Ms. 
Carmody's testimony she also refers to some very promising 
technologies that NASA is working on and we are working very 
closely with them. So I think we are always going to be 
evolving with runway incursions.
    Mr. Sweeney. All right. I will yield back.

                     PERFORMANCE AND ACCOUNTABILITY

    Mr. Rogers. Thank you, Mr. Sweeney.
    Let us talk a bit about accountability. When the IG 
appeared before the subcommittee three weeks ago, he said if 
the FAA could take only one action to improve its management he 
would recommend holding managers and other employees 
accountable for their performance and that echoes a 1996 letter 
from the then-IG, a different one, which said there is a common 
thread in FAA management abuses. That thread is the mind set 
within FAA that mangers are not held accountable for decisions 
that reflect poor judgment. He says ``Until senior FAA 
management is willing to send a different message, I suspect 
the pattern of abuse we identified will, unfortunately, 
continue.'' And in committee testimony, she, the then-IG, said 
``The FAA tolerates poor judgment and protects bad 
management.'' What do you say about that?
    Ms. Garvey. Mr. Chairman, I am only going to speak about 
the three years I have been there at the FAA and certainly I 
think for all of us in government, it is not an easy issue. I 
made a note of your comment this morning and I would disagree 
with the IG and he is someone I am professionally very close to 
and spend a lot of time with. I think in the three years that 
we have been there that if you look at the programs that were 
trouble, you will find that we have new managers there, so I 
think in every one of those programs we have made some 
significant changes. As I mentioned to you yesterday, I think 
one of the great challenges for anybody in government--
actually, it is anybody in any management position--is to 
sometimes determine whether someone just is not doing their job 
or whether or not they are in the wrong fit.

                   NATIONAL PERFORMANCE REVIEW SURVEY

    Mr. Rogers. Well, if we do not believe the IG, let us talk 
to the employees and according to FAA surveys, when employees 
were asked in a national performance review survey whether 
``corrective actions are taken when employees do not meet 
performance standards'' only 22 percent agreed, one in five; 51 
percent disagreed, saying in effect that corrective actions are 
not taken when employees do not meet performance standards. 
Similar results were seen in the annual employee survey. But in 
the NPR survey, when your own employees were asked ``Are you 
clear about how good performance is defined in your 
organization'' only 20 percent agreed, one in five agreed with 
that, even less than what was reported by the INS, 25 percent 
over there.
    And you know my feelings about the INS.
    Ms. Garvey. I do, Mr. Chairman.
    Mr. Rogers. And far below the government-wide average of 31 
percent.
    Now, do you want to talk about that?
    Ms. Garvey. Absolutely. In fact, I was just going to get to 
that point. First of all, I was very concerned when we saw both 
the NPR and then our own survey, which was very similar, which 
I think was probably much broader. We peeled that away a little 
bit. I will tell you that I think when you get into the 
employee survey what you find is that the closer the supervisor 
is to the employee the more accountable they think they are. In 
other words, if we peel it back, there becomes more and more 
dissatisfaction on the employee's part as they go up the 
management chain. They probably, quite honestly, have a lot 
less sense of accountability with the further they get away 
from their own management chain. First line supervisors do 
pretty well with the employees. But I will tell you there are 
two action items following that, and actually, one really 
significant action item. We looked at that, we talked to the 
employees even more. One of the things that was mentioned 
earlier, the National Public Managers (NPM) Report that we had 
done on personnel reform a couple of years ago. One of the 
suggestions from the NPR Report was to do the 360 evaluation, 
where the employees get to evaluate the managers as well. We 
are right now doing the kind of training, doing the kind of 
work we need to do to prepare for that. But one last comment, 
Mr. Chairman, and then I promise you I will stop. I think I 
have always got to ask myself if I am holding people 
accountable enough and I think your challenge to us has been 
very clear. I think we have made some progress. I do not in any 
way want to suggest that we are fully there yet, and I will 
keep working on it.

                            PERSONNEL REFORM

    Mr. Rogers. Well, I do not want this to be taken as 
personal criticism. It is not that at all. I am really 
criticizing the system, which I think allows an unaccountable 
employee to get by. In April of 1996 at congressional 
direction, FAA was allowed to develop its own personnel and 
payroll systems so that you would have more flexibility and you 
could keep pace with the fast growing industry, a rapidly 
growing aviation industry. DOT argued that the agency needed to 
be more nimble and fleet footed in order to pay people what the 
job required and then to move them where the work was needed, 
so we gave FAA really wide latitude.
    Five years after that time, after that personnel reform 
began, there is a good deal of evidence that it has been a 
total failure. The IG said two weeks ago that the lasting 
legacy of reform was little more than a huge pay raise for air 
traffic controllers, certainly not what was intended by the 
legislation in 1996. An independent study by the National 
Academy of Public Administration, NAPA, says that FAA has not 
met many of the key goals of personnel reform.
    Here are some results from the FAA's own employee surveys 
about the success of personnel reform: Nine percent agreed that 
``Personnel reform has been successful in eliminating excessive 
bureaucracy,'' less than one in ten agreed with that. 
``Personnel reform is helping my organization accomplish its 
mission,'' 9 percent, one in ten. ``In the past two years, I 
have seen positive change in the emphasis that FAA places on 
managing people,'' 17 percent agreed, 55 percent disagreed. 
``Creativity and innovation are rewarded,'' 17 percent agreed 
and that is even below INS, which was at 26 percent, the 
government-wide average of 31 percent. Given the information 
from that study and your own survey, would you say that you 
have met your goals or even come close to them in personnel 
reform?
    Ms. Garvey. I think personnel reform is a mixed bag from 
our perspective, from how well we have done. I think it has 
given us the flexibility to hire some outside people and I 
think we have been successful in doing that. The hardest part 
about personnel reform is, in my view, moving from a tenured 
pay system to a pay for performance. It is change, it is hard, 
it is tough. The National Academy study that you referred to 
said something, though, that was also very important. It said 
this is the right track, you have to stay the course. They made 
a series of recommendations to us, a couple of years ago. We 
have been able to move on some of them. I think we still have a 
long way to go in terms of training, both training for our 
managers and training for our employees. It is very tough, but 
I do think we have made some progress.

                                BONUSES

    Mr. Rogers. At the same time, the head of personnel was 
given a large performance bonus, correct?
    Ms. Garvey. The head of my personnel office? I am sorry? Is 
that--OPM or----
    Mr. Rogers. Your personnel head.
    Ms. Garvey. Let me go back and look at that number.
    Mr. Rogers. Yes. An executive bonus to the head of human 
resources. She got a big bonus and I do not know what for. Can 
you help me with that?
    Ms. Garvey. Well, I think actually the work that has been 
done in personnel reform and I am trying, you know, to be 
realistic about this, has also been very significant as well. I 
think we have done a lot of work in this area. I think we have 
been able to recruit some additional people that we would not 
have otherwise. I think we have been able to streamline the 
processes. We have brought people on faster than we ever have 
before, particularly in the headquarters, people from outside 
the agency. So I think there is a lot.
    Mr. Rogers. If all that is true, then you have certainly 
fooled the IG and most of the employees.
    Ms. Garvey. I would like to follow up a little bit more 
with the IG on that and I certainly will.
    Mr. Rogers. Well, the IG is not your problem. I hate to say 
it, but we are worse than he is and we will be writing the 
checks and I am not happy with reform. The only thing that has 
resulted that I have seen and we can find evidence of is higher 
salaries, but as far as getting the work done and stopping 
these delays and doing all of the myriad of things we have 
heard about, it is just not happening.
    We have another vote on the floor. We will have to recess 
for a few minutes and we shall return briefly.
    Ms. Garvey. Thank you.
    Mr. Rogers. Thank you.
    [Recess.]

                      REGULATION AND CERTIFICATION

    Mr. Rogers. The committee will be in order. Let me get into 
some of the oversight questions by the field reps. Ms. Garvey, 
your field inspectors got together last summer and had some 
very frank discussions about problems in their surveillance and 
oversight of industry. The head of flight standards, Mr. Nick 
Lacey, began the meeting by saying ``We are here because we are 
in big trouble. Jane Garvey is in big trouble. All of us. It is 
about the fundamentals of how we perform our job.'' What is he 
talking about?
    Ms. Garvey. Mr. Chairman, that was a meeting that was held 
in Washington, bringing in all the division managers, and it 
was actually after the Alaska Air accident. I think any time 
you have a terrible accident like that you have to ask yourself 
are we doing everything we can? Should we be refocusing our 
efforts and I think that was really the head of our Regulation 
and Certification Office, Mr. McSweeny's effort to do just as 
you are suggesting. We have to stay focused, we have to be 
accountable, we have to pay attention to what we are doing. It 
was a very frank and open discussion, and I do not imagine Mr. 
McSweeny ever expected the minutes to be made public.
    Mr. Rogers. He also talked about a number of performance 
failures in the organization. Do you know what he was referring 
to?
    Ms. Garvey. Mr. Chairman, I would have to go back and talk 
with Mr. McSweeny. I do not remember those specifically.

                  AIR TRANSPORTATION OVERSIGHT SYSTEM

    Mr. Rogers. Well, field personnel were especially critical, 
saying that current surveillance techniques, and what we are 
talking about here is the surveillance of manufacturers of 
planes, repairs of planes, maintenance of planes and the like, 
the things that the two gentlemen to your left are involved in, 
the field personnel were saying that current surveillance 
techniques were not working and that the Director of Flight 
Standards does not return the phone calls or e-mails of his 
field staff. Can you refute that?
    Ms. Garvey. The conversation or the discussion was focused 
on the ATOS program, as you indicated, the surveillance 
program, and a number of questions were raised about whether or 
not it was being implemented quite as well as we would like. 
Since that time, I want to stress this again and again, in 
terms of the ATOS program we are meeting every other week on 
that program, working with both the unions and our inspectors, 
because of some issues that they have raised. They are good 
issues. We agree with a lot of them. We have made a number of 
changes, recommendations to the program. It is a brand new 
program for us. That is, we are really moving from a 
traditional way of inspecting to much more of a systems 
approach and, quite honestly, it is like a lot of things we are 
doing there. It is different, it is a change. We are learning 
every single day, and we are making the changes as we go along. 
So it was really focused on ATOS. The inspectors, the division 
managers and subsequently the inspectors have come up with some 
very constructive recommendations for changes and implementing 
those changes.

                                BONUSES

    Mr. Rogers. My question was why does he not return his 
phone calls?
    Ms. Garvey. I am sorry. I was focused on the ATOS.
    Some of the division managers raised with Mr. Lacey the 
problem of his getting back to them and he acknowledged that 
and my understanding is he has really been doing much better on 
that. What else can I say?
    Mr. Rogers. He must be because only five minutes after that 
meeting you gave him a bonus. The head of regulatory affairs at 
FAA Mr. McSweeny and his deputy, Ms. Gilligan, each received 
executive bonuses of $8000; the Head of Flight Standards, Mr. 
Lacey, a $6300 bonus; at or above the FAA-wide average award. 
They deserve that, obviously?
    Ms. Garvey. They do a lot of very good work, Mr. Chairman.
    Mr. Rogers. What do you all say about that, Mr. DeBerry, 
Mr. Kerner? Be frank with us, now. No one is listening.
    Mr. Kerner. It is difficult to comment on that.
    Mr. Rogers. Why? Why is it difficult?
    Mr. Kerner. It is always difficult to comment on your 
superiors, but I would say everybody in the FAA tries to do the 
best job that is possible. I think we could possibly do a 
better job.
    Mr. Rogers. Well, is that a good job? One in four flights 
delayed or canceled and all the ills and problems we have heard 
before this subcommittee about service that airlines and air 
fleet in the country is performing? Are we not right to ask 
questions about can we not improve upon the service and the 
safety? Safety, thank God, has been good, but service is 
another thing.
    Mr. Kerner. There is always room for improvement.
    Mr. Rogers. All right. Mr. DeBerry?
    Mr. DeBerry. Mr. Chairman, I am speaking from the 
perspective of a mere foot soldier out in the field. I can tell 
you that from my perspective there is a lack of communication 
from the regional level to the office manager.
    My perspective is that we are told to complete the R items 
and that is the emphasis and as the situation changes from my 
perspective, the emphasis is not placed on that change.
    Mr. Rogers. The emphasis is not placed on what?
    Mr. DeBerry. Well, the aviation environment or arena is 
ever changing and it requires redirection of forces, money, 
manpower and I do not think necessarily that emphasis is placed 
on that change.
    So what I am saying is I think there is a lack of 
communication of acceptable goals and behaviors from the 
regional level down to the office manager.

                       faa and industry relations

    Mr. Rogers. Well, you are in a funny place because you are 
inspecting airlines' equipment and you are the regulatory body 
over airlines and yet the FAA has been accused by some of being 
too cozy with industry. Do you feel like you are too cozy with 
industry as you do your inspections out there?
    Mr. Kerner. If you would read my testimony, sir, I am a 
principal maintenance inspector for a part 121 carrier and I 
would invite you to call him and ask them if I am very cozy. 
They will tell you that I am absolutely not. I am referred to 
as the bad cop and if it is wrong, it is wrong. I do not go 
into the gray areas. Either they meet it or they do not. If 
they do not, I take action. I am not saying that action always 
comes to fruition, I am just saying that I take action and I 
document the findings that I discover.

                        civil penalty violations

    Mr. Rogers. Have you ever seen an instance or know of an 
instance where inspectors were told to back off of taking some 
enforcement action by management because of complaints or 
pressure from an airline or other part of the industry to back 
off? Do you know of such an instance?
    Mr. DeBerry. I would say to you, Mr. Chairman, that you may 
or may not know that any civil penalty over $50,000 is 
reportable to the American public. In some instances after we 
apply what our handbook says to each one of the civil 
penalties, say for example if an aircraft was flying not in 
compliance with an Airworthiness Directive, it flew 150 
flights, we would apply $11,000 times 150 flights times the 
number of ADs and in some instances once it reaches legal that 
penalty is adjudicated down.
    Mr. Rogers. What do you mean?
    Mr. DeBerry. Well, we may ask for the maximum penalty 
according to the handbook. Say, for example, $11,000 per 
violation. Once it reaches legal, we may get calls back from 
the legal office to say basically, you know, we think that, 
say, instead of a $184,000 fine we think maybe a $75,000 or 
$85,000 fine would be more appropriate in this circumstance 
based upon the criticality of the incident in their opinion.
    Mr. Rogers. Have you had a problem with any of those that 
you have seen so-called watered down in that fashion?
    Mr. DeBerry. Personally, I have not, but there are 
instances out there, yes.
    Mr. Rogers. Instances of what?
    Mr. DeBerry. Well, for example, inspectors--I have personal 
knowledge of inspectors that have written violations that, say, 
for example, override an airworthiness directive, a required 
inspection and because maybe the legal did not understand it, 
maybe because of the inspectors when they put it together did 
not put it together exactly correct, the civil penalty would be 
lessened or reduced.
    Mr. Rogers. Are you saying that it was done to cozy up to 
the industry or just that there was some flaw in the paperwork 
or something that required----
    Mr. DeBerry. It could have been a flaw in the paperwork. I 
am not saying that there--in no way, shape or form am I saying 
that legal or the regional office or the administrator is cozy 
with the industry, I am just saying that there could have been 
a flaw in the paperwork.
    Mr. Rogers. I see. Mr. Kerner, in your statement, you say 
that FAA frequently ``waters down'' recommended fines to a 
fraction of the amount recommended by the inspector. Would you 
mind explaining that for us? What do you mean?
    Mr. Kerner. Based on my experience, Mr. Chairman, one case 
that I know of per se, based on our guidelines and the 
infraction and the efforts that were taken to obtain 
compliance, as Mr. DeBerry alluded to, sometimes the fine would 
have well exceeded the ability of the carrier to be able to 
sustain that fine, so the fine was reduced to a considerably 
lesser dollar amount.
    Mr. Rogers. Do you see anything wrong with the way it was 
handled or done?
    Mr. Kerner. Just that it is tough--sometimes it is very 
difficult to be able to determine a sanction and make sure you 
appropriately weigh the sanction as compared to what the 
infraction was and to use that as a means to obtain compliance. 
Obviously compliance is our main goal, it is to get the carrier 
or the airman or the agency into compliance.
    Mr. Rogers. Was this a serious violation?
    Mr. Kerner. Yes, it was.
    Mr. Rogers. What was it?
    Mr. Kerner. It had to do with non-conformity on an 
aircraft.
    Mr. Rogers. What do you mean?
    Mr. Kerner. There was a non-conformity that had to deal 
with the stall strip, which is on the wing boot. And this 
specific--what the specific infraction was was the actual 
location of the stall strip on the wing de-ice boot was in the 
incorrect location and had been installed improperly.
    Mr. Rogers. Is that dangerous?
    Mr. Kerner. Yes, it was very dangerous because it 
determines the stall speed of the aircraft and it is 
specifically critical when the aircraft has to--it has a 
dramatic effect on the single engine operation of the aircraft 
if an engine was lost.
    Mr. Rogers. And the airline had failed to correct it?
    Mr. Kerner. It took some time to get them to correct it.
    Mr. Rogers. Some time? How long?
    Mr. Kerner. I would have to check the file to be exact, to 
give you an exact date, but I would----
    Mr. Rogers. Minutes or days?
    Mr. Kerner. Days.
    Mr. Rogers. Days. In the meantime, the plane was flying?
    Mr. Kerner. Yes. They failed to take action.
    Mr. Rogers. I am sorry?
    Mr. Kerner. They failed to take action.
    Mr. Rogers. But in the meantime, the plane was flying.
    Mr. Kerner. Yes, sir.
    Mr. Rogers. With this condition that you considered 
dangerous.
    Mr. Kerner. Yes, sir.
    Mr. Rogers. And the fine was--well, I guess they were cited 
by the inspectors for a violation and do you set a dollar 
figure? Who sets the fine figure?
    Mr. Kerner. Through the recommendation in our report, the 
dollar figure was exorbitant following the FAA guidelines that 
we are held to.
    Mr. Rogers. And how much was the charge that was initially 
made?
    Mr. Kerner. I cannot give you an exact quote, but I would 
say it was well over $51 million.
    Mr. Rogers. $51 million?
    Mr. Kerner. Yes, sir.
    Mr. Rogers. And what was it finally settled out for?
    Mr. Kerner. I believe it was $90,000.
    Mr. Rogers. $90,000?
    Mr. Kerner. Yes, sir.
    Mr. Rogers. I am not asking you for the name, perhaps it is 
privileged, I do not know about legal proceedings here, but is 
this a major carrier?
    Mr. Kerner. No, it is a major regional carrier.
    Mr. Rogers. When did this take place?
    Mr. Kerner. I believe December of 1999.
    Mr. Rogers. And do you know of other similar instances 
where this type of thing has taken place?
    Mr. Kerner. Not of any other specific instances or non-
conformities.
    Mr. Rogers. Who specifically reduced the fine to $90,000?
    Mr. Kerner. I think that was the fine that was finally 
agreed to in settlement.
    Mr. Rogers. By whom?
    Mr. Kerner. I believe the legal department.
    Mr. Rogers. Out of where?
    Mr. Kerner. The regional level.
    Mr. Rogers. Where is that?
    Mr. Kerner. Our Great Lakes region.
    Mr. Rogers. Where is that?
    Mr. Kerner. In Chicago. FAA flight center in Chicago.
    Mr. Rogers. This was in 1999?
    Mr. Kerner. I believe 1999, sir. Yes.
    Mr. Rogers. Did they explain to you that you were mistaken 
or this was not as big as we thought it was or something? Did 
you get an explanation of what happened?
    Mr. Kerner. It was not specifically my case. I am aware of 
it, but I was not involved.
    Mr. Rogers. Well, were you aware--did they later come along 
and explain to somebody that this was the reason for the 
reduction?
    Mr. Kerner. I think so.
    Mr. Rogers. What was it?
    Mr. Kerner. Because of the amount of the fine and based on 
the fact that we finally did get compliance, compliance was 
obtained, that it was an adequate fine.
    Mr. Rogers. But the reasoning was that the fine that was 
originally leveled would have broken the airline financially?
    Mr. Kerner. Yes.

                    faa management of stars program

    Mr. Rogers. Do you have any questions, Mr. Sabo?
    Mr. Sabo. Thank you, Mr. Chairman. I think I should 
indicate for the record to Mr. Eickenberg and Mr. Fisher to say 
that while you were describing the CIC program, the air traffic 
controllers present today were vehemently shaking their heads 
in disagreement and we will have to get their view of how that 
program works also, but obviously there is disagreement.
    I am curious about the whole question of management within 
the FAA. I recall the problem we had with the Standard Terminal 
Automation Replacement System (STARS) program where we had 
major problems and it was only after this committee intervened 
that we got the controllers involved in looking at how the 
consoles worked and the whole planning process had gone on and 
there was not a desire to talk to the people who actually 
delivered the service. And I am just curious from some of the 
other discussion I have heard, it sounds somewhat similar.
    And I find that happens quite often throughout the federal 
government that there are folks on one level and they rarely 
talk to the people who actually deliver service or produce 
goods, there is sort of the status or something that 
interferes.
    To what degree is that a problem and is the type of problem 
we had with STARS typical of other problems in relationship 
between managers and line people? Or was that an aberration?
    Ms. Garvey. I think, Congressman, any time you have an 
agency as large as the FAA it is an issue. You have to be aware 
of it. And I am sure it is true in the private sector as well. 
Are you communicating what you need to communicate, are you 
involving the people you need to involve, I think that is 
absolutely critical.
    I remember the concerns with STARS well. I had just come on 
board in August and I remember it was my first hearing, I 
think. As I said earlier, and I really mean it, I think every 
place we have been successful in the last three years is when 
we have involved the workforce, whether it is STARS or any of 
the other technologies. We have turned that around. They are on 
every single one of those programs, which I think is critical.
    The inspectors mentioned some of the issues around ATOS and 
I think you are right, it has some of the same elements. In 
other words, you really have to involve the people who are on 
the field and working it. So what we are doing with ATOS is a 
very similar approach, which is bringing in some of the past 
inspectors and also the union leadership to our meetings every 
other week.And I have to say that some of the recommendations 
that have come out of that, because they are on the front line, 
are much more practical, useful and I think really get to the 
point. And we are implementing those. So we have to look for 
all of those opportunities to do it. You always wonder if you 
are doing it enough. I listened to Keith's comments about some 
of the regional communication from that level and it sounds 
like we need to continue to focus and work on that. So we will 
continue to do it. It is a big challenge and a big job.

                       ENVIRONMENTAL STREAMLINING

    Mr. Sabo. One of the other issues that concerns me, and I 
am not sure what the agency has in mind, is environmental 
streamlining. I hear all the push for building more runways and 
I understand that and I understand the need for building 
capacity, but it also strikes me that the problems that are 
associated with building that capacity, particularly as it 
relates to noise, are immense and the type of noise that 
impacts communities who are discovering it is more diverse than 
simply overhead noise. My understanding is that increased air 
traffic also has impact on air pollution to a certain 
significant degree. I am just curious as you move to this 
streamlining process, how are you going to make sure that some 
of these very import environmental concerns to neighborhoods, 
the surrounding neighborhoods, are not lengthened? Because I 
discovered the process today is not quite--in dealing with some 
of the concerns that relate to noise and other pollution, 
questions that relate to airport expansion.
    Ms. Garvey. Mr. Sabo, I thought you were--you certainly 
again have lived with this issue along with, I know, a number 
of the communities that you represent.
    Mr. Sabo. Daily.
    Ms. Garvey. And I will go back to something the Secretary 
has said, which is in streamlining the process we do not want 
to shortchange the process in any way. There is no substitute 
for creating the kind of local consensus and dealing with some 
of the community issues that you need to deal with. And I think 
the National Environmental Policy Act (NEPA), the NEPA process, 
really does respect that. I think what we are focused on some 
of the administrative changes that we might be able to make, do 
some work simultaneously rather than sequentially. Is there 
better coordination at the federal level? In Seattle, for 
example, the airport director has run into a real issue very 
late in the process with another federal agency. There is a 
legitimate question about whether or not that coordination, 
particularly among the federal agencies, could happen in a more 
orchestrated way and perhaps happen earlier in the process. But 
certainly the issues about noise, the issues about community 
concerns are very real and as we move through with these 
projects and as we look at what some of the streamlining has to 
be, we cannot lose sight of that. I said the other day and it 
is true from my perspective, I have been around public works 
projects since 1983. I have never seen a public works project 
succeed without some sort of a critical local support and that 
often means working very closely with those neighborhoods to 
make sure that the right mitigation is put in place. That is a 
big issue.
    Mr. Sabo. Frankly, streamlining so that we get some 
decisions on mitigation more quickly would be helpful.
    Ms. Garvey. Absolutely.
    Mr. Sabo. And what I am fearful of is that there are other 
aspects that will be streamlined and that process will be as 
slow as ever.
    Ms. Garvey. Good point and I think that is a good caution. 
Some have suggested, too, that as we look at mitigation we 
might want to think about expanding what some of the airport 
dollars could be used for communities and mitigation. I think 
that is probably a legitimate issue to look at.
    Mr. Rogers. Thank you.
    Mr. Tiahrt?

                             CONTROLLER PAY

    Mr. Tiahrt. Thank you, Mr. Chairman.
    Earlier today, we talked about an air traffic controller 
that made $175,000 and I think you made the comment that you 
went back and reviewed it and that he was working an extra 
shift a week. Did I hear that right?
    Ms. Garvey. I believe that is right. Yes, Mr. Tiahrt.
    Mr. Tiahrt. So a normal shift is 40 hours a week, so he is 
working 80 hours a week? Is that the way I would understand 
that?
    Ms. Garvey. It is not that long and I am going to have to 
turn to one of the experts. It is an extra eight hours, so that 
would bring it to 48.
    Mr. Tiahrt. So it is like 48 hours.
    Ms. Garvey. Yes. I am sorry.
    Mr. Tiahrt. Okay. Well, I am fearless and that kind of 
scared me.
    Ms. Garvey. Okay. Great. All right. I am glad we clarified 
that.
    Mr. Tiahrt. What is the standard week for air traffic 
controllers? Do we know? Is it like 44 hours a week? Is it a 
40-hour week?
    Ms. Garvey. I am going to turn to one of the experts.
    Mr. Tiahrt. Forty hours a week? Okay. The record shows 40 
from the air traffic controllers who do the job. I guess that 
is good enough for me.

                   RUNWAY INCURSION SURFACE INCIDENTS

    Mr. Tiahrt Mr. Fisher, I know you are trying to preserve 
your voice and I apologize for asking so many questions. I am 
looking at your chart and I went through your testimony to try 
to make some correlation.
    I assumed that the reason for the chart was that we are 
making an argument that we need to have somewhere between six 
and seven employees for each supervisor and so I was sort of 
relating to your chart. Maybe I have gotten off on the wrong 
track, but if I look at the air carrier delays, that would 
include delays from weather, from mechanical delays. I guess I 
do not know which definition of delays you are using in your 
chart. We just established one definition today. Is it similar 
to the one that we established today?
    Mr. Fisher. Yes, sir. I believe so. And that would be on 
the air carrier delays, but the other three graphs indicate 
what we are doing now.
    Mr. Tiahrt. Okay. So if we look at service incidents, a 
service incident is when you have somebody in the path of an 
airplane or some place where they should not be, it could be a 
baggage handler, it could be a fuel truck, it could be a 
private aircraft, so it could be some people that are not in 
contact with the control tower. Is that true?
    Mr. Fisher. Well, if they are not, they should be. Airport 
rules would require them if they are going to be on a taxiway 
or runway to have two-way communication.
    Mr. Tiahrt. But it could be outside the direct contact--
could it be outside the direct contact of an air traffic 
controller?
    Mr. Fisher. No, it should not be.
    Mr. Tiahrt. Should not be?
    Mr. Fisher. They should have contact with a ground control 
position.
    Mr. Tiahrt. When I see these baggage handlers driving 
around these carts, they have earmuffs on. I do not think those 
are radios. How do they keep in touch with the tower?
    Mr. Fisher. They do not, sir. They have lanes and they have 
agreements with the airport as to where they will go on the 
runway, on the apron, on the tarmac.
    Mr. Tiahrt. And it is the same with the passenger carriers 
at some airports like Dulles? They have certain paths they are 
supposed to follow?
    Mr. Fisher. They are going to follow the yellow line, sir.
    Mr. Tiahrt. Okay. So I guess you could make the argument, 
though, that there are some service incidents that would be 
outside the control of an air traffic controller, just people 
are going to do things that are wrong.
    Mr. Fisher. That is correct.
    Mr. Tiahrt. Okay. Well, the runway incursions is sort of 
related to the surface incidents, are they not? I mean, they 
could be interrelated, they could be--a surface incident could 
be a runway incursion.
    Mr. Fisher. Could be.

                           OPERATIONAL ERRORS

    Mr. Tiahrt. Okay. Well, I guess--I am not sure I can use 
any of that data. Now, the operational data seems like it could 
be directly involved.
    Mr. Fisher. The runway incursion data you can use because 
when we talk about the recent runway incursions or near misses 
that we have had in the last couple of months, one example is 
Seattle where an American Airlines aircraft flew over a TWA as 
it crossed the runway.
    Mr. Tiahrt. I think Chairman Carmody, I think you had that 
in your report, did you not, that you submitted? Yes?
    Mr. Fisher. And an additional recent one in Fort Lauderdale 
where an air carrier passed over the top of another one in 
landing.
    Mr. Tiahrt. I think that that would be in the operation 
errors category. I think your chart--I was reading through your 
report here, your testimony that you submitted today for the 
record and there are four categories in here, there is really 
nothing about delays, but there are four categories in here, 
one of them is operational deviation, which seemed like it 
would be a good category to measure, but it is not on your 
chart, but maybe that is related to operation errors, which is 
also footnoted in your report.
    Mr. Fisher. That is correct, sir.
    Mr. Tiahrt. The operational error would be results less 
than applicable separation, minima between two or more aircraft 
or between aircraft and terrain or obstacles and instructions. 
In other words, the planes are too close together.
    Mr. Fisher. Correct.
    Mr. Tiahrt. Okay. And then the second portion of 
operational error would be aircraft lands or departs on a 
runway closed to aircraft operations after receiving air 
traffic authorization.
    Mr. Fisher. That would be landing on a closed runway.
    Mr. Tiahrt. Does that happen a lot? I remember recently we 
had a plane try to take off on a closed runway and hit a piece 
of construction equipment. When a runway is closed, does that 
mean it is under construction or is it just not currently being 
used?
    Mr. Fisher. Both of those are correct, sir. The airport 
authority who controls the airport will shut the runway down 
for maintenance or it might be closed for some construction, 
replacing of lights, and they close them for certain periods of 
time during the day, normally non-busy air traffic periods. So 
the controllers know that the runway is closed.
    Mr. Tiahrt. So some pilot comes in, he goes to the wrong 
runway basically?
    Mr. Fisher. That could happen, but our controllers most 
assuredly do not want that to happen and ensure that does not 
happen.
    Mr. Tiahrt. So it could be pilot problems as well as air 
traffic control problems.
    Mr. Fisher. It could be.

                            SUPERVISOR RATIO

    Mr. Tiahrt. Okay. Well, I do not know that I can relate 
that data to the number of air traffic controllers and 
supervisors, but I think the point is probably made that it 
would be nice to have somebody overseeing it, but I just cannot 
attribute any of the data directly to this ratio. Is there 
something I am overlooking?
    Mr. Fisher. Well, if I get back to Ms. Garvey and what she 
indicated, that she cannot see a one-to-one correlation, I am 
not saying that it is a one-to-one correlation. I am just 
saying that oversight is a major part of the problem?

                           OPERATIONAL ERRORS

    Mr. Tiahrt. I see.
    Mr. Fisher. And if we are going to be part of the problem, 
FMA wants to be part of the solution.
    Mr. Tiahrt. Well, in your argument, being part of the 
problem, you said that--in, again, your report, using the 
number of operational errors in fiscal year 2000 as a basis, 
the total cost of all operational errors was $14.2 million. But 
I am not sure where the $14.2 million came from.
    There is a chart that talks about air traffic costs 
associated with operational errors and you have level 12 down 
to level 5 and then an average cost and then a number of 
operational errors and then a cost by level. How did you 
establish the cost by level in your report on page 8?
    Mr. Fisher. That was a piece that the FAA did and that was 
sent out to the regional people. It is a chart that they came 
up with.
    Mr. Tiahrt. This is not replacing damaged property, this is 
not a workman's compensation OWCP claim where they have an 
operational error and they throw their back out so they have to 
be off time. I am just not sure where these costs are coming 
from. What is an operational error cost? How is it derived?
    Mr. Fisher. The time spent, okay? With either people off, 
not working.
    Mr. Tiahrt. Investigation?
    Mr. Fisher. Yes. Investigation, Training, and all of those 
sorts of things. OWCP comes in when a traumatic injury is 
claimed and the people involved would claim up to 45 days. That 
is the additional difference between the $14 and $16 million.
    Mr. Tiahrt. I am sorry to strain your voice, but what 
happens when there is an operational error? What happens to the 
operator? Is there a review process? Does he have to fill out 
some paperwork? Is there some kind of something that is 
documented that you can say, well, this was a $2 million error, 
this is a $1 million error? What is the difference between--I 
am sure they do not all cost the same. What is the process?
    Mr. Fisher. No, they do not. The process for an operational 
error is that the person will be taken off the position and it 
will be investigated. If training is going to be required, and 
in today's environment, if it is going to be for something 
other than a technical violation, the supervisor of that 
individual will get together with the individual, make up 
tests, conduct training, et cetera, go through a process 
whereby that person would be given a skill check or what have 
you and then be reinstated to work traffic again.
    Mr. Rogers. Mr. Pastor.

                       environmental streamlining

    Mr. Pastor. Thank you, Mr. Chairman. I want to go back to 
the streamlining. Last week, we had the Federal Highway 
Administrator and TEA-21 authorized some pilot projects in 
which they would try to streamline the process, not to do away 
with the NEPA requirements, not to mitigate or not to lessen 
them, but how is it that federal agencies can work together so 
the process can move faster. And the authorization was given 
two years ago and two years ago two pilot projects were funded.
    We were told at the hearing that there is about 40 statutes 
that deal with the environmental issue and anywhere from 12 to 
15 federal agencies that one time or the other can get 
involved. And they found it, I think, fairly difficult in terms 
of getting the federal agencies just to cooperate with each 
other in terms of developing a process that would lessen the 
amount of time. My question is have you had that type of 
authorization at least where you can have some pilot projects 
so you can streamline the process and, if not, is that 
something that they would want to consider?
    Ms. Garvey. Congressman, first of all, we have been in 
close contact with the Federal Highway Administration learning 
from their experience because I know that was two years ago. 
The report that we are submitting to Congress will include 
administrative steps we can take as well as whether or not we 
need any regulatory or legislative changes that we would 
recommend. A couple of points. There are the 40 kind of 
agencies that Federal Highway----
    Mr. Pastor. Statutes.
    Ms. Garvey. Statutes, rather, that Federal Highways has 
talked about. We think there may be some duplication. We have 
talked with Federal Highway about including, where there is 
duplication eliminating that and actually including that in our 
report to Congress. So that is certainly one place that we are 
looking at. Right now, I do not know that I can say we actually 
need authorization to do pilot programs, but I would like to 
wait to see what the final report to Congress in April would 
be.
    There are still a number of issues around the early 
planning stages where it is very important to get all the 
federal agencies in early, perhaps sign a memorandum of 
understanding. That is being considered. The secretary himself 
has said that he would be willing to intervene wherever it is 
necessary at the highest levels to get his colleagues at the 
cabinet level to look at this in a coordinated and concerted 
way. Just to go back to the example in Seattle, when talking to 
the airport director there, it is not that she does not want to 
deal with the issue. What she is asking for is can I know what 
the issue is early enough so I can deal with it early in the 
process rather than at the tail end of the process. I think the 
Secretary can play a key role in that.
    Mr. Pastor. But what happens in some cases, one federal 
agency comes when you are three-fourths of the way down.
    Ms. Garvey. Right.

                           inspector staffing

    Mr. Pastor. And that causes you then to go back to try to 
work the process again and then time becomes a factor and you 
begin to overrun the project, the cost goes up and then people 
start saying, well, you know, is it worth doing.
    So I believe that streamlining is something we as federal 
agencies should strive for and it is just a matter of what is 
the best way of getting it done because pouring concrete for 
the highways and the airports is very important to minimize 
some of this delay problem, at least in the long run.
    The second question I had, the second question dealt with 
the inspectors who are requesting more staff. Now, have you 
looked at the budget and is there room for that? Or are you 
anticipating more staff for inspectors?
    Ms. Garvey. Two quick answers, if I could, Congressman. One 
is the supplemental budget that Congress passed last summer is 
very helpful. We are able to hire some additional people 
because of the supplemental. We put some additional funding for 
this staffing into the budget that will be talked about in more 
detail, I know, when the President releases that, so we will 
look for your support during those discussions as well. That 
will allow us to do some additional hiring.
    Mr. Pastor. Because getting on a plane every weekend and 
every Monday, it is very important to have that safety.
    Ms. Garvey. That is right. I understand.
    Mr. Pastor. It is a personal concern. I want to make sure 
that whether they are outsourced or not, that we have the 
inspectors because it is for my own safety.
    Ms. Garvey. I agree.

                      controller-in-charge program

    Mr. Pastor. And the third question is when I went back to 
the office during one of the breaks, I received an e-mail and 
there were three basic questions or three facts. Fact number 
one is that the CICs, is it not true they are required to be 
fully certified on all operational positions, whereas 
supervisors have no such requirement?
    Ms. Garvey. Well, it is true that they have to be fully 
certified. I am not sure about the supervisors. It is true that 
the CICs do have to be fully certified and if we were not clear 
on that, we should be.
    Mr. Pastor. So they are certified.
    Ms. Garvey. That is correct, Congressman.
    Mr. Pastor. So they have the training and all the----
    Ms. Garvey. Yes.
    Mr. Pastor. Well, at least the training that a supervisor 
would have. Now, who determines the number of CICs at an FAA 
facility? Is it not someone from management that would make 
that determination?
    Ms. Garvey. It is, Congressman. And, again, we are trying 
to give our managers as much flexibility to make those 
determinations as possible. It is the managers. It is the 
manager's ultimate call.
    Mr. Pastor. So it is the manager who decides how many CICs 
are going to be working and learning how to become supervisors, 
so basically it is the manager who makes that determination.
    Ms. Garvey. That is correct, Congressman.

                 CIC RELATIONSHIP TO OPERATIONAL ERRORS

    Mr. Pastor. It is not coming from you or from someone else 
outside of that.
    Ms. Garvey. That is correct.
    Mr. Pastor. And the third fact that I got is just basically 
is it true that 92 percent of the time when an operational 
error occurs a supervisor is in charge?
    Ms. Garvey. I have seen that number, Congressman. And, you 
know, again, I want to underscore that I have great respect for 
the supervisors, too. I think it gets to the point and it may 
be a point that Congressman Tiahrt was making, too, it is 
difficult to come to a solid conclusion that the reason for an 
operational error, the reason for a runway incursion, is 
related to the number of supervisors. I think you have to look 
at it much more carefully. Obviously an issue, obviously 
something you want to consider, and you do not want to reduce 
supervisors in those places where you have real problems.
    Mr. Pastor. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Sweeney.

                            SAFETY OVERSIGHT

    Mr. Sweeney. Thank you, Mr. Chairman. We have had a couple 
of weeks of testimony, we have actually had a couple of years 
of testimony. We know we have competition problems, we know we 
have customer service and geographic service problems. The 
safety record always seemed to be the thing we could fall back 
on and say, well, something is working. And today, we look at 
Mr. Fisher's charts and listen to some of the other testimony 
and there are some pretty disconcerting pictures being drawn 
here and there is chaos out there.
    There are delays in all major acquisitions and programs at 
the FAA, or substantial numbers of them. The cost accounting 
system is four years behind, which I think beyond safety ought 
to be next high priority. There are too many planes trying to 
get into too few spots. Everyone believes the system is either 
broken or just not working well.
    And God forbid the next time we have a safety problem or 
incursion and people are going to look back at the testimony 
that we have accumulated here, they are going to hold us 
accountable and they are going to hold each of you accountable 
and others.
    And I guess I would ask that somebody tell me at the end of 
the day, the controllers do not go home each day just simply 
happy that they have gotten through another day without a major 
catastrophe. And whether it is oversight or procedural problems 
or inspection ratios, we better get our act together pretty 
quickly.
    Mr. Kerner, under questioning from the chairman, you spoke 
of a specific example of a case in which there was a 
mitigation, a fine, and the adjudication process and my simple 
question is why would not the inspector simply ground that 
plane?
    Mr. Kerner. Congressman, there were efforts to try to bring 
the non-conformance to the carrier and once it was determined 
that it would take additional effort to do it, to my 
understanding all efforts were taken and their compliance was 
obtained.
    Mr. Sweeney. What is the process? I mean, if you see 
something--if you are out there and you see something like that 
and you said to the chairman that you thought that was a very 
serious safety issue.
    Mr. Kerner. It was a serious safety non-conformance and 
every effort to bring the carrier and the aircraft in 
compliance was taken. There are vehicles that we have.
    Mr. Sweeney. Was it brought within compliance?
    Mr. Kerner. Yes, it was.
    Mr. Sweeney. Okay. I misunderstood that. I assumed that----
    Mr. Kerner. Compliance was obtained, it was just slow to 
get it into compliance.

                 REGULATION AND CERTIFICATION STAFFING

    Mr. Sweeney. Mr. Pastor just touched on it a little bit, 
Mr. DeBerry, and you say in your testimony that you recognize 
Congress has appropriated the funds to meet the FAA's requests 
for the Flight Standard Division and then you outline some 
pretty serious problems that exist out there.
    Actually, I am going to as Administrator Garvey. Develop me 
some perspective here. What priorities are supplanting this? 
Where is the money going?
    Ms. Garvey. Well, fortunately, because of the supplemental 
and because of the budget request for next fiscal year, I think 
we are going to be able to meet those. I think there is always 
a concern from the inspectors about the need to hire more. We 
try to balance hiring new inspectors with hiring new 
controllers and other priorities that affect the safety of the 
system.
    Mr. Sweeney. Are we at the ten-to-one ratio?
    Ms. Garvey. Not at all. Not even close to that, to be 
honest with you. We are moving slowly on that.
    Mr. Sweeney. Is there sufficient funding or was there 
sufficient funding in last year's appropriation piece to hire 
those?
    Ms. Garvey. With the supplemental, we got the sufficient 
funding.
    Mr. Sweeney. So where did the money go?
    Ms. Garvey. With the supplemental, no, we are hiring them. 
I am sorry. We are hiring.
    Mr. Sweeney. But are we at ten-to-one? You had earlier said 
that a ten-to-one ratio was the attainable goal.
    Ms. Garvey. That was the long-term goal that we have. To go 
to a ten-to-one supervisory ratio. Maybe I misunderstood your 
question. I thought it was about what did we think was a 
sensible ratio and I think we can live with and we feel that 
ten-to-one is the right one in many facilities. I will not say 
in all facilities. And then that is separate from hiring the 
inspectors, which thanks to the supplemental budget and to, I 
believe, this year's President's Budget, again, with a lot of 
help from Congress, we will be able to hire the numbers that 
the inspectors are talking about.

                        AIRWORTHINESS DIRECTIVES

    Mr. Sweeney. I have two quick questions. One is again to 
you about Mr. Kerner's testimony in which he said that the FAA 
is ignoring its own internal policy handbook by switching the 
oversight responsibilities of repair stations from Flight 
Standards District Offices to CMOs, certificate management 
offices, which are not in geographically close locations to do 
that. Can you address that concern and tell me what the 
rationale is in the policy?
    Ms. Garvey. Yes, I can, Congressman. Again, this is an 
issue that we talked to Mr. Fanfalone about. For us, from the 
FAA management perspective, one of the challenges and one of 
the ways that we think the oversight should be addressed is to 
bring our oversight as close as we can to the carrier so we 
have made some changes based on that operational need, if you 
will. The union, Mr. Fanfalone, and some of the inspectors have 
raised some concerns that they have about how it affects the 
workplace, and how it affects the workforce. They are issues we 
are looking at and working with. It is a fairly new issue at 
least in terms of my attention to it, but I know Mr. McSweeny 
is also looking at it as well. Again, trying to balance out the 
right kind of issues for the workplace but then also trying to 
deal with the operational need to have the oversight as close 
as we can. But I look forward to also talking to the inspectors 
about that.
    Mr. Sweeney. Mr. Kerner, do you want to comment on that at 
all?
    Mr. Kerner. Congressman, basically my position is it is 
difficult for personnel in a CMO or an air carrier office that 
manages a major air carrier to be able to satisfy the daily 
needs and stay on top of the issues at a repair station that is 
located halfway across the country.
    Mr. Sweeney. So in your opinion, it does present a risk.
    Mr. Kerner. It does present a risk and it is hard to stay 
on top of issues.

                     emory freight flight 17 crash

    Mr. Sweeney. I just have one final--it is really not a 
question, it is a request to Chairwoman Carmody. On February 
16, 2000, Emory Freight Flight 17 from Rancho Cordova, 
California crashed while attempting emergency return to the 
airport. I guess it has been established that the problem was 
cargo had shifted and it has caused similar kinds of problems.
    The family of the captain of that plane is from my district 
and, as you can imagine, that loss has been greatly felt and 
they are quite distraught and have talked to me repeatedly.
    More than nine months after the accident, the NTSB 
scheduled a hearing on the accident and canceled the hearing, 
so what I would like from you by next week's end, by the end of 
this month, is if you could provide me a detailed account of 
the Emory Flight 17 accident so that I could at least 
correspond some knowledge to my constituents.
    Ms. Carmody. Thank you. I am glad to do that now, I have 
some information. First of all, there are strong indications 
that have recently come to the attention of our team that it 
was not a loading accident, it looks more like a maintenance 
issue.
    Mr. Sweeney. How long ago did you establish that? Because 
we have been asking for quite some time.
    Ms. Carmody. It has been quite recently. I just had a 
meeting on it in my office. And the second issue is that we 
have decided to have a hearing. The date is as yet 
undetermined, but probably June, late June or July and we will 
get you that date as soon as we establish it.
    Mr. Sweeney. I would appreciate next time those kinds of 
things occur that there be--because we have been in regular 
contact with your office on this.
    Ms. Carmody. Well, I am sorry to hear that. It was just 
yesterday morning that I had a meeting and we discussed this 
very issue and decided to go forward with the hearing.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    ground radar at reagan national

    Mr. Rogers. All right. Thank you, Mr. Sweeney. We are going 
to wrap this up. We have exhausted the subject. We have 
exhausted the panel and the audience, I think. But let me ask a 
couple of questions for other members before we close down, for 
Chairman Wolf, who had to leave for another hearing from our 
hearing.
    He wanted me to ask you, Administrator, about the 
Washington Post story yesterday about the ground radar at 
Reagan National that is apparently inoperative, apparently 
unable to track planes on the ground. Is that correct?
    Ms. Garvey. That is correct. And the article, I think, 
really accurately described the issue. A design issue, a 
problem that no one had anticipated. Very unusual situation. We 
have this radar in lots of places. We are looking at shortening 
the schedule to get it replaced. We have some real siting 
challenges at National and we also have some environmental 
issues with the National Capital Planning Commission, but we 
have a call in to them to see if we can resolve some of those 
very quickly.
    Mr. Rogers. But contrary to the Post article, you do not 
have a problem with money to fix it.
    Ms. Garvey. Well, that was pointed out yesterday and that 
is absolutely right. Yes.
    Mr. Rogers. In fact, we put in $4 million in the current 
fiscal year to fix that particular problem.
    Ms. Garvey. And thank you very much.
    Mr. Rogers. It is available for three years, right or 
wrong.
    Ms. Garvey. That is correct. Thank you.

                capital city airport, lansing, michigan

    Mr. Rogers. Thank you very much. Now, for Mike Rogers from 
Michigan, he wants to know why you are considering shutting 
down the midnight shift of the ATC tower at the Capital City 
Airport in Lansing, Michigan.
    Ms. Garvey. I do not know the answer to that. Congressman 
Rogers did stop me just before the afternoon session began and 
we are going to look at that. We will get back to him and let 
you know as well, Mr. Chairman.
    Mr. Rogers. He points out that if it is closed that the 
people flying in and out between 11 p.m. and 6 a.m. would be 
without service and that United Parcel Service (UPS) operates a 
gateway at the Capital City Airport and employs more than 100 
people and a lot of their planes would be flying in and out of 
that airport during those proposed closing hours. That would be 
a problem, would it not?
    Ms. Garvey. It certainly sounds that way and we will look 
into it.
    Mr. Rogers. He has been hounding me to hound you, so I have 
hounded you.
    Ms. Garvey. Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Anyone else before we close?
    Mr. Sabo.
    Mr. Sabo. No, thank you.

                            Closing Remarks

    Mr. Rogers. I thank you for spending a long day with us. I 
apologize for making two sessions out of this, but you are 
doing such important work it required that we take some time.
    You know what the problems are, much, much more than we do, 
but we are charged with the public responsibility to oversee 
the funding for FAA and the NTSB and many of the aspects of 
this business of traveling. And we are hearing complaints from 
our constituents out there in very, very loud and vociferous 
ways and that means we have to pass this along. This is, after 
all, a republic and we are republishing what we are hearing out 
there.
    So we are expecting that we get answers and solutions. The 
funding that we will be passing through this subcommittee this 
year will, I assure you, go to those who are a part of the 
solution; they will not go to those who are a part of the 
problem and we are trying to sift through now and see who is on 
which side.
    We expect the FAA to be the great professional organization 
that it is and was designed to be. You are carrying heavier 
responsibilities than you ever have, the number of people 
flying continues to increase by the millions. That is not going 
to let up. You face some very short-term problems with the 
anticipated work shortages that are apparently in place or 
coming up this summer and the overwhelming numbers of new 
travelers this summer during the holiday season.
    So I expect the noises will get louder that we hear and so 
we are going to have to ask you to redouble your efforts and be 
sure that the directives of this Administrator and staff go to 
the very ends of the earth, go to the very bottom of the 
organization and we expect that and we are going to keep track 
of that. And, believe me, we will find ways to know who is the 
problem. And if the Administrator does not have the authority 
to effect discipline there, believe me, we do and we will 
exercise that authority.
    We expect results. We know we have professional people here 
and we know we have some experienced people that know what they 
are doing. There are a few, I think, though, that are in the 
way. And we want to move them out of the way.
    Thank you very much.
    Ms. Garvey. Thank you, Mr. Chairman.
    Mr. Rogers. The hearing is adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                             Thursday, May 3, 2001.

              AIRLINE DELAYS AND AVIATION SYSTEM CAPACITY


                               WITNESSES

JANE F. GARVEY, ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION
KENNETH M. MEAD, INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION
EDWARD A. MERLIS, SENIOR VICE-PRESIDENT, LEGISLATIVE AND INTERNATIONAL 
    AFFAIRS, AIR TRANSPORT ASSOCIATION
CHARLES BARCLAY, PRESIDENT, AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES
CAPTAIN DUANE E. WOERTH, PRESIDENT, AIR LINE PILOTSASSOCIATION
JOHN S. CARR, PRESIDENT, NATIONAL AIR TRAFFIC CONTROLLERSASSOCIATION

                            Opening Remarks

    Mr. Rogers. Good afternoon to all of you. This afternoon we 
have before us once again the infamous gang of six, the 
aviation professionals who had the misfortune of appearing 
before this Subcommittee on March 15th, to address the airline-
delay problem. During that hearing I asked each of them to 
commit to five concrete and measurable things they would 
personally do to help address the airline-delay problem. 
Frankly, over the past couple of years there have been a lot of 
hearings, a lot of public statements about the delay problem, 
but there has been more finger pointing than real progress. It 
makes one think that this is a dysfunctional family.
    Well, I say we have had enough finger pointing and enough 
bland statements. So during our March 15th hearing we secured 
specific commitments from the government and from elements of 
the industry. We put those commitments on a big board, which 
you see displayed behind us here on the desk. You will notice 
there are blanks on this list of commitments under the areas 
marked ``progress.'' And that is what we are here to address 
today, what specific progress has been made by each of you over 
the past seven weeks on the five commitments you made to us at 
that time.
    Consider this your first grading period. We want to give 
each of you a report card today on your progress. And I intend 
to have you up here again and perhaps again and again because 
we will continue working to resolve this problem until we have 
firm, documented progress from each of you.
    Consider this like the ``Survivor'' television show. You 
are each on an island with me, and I am putting you through 
your paces. We are holding your feet to the fire, and as you 
meet your commitments, you will get off the island. And I know 
none of you want to be the last survivor here with me because I 
am not going away. This Subcommittee is not going away.
    The airline-delay problem is one of most serious problems 
facing our nation today, affecting millions of our people each 
day. One in every four commercial-airline flights was delayed 
last year, and the average delay has now increased to almost 50 
minutes. Flight cancellations have increased sevenfold in the 
past five years, and the FAA has now documented that airlines 
regularly schedule more flights during rush hours at busy 
airports than can possibly take off. They are planning on 
delays and cancellations as part of their ``business model.'' 
With aircraft over 70 percent full, it is impossible to rebook 
those passengers on the next flight. The overreliance on moving 
thousands of passengers during peak hours through a small 
number of major hub airports has created a system which is not 
serving the American public well.
    We have boiled a lot of good ideas down to the list behind 
me, and we will focus on that list today. But all of you need 
to know and carry the message back to your respective 
industries or organizations that we are deadly serious that we 
will have concrete actions, concrete solutions to this problem 
or there will be consequences. Not vague promises, but we want 
hard and fast commitments and solutions, and the evaluation 
begins today.
    So I appreciate the fact that you have returned today. We 
await your progress reports. We will enter your written 
statement in the record without objection, but first let me 
recognize my colleague, Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman. It is good to see all of 
you again, and I look forward to hearing from you.

                 commitments to solve the delay problem

    Mr. Rogers. The Secretary testified two days ago. We have 
extracted five promises out of the Secretary, and you will see 
that the board has been modified to include the Secretary of 
Transportation.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         FAA Opening Statement

    Mr. Rogers. We will go according to the chart behind me in 
that order, and you are recognized, Ms. Garvey, Administrator 
for the FAA.
    Ms. Garvey. Thank you very much, Mr. Chairman, Mr. Sabo, 
members of the committee. I am very pleased to be here this 
afternoon.

                              choke points

    In front of you is a package which outlines the commitments 
that I made at our last hearing, the milestones we have set, 
the progress we have made, and the benefits that have accrued. 
At a recent budget hearing, I reported to you that we were 
successful in reaching a standard definition of delays, so I 
would like to turn to the five remaining items, and I will 
begin with the choke points. Together with the airlines, we 
have identified 21 initiatives to relieve choke points. Those 
are areas in the system that generate significant constraints.
    The most critical area, as you may remember, is that 
triangle from Chicago to Boston and Washington. The 21 
initiatives focus on changes to gain greater efficiency in the 
airspace, and we do this by changing air-traffic procedures, by 
establishing new sectors, and by creating new routes.
    We have completed work on 11 of the initiatives. Those 
specifically address the congested airspace in and around the 
New York-New Jersey area. As a result, we can say that the 
westbound and northbound departures out of the New York area 
are experiencing fewer delays. And just this week we opened 
three new sectors in the Cleveland Center, which is really the 
busiest center in the country. We are currently testing some 
new routes between 300 city pairs, which will allow aircraft 
between these points to fly at lower altitudes, and we believe 
by separating the traffic we can maintain greater efficiency.
    Additional initiatives, as you will see from the chart, 
will be completed by December. Five are longer in their 
implementation phase, and some might even involve international 
agreements, but our time frame is to complete all of these by 
July 2002.

                          capacity benchmarks

    On the second issue, capacity benchmark, we issued our 
Capacity Benchmark Report on April 25th. We established both an 
optimum and a reduced number of hourly takeoffs and landings 
that can be safely accommodated at the top 31 airports. The two 
numbers, we believe, describe a realistic expectation of 
performance for each airport. The report confirms what you as 
frequent fliers know intuitively, and that is that there are a 
handful of airports where demand is either at capacity or 
exceeds capacity and where in adverse conditions the resulting 
delays have impacts throughout the system.
    The report shows that there are eight airports that have 
high delays and that have a disproportionate effect on the 
National Airspace System. Each airport presents a unique set of 
challenges, and each airport requires a specific set of 
solutions. We think the report is a good starting point.
    Our emphasis, which includes the government, airlines, and 
the airports, is to quickly shift to solutions. We have taken a 
first cut at potential solutions for each of these eight 
airports. The actions include new technology. It includes air 
traffic control procedural changes, in some instances new 
runways, and a review of airline scheduling.
    What you will see in the charts before you are those items 
for which the FAA has direct responsibility. We recognize that 
our actions alone will not be sufficient to deal with the 
projected demands at these airports, so in the action plans 
that are included in the report we have included 
recommendations for airports and airlines. We will certainly 
work very closely with them to implement the right set of 
exclusions.

                       free flight phase 1 and 2

    With Free Flight there are essentially five automation 
tools, five software programs, to be used by the controllers. 
We are glad to say that the program is on track. We have had 
enough experience to date to begin to measure the benefits. And 
incidentally, the benefits that we are seeing are those 
benefits that the airlines tell us about themselves. One tool, 
for example, is saving airlines $1.5 million per month in 
Indianapolis and Memphis. Another tool is able to increase 
arrival rates at Dallas/Fort Worth by about five percent.
    Our challenge now is really to maintain the momentum and to 
have it carry on into Free Flight Phase 2.
    Some of the National Airspace Evolution Plan initiatives 
that I have spoken about are really short term in nature, and 
the choke points are a good example of that. But we have also 
recognized that we need a 10-year view of where we are headed, 
and that is really where the National Airspace Evolution Plan 
comes in. It lays out a 10-year commitment for the FAA for the 
airlines and for the airports. It includes runways, and it 
includes technologies and procedural improvements.
    Simply put, this plan sets forth the blueprint to move us 
toward satellite navigation and to move us as an industry, with 
the supporting procedural changes and airspace redesign. We are 
working very closely with industry and airports, and we intend 
to issue the final plan in June. We have the draft up on the 
Web. We are hearing from airlines daily, and their comments are 
very helpful.

                       environmental streamlining

    The next item, streamlining approval for airport capacity 
project. As you know, AIR-21 required the FAA to report 
primarily on the environmental-review process and streamlining 
efforts as well. Our report is essentially complete. I am very 
pleased to say that OMB signed off on that earlier this week, 
and we expect to get it to Congress very shortly. I hope within 
the next day.
    We have already undertaken some steps at the FAA, such as 
establishing dedicated environmental-review teams for the major 
runway projects. Four such teams are now in place. We are also 
working to increase staff for environmental review and working 
with our airport sponsors on reimbursable agreements to 
dedicate staff to major runway projects. There are some 
encouraging developments. We have about 18 new runways that are 
proposed between now and 2010. Nine of those projects have 
completed the environmental-review process. We will work very 
closely with the Inspector General to keep a careful eye on all 
of those projects.
    Mr. Chairman, we know of your commitment and this 
committee's commitment to finding solutions. We also recognize 
that it will take the efforts of each of the groups represented 
here this afternoon. I will simply end by saying that you have 
my personal commitment and deep resolve to do our part.
    Thank you very much. That concludes my testimony. I would 
be happy to answer questions.
    [The prepared statement of Jane Garvey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Inspector General Opening Statement

    Mr. Rogers. Thank you, Ms. Garvey. We are analyzing the 
statement. Mr. Mead, the Inspector General.
    Mr. Mead. Thank you, Mr. Chairman. Consistent with our 
oversight role, I would like to provide an update on each of 
our commitments. We have submitted a fairly lengthy statement 
for the record. I would just like to touch on the highlights, 
if that is permissible.

                      definition of flight delays

    Mr. Rogers. That is fine.
    Mr. Mead. I am pleased to report that progress has been 
made on most of the DOT and FAA action items that we committed 
to monitoring since the March hearing. The most progress has 
occurred on developing a standard DOT definition of flight 
delays, of which you are already aware, and establishing a 
system for tracking the causes of flight delays and 
cancellations. That system has been established, Mr. Chairman. 
Now it must be implemented, and there is an important 
distinction between those two.

                        other delay initiatives

    Developing capacity benchmarks for the 31 major airports, 
which show the number of flight operations that these airports 
can accommodate in both good and poor weather; now they need to 
be used. Developing the national operational evolution plan, 
which is really a set of FAA initiatives and milestones for 
expanding capacity in the air traffic control system; I have 
personally been briefed on this plan, and I think it is 
impressive. Now it needs to be agreed to, polished, refined 
with the airlines and then implemented. Progress is also being 
made on the remaining 10, so-called ``choke-point items,'' 
including the establishment of several new, air traffic control 
sectors. I do want to say, though, that even with the progress 
to date, significant work remains in a number of areas. And on 
each of the items that have been committed to by FAA and the 
airlines the key is going to lie in their implementation.

                             delay tracking

    And I would like to refer now, if I might, to some graphics 
that I believe you have in front of you. If you look at the 
Figures 1 through 3 there, you can see that delays this year 
through March are closely tracking those of last year, which 
was a record year for delays. FAA's own tracking of delays, of 
delays for which the air traffic control system is responsible, 
would show that for the month of March there were fewer delays, 
but, in fact, when you consider delays for all reasons, 
including maintenance delays by the airlines and so forth, you 
will see that they are tracking so far just where we were last 
year.
    [The graphics follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mead. Unfortunately, few of the items that DOT and FAA 
have committed to are likely to provide material relief this 
summer, but they are a real good starting in providing relief 
over the next several years. I do think that the initiative of 
FAA and the airlines to work cooperatively in sharing 
information this summer is going to provide system relief. I 
also think the opening up of several new air sectors will 
provide some relief. But the actions most likely to materially 
reduce delays this summer are going to be voluntary ones taken 
by airlines to revamp their schedules at their hubs and efforts 
to disperse traffic away from these congested areas to other 
airports where it is economically feasible to do so.

             airline voluntary actions to reduce congestion

    I would like to refer now to the second of my graphics. 
Here I would like to refer to actions taken both by American 
Airlines and Delta Airlines. American reduced the size of peak 
operations at Dallas-Fort Worth. That is on the second page 
there, Mr. Chairman, members of the subcommittee.
    The red peaks are last year's schedule, and the yellow 
peaks are this year's schedule. The result is, as shown in 
Figure 5, that there are only a few times in a day when total 
arrivals now exceed the capacity rate that is reflected in 
FAA's capacity benchmarks, and the capacity rate is the blue 
line.
    And you can see a similar effect in Figures 6 and 7 for 
Delta Airlines' actions in Atlanta. Delta increased the number 
of what are known as arrival and departure banks, and that 
reduced the operating peaks for most of the day below the blue 
capacity line. I think those are good actions, and we are 
encouraged by the efforts of these two airlines at those two 
airports in the scheduling area. For airlines that have yet to 
take action at their hub airports, now is the time to do so on 
an independent and voluntary basis.
    And, of course, in addition to these voluntary efforts, 
there are other factors that are going to affect this summer. 
They are including the resolution of the airline new labor 
negotiations, severe weather, and the performance of the 
economy, and the demand for business travel.
    [The graphic follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     flight delay public disclosure

    Mr. Mead. I would like to move now, Mr. Chairman, to some 
key remaining actions. One is to complete the remaining actions 
on the 10 choke points. A second, and this is probably an area 
where I am most disappointed, is the airlines ought to be 
telling their customers, before they buy tickets and without 
being asked, that the flight they are about to book is either 
canceled or late 40 percent of the time or more. I think that 
is only fair business practice that tells people right up front 
what it is they are buying. Based on everything I have seen so 
far, Mr. Chairman, I do not believe the airlines will do this 
voluntarily.

                          schedule comparison

    Another action item: DOT needs to start right away to 
compare schedules between 2000 and 2001 at the airlines' hub 
airports so that they can evaluate the effect of voluntary 
actions on flight delays on a regular basis. We can do that in 
the Inspector General's office for a couple of months, but I 
think, as a matter of routine, the Department ought to pick up 
on that and do it as a regular practice.

                          runway construction

    We have completed a baseline of the 14 currently proposed 
runway projects, including their completion date, their 
estimated cost, and the current status. Of the eight most-
congested airports only one has completed a runway in the last 
10 years--that is Philadelphia in 1999--and only two more of 
the eight, Boston and Atlanta, plan runways over the next seven 
years. That tends to put where the new runway construction is 
going to be in context.

                              peak demands

    We think in this area, too, as Ms. Garvey alluded, that 
after we get this baseline established, we would like to pass 
it off to FAA and have them regularly maintain it as part of 
their own operation of the airport grants program. We have not 
completed our study of administrative- and market-based options 
for managing excess demand at congested airports. That needs a 
lot of careful review and analysis. We have identified them, 
but it is going to take some time to analyze them. We expect to 
be done with that towards the end of the summer. I do not think 
that you would be able to put these things in place in the next 
month or two anyway. They are things like new lotteries, peak-
hour-congestion pricing. That is something that is going to 
take some time.

                               Conclusion

    I wanted to close, Mr. Chairman, with a comment about an 
item that is not on our list to monitor, but I think it is a 
strong plus. You will recall when we testified in March, we 
pointed out that when people think about delays and 
cancellations, they usually think about inconvenience, the cost 
to them of their lost time, and so forth. But, there were 
safety issues. You will recall, I mentioned, there were runway 
incursions and there were operational errors. The operational 
errors, of course, usually occur in the sky--there are planes 
coming too close together--and in this past year we had a 
record year for them. We issued a report containing a number of 
recommendations. I think FAA and the controllers in the last 
month have really moved out to take some corrective action in 
that area.
    A likely result is going to be, in the near term, a more 
accurate reporting of operational errors, so the numbers are 
going to go up. I think it is incumbent on all of us to 
recognize that for what it is. It is not necessarily an actual 
increase in the operational errors as much as it is a 
reflection of a more accurate system of reporting and analyzing 
the severity of the operational error in relationship to those 
that are less severe. Thank you, sir.
    [The prepared statement of Ken Mead follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


           Air Transport Association (ATA) Opening Statement

    Mr. Rogers. Thank you. Mr. Merlis.
    Mr. Merlis. Thank you, Mr. Chairman. I would like to report 
on each of the steps that I committed to at the subcommittee's 
March 15th hearing.

                         herndon command center

    First, we committed to better utilizing the products of the 
Herndon Command Center conference calls to address the daily 
schedule so that we can identify places where delays may be 
occurring and take steps to reduce the inconvenience to our 
customers. The Spring 2001 delay-mitigation program began on 
April 1st. So far approximately 3,100 airline and FAA employees 
have been through a joint airline-FAA training process in order 
to better implement that program.
    Each morning, the air carriers conduct an industry-only, 
weather-briefing conference call and then use the product of 
that in the every-two-hour conference call that takes place 
with the FAA. I think it is fair to say, based on the fact that 
so far, from preliminary data for the month of April being 
better than it was April of last year, these efforts have 
proven fruitful.

                   delay reporting advisory committee

    Secondly, we said that, subject to approval by DOT, we 
would put in place the recommendations of the DOT Delay 
Reporting Advisory Committee so that we have this common system 
by which we can inform customers of the reasons for delay and 
address delays.
    Four ATA-member carriers--American, Delta, Southwest, and 
United--are participating in a pilot program, collecting the 
data and submitting it to DOT so that DOT will know how to 
fashion the appropriate rule, after which all ATA members will 
comply with whatever that rule is.

                   flight information display system

    Thirdly, we said we would pursue the transfer of delay data 
from the FAA's data base into the carriers' systems used to 
inform customers. All of our member carriers have launched 
programs to improve the quality of the delay information that 
is provided to customers. Carriers have installed, and are 
actively pursuing, a variety of new systems to be installed at 
various locations. For example, American Airlines has already 
deployed new, gate-information-display systems at Chicago, 
Phoenix, Philadelphia, Columbus, Memphis, DFW Terminal 2, Los 
Angeles Terminal 4, and Salt Lake City, and ultimately plans to 
install these screens, which will have that accurate 
information, at 40 of the most delay-plagued airports.
    American is also upgrading the current flight-information-
display systems at its eight busiest airports and will replace 
the older systems in 267 airports. Delta has installed plasma-
screen, gate-information-display systems at four airports and 
will complete seven of them by Labor Day. The airports that 
they have chosen to install first are those which have the most 
frequent flight delays.
    Northwest has installed this new technology at 
approximately 30 percent of the gates that it serves, and by 
the end of the year they anticipate having it at about 50 
percent of their gates. And in the case of Southwest Airlines, 
which does not have the same technological base as those other 
carriers I mentioned, they embarked upon a similar kind of 
program, and they anticipate that this will be completed within 
18 months.
    The undertaking actually turns out to be more complex than 
just transferring the FAA's data. The FAA's data does not 
include the estimated time of arrival at subsequent airports, 
and that is what needs to be put in these programs, and we are 
doing that.
    One other point related to that is that during the course 
of this month we anticipate that FAA's airport-specific data 
will be put up in the gate rooms where CNN Airport Network is 
offered. That is approximately 1,600 gates at 30 of our 
nation's busiest airports. So to the extent that is improvement 
in the quality of the information that is being provided to 
customers, we are committed to doing that, too.

                  identify capacity expansion projects

    My fourth item was to work with the airport community to 
identify capacity-expansion projects that have the goal of 
reducing delays and to work with the airport community to find 
ways to fulfill those. We have asked each of our members to 
work with the airports they serve to pursue the airport-
expansion projects identified in the testimony last month, and 
we will continue to advocate these. As a trade association, we 
have been called upon in a number of locations--Seattle and 
Boston and San Francisco in the past month or so--and we have 
been outspoken in our support for those efforts.
    Similarly, we have joined forces with the airport community 
in forming an advocacy organization, Runways: A National 
Coalition, the goal of which is to streamline the federal-state 
environmental process and to take steps to overcome public 
opposition to increased runway capacity. There are 16 
individual airports and airport systems with which we are 
working on that program.

                  denied boarding compensation program

    And lastly, we said that we would file a petition to update 
the denied-boarding compensation program, which was implemented 
by the Department of Transportation some 20-odd years ago. On 
April 3rd, we did file such a petition requesting that the 
Department of Transportation issue new rules which take into 
effect what has transpired over the last 20-plus years.
    I would be happy to answer any detailed questions that come 
off the written statement, which was far more comprehensive 
than my oral statement.
    [The prepared statement of Edward Merlis follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Airport Executives (AAAE) Opening Statement

    Mr. Rogers. Thank you. Mr. Barclay.
    Mr. Barclay. Thank you, Mr. Chairman. If I can give you a 
summary of my summary by the numbers. Number one is our 
overriding, long-term effort, and we are very encouraged with 
the reaction we are getting to that, and I will report to you 
on the progress. Two, three, and four are all items that hold 
out potential for near-term, real progress on delays and things 
airports can do about delays, so we are providing this 
committee with general-provision language on those three items 
for your consideration to see if it would be appropriate, in 
the committee's view, to include them in your bill that will be 
out later this year. And five and six on our list are 
accomplished, and we are in the implementation phase, and I 
will report to you on those.

                    STREAMLINING RUNWAY CONSTRUCTION

    The first one, advocate streamlining of the runway-
construction process. We have a comprehensive proposal that was 
put together by the leading experts in the airport industry 
that we have given the committee before. We are working with 
four members of the Senate on specific legislation that will 
include those provisions. We are also part of a runway 
coalition that Ed just mentioned, together with airports and 
airlines. In the effort there, we are very encouraged by the 
fact that even the president at the American Society of 
Newspaper Editors, in response to a question, when asked about 
delays, said, we need more runways, and we need to build them 
faster. So the government consciousness on this issue has, 
frankly, arrived earlier than we thought it would.
    Mr. Rogers. Well, that is his first commitment. We need 
four more out of him now.
    Mr. Barclay. If I could on this first point, Mr. Chairman, 
a snapshot explanation of the problem our system faces, I 
think, is painted in thinking about Dallas-Fort Worth. It has 
seven runways to handle 31 million passengers. They are 
building an eighth runway so they can handle more than that. In 
comparison, in the 1990's we have added 200 million passengers 
to the national system, but we have only built six runways at 
all of the major airports combined. So you can see, in just a 
rough measure, we are not building enough capacity to keep up 
with the demand that is growing in the system.
    So number one is in progress. We are working hard on it, 
and we are encouraged by the reaction we are getting from 
Congress. We will be working with the authorizing committees on 
both sides of the Hill on those.

                   SUPPORT STAFF FOR RUNWAY PROJECTS

    Second, to advocate the FAA's ability to provide support 
staff in processing runway projects quicker, at FAA we are 
providing the committee both with some specific staffing ideas 
for your direct funding as well as a general provision that 
would allow airports to pay for staffing when the FAA does not 
have the staff resources available in order to speed up 
projects. And as I mentioned at our last meetings, this is 
patterned after the FDA process, where pharmaceutical companies 
that want to speed up the approval of a new drug have the 
option to pay the added cost that FDA incurs as a result of 
their request to speed up. An example in the airport business 
would be San Francisco and the FAA are in need of a marine 
biologist for looking at the issues of a new runway that would 
go out into the bay. That is the kind of thing the airport 
could pay for if we make sure that FAA has the authority to do 
so, and we think that is something that is worthy of the 
committee's consideration.

                     PASSENGER FACILITY CHARGE CAP

    Third, on the passenger-facility charge and lifting the 
cap, we, of course, have long been advocates of that in a 
general sense. It is the only case where we know of the federal 
government is capping a local government's ability to charge 
for resources being provided users. But rather than getting 
into that longer debate, which we know is still sensitive with 
our airline partners, what we are suggesting is a very narrow 
provision that would allow the Secretary to waive the cap only 
at the badly congested airports and only for critical runway 
projects that are in the national interest, giving that limited 
authority to the Secretary is, again, something that we think 
could be considered in your bill, and we are providing language 
on that.

                           REVENUE DIVERSION

    The fourth point that we think is of immediate attention 
for the committee or useful for your immediate attention is to 
also include a directed interpretation to the FAA on off-
airport, environmental remediation. Today, if you are going to 
spend money of an airport's, you have to do it, to make it 
simplistic, you have to do it within the boundaries of the 
airport, or you are guilty of what is called ``revenue 
diversion.'' We have tried to include rules in the regulations 
and laws so that airports do not take money off airports and go 
use it for other, unrelated purposes.
    That general rule. That general rule has gotten in the way 
of, for example, San Francisco doing heavy remediation in other 
places in San Francisco Bay that would far outweigh any 
environmental damage done on the new runway, and by spending 
that money off the airport, you allow an important capacity 
project to go forward. So that is also language that we are 
offering the committee and a suggestion that we think would 
have near-term benefits.

                          CNN AIRPORT CHANNEL

    Fifth, it has already been mentioned briefly by Ed, we have 
gotten together. Our commitment was to get better information 
to airport customers, and after looking at all of the options, 
together with the FAA, the airlines, major airports, we all 
came to the conclusion that the CNN Airport Channel is a single 
network that is out there. It reaches over 400 million of the 
675 million passengers. It is sited in gate areas in places 
where it is designed to be seen by passengers, and largely 
because of the efforts of Jane Garvey and FAA and CNN, that is 
happening. It is, in fact, going to be announced later this 
month.
    FAA worked very hard to get the information CNN needed to 
do that quickly. It will be an independent source of 
information so that, for example, although the airline is going 
to have the best information on your flight, it will have 
information if all of the flights are being delayed out of 
Boston for a weather reason. That kind of information is coming 
from FAA as a general condition that is going on in the air 
traffic control system, and passengers will have that 
information to also arm them in their dealings with their own 
flights.
    And I just want to say on this that if we ever wind up 
earning a gold star on this one, I would like to give it to 
Jane Garvey because she is the one that made it happen so 
quickly. It is an example of a broader point, that we have got 
a lot of problems in this system, but we have got a damn, good 
FAA Administrator. And this is an example of the kind of 
efforts we have gotten out of her on other solvable problems 
when airports have brought it to her. So this is one that we 
are excited about, and you will be hearing more about this 
later this month. As I say, it is in the implementation phase.

                        INFORMATION TO CUSTOMERS

    And finally, we agreed, and if I can perfect the title of 
this one, what, at least, I meant to say was that we have 
become involved in coordination of the information on air 
traffic control operations for airports. I did not mean to 
imply that we would be involved in the coordination of air 
traffic control operations.
    Airports would not have a direct role in that, except for 
the unusual circumstance where you were totally closing an 
airport. But we can help to get better the information in real 
time to airports that is coming from ATC, flow control, and the 
FAA Center, and if airports have that, they will be better 
armed to handle disruptions in the system.
    We have already been out at Herndon. We have a private, 
distance-learning, satellite network that goes to over a 
hundred airports where we provide training on all different 
kinds of topics for airports: fire fighting and aircraft 
familiarization and snow removal and so on. In that grouping of 
training we are already filming a training video on how to 
utilize the FAA's information. We are then providing the FAA's 
ATC information over that satellite system so that airport 
operations people can get it right at their desktop computers. 
And that is one, again, where we have gotten great help from 
FAA, and we are in the process of--we have done the filming. We 
are doing the editing. We are in the process of accomplishing 
that item this month. Mr. Chairman, I will be happy to answer 
any detailed questions.
    [The prepared statement of Charles Barclay follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Airline Pilots Association (ALPA) Opening Statement

    Mr. Rogers. Well, thank you for a good report. Mr. Woerth.
    Mr. Woerth. Good afternoon, Mr. Chairman and members of the 
subcommittee. I appreciate this opportunity to be here with you 
today to discuss the steps ALPA has taken to accomplish the 
five goals you asked each of us to set for ourselves which 
would help alleviate the problems of delays and limited 
capacity.

                  RTCA FREE FLIGHT STEERING COMMITTEE

    The first item I presented at the March 15th hearing was to 
continue ALPA's high-level participation on the RTCA free-
flight steering committee and to ensure that it is properly 
focused in defining what the system really needs and that the 
correct priorities are established. I am a member of that free-
flight steering committee, and I can assure you that even with 
my other duties as president of ALPA, my attendance at these 
committee meetings receives my highest priority. The committee 
meets on a quarterly basis, and the next meeting will take 
place on August 8th.
    ALPA has been an active participant in RTCA for over 35 
years, and our extensive involvement with this organization 
will continue. Furthermore, we fully support the FAA's 
operational, evolutionary plan that is in the final stages of 
development and coordination with the industry. Through the 
free-flight steering committee, we will work to ensure that the 
implementation details and the schedules are and will continue 
to be realistic and deliverable. This will be critical to the 
success of airspace modernization.

                         IMPROVE NATCA LIAISON

    The second item was to improve our liaison efforts to NATCA 
and to ensure that we address issues involving delays, 
cancellation, and capacity enhancements. I have designated 
ALPA's first vice president, Captain Denny Dolan from Delta, to 
head this effort, and their next meeting is scheduled for May 
18th to identify issues we can jointly support and to develop a 
work program.

                     AIRLINE DISPATCHERS FEDERATION

    The third item from the March 15th hearing is to bring the 
Airline Dispatchers Federation into the ALPA and NATCA liaison 
process. This proposal was on the agenda from our May 8th 
meeting, and I have already discussed it with John. This is 
going to happen. We are already working on a local level, but 
to formalize the process is going to be done this month.
    The fourth item I mentioned was to work for standardized 
and modernized flight and duty time-limitation rules. 
Naturally, our first and primary concern regarding flight and 
duty time is safety. ALPA and other industry safety advocates 
have been seeking revisions to these inadequate regulations 
since 1990, and there was a notice of proposed rulemaking in 
1995 and much talk of a supplemental rule last year, but as of 
today, no action.
    The current state of affairs compounds the delay problem in 
several ways. First, amazingly enough, there seems to be some 
confusion over whether or not the current, 16-hour, maximum-
duty-day limit is really a limit or is it just a scheduling 
goal for the airlines. The confusion and disputes between the 
airlines and the flight crews on what is supposed to happen at 
the 16-hour point has caused lots of delays, and an unequivocal 
ruling must be made by the FAA immediately, or more delays and 
cancellations are going to result until this dispute is 
resolved.
    Secondly, the current inadequate rule on pilot rest has led 
to airline scheduling views known as ``scheduled reduced 
rest.'' This rule leads to thousands of delays. Let me explain 
how that happens.
    Here is how scheduled reduced rest works. Airlines 
frequently schedule a flights crew to work all day and arrive 
at a destination, let's say, at 11 p.m., but they are the crew 
that is supposed to take out the first flight in the morning at 
7 a.m. That is just eight hours from landing to takeoff. If 
everything works perfectly, you may get five hours of sleep in 
a hotel, but that is legal. But the real world, of course, as 
we know--that is why we are having this hearing--the real world 
intervenes, and delays occur, and that 11 p.m. flight arrives 
at midnight. So now the crew cannot legally take off at seven, 
so we have got another delay. The 7 a.m. departure is delayed 
until at least 8 o'clock in the morning, and if you start off 
at 8 o'clock in the morning late--this happens every day all 
over the country--then all of the flights all day long are 
delayed.
    I cannot tell you how important it would be to fix this 
scheduled reduced rest. We have a rule that every airline has 
to follow, not by union contract. They cannot do this any more. 
We are going to solve a lot of delays, and, Mr. Chairman, we 
have been trying to get this for a long time. If you can help 
us break this logjam to get this flight time, duty time fixed, 
you will probably do more than any other thing in the near time 
to improve flight delays.

                      Building Industry Consensus

    The final item was to affirm ALPA's commitment to 
continuing the work of building industry consensus on programs 
that will improve efficiency and increase capacity while 
maintaining the highest level of safety. Now, we are doing this 
through our involvement in a number of initiatives, the RTCA 
process, which I have mentioned, the ATA's closely spaced, 
parallel-runway steering committee, the FAA's Spring 2000 Plus 
One Project, and numerous FAA and industry work groups on such 
things as reduced separation in domestic airspace and land-and-
hold short operations, commonly referred to as ``LAHSO.'' Long 
and Hold Short Operation
    Mr. Chairman, the input of the airline pilot is critical to 
the development of solutions to the problems facing the ATC 
system. You can be sure that ALPA will continue to provide that 
input and will remain committed to our motto of schedule with 
safety, thank you. I will be happy to answer any questions you 
may have, sir.
    [The prepared statement of Captain Duane Woerth follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       National Air Traffic Controllers (NATCA) Opening Statement

    Mr. Rogers. Thank you. Mr. Carr.
    Mr. Carr. Good afternoon, Chairman Rogers, Congressman 
Sabo, and members of the subcommittee. Thank you for the 
opportunity to testify on the proactive steps that the National 
Air Traffic Controllers Association has taken to address the 
delay situation.

                            Aviation Safety

    I am pleased to report that we have made significant 
progress on the five issues that I addressed at the last 
hearing. First of all, NATCA is committed to operating and to 
maintaining the safest air traffic control system in the world. 
We believe that our air traffic control system is a national 
treasure, and we renew our commitment to ensure that any 
changes undertaken to that system keep safety as the bottom 
line.
    NATCA is working day and night with the FAA to move new 
technologies into the work place as quickly, efficiently, and 
safely as possible. We are directly involved in every 
technology project from its inception, and this collaboration 
and team work has been instrumental in ensuring the success of 
modernization projects such as the display system replacement 
and the standard terminal, automation replacement system.
    NATCA currently has representatives on over 65 different 
technical projects with the FAA, and we will continue to lead 
both the agency and this industry into the 21st Century. By the 
same token, when we become aware of certain programs or 
procedures which raise safety concerns, we are quick to point 
them out to the FAA. Our relationship with this agency is built 
on a solid foundation of mutual trust, respect, and integrity, 
and we are partners in co-managing the National Airspace 
System.
    With respect to my promise to monitor other panel members 
and evaluate their promises, I can tell you that we are working 
closely with the FAA to maximize efficiencies gained from the 
addition of the choke-point systems into the National Airspace 
System, and as long as we are horse trading gold stars, if you 
give Jane one for that, I will take half of that one.

                          Free Flight Phase I

    We continue as full participants in all products of the 
Free Flight Phase 1 teams, and we have recently met with ALPA 
to develop our relationship at the very highest levels. 
Additionally, I have established a rapport with the airlines 
and the airport operators that enables us to consult with each 
of them on matters of mutual concern.

                          Controller Staffing

    Secondly, NATCA is working to ensure that there are enough 
qualified and trained air traffic controllers to handle the 
increased traffic growth, the opening of these new choke-point 
sectors, and to prepare for the impending retirement crunch. 
Our current, five-year agreement between FAA and NATCA calls 
for a ``baseline'' of 15,000 air traffic controllers for the 
first three years. The agreement calls for 15,300 full-time-
equivalent positions this year and 15,606 next year. The 
Administration's fiscal year 2002 budget request is consistent 
with these numbers. However, we believe that over time these 
numbers may need to be revisited.

    [NATCA does not support reopening our contract. However, we 
do have a fundamental disagreement with the agency over the 
terminology used in the contract. NATCA believes the term 
``baseline'' refers to a floor, and therefore the 15,000 figure 
represents the minimum number of controllers.]

                   Controller Work Force Retirements

    This August marks the twentieth anniversary of the PATCO 
strike, when approximately 11,350 air traffic controllers were 
fired. The replacement work force will reach retirement 
eligibility in a very short period of time. Retirements will 
dramatically increase until 2007, when they will peak at about 
8.4 percent of our work force, and by 2010 the cumulative 
retirements will, in all likelihood, exceed 50 percent of the 
air traffic controller work force. In order to lessen the 
impact of that retirement crunch and in order to provide 
necessary time for training new hires, Senator Max Cleland will 
be introducing legislation on our behalf to change the annuity 
computation for air traffic controllers under the Civil Service 
Retirement System.
    The current annuity computation actually encourages early 
retirement because it contains a disincentive to defer 
retirement beyond the point at which your guaranteed level is 
reached. Changing this annuity computation will provide an 
incentive to civil service controllers to continue to work 
beyond their initial date of retirement eligibility, and that 
will allow us to ramp up the staffing and to train the new 
controllers.
    NATCA has also met with representatives from GAO, who have 
been asked to determine whether the FAA will have a sufficient 
number of controllers and candidates to meet both short- and 
long-term staffing needs.
    And finally on this point, NATCA is working to educate the 
public and the media on this very important issue. Recent 
articles on air traffic controller retirements have appeared in 
Aviation Daily, the Boston Globe, the New York Times, the Star 
Telegram, the Record, and several other publications.

                       National Airspace Redesign

    On our third point, NATCA remains a partner in national 
airspace redesign (NAR). We have been actively involved with 
NAR since its inception in 1998. NATCA has one full-time 
liaison, 11 regional liaisons, and about 350 controllers who 
are currently committed to the project. On March 16th of this 
year, we signed a memorandum of understanding with the FAA on 
national airspace redesign. This MOU states that any changes 
should be based on increasing safety, efficiency, capacity, and 
that all modifications are to be made in the best interests of 
the users of the system and the flying public. The MOU also 
provides us with procedures in the event that NAR involves 
moving existing airspace boundaries or changing individual 
facility air traffic control grade levels and staffing changes.
    The National Air Traffic Controllers Association is 
committed to national airspace redesign and will continue to 
play an active role in this very evolutionary undertaking, 
especially in the technical aspects of this project.

    [Fourth, NATCA believes that it is time to consider safe 
and reasonable changes to the requirements for separating 
aircraft.]

                          separation standards

    FAA separation standards date back to the 1950's. Attempts 
to determine the very origin of these standards have revealed 
that they were apparently the result of qualitative judgments. 
It is generally accepted that these standards were developed 
based on a number of factors, including military practices, 
radar equipment limitations, and pilot acceptance.
    In April of this year, I met with Professor John Hansman 
from MIT (Massachusetts Institute of Technology), who is 
evaluating current separation standards. He has been a guest of 
this committee. His data shows that while separation standards 
have remained unchanged for virtually 50 years, radar 
performance has improved five-fold.
    We are willing to join with the NTSB, NASA, the pilots, the 
FAA, and any other interested parties to carefully examine the 
possibility of changing these separation standards. Any 
marginal or fractional decrease in these standards could 
instantaneously free up unused capacity in this system. 
However, we must remember that any contemplated decrease must 
also be measured against the absolute litmus test of safety.

               management advisory council representation

    And lastly, the National Air Traffic Controllers 
Association is working to obtain the labor seat on the 
Management Advisory Council (MAC). The MAC provides advice and 
council to the FAA Administrator and functions in an oversight 
resource role for management, policy, spending, and regulatory 
matters. To date, the MAC has held six meetings, it has elected 
a chairman, and has begun to move forward with its mission. 
Yet, there is no labor participation.
    In January, I submitted my name to the White House and to 
the Secretary of Transportation requesting that I be nominated 
to serve as the labor representative to the MAC. I have had 
personal conversations with Secretary Mineta and with 
Administrator Garvey on this matter. I have written to all 
members of the aviation authorization and appropriations 
committees asking for their support of my candidacy, and just 
this very morning I sent an updated application to the White 
House.
    My organization, the National Air Traffic Controllers 
Association, is the logical choice to represent the unions of 
air traffic control system employees. Given the important tasks 
and the challenges facing the aviation industry and the MAC, we 
believe that it is imperative that the remaining seats on this 
council be filled before any further business is conducted.
    Mr. Chairman, that completes my testimony. I am honored and 
humbled to represent the very finest aviation professionals in 
all of public service. We look forward to working with the 
subcommittee, the FAA, the pilots, the airlines, the airports, 
and any other interested groups to develop and implement 
concrete solutions to the capacity crisis. I would be happy to 
answer any questions you have might have.
    [The prepared statement of John Carr follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        tracking delay progress

    Mr. Rogers. Well, thank you very much. Thank all of you for 
your statements, and you have given statements that are chocked 
full of data and very important information and very important 
news. It seems like we are making some progress. We will look 
at Mr. Mead's graphs next month to see if the proof is in the 
pudding. The graphs that he had in his statement showing the 
delays month by month, referring to Figure Number 1, and Mr. 
Mead's testimony about the arrival delays at 10 major airlines 
for the year, and, of course, we only have 3 in March, which 
shows that, as he said, the delays are consistent with last 
year. The proof will be whether in April and May, these next 
few months, we see the yellow line, which represents 2001, go 
down in relation to the other points. Is that not correct, Mr. 
Mead?
    Mr. Mead. Yes, sir. That is absolutely correct.

                   airline schedule public disclosure

    Mr. Rogers. In your opinion, the steps that have been taken 
that you have heard from here at this table today; will you 
evaluate what you have heard for us and tell us what you think 
is happening, if anything?
    Mr. Mead. Well, first and foremost, the whole tenor that 
was established in the March hearing of accountability and the 
laying out of specific action items, I think, is working. As 
you say, the proof will be in the pudding. I am pleased, as I 
sit here today, and while there are varying degrees of 
progress, I think my assessment is that you will hear progress 
across the different fronts. I think that a lot of these 
actions, like meeting with somebody, establishing a plan, we 
have established a system for tracking delays, establishing new 
sectors, we are going to come into implementation by this 
summer.
    I am disappointed, as I mentioned in my oral remarks, that 
the airlines do not plan to invite the American public to help 
deal with the delay problem. I think by telling the traveling 
public when they call up to book a ticket that the flight they 
are about to book on is late 50 percent of the time and 
canceled 10 or 15 percent of the time, that the people that are 
about to book those flights might choose to book another 
flight. That is the one area that I am disappointed in.
    The other is, this summer, for better or for worse, we are 
going to have to depend heavily on airline voluntary scheduling 
practices. It is too early to tell what is going to happen. 
American and Delta have taken a very good first step.
    Mr. Rogers. When they rearrange their schedules into their 
hub airports. Is that what you are referring to?
    Mr. Mead. Yes, sir. And the second page of the graph, I 
think, graphically illustrates the usefulness of not only the 
new capacity benchmarks as they are represented by the blue 
line cutting across the graph, but it shows the scheduling of 
last year in April as compared to the scheduling today, and in 
both instances you can see an improvement, as represented by 
the yellow spikes, and the red spikes for 2000. That is good 
action. That is progress.

                    airline progress on delay issues

    Mr. Rogers. Well, Mr. Merlis, we have heard two concrete 
suggestions that the IG has just mentioned. Would you care to 
comment on them?
    Mr. Merlis. On the first one, about disclosure, let me give 
you an example. There are six airlines that fly between Fort 
Lauderdale and New York. Four of them are our member carriers 
who do compile this information. Two of them are not. We do not 
believe it is appropriate to disparage our own product when our 
competitors not only do not collect it; they do not have to 
collect that data. And as long as that remains the case, we 
have a lot of difficulty saying we are bad, but the other guy, 
who may be as bad or worse, has no requirement to do so.
    Secondly, with respect to the peaking issue, there are 
several other airlines which have done that, and we think this 
holds promise. In addition to the examples which he has cited 
involving Delta at Atlanta and American Airlines, we have the 
situation where Continental has done some de-peaking at Newark, 
and they report that their delays in the first three months of 
the year at Newark have gone down 20 percent against a picture 
which Mr. Mead painted of overall delays remaining relatively 
constant. So that does indicate that we may be in relatively 
good shape there.

                airline requirement to report delay data

    Mr. Rogers. Well, I am puzzled a bit by your first 
response. You said that of the airlines serving--was it New 
York?
    Mr. Merlis. New York. I just used that as an example 
because I happened to look it up.
    Mr. Rogers. That four of them are members of your group, 
did you say?
    Mr. Merlis. Yes, sir.
    Mr. Rogers. And that two of them are not.
    Mr. Merlis. That is correct.
    Mr. Rogers. Now, who are they?
    Mr. Merlis. Jet Blue and Spirit.
    Mr. Rogers. Why don't you represent them?
    Mr. Merlis. They have not joined us. But the issue, sir, is 
that they are not required by law to collect that data and to 
turn it over to DOT. The four ATA carriers are required by law, 
so they have the information available. The other two airlines 
do not have any requirement to collect it or to turn it over to 
DOT or to report it.
    Mr. Rogers. What percent of the market do those two 
airlines have?
    Mr. Merlis. I do not know in that market.
    Mr. Rogers. It is not very big, though, is it?
    Mr. Merlis. I just do not know. I do not know if it is 10 
percent or what.
    Mr. Rogers. Are you suggesting that the law ought to 
require every flier, carrier, to report this data?
    Mr. Merlis. I think that when the results of that delay-
reporting advisory committee are out, yes, it should. All of us 
should file according to the same system. We have been working 
on this pilot program, and then we could talk about that other 
issue.
    Mr. Rogers. And, Ms. Garvey, when would that take place, do 
you think?
    Ms. Garvey. Well, I do not want to speak for the Deputy 
Secretary designee, who is the new chair of that committee. I 
know that the pilot program is in operation now, and they are 
talking about coming up with a new schedule this summer. Again, 
the Deputy Secretary is chairing that new committee. I am not 
sure what schedule he will come up with.
    Mr. Rogers. Well, I guess we have got a seventh member of 
the body now.
    Ms. Garvey. There you go. I agree with Mr. Merlis that it 
may be that the requirement becomes all of the carriers. I am 
actually making a note of that and it may very well be one of 
the recommendations.

                      chronically delayed flights

    Mr. Rogers. Well, it seems to me that it makes imminent 
sense for every carrier to furnish data about each flight, 
revealing what percent of the time that flight is delayed so 
that the buyer can be informed, let the buyer beware. If they 
want to pay good money for a 30-percent chance of getting to 
New York on time or wherever, then that is their business. If 
they want to pay money for an 80-percent flight on another 
airline, then let the marketplace run the show. But we have got 
to have the data. And we cannot apparently rely upon airlines 
to voluntarily furnish that, all of them, and so it seems to me 
that we need some means by which that data is mandated. Mr. 
Mead?
    Mr. Mead. Mr. Chairman, I think it is important to clarify 
for the record. I did not understand the Air Transport 
Association to state that if every airline were to be reporting 
these data, that they then would be responsible for disclosing 
that to the people that are booking the flights. In point of 
fact, the 10 major carriers that account for the very 
substantial majority of flights already have this information, 
and they are required to disclose it if they are asked by the 
savvy traveler. Our point is that when you call up to book a 
flight and spend your money, if that flight does not show up on 
time 50 percent of the time or more or is canceled 10 or 15 
percent of the time, that when you are buying that product, the 
airline ought to tell you the product you are about to buy has 
a statistically high frequency of not showing up on time.

                 major airline reporting of delay data

    Mr. Rogers. Well, now, Mr. Merlis, the major airlines 
collect the data.
    Mr. Merlis. Yes, sir.
    Mr. Rogers. And what do they do with it?
    Mr. Merlis. That data is put in many instances on their Web 
sites. It is in the computer reservation system so that anyone 
who looks in that and wants to know the information can obtain 
it by asking for it, and it also is turned over to the 
Department of Transportation.
    Mr. Rogers. And how timely is it turned over?
    Mr. Merlis. I am not well versed on what the sequence is, 
whether it is 20 days after the end of the month or 30, but it 
is relatively promptly. It is not months and months after the 
fact.
    Mr. Rogers. Is it restricted what the DOT can do with that 
information?
    Mr. Merlis. No, sir, it is not.
    Mr. Rogers. So DOT could put the number Mr. Mead is 
referring to beside each flight, then.
    Mr. Merlis. My belief is that on occasion there have been, 
and I do not know if it is Mr. Mead or others, who have pointed 
out certain flights have been late X percent of the time in 
public testimony, so clearly they were allowed to do that. I do 
not think any airline has said they should not be allowed to 
use the data as they see fit.

                     FLIGHT DELAY PUBLIC DISCLOSURE

    Mr. Rogers. So, Mr. Mead, is that not the answer?
    Mr. Mead. Yes. We have done an analysis, and we were 
alarmed by the number of flights that are chronically late or 
canceled. And the problem is that we do not have the mechanism 
inside the Department of Transportation to let people know of 
that affirmatively when they are buying the ticket. We found 
240,000 flights that were late more than 40 percent of the time 
and about 50,000 flights that were late about 80 percent of the 
time.
    Mr. Rogers. Well, how would you prefer that that 
information be given to the purchaser of a ticket?
    Mr. Mead. Well, when you call up to buy a ticket and say, I 
would like to buy a ticket on such-and-such a flight, I think 
that it is reasonable that the airline you are buying the 
tickets from would say, or the travel agent would say, the 
flight you are about to book, you should know there is a big 
risk that it is going to be late.
    Mr. Rogers. Mr. Merlis says that they provide that 
information now if you ask.
    Mr. Mead. If you ask.
    Mr. Rogers. You are saying they should tell you whether or 
not you ask.
    Mr. Mead. Yes, sir.
    Mr. Rogers. Mr. Merlis, what do you think about that?
    Mr. Merlis. I think that that could be very complex, sir, 
not only because of the competitive issue, which I raised, but 
a person calls to say I want to go on the 6 o'clock flight, not 
knowing what the flight number is. And so you end up having, 
and I see Mr. Mead mentioned travel agents, which have never 
had this requirement to disclose this information--only 
airlines are required to disclose this. But if you were to then 
have the travel agents say, well, there is a five-forty-five 
flight, and it says nothing because that five-forty-five flight 
is invariably above the threshold, or there is a six-twenty 
flight, but that is late 80 percent of the time.
    I just think that the information is available to the 
customer. I think it has been widely publicized that it is 
available to the customer. It is very readily available to the 
customer from the airlines and from these on-line sites, and I 
think that until there is a consistent mechanism for this 
reporting, let's give that one a chance, too.
    One of the things that this advisory committee is going to 
do is come up with the reporting requirements for the causes of 
delay.

            INTERNET RESERVATION SYSTEM FLIGHT DELAY REPORT

    Ms. Emerson. Mr. Chairman. Will the chairman yield just for 
a second for me?
    Mr. Rogers. Yes.
    Ms. Emerson. Speaking on this subject, I just thought this 
was a relevant time to bring this up. I was trying to get a 
reservation this morning for my husband on Expedia.com, and it 
so happens that a flight from here to St. Louis and then back 
again on my hometown airline, I might add, TWA-American, which 
is 90 percent on time, it does say that. That is a pretty good 
record, I might add. But needless to say, I was able to get 
that information. It is on almost all of these Internet books, 
which is why I cannot understand, I suppose, why you would not 
get it when you call.
    Mr. Rogers. Is that so? Do the Internet networks carry 
consistently the delay rankings of flights, all flights?
    Mr. Merlis. I am not aware of what the nonairline-owned 
Internet booking sites have, sir. I just do not know the answer 
to that.
    Mr. Rogers. All right.
    Mr. Merlis. I know the computer reservation systems, or if 
you go into the OAG, for example, on line, that information is 
right there. When you get into the flight, it tells you what 
the percentage on time of the flight in the OAG, on-line OAG, 
that is.

                   ACCURACY OF DATA REPORTING SYSTEM

    Mr. Rogers. Ms. Garvey, your statement refers to the 
voluntary program that the four airlines have agreed to. What 
are your thoughts about the objectives and timeliness of that 
effort?
    Ms. Garvey. Well, as we mentioned at the last hearing, and 
a great deal of credit should go to those four airlines that 
did step forward and are putting in the information and 
reporting it on a daily basis. I think that is going well. The 
real challenge for the Deputy Secretary is going to be to 
reconcile the data to understand and to make sure that we are 
getting the correct data. As Mr. Merlis and Mr. Mead have 
mentioned, there really are some challenges in just making sure 
we are getting the correct data and then bringing all of the 
other airlines on line. It is a step in the right direction. I 
do think it is going to be terrific to have the Deputy 
Secretary confirmed so that we can get moving with these task 
force. But we are working with him every day, providing the 
kind of analysis needed to support BTS in this effort. I do 
think they are the right steps to be taking.

                       ENVIRONMENTAL STREAMLINING

    Mr. Rogers. Now, Ms. Garvey, as both Secretary Mineta and 
you and everyone here, I think, have committed to shortening 
the amount of time it takes to obtain environmental approval 
and local permits for runway and taxiway construction, how much 
time could we realistically expect to shave off the planning 
and approval process for new runways and taxiways?
    Ms. Garvey. Well, in many ways it varies both from, the 
complexity of the project, and also from site to site. A place 
like Houston that had very, few environmental issues, had 
enormous local support, very little opposition, got through it 
in a relatively short period of time, about 18 months. Other 
places, my own hometown of Boston, for example, have been 
wrestling through with an airport and a runway issue for a long 
period of time, so there are some that may take 10 to 12 years. 
What we have found, and Chip may have some other comments on 
this, but when we have done an anatomy of the project very 
often it is in that early and planning stages where we have 
some real issues, trying to build that kind of local consensus. 
In fact, some of the permitting at the end of the process is 
also a difficult issue. What we can do are some of the steps we 
have identified, which is dedicated teams and dedicated staff 
that Mr. Barclay has referred to. The Secretary has also 
spoken, very directly, about bringing together the 
environmental agencies so that we can identify the high-
priority projects and sign memorandums of understanding early 
in the process so that we can move the project quickly. But 
it's diffcult to give a hard-and-fast, shortened time frame 
because it really does differ depending on each project.

                       CAPACITY BENCHMARK REPORT

    Mr. Rogers. Well, as you say, you have now released the 
capacity benchmarks as of April 25th.
    Ms. Garvey. That is right, sir.
    Mr. Rogers. Tell us what that is.
    Ms. Garvey. Well, as I mentioned in my longer statement, 
the capacity benchmark identifies two numbers. It is an optimum 
number, when the weather is really good, how many landings and 
takeoffs can be handled safely at an airport. We also looked at 
a number that can be handled safely when the weather is not so 
good. We think it is a very realistic expectation. The 
methodology of this was pretty sophisticated. We went to the 
airport itself, talked with the air-traffic people, talked 
about what they in their experience could handle. We matched 
that against the historic data and used a pretty sophisticated 
model from Mitre to work those numbers through. We vetted that 
through pretty carefully with the airport. I think everyone is 
pretty comfortable with the numbers but the real challenge for 
us, as I mentioned, is to focus on solutions at those airports, 
particularly those top eight, that really do affect the system.

                           EXCEEDING CAPACITY

    Mr. Rogers. Now, that Capacity Benchmark Report that you 
released documents that at many airports the number of 
scheduled flights exceed the capacity of the airport. Is that 
right?
    Ms. Garvey. That is correct, sir. Particularly in bad 
weather, what we found at those eight airports, and as I said--
--
    Mr. Rogers. In good weather, in perfect weather.
    Ms. Garvey. Okay. In good weather there are some airports 
where there are some difficulties as well.
    Mr. Rogers. How many?
    Ms. Garvey. There are eight. I would say probably at two of 
them that we have, even in good weather, some difficultly--it 
might be three, and I apologize for not knowing exactly.
    Mr. Rogers. You are saying three airports are scheduling 
more flights than they probably could handle in a day's time in 
perfect weather.
    Ms. Garvey. Well, in good weather we have some difficulties 
at a couple of those airports. Right.
    Mr. Rogers. What airports are we talking about?
    Ms. Garvey. Obviously, I should have thought of that. They 
just reminded me that LaGuardia is the major difficult one. 
During certain times of the day Chicago has a problem as well. 
And LaGuardia, as you know, we are treating as a unique 
situation I know the Congressman is very aware that we have 
certainly had some great challenges there.
    Mr. Rogers. Are there any other airports that are 
scheduling more flights than they can handle?
    Ms. Garvey. I think at all eight of those, as we have said, 
there are times of the day where we have some concerns. I have 
to say it is primarily in bad weather. If you look at the 
action plan of all eight airports we suggested that in each of 
those eight airports, the airlines review their scheduling. We 
think the suggestion that Mr. Mead has made is one that we 
share as well. At all eight of those airports, it would be wise 
for airlines to take a look at the scheduling.
    Mr. Rogers. As Mr. Mead said, American at Dallas and Delta 
at Atlanta on their own said look, we are exceeding our 
capacity at these airports at certain peak times of the day so 
they rearranged their flights so now there is actually only 
one, it looks like, at Dallas, one time of day when they are 
barely exceeding the capacity.
    Ms. Garvey. That's right. It made a big difference.
    Mr. Rogers. Why would no other airlines want to do that?
    Ms. Garvey. I am not as familiar with the details of it, 
but I do know that Newark--I am more familiar with American and 
Delta. But I know that Continental has taken some steps and 
United as well. So the airlines are beginning to take those 
steps. But again, that is why it is important for each one of 
those eight airports to look at their action plans. I think the 
last item on every one of those plans is that airlines should 
review the scheduling. We will work with them very closely to 
monitor that.

               CAPACITY AT ATLANTA AND DALLAS/FORT WORTH

    Mr. Rogers. Mr. Mead.
    Mr. Mead. One reason why DFW and Atlanta are susceptible to 
this type of unilateral action is because the dominant airline 
in Atlanta is, of course Delta. The dominant airline at DFW is, 
of course, American Airlines.
    At an airport where there is more of a competitive mix, and 
you have schedules exceeding the capacity benchmark, an airline 
will be afraid that if it takes unilateral action, its 
competitors will simply fill up the glass at the top. So I 
think you have that phenomenon at play at a number of airports 
in the country.

              AIRLINE SCHEDULES DEMAND MANAGEMENT ACTIONS

    Mr. Rogers. What is the alternative then? If they do not do 
it voluntarily?
    Mr. Mead. Well, I think the alternative will be the demand 
management actions that we are supposed to review--like the 
lottery they had at LaGuardia. That would certainly be 
something that would have to be considered at some airports. 
Peak hour congestion pricing is another. Another one that is 
currently being discussed in the Congress is scheduling 
committees where the airlines can get together under antitrust 
immunity and discuss arranging their schedules.
    Each of those options, Mr. Chairman, has a pro and it has a 
con, and the devil can be in the details of some of these. They 
may sound very appealing conceptually, ``why do not the 
airlines just get together and arrange their schedules and come 
in on the benchmark''. On the other hand, I would be concerned 
about what will happen to the smaller commuter fleets, because 
the airlines might not find it in their economic interest to 
serve smaller communities if they are going to get more money 
from big airplanes going between two or three major markets.
    A downside to a lottery is that, if you do not carefully 
control it, a lottery can end up, creating big winners and some 
big losers. For example, you may have--United Airlines. What if 
United Airlines wins all the lotteries? That leaves out the 
smaller carriers. I know you have been entreated by new 
entrants who want a piece of the action, too.
    Peak hour pricing, that sounds nice in concept, but in the 
end, Mr. Chairman, it is you and I who are going to pay the 
price. It is going to be passed on to us, whatever the price is 
for that peak hour travel. And who gets the money? Does the 
airport that will not expand get the money?
    Mr. Rogers. Let us ask Mr. Merlis.
    Mr. Merlis. I think all three of them, sir, need to be 
addressed. There are pros and cons in all three. We are 
supporting the antitrust immunity because we believe that we 
can make meaningful progress with the antitrust immunity with 
minimal adverse consequences to our customers. The reason I say 
that is that even when the peaks are exceeded at these 
airports, we are talking about three, five seven flights in a 
particular hour. So the goal is to move those three, five, or 
seven flights--not to move the 100 flights that are up to the 
peak. Because it is on the margins, it is less disruptive to 
the basic traffic, those initial 100 flights and communities; 
whereas with peak hour pricing all 100 flights would have to be 
charged the peak hour price. So we have been advocating in the 
authorizing committees where this legislation is being 
considered, that this kind of immunity be granted subject to 
the appropriate safeguards of the Secretary or Justice 
Department being a party to it, whoever needs to be in the 
room, and that there be no discussion of prices and issues of 
that sort.

                         Alleviate Peak Demands

    Mr. Rogers. Mr. Mead's chart here on scheduled arrivals at 
Dallas Airport, that data is available to all airlines and they 
have it themselves in much more detail than this. They know 
that if they move their 11:30 a.m. arrival at Dallas to 11:15, 
that that peak would go away, would it not?
    I mean it does not take huge changes in schedules to 
alleviate these peak periods during the day. Does it?
    Mr. Merlis. No, sir. It does not.
    Mr. Rogers. Why do not they do that?
    Mr. Merlis. Because no carrier wants to do that 
individually if his competitor is going to maintain service at 
that time.
    Mr. Rogers. They may not want to do it, but they do not 
want us to do it.
    Mr. Merlis. That is why we are advocating the antitrust 
immunity so that we can do it, so that we can talk to one 
another and agree to move flights, without worrying about 
someone coming in and backfilling in that time.
    Mr. Rogers. It does not seem to me like you would have to 
talk to the other airlines to know that if you move your flight 
15 minutes to alleviate a real problem at that hour at that 
airport, it is not going to make that much difference, is it?
    Mr. Merlis. As Mr. Mead said, in those airports where there 
are airlines which have a lot of traffic such as Atlanta with 
Delta; such as Dallas/Fort Worth with American; and such as 
Newark with Continental, those airlines have unilaterally done 
that. The issue arises where you have a large number of 
competitors at that common time, the issue becomes who moves 
first. That is why we think that the antitrust immunity would 
provide an opportunity for the carriers to agree who will move 
in the eight o'clock to nine o'clock hour, and someone else 
says I will move in the nine to ten hour.

                   Action Plan for Top Eight Airports

    Mr. Rogers. Ms. Garvey, your commitment says that you will 
not only develop the benchmarks but that you will use them to 
develop action plans at the worst ten airports identified in 
the study. First, what are the airports, and what are you doing 
about your action plans? And when will they be completed?
    Ms. Garvey. Mr. Chairman, the eight that we focused on in 
the report were Atlanta, Boston, Chicago, JFK, LaGuardia, 
Newark, Philadelphia, and San Francisco. Those are the ones 
that have a very high percentage of delays, and also have a 
tremendous impact throughout the system. We took eight because 
they impact the system. It is quite astonishing when you look 
at those eight. And what we did was take a first cut at the 
action plans for each one of those eight. We recognize that it 
is a first cut. It includes procedures, changes to air space in 
some cases and in some cases it includes technology. In a place 
like Atlanta, certainly it improves the runway. It also 
includes the recommendation that the airlines look at their 
scheduling at that particular airport.
    What we would like to do, and we have begun discussions 
already with the airport directors, is to work closely with 
them. While there are elements of those action plans that we 
are solely responsible for, there are elements where we need 
the airports and want to work very closely with them.
    Mr. Rogers. When will they be complete?
    Ms. Garvey. The action plans, the first cut, are completed 
now and are part of the Capacity Benchmark Report. Most of them 
have seen that first cut, but we have not yet received comments 
back from them. So as we continue discussions with the airport 
directors if there is something we have missed, we want to make 
sure that we take advantage of the expertise and work to 
include that as well.

                        airline flight schedules

    Mr. Rogers. The IG says that FAA should compare airline 
flight schedules for 2000 and for 2001 at their hubs to gauge 
the effects of the airlines' voluntary actions on delays and 
cancellations. Are you planning to conduct that analysis?
    Ms. Garvey. I think the Department of Transportation will 
do that, but we will certainly support them in whatever way we 
can. I think it is a very good idea. Any time you can create a 
baseline and understand what your starting point is and how far 
you have come, that is very helpful. To the degree that we can 
support the Secretary's office in that, we definitely will. And 
if he delegates that to us, we will take that on.
    Mr. Rogers. Mr. Sabo.

                Airport Reimbursement for FAA Staff Work

    Mr. Sabo. Thank you, Mr. Chairman. A couple of questions. 
The airport reimbursement for FAA staff work, is it assume--I 
assume that what the airport would do is transfer money, not 
necessarily staff.
    Mr. Barclay. Correct.
    Mr. Sabo. And it would be FAA that is in charge of the 
staff, either hiring or contracting?
    Ms. Garvey. That is right, sir. In fact that was an issue. 
We wanted to make sure there was not the conflict of interest. 
But I think Mr. Barclay's suggestion that it is like the Food 
and Drug Administration is a good analogy.

                       Environmental Streamlining

    Mr. Sabo. Of the environmental issues you face in airport 
expansion, what are the most frequent problems you face?
    Ms. Garvey. From my perspective, and Mr. Barclay may have a 
slightly different one. But from my perspective it is very 
often creating that kind of local consensus that you need. That 
willingness, the political support at the local level to decide 
that we are really going to move out and move forward.
    Mr. Sabo. That is really not an environmental issue.
    Ms. Garvey. It is really in the planning process. You are 
right. I think if you break down the projects, that is where 
you see a number of problems. Having said that, there are still 
things we can do.
    Mr. Sabo. What is it that leads to that local opposition?
    Ms. Garvey. Often it is just people not wanting to see an 
expansion of an airport in their neighborhood. That is often 
the issue.
    Mr. Sabo. Mr. Barclay.
    Mr. Barclay. Congressman, I do not know of any instances 
where an airport was not able to come up with a solution to an 
environmental problem or a remediation that would have done 
much more for the environment in that areas than the damage of 
the project itself. So the point we tried to make in our plan 
is that we are not trying to change any environmental 
standards. We think we can meet environmental standards or 
produce remediations in virtually every instance. It is the 
unending debate that you get into in trying to get to applying 
the standards that are in the environmental laws.
    Because you have both state agencies with their laws and 
regulations, and federal agencies with their laws and 
regulations, you can even get into a loop where they put time 
limits on the EIS approval and so then you go to the state 
agency and the state agency holds you so long you have to go 
back and redo the environmental impact statement. So it is a 
process issue, and a lot of people have a legitimate interest 
in being involved in these. But we do have to figure out a way 
to put a statute of limitations on the debate and get to the 
point of applying the standards, getting a go/no go decision on 
them.
    I was up in Boston this last week, we had a press 
conference on that runway addition which the airport is not 
selling as adding any capacity. They do not intend to add 
capacity at that airport, and it is a runway that will move 
flights out over the bay. It will take a number of flights that 
are now going over housing out over the bay, and they still 
have enormous local opposition. So it is just in the nature of 
these big infrastructure projects.

                  Boston Runway Expansion Noise Issue

    Mr. Sabo. Is the opposition in Boston primarily noise 
related? Or is it other?
    Mr. Barclay. There are lots of arguments used, but I think 
it is fundamentally noise, in my opinion.
    Mr. Sabo. The reason I asked for a variety, I was just 
curious if you were running into particular air pollution 
problems or water pollution problems, or if it centered on the 
noise issue.
    Mr. Barclay. There are coming air pollution problems for 
containment areas, but to date it has been mostly opposition 
over individual projects that in all likelihood centers around 
noise. So your efforts at increasing R&D on noise are 
particularly the right target for the long term on this issue.
    Mr. Sabo. I think it is crucial. But I am not sure how we--
what you are talking about is an issue that creates so much 
opposition that you cannot get the local people that have to 
make the decision say yes. I am not sure how we deal with that 
by streamlining the process unless we deal with the essence of 
the problem.
    Mr. Barclay. Well you do have to, I think as Herb Kelleher 
said not long ago, you cannot build buildings without dust, and 
you cannot have new flights without any noise. But communities 
have to be given a way to come to a conclusion and not be in 
unending debate on these.
    The people at Boston that are concerned about the expansion 
there, many of them do want an air transportation system to 
work, and they want to be able to get to San Jose when they are 
from the high tech area in Boston. They need the network system 
to work. And if it is going to work the people in Dallas are 
relying on the people of Boston to keep their capacity up; and 
the people in Boston are relying on the people in Dallas to 
keep their capacity up, and so on throughout the system. 
Because in a network if you put a bottleneck in any one place 
it ripples, delays, and affects everyone's performance in the 
system.

                   Local Support of Airport Expansion

    Mr. Sabo. But you are not suggesting that we are going to 
get involved in approving runway expansions over the objection 
of the local officials are you?
    Mr. Barclay. We have not suggested federal preemption in 
our legislation. But if one looks at the interstate highway 
system, the federal government took away the go/no go decision 
and said we are going to work with the locals on where the 
highways go, and where they meet at state boundaries and so on, 
but it is an important interstate transportation system, and 
aviation is probably the least intrastate of any of the 
transportation forms.
    Mr. Sabo. I think on freeways, that was fundamentally 
locally decided when and where they were built.
    Mr. Barclay. The federal government, as I understand it, 
set out the general pattern of the interstate highway system 
and worked with the states on whether that routing should be 
changed. But they made the fundamental go/no go decision on----
    Mr. Sabo. I do not think so.
    Mr. Mead?
    Mr. Mead. Yes, I think that is an interesting point. 
Probably anybody who has gone up and down the Atlantic seaboard 
would know that in South Carolina and North Carolina, there was 
a fairly substantial stretch there, that I do not think became 
part of the interstate system. And the Central Artery in 
Boston--the original design there was not to go all the way 
around the city. I think the locals thought ``well, we do not 
want to cut through the city right now.'' It was some years 
later that they got the local consensus, if that is what you 
want to call it, to drive I-95 right through the city. So there 
are several places in the United States. I think you are 
raising a very good point, though, about what would happen, If 
there were no environmental laws, I think you still would find 
very substantial opposition. Some people just do not like an 
airport in their neighborhood.
    Mr. Barclay. And I did not mean to get off on the debate 
about preemption. What we are asking for is limiting the time 
period for a debate, and then the locals can still make the no 
go decision, but not hold us all at a place where we do not 
know whether we are ever going to add capacity in Boston. That 
indecision winds up freezing the system and many of the 
partners in it for too long a period of time.

        Environmental Streamlining Process Statute of Limitation

    Mr. Sabo. I do not know how you get a committee to decide 
that it's a no go. I guess lack of action is no until someone 
says yes. Is that not accurate? How are you going to enforce 
it? I expect the structure of who decides varies. I do not 
know----
    Mr. Barclay. If you add all the agencies that have a part 
of this decisionmaking make their decisions in parallel rather 
than in series, and require that for any major runway project 
that has a major impact on the national system at a highly 
congested airport, all the considerations have to take place in 
a three or four year time period and they have to take place 
simultaneously, would be a way to get everybody to a decision.
    Mr. Sabo. Not necessarily. If the result is significant 
local opposition and you are dealing with other elected 
officials, they come to the end of the four year period and say 
we have not decided.
    Mr. Barclay. But all of these projects that I am aware of 
have a lot of local officials that are in their favor. They 
wind up being held up by significant opposition. And if that 
opposition can game the procedures in all of the different 
laws--both state and federal, and regulations--can game that 
procedure both legally and with the regulatory procedures, they 
wind up, a minority winds up holding up a project that the 
majority says it is not perfect, but it needs to go forward.
    Mr. Sabo. I guess I need to understand a little bit better 
what this whole streamlining process means. It sounds like you 
are trying to stop suits, lawsuits. I am not sure how you 
stop----
    Mr. Barclay. A good example was Memphis. It took 16 years 
to add a new runway and nobody objected. But they wound up 
having to go through a number of federal agencies, that in 
their case probably took too long in their reviews, but all the 
federal agencies are very, very careful because they are 
worried that opposition might crop up later on.
    Mr. Sabo. That is different than dealing with the general 
political opposition. That is because they were dealing with a 
specific issue--I assume dealing with a particular 
environmental problem. But they may have taken too long at it. 
But that is different than dealing with the general, more 
complicated problem that there is political dissent and someone 
cannot come to a decision. That is in part why I asked the 
original question. Is it air problems, water problems.
    Mr. Barclay. We are trying to develop a process for calling 
a vote. It is a difficulty that you cannot ever get to. It is 
not that you have a majority of people against one of these 
projects, it is that you never get a vote called to find out 
whether you are going to go forward or not.
    Mr. Sabo. That is pushing our capacity here. It might be a 
state legislature, and we are going to say we are going to have 
a system where you have to vote?
    Mr. Barclay. I was using a metaphor there on the vote. We 
are not talking about projects, I do not believe, where a 
majority of the people in the local area oppose the project. It 
is just you have a very strong organized minority and they are 
able to game out the procedures for too long on these projects 
that are important to the whole nation.
    Mr. Sabo. Well----
    Mr. Barclay [continuing]. National interests as well as 
local interests.
    Mr. Sabo. There is a legitimate question of how you 
streamline certain environmental procedures and avoid 
duplication. You get to a very different issue if you are 
saying we are going to compel somebody to make a judgment to 
major public infrastructure that is subject to debate in the 
political community. One we can deal with. The other one, I do 
not know that we either have the capacity or should have the 
capacity to force a decision on it. If a decision is not to 
build, clearly that can impact that community's acceptability 
of their airport facilities, and it may have positive or 
negative consequences for that community. But they have to live 
with that. I do not know that we can force that decision.
    Mr. Barclay. We have provided both individual streamlining 
ideas which is what most of our plan is. What you would do in 
specific laws, to try to streamline those procedures and to 
have procedures run simultaneously. It is an added step to say 
there would be some type of a deadline on, everybody has got to 
get their consideration done by X date if it is an important 
national project, and then you can either go forward or not, 
depending on the decision. That is a separate--you may be right 
that that is something Congress does not want to step up and 
do. But is an issue that I would put before you for 
consideration because there are very important interstate 
transportation issues being debated.
    Mr. Sabo. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Sweeney.

                           Antitrust Immunity

    Mr. Sweeney. Thank you, Mr. Chairman. Again, I applaud you 
and commend you for these hearings and welcome all of our 
panelists back to this very hot room on this very hot topic. If 
you did not understand what we are going to do here, we are 
going to torture you until we get the system right.
    I am trying to get my arms around and comprehend the whole 
delay issue and notion more specifically of the role the 
airline scheduling plays. Mr. Merlis, Jack Ryan from your 
organization in a Hearst article was quoted as citing FAA 
figures that only 11 percent of all delays were attributed to 
the airline scheduling process. And as it relates to just 
really kind of broadly the--where do passengers fit in the 
process, and what do airlines think of their passengers and 
their customers, and how important are they? While I am no 
mathematician, if I do some rough calculations, 680 million 
people flew in the last year, and one out of four of those 
flights were delayed. So a quarter of 680 million is 14.5 
million people delayed, I think it is kind of disturbing that 
that is not a problem for the airlines in some respect. You 
said in response to the notion that we look at alternative 
scheduling processes that you welcome the idea of obtaining 
antitrust immunity--I introduced a bill today, that I happen to 
support that notion, and I agree with Mr. Mead that we need--
there is both pro and con, and the devil will be in the 
details.
    What you cited as your fundamental problem with the 
processes that exist now from the airlines' perspective is that 
you are afraid that if any airline were to voluntarily begin a 
scheduling process that focused first on delays and convenience 
to the customers, the system would affect, that airline would 
face effectively a backfilling by competitors. Is that not an 
anti-competitive process in and of itself? What you are 
effectively saying is you want to block flights. Is that not 
true?
    Mr. Merlis. No, sir. What I was saying is our concern is 
that if an airline or two airlines unilaterally take down some 
flights in a particular time period in order to alleviate the 
delays that are caused by successive flights in that time 
period, and a competitor comes in and fills up that time 
period, then we are back to the same delays we had, and the two 
airlines which had removed flights got nothing in return. We 
welcome competition. The issue is that where the capacity of 
the system is not adequate to accommodate the demands, what 
tools are best used in order to smooth out the rough spots?

                        Slot Controlled Airports

    Mr. Sweeney. Is not the question really how do we get to a 
system that rates objectively the efficiency of the use of 
slots at airports? Do you think the airlines are capable of 
providing that process voluntarily?
    Mr. Merlis. I think they are, other than the slot 
controlled airports, of which there are four, at the other 
airports they are capable of doing it--as Mr. Mead pointed out, 
in Atlanta and at Dallas/Fort Worth changes are taking place; 
as I pointed out at Newark; and at other airports where there 
is a higher level of competition there needs to be some 
assistance. That assistance, I would suggest, is the anti-trust 
immunity so that the carriers who do serve that airport could 
reduce those peaks without fear of someone else coming in and 
filling in the peak.
    Mr. Sweeney. At Dallas/Fort Worth and Atlanta, which Mr. 
Mead also pointed out are dominated by single carriers----
    Mr. Merlis. Correct.
    Mr. Sweeney. You are not saying that we need to have some 
airlines in each of those airports, in every airport to 
determine efficiencies of slot distribution, are you?
    Mr. Merlis. No, sir.
    Mr. Sweeney. I think that is a pretty relevant point.
    Mr. Merlis. Those two airports those airlines have done it 
unilaterally and it hopefully will have a significant benefit. 
Now it is true, someone could come and fill in where they back 
out and we go back to delays.

                         Scheduling Committees

    Mr. Sweeney. Mr. Mead, how do we build a system that looks 
at efficiency? I feel like Secretary Mineta's proposal to 
develop scheduling committees was I think a pretty significant 
step in that direction. I would like you to talk about that a 
little bit. Also talk about what you see as the dangers in 
that. You touched on it briefly.

             System Efficiency and Demand Management Option

    But is not what we need a sense of greater efficiency in 
how we are going to distribute slots and how we are going to 
schedule?
    Mr. Mead. Yes, sir. As a matter of fact, as you look 
through those lists, probably 25 percent of the items are 
designed to establish ways of analyzing the efficiency of the 
system. An example is the capacity benchmarks. What the 
capacity benchmarks really tell you, for the first time, is 
what an airport can handle by time of day, in good weather and 
bad--very fundamental piece of information. Another one--track 
the causes of delay--is going to the same point. I could go on.
    I probably did not do a very good job in my oral or 
prepared statement in concealing my bias here. My bias is that 
I am a little nervous about antitrust immunity; I am a little 
nervous about peak hour congestion pricing; I am a little 
nervous about lotteries and slot controls. And I am hoping that 
this summer through less intrusive ways, some of which are just 
good citizenship and voluntary behavior, we can put the system 
in balance again without taking these more forceful regulatory 
actions.
    But I would say if we have a repeat this summer of last 
year, we are headed down the road to some of these more 
forceful actions such as peak hour pricing, the antitrust 
issues associated with scheduling committees, and the like. 
That is where I see ourselves heading. I think it is too soon 
to tell what is going to happen this summer. The Chairman 
pointed out that we do not yet have the data on April. When we 
see where those bar graphs go in April and May, that will tell 
the fortune for the rest of the summer, I think.

                           Airline Scheduling

    Mr. Sweeney. First let me assure you, Mr. Mead, that every 
time you come before this committee or even the authorizing 
committee when I served on that, you do a very complete job of 
presenting the facts. Let me talk a little bit about the good 
citizenship with Mr. Merlis, because as I pointed out, 14.5 
million people are affected by scheduling, overscheduling 
problems, which is something of an intentional act, I think we 
can all agree. Yet I look at the five solutions presented in 
this bill to the committee and none of them deal with that 
problem. They all deal with other things. While the substantial 
delays are caused by weather, I am just curious as to then 
again where do the airlines place the customer?
    That overscheduling issue is your problem.
    Mr. Merlis. Correct.
    Mr. Sweeney. You can do something about that, yet that is 
not a priority apparently.
    Mr. Merlis. Well, sir, I think the reason I did not do that 
at the last meeting was, first of all, I was not prepared for 
that question. I was asked on the fly to come up with five 
things and I had not thought about it. But we have carriers who 
have embarked upon unilateral actions which are designed to do 
that. Southwest has dropped out of San Francisco for the 
express purpose of improving its on-time performance. Hopefully 
others serving San Francisco will be the beneficiaries of 
having fewer flights to San Francisco. As I said, Continental, 
in the first three months of this year because of its changing 
the schedule at Newark, had a 20 percent reduction in delays. 
So I think there is a commitment to doing the right thing, as 
much of it as possible as the carrier can unilaterally do. But 
they are constantly looking over their shoulder, to see what is 
the competitor going to do which adversely affects them. You 
are correct.
    Mr. Rogers. Mr. Sweeney, will you yield?
    Mr. Sweeney. Sure.
    Mr. Rogers. Mr. Merlis, I hear the commitment.
    Mr. Sweeney. It is a good day, Chairman.

          Airline Commitment To Solving Overscheduling Problem

    Mr. Rogers. You will see that the airlines commit to 
solving their overscheduling problem.
    Mr. Merlis. To the extent they can. There are competitive 
reasons why an individual could not do it on its own.
    Mr. Rogers. Let me think some more.

                            Slot Allocation

    Mr. Sweeney. Thank you, Mr. Chairman.
    Let me ask a couple of related questions of both Mr. Mead 
and Ms. Garvey. I spoke recently to the folks in the Port 
Authority of New York and New Jersey--this is not a formal 
proposal as of yet although I think they are preparing one, 
which is the concept that they do all of their scheduling. 
Similar to their idea of the lottery process. I am interested 
in your response to that notion as a test process, as a means 
of trying to find a way to be more efficient in slot 
allocation.
    Ms. Garvey. I have not seen the proposal, but I will give 
you what my initial reaction would be. I would be hesitant of 
anything that would vulcanize the system too much. I think the 
extent with which the federal government works with the Port 
Authority as we are doing, for example, on the proposal for 
demand management strategies, in my view that is a much better 
approach. I am not sure of the legal implications of what they 
suggested, but I certainly would like to talk to them about it. 
I think the cooperative approach is a better one.
    Mr. Mead. I think a community should have some say-so over 
air traffic. I do not think a community should have any control 
or say over scheduling. I think that is very clearly the role 
of Interstate Commerce. I can understand, though, why some 
people in Chicago do not want a new runway. And, environmental 
considerations notwithstanding, I personally would be prepared 
to respect that decision. But I would be very concerned about a 
locality deciding what flights to accept from where. The Port 
Authority also, I think is quite interested in peak hour 
pricing.
    The committee should know that that area, New York, is 
grandfathered under the revenue diversions law. That is to say 
that money they collect they can divert into other things that 
are not airport related. And I would just submit for your 
consideration, sir, if they were to impose for congestion a 
peak hour pricing fee, one, does the Port Authority contemplate 
getting the money? And two, what do they plan to do with that 
money? I think you would find that the airlines would ask those 
two questions as well, and they are good questions.

           Local Government Involvement In Airline Schedules

    Mr. Sweeney. Well of course we are going to grow service to 
upstate New York. At least that is what I would hope would 
happen.
    Mr. Barclay, do you disagree with the notion that leaving 
it to individual localities would tend to vulcanize the system 
and create other problems? I agree with both Ms. Garvey and Mr. 
Mead that we need you at the table, among other people. But----
    Mr. Barclay. One of the first provisions that was put in 
the Airline Deregulation Act was a federal preemption there 
saying that the local governments could not get into routes, 
rates and service that the federal government had just gotten 
out of, and if you had five CABs (Civil Aeronautical Boards) 
around the country instead of one in Washington, that would be 
a more difficult network to operate.

                    Slot Allocation And Competition

    Mr. Sweeney. Let me ask you this final question. David 
Blevin of the Airports Council suggested recently that 
auctioning off of slots at airports might be a step toward 
solving that. AIR 21 looked to roll back slots in an effort to 
promote competition. My question is since airport owners have 
been working to reclaim gates from airlines, again based on 
efficiencies and use, in order to promote competition, would 
not that idea, essentially slotting every airport, work against 
competition? Work certainly against competition with small 
carriers.
    Mr. Barclay. Every time you get into any of the demand 
management schemes it gets ugly as soon as you start looking 
deeply into it, because by definition you are leaving out. 
Someone wants access and they have a good argument for access 
from their point of view, but you are saying to somebody no, no 
room in the inn for you. So every demand management scheme you 
come up with has real problems, whether it's lottery, auction, 
peak hour pricing. The economic allocations do reward those 
with deepest pockets and biggest airplanes. One of the ways 
Continental, as I understand it, has helped straighten out some 
of their Newark problems is by substituting bigger airplanes 
for slots scheduled where they used to have smaller airplanes, 
and that has--they have had to go around and explain to members 
of Congress why they were losing air service.

                           La Guardia Airport

    Mr. Sweeney. Absolutely. And as a representative of upstate 
New York, that is the real red flag for a guy like me.
    Ms. Garvey. Congressman, I think just a couple of other 
points. I think if you look at something like an auction to try 
to balance out some of the issues that you mentioned, you could 
carve out an exemption of some sort. A base, for example, X 
number that go to the small communities, X number for low cost 
carriers, and that protects that public policy. It is not the 
pure demand management strategy, but I think as we look at a 
place like LaGuardia, those are the kinds of considerations 
that we have to think about. Mr. Mead mentioned some of the 
challenges around peak hour pricing, and I think he is right. 
There is another challenge at a place like LaGuardia. The fact 
of the matter is, there is a peak hour. Unfortunately, it lasts 
all day long. So at LaGuardia you have a particular problem 
that does not exist at other places.
    Mr. Sweeney. I have other questions, but I will yield back.
    Mr. Rogers. Mr. Olver?

                          Philadelphia Airport

    Mr. Olver. Thank you, Mr. Chairman. I would like first to 
clarify something with Mr. Mead way back in your testimony. 
Things get into my head and it takes a long time to forget 
them. I think you said that Philadelphia was one of the places 
that had finished a runway recently.
    Mr. Mead. Yes.
    Mr. Olver. When did they finish that runway?
    Mr. Mead. 1999.
    Mr. Olver. So Philadelphia having completed its runway, 
then the data that we are talking about for what the choke 
points are for delays includes Philadelphia having brought that 
runway into usage and still it is running delays.
    Mr. Mead. Yes.
    Mr. Olver. Is that correct?
    Ms. Garvey. Congressman, there is one sort of unique 
situation in Philadelphia, and that is there is a technology 
called Precision Runway Monitor (PRM) that we think is going to 
be very helpful. It is not yet on-line, so the runway, while it 
is being used, has limited use right now. And when PRM, the 
technology, is put in place, we think that is going to improve 
that.
    Mr. Olver. Do you think that will solve the problem for 
delays at Philadelphia with the additional capacity? I do not 
know how many runways they have----
    Ms. Garvey. I do not think it will solve it. I think that 
is why getting together with the airports and looking at what 
else we can do. There are, for Philadelphia, some additional 
improvements that are already planned and again, at that one we 
suggested that the airlines look at the scheduling as well. 
There is also some free-flight technology that will be going 
into Philadelphia. There are some things planned but there is 
more that we need to do.

             Capacity Enhancements At Most Delayed Airports

    Mr. Olver. Then we really need to wait for awhile until the 
new technology is in to see whether in fact increasing the 
number of runways does much good. I mean I am looking at this 
wonderful tabulation, Mr. Mead, of the runway projects that are 
in process. Philadelphia is not on there. Philadelphia, you 
pointed out, was the only one of the three that either had 
completed or were somewhere in the schedule. Atlanta and Boston 
are down there some ways. We have problems in Boston that we 
may all be ancient before that gets done, I would guess. I do 
not know. But it does not leave you with much really strong 
hope given what is being said about Philadelphia.
    Mr. Mead. May I put another statistic into the mix, sir?
    Mr. Olver. Sure.
    Mr. Mead. It responds to your question I think more 
directly. In Philadelphia, with the runway and with the 
improvements that Administrator Garvey referred to that would 
maximize the use of that runway. They are projecting it would 
yield a 17 percent increase in Philadelphia's capacity. That is 
inclusive of the runway and inclusive of that new technology. 
At the same time, they are forecasting a 23 percent increase in 
traffic. Your net difference is a negative six percent.

                    Atlanta And Boston Choke Points

    Mr. Olver. I do not know what the similar sort of situation 
would be, whether anyone has done an analysis on Atlanta and 
Boston, two of the other major choke points, as to whether or 
not if those were completed with technology we would find what 
percentage as the increase. Maybe your benchmark studies are 
showing that.
    Ms. Garvey. Congressman, that is right. In fact in Atlanta, 
for example, which is actually a good news story, the runway 
there is expected to increase capacity by somewhere around 20 
to 30 percent. And that combined with the technology allows 
Atlanta to keep pace with the demand that is expected in the 
future. Demand is forecasted to grow by about 28 percent. The 
runway plus the technology gives Atlanta about 37 percent.
    In a place like Boston, as was mentioned a little bit 
earlier, the runway is not really for increased demand. But 
Boston is not expected to grow to the same degree that some of 
the other airports are. It is about six percent. The runway 
that is being talked about is really to handle the traffic that 
is there right now.
    Mr. Olver. Of course I cannot quickly translate the 
possibility in five years in Atlanta, because we were talking 
about 2005 even getting a runway in place, where a high delay 
problem would choke point Atlanta for that period of time. And 
I cannot tell whether we are going to be without a delay 
problem, even with the net 37 percent that the technology plus 
the runway gives you, given a 28 percent projected increase in 
traffic out of Atlanta. At the very least it sounds as if we 
are running on a treadmill here. Wherever we are, we are 
running on a treadmill just to try to keep up with what is a 
little bit behind along the way. But it does say to me that the 
capacity to do this by way of runways is only at best keeping 
up with the problem. My understanding here is, looking at the 
points that have been made by Secretary Mineta, he speaks of 
disbursal of flights off peak hours into underused airports and 
developing incentives and disincentives for airlines and 
airports to disburse flights.

                            Flight Disbursal

    Mr. Mead, you mentioned that one of your key ones is 
tracking the disbursal of flights from hubs to smaller 
airports. I am just curious. At these places where the major 
choke points exist, where is it, Mr. Mead, that you think that 
the potential for disbursal is highest? We are obviously trying 
to get at choke points. The disbursal is one of those things 
that you clearly believe would have some positive benefit here. 
Of the eight places, do you have a sense?
    Mr. Mead. I have a sense, not within the eight. I do not 
think there is much room for disbursing among the eight. But I 
think, for example, one good example is Atlanta and New 
Orleans.
    Mr. Olver. New Orleans is not on the eight.
    Mr. Mead. We are talking about small to medium-sized 
airports where it might be economically feasible to disburse 
some flights. You have some airports that we mentioned in 
testimony before this committee before, such as Mid America. It 
is not being used hardly at all and we paid $300 or $400 
million for it. That is in Illinois. But the airlines do not 
want to use that airport.
    Mr. Olver. But that is not a disbursal point, is it? Oh, 
you view it as a potential disbursal for O'Hare. But it is 
right next to St. Louis.
    Ms. Garvey. St. Louis, yes.

                        Boston Flight Disbursal

    Mr. Olver. But St. Louis is not on the choke points.
    Ms. Garvey. The one I might mention, Congressman, is our 
favorite, Boston. I think Boston does have the potential to 
disburse. In fact we are already seeing it. There are----
    Mr. Olver. The so-called reliever airport----
    Ms. Garvey. The so-called both reliever----
    Mr. Olver [continuing]. Manchester, New Hampshire and 
Providence, Rhode Island, and a couple of places in 
Massachusetts. If that were to move very effectively, would 
that eliminate the delay problem in Boston pending a runway 
which is at least five years away? And which may or may not 
move us ahead versus where we are now.
    Ms. Garvey. It would not eliminate delay, but I think it 
certainly would help. If you look at the numbers at Logan, for 
example, it needs to be about 80 percent of the travel in the 
region. It has now gone down to 60, and there are more going to 
Providence and Manchester. I think we have to encourage that. 
Worcester, Bradley. I think that is one place where that could 
happen. You had mentioned at the last hearing, and you made 
note, and I thought it was an observation. We certainly went 
back and looked at as well. You said that if you look at all 
the runways that are planned, the 18 runways that are planned 
in the next few years, you made the point that few if any are 
actually part of the top eight. The worst ones. And that is 
true. We have San Francisco in the very earliest stages; we 
have Atlanta coming along; we have Boston that also has some 
real environmental issues. On the other hand, a number of those 
18 are at airports where if we see more infrastructure perhaps 
there will be a greater market. In many ways I think it does 
have an impact.

                 CHOKE POINTS NEW YORK/NEW JERSEY AREA

    Mr. Olver. I do not think so. I am not in any way 
suggesting that the places that have runways planned should be 
stopped because they are not in the choke points or anything. I 
mean I think the treadmill that we are on is one that they are 
going to have to build their capacity as best they can in order 
to not be in the sad situation along the way. I am surprised, 
actually. I would have thought three of those choke points are 
Newark, LaGuardia and Kennedy. There are bunch of smaller 
airports, at Islip, at Westchester, at Newburgh, at Teterboro, 
some of them have, it would seem to me--Stewart, Newburgh. Of 
course. Mr. Sweeney would love to have something happen at, I 
think. More to happen at them than does.
    I am surprised, especially Mr. Mead, when you point out 
that AIR 21 Bill, we have complicated the situation this last 
year from your testimony rather clearly. There are slot 
controls at LaGuardia, allowed for exemptions for slot controls 
for new entrant airlines and for airplanes with fewer than 71 
seats. Well, those smaller airports, which might be due to 
somewhat similar to the reliever airports that Boston has been 
talking about, though those are already million person 
metropolitan areas where they have the reliever airports. It 
would seem to me there ought to be some potential for smaller 
passenger planes dealing with going into places that are not 
right in the core of LaGuardia or JFK, when you really want to 
get to some other place around the large metropolitan area of 
New York.
    Ms. Garvey. Congressman, I think you are absolutely right. 
And particularly with a place like Stewart. And frankly, even 
at JFK. It has a little bit of capacity. Making the decision to 
travel out of JFK rather than LaGuardia, it was a very wise 
decision. The reason I did not point to it, though, I will tell 
you is that a number of those other reliever airports that you 
spoke about, Teterboro and others, have enormous community 
issues surrounding them. We have been somewhat reluctant to, or 
at least we are acknowledging realistically it is going to be 
difficult to get some of those.

                       CAPACITY BENCHMARK REPORT

    Mr. Olver. Does your benchmark study that is completed, 
does that first cut of the action plans take into account any 
kind of an analysis of a potential disbursal as one of the 
routes? Since the administrative one, everybody says there are 
problems with trust and problems with the peak hour pricing and 
problems with auctions and lotteries and so on, none of these 
are simple solutions. None of them are going to be done 
immediately.
    Ms. Garvey. You are right, Congressman. None of these are 
simple solutions. To your question about does it include some 
disbursement to other airports----
    Mr. Olver. Analysis of the disbursement?
    Ms. Garvey. It does not. But that is exactly I think the 
kind of discussion that we can engage in with the airport 
directors. I think that really has to be looked at almost on a 
regional basis.
    Mr. Olver. It is easy for me to suggest Teterboro or 
Westchester as disbursal possibilities. I mean we have also one 
in the Boston area called Hansom Field which----
    Ms. Garvey. You notice I did not mention that, in deference 
to you, Congressman. [Laughter.]
    Mr. Olver. Thank you.

                             AIRLINE DELAYS

    Mr. Sweeney. Thank you, Mr. Olver. I welcome your support 
on the study plan that we have for the Stewart Airport. I have 
good news and bad news for you, Mr. Merlis. The good news is I 
was wrong about something. I told you I was not good at math. 
The bad news is the number is worse for you. I said 14.5 
million passengers were delayed. It's 145-plus million 
passengers. Why the airlines would resist a voluntary notice of 
passengers of chronic delays is beyond me. It is a little bit 
like going to a casino and playing black jack with the 
exception that the dealer will not show you his cards. But with 
that I will turn it over to the gentleman from Arizona, Mr. 
Pastor.

     TRACKING AIRLINE VOLUNTARY ACTIONS ON DELAYS AND CANCELLATIONS

    Mr. Pastor. Mr. Mead, this information you gave us on the 
second chart, and the third one, are dealing with Americans and 
governments. Who is going to now compare their voluntary 
scheduled arrivals at Dallas and Atlanta, and compare them to 
the delays and cancellations? Because that is the third part 
that we need. They may have done it, but the fact does not help 
solve the problem with delays and/or cancellations.
    Mr. Mead. The direct answer to that question is--I am 
prepared to have our office do this.
    Mr. Pastor. Okay.
    Mr. Mead. Once. At the beginning.
    Mr. Pastor. Once means the month of April?
    Mr. Mead. Maybe we would do it twice. But the point is----
    Mr. Pastor. April and May.
    Mr. Mead. Yes. We will be doing that. But the larger point 
here is that in the Department of Transportation, there is an 
agency called the Bureau of Transportation Statistics. There is 
the FAA. I think that, as a matter of course, one of them 
should be collecting this information.
    Mr. Pastor. I agree with you. I am just trying to find out, 
because we have talked about scheduling and how we take it from 
peak hours. We have two airlines who have started, and we need 
to find out who is going to track it. So, Mr. Chairman, maybe 
you can give a directive here, or give another star to whoever 
is going to do it, but we need to collect the data and compare 
it. It is good that they have done it. Now the question is, 
does it solve the problems.
    Mr. Mead. We are willing to do it, we are certainly open to 
doing it initially. But I think over the longer term----
    Mr. Pastor. It is the long term that we need to--the 
information in the long term is what we need. Maybe, we have 
been talking about prime time and everybody's scheduling that 
particular hour, and as these airlines look at it voluntary, it 
does not show a solution. Then maybe we are going up the wrong 
tree.
    Mr. Rogers. Would the gentleman yield, sir?
    Mr. Pastor. Yes.
    Mr. Rogers. I agree with Mr. Mead. The Secretary's office 
can handle that for us over the long pull. Mr. Mead should not 
be expected to do a bureaucratic chore over the long pull, 
unless he really wants to.

                 OPERATIONS SPECIFICATIONS MODIFICATION

    Mr. Pastor. Mr. Chairman, I would recommend that if we 
started this, that we are collecting data already on two 
airlines, that we may be able to see whether or not our concern 
over all the flights leaving at certain hours really is a 
problem, because we have some data to compare it with. I am 
going to go back with Mr. Sweeney and Mr. Olver. Because I will 
agree that Indianapolis and Nashville and Raleigh/Durham and 
Dayton were probably bad ideas. I did fly from Nashville, and I 
would tell you that I never saw the local market there. So I 
will concede that. But I still think that disbursal and mini-
hubbing or spoking may be a possible solution. But before I get 
to that, in your testimony on page four, Mr. Merlis, you talk 
about the pre-National Environmental Policy Act (NEPA) and 
those assessments and how if they are not included with the 
ops, operation specification, it causes problems. How do we 
solve that problem, if it is a problem? Because if we are going 
to look at disbursal airports this may be a problem. How do we 
deal with that problem?
    Mr. Merlis. I think the way we deal with that problem is 
that the FAA reverts to the practice it used to follow where 
those kinds of additions to an operations specifications are 
rendered, categorically excluded that is it is not subject to 
this pre-NEPA environmental assessment. That is the way it was 
for years. And it was a recent change in policy which has 
required the submission of these environmental assessments 
before a carrier starts service to an airport which it had not 
previously started service to.
    Mr. Pastor. Well, Ms. Garvey is ready to jump up at you so 
I will let her go ahead and do it. The problem that we are 
talking about, finding other hubs for airliners to land, we 
need to solve this problem, I assume.
    Ms. Garvey. Mr. Merlis is right. We issue operations 
specifications changes all the time. It just would not make 
sense to get bogged down. And in fact most of them are very 
routine. There must be some confusion, I did see this in Mr. 
Merlis' testimony. We have not really changed the policy. There 
has been a clarification. I think they really are rare cases 
where either an air carrier wants to move to larger jets that 
may be noisier or to a different kind of aircraft. Jet Blue 
when it started in New York was in a non-attainment area and 
had to go through more environmental processes. I need to 
understand that. I will certainly follow up. It is those rare 
cases where the environmental assessment very often routine 
environmental assessment is looked at.
    Mr. Pastor. But the testimony I read basically says it is 
an exercise that costs a lot of money, it has disincentives, 
and usually the result is not one that would require--the 
information does not help an airline. So if we are talking 
about going to reliever airports, what can we do to ensure that 
we meet the objectives that FAA may have so it does not become 
such a barrier.
    Ms. Garvey. We will definitely follow up. I do want to go 
back, though, to something that was said earlier which is why 
we are streamlining. We want to do it as efficiently as we can. 
We obviously do not want to be burdensome. When you are either 
in a non-attainment area or you are moving to perhaps noisier 
or different aircraft, I think there are some environmental 
steps that you do have to go through. But I would be happy to 
look at it again, and perhaps there are some specific 
suggestions from the Air Transport Association that we could 
adopt. We would certainly consider. Yes.
    [The information follows:]

    The issuance of operations specifications (op spec), which 
authorize an operator to perform certain operations, is a 
``federal action'' that triggers the requirement for 
environmental review under the National Environmental Policy 
Act.
    Most op spec changes have no environmental impact--and no 
potential for environmental impact--and are categorically 
excluded (catex) under FAA Order 1050.1D, ``Operating 
specifications and amendments thereto which do not 
significantly change the operating environment of the 
airport''. If, in the rare case where a catex cannot be 
justified, then the next step in the process will be an 
environmental assessment.
    In the case of new flights, the FAA examines the current 
level of operations and the environmental planning documents 
created by the airport to see if the new operations fall within 
the growth planned by the airport. The FAA will analyze the 
noise impact of the new service, and in clean air non-
attainment areas we also study the air quality impact of the 
service. It is the applicant's responsibility to provide this 
data to the FAA but often it can be obtained through the 
airport sponsor. If the new flights fall within the expected 
growth (which is not unusual), we document a catex and issue 
the op spec change.

                       ENVIRONMENTAL STREAMLINING

    Mr. Merlis. I think that is great. I will just use the 
example. Southwest Airlines when it went into West Palm or Fort 
Lauderdale, I do not remember which, in a 737, and other 
airlines were already flying into that airport with that plane 
which Southwest Airlines has 300 of, had to go to submit this 
environmental assessment and then it received this no adverse 
action decision after spending a couple of hundred thousand 
dollars. It makes no sense.

                            FLIGHT DISBURSAL

    Mr. Pastor. I agree that maybe not every city can be a hub, 
but if we take some of the examples that I heard today, that I 
could also provide myself--If we take San Francisco. People are 
flying into San Francisco so they can go to San Jose. Because 
that is where all the action is.
    Mr. Merlis. Congressman, airlines are doing that. To go to 
San Jose from Washington, D.C. you used to go to San Francisco. 
There are now non-stops to San Jose. Carriers are doing that. 
They are disbursing flights, but there still has to be 
sufficient volume.
    As I pointed out in my testimony, United Airlines flies to 
John Wayne Airport, Ontario Airport, Burbank Airport, and Los 
Angeles International Airport. Now it may increase flights as 
volume demands at one of them, and they have, distributed 
traffic and Los Angeles International is still a congested 
airport.
    Mr. Pastor. I understand that. But I guess the question as 
I ask it, what incentives can we provide so that that airline 
will look at flying to LAX and compare it to Ontario and say 
you know what, there is enough of an incentive here that I may 
consider flying to Ontario a few more times. Because people are 
going to Los Angeles. What can I do? So what can we do, or what 
incentives can be provided?
    Mr. Merlis. I regret to say that I think only the 
marketplace can create those incentives. That is why some of 
these cities end up having more traffic after a carrier tries 
it with two flights a day, and then a couple of years later it 
has three because demand has been established. People have 
found it to be more convenient. Look at the example of 
Manchester and Providence which were cited by the 
Administrator. Those were two airports which are used more now 
and people have found them to be convenient airports, if I can 
use that term, and traffic is going into Manchester and 
Providence instead of going into Boston. So in part it is 
chicken and egg, it is marketplace, and I do not think that it 
is a matter of simply providing financial incentive.
    There have been situations where communities have induced a 
carrier to fly more flights to that community by virtue of a 
local travel and tourism organization or a chamber of commerce 
organization, getting people to agree that they would use that 
airline if they flew into that community. Northwest did it, as 
I recall, in Rockford, Illinois. When American pulled out of 
Rockford, Illinois. So there have been efforts undertaken. I 
just find it difficult to identify a specific incentive that is 
financial in nature, since that ultimately is the driver in 
this, other than the marketplace.

                    DELAYS AT SAN FRANCISCO AIRPORT

    Mr. Pastor. The bottom line is the cost, so there must be--
I am trying to find an incentive. In San Francisco, as you 
know, San Jose is becoming now a reliever. What about Oakland? 
I mean Oakland is only a Bay Area Regional Transit (BART) ride 
away.
    Mr. Merlis. Oakland is a full airport. That is what 
Southwest did. It pulled out of San Francisco, all of its 
flights--it has no more flights into San Francisco--and is 
using Oakland because the delays at San Francisco were so 
damaging to their schedules. But if you take a look at Oakland, 
Oakland has most of its gates pretty much full most of the day. 
There is some construction that is planned and hopefully that 
will increase Oakland's capacity which does not have as much 
adverse weather as San Francisco, and I can assure you, the 
demand is there.
    Mr. Pastor. Time to get a runway built in Oakland. That is 
a pretty simple system, I would bet.
    Mr. Pastor. It may be.
    Mr. Mead. Mr. Pastor.
    Mr. Pastor. Yes.

                      PEAK HOUR CONGESTION PRICING

    Mr. Mead. One sure incentive, or almost sure incentive is 
on this peak hour congestion pricing. In theory how this would 
work would be that, at San Francisco, if you want to fly there 
during certain hours or leave there during certain hours, you 
would pay a premium. The premium would have to be so steep that 
it would provide an economic disincentive to travelers to fly 
out of San Francisco. However, another area airport would not 
have a corresponding fee and it would be cheaper. That is why 
there is a body of opinion that is in support of the peak hour 
congestion pricing scheme as a way of dealing with the 
scheduling. My concern is that we ought to try to exhaust other 
alternatives before we go that route.

                      RUNWAY EXPANSION AT PHOENIX

    Mr. Pastor. Well, what are the alternatives? Building more 
runways. I have to tell you, and I will tell my colleague, Mr. 
Sabo, Phoenix just finished and dedicated a runway, and that 
third runway now is getting calls to the FAA from different 
parts of the city. Ms. Garvey is probably now hearing from 
Ahwatukee. Before it used to be Tempe, now it is Ahwatukee. And 
to build a fourth runway, which the City Council and the Mayor 
and the business community is all in favor for, there are small 
groups now that have built up and would fight it. At every 
hearing, and lawsuits, and it would be the noise that they are 
confronting that would cause them to fight this fourth runway. 
So runways are not the only solution. The solution that maybe 
in the long run, but in the interim we need to find different 
solutions.
    So what I am trying to do is find incentives that the 
airlines would go to nearby airports in metropolitan areas. 
Look at the choke points. Kennedy, LaGuardia north. Guess where 
they are going? Manhattan or Long Island. That is where they 
are going. So maybe it is possible to look to other airlines 
that are convenient for people to land at airports that are 
close to Manhattan or New York City. That is where I think that 
may be a possible solution. I just do not want to write it off 
by saying we have this regulation, it makes it hard, or there 
may not be any incentive. I am looking for those incentives 
because I think in the short term that may be a way to solve 
the problem.
    Mr. Merlis. I have a suggestion, sir.

                             AIRPORT CURFEW

    Mr. Pastor. Yes, sir.
    Mr. Merlis. White Plains has an airport. Westchester County 
Airport is an airport with a curfew. They don't want planes to 
land there. It is a voluntary curfew, but they close the garage 
so that you cannot use the airport. If Congress were to take 
action about these airports that have curfews--Long Beach 
Airport has a curfew, or a restriction. Only 43 or 41 flights a 
day I think. John Wayne Airport has a limitation of a certain 
number of million passengers per year, though the airport can 
certainly accommodate more.
    Mr. Pastor. But Mickey Mouse can only handle that----
    [Laughter.]
    Mr. Merlis. But if those kinds of local impediments which 
are disincentives for carriers to use those alternative 
airports were removed, then airlines might be willing to 
establish a larger presence. I am sure the reason United does 
not fly to Long Beach is that if a market developed, it is only 
limited to the number of flights it can have. It cannot grow 
the way it would want to. But Long Beach Airport can certainly 
accommodate a lot more than just 40-odd flights a day.

                   FLIGHTS AND DUTY TIME LIMITATIONS

    Mr. Pastor. There is another reason that airlines are, at 
least explaining to me that they are having problems and delays 
or cancellations, and that is the flight time and duty 
limitations. I have found where now they say well, the pilots 
now, as they say, are illegal, or the crew is not here yet 
because if we put them on this particular flight they are 
illegal.
    Mr. Woerth. First of all, to curb the competitive edges of 
all the airlines which are hugely competitive we would need to 
have one rule apply to everybody so they do not try to get a 
competitive edge and negotiate the safety by who has the 
loosest rules wins, or the least safe.
    Mr. Pastor. You mean to tell me that each airline decides 
what safety is and then defines what the flight times----
    Mr. Woerth. The federal rules are so inadequate that the 
only protection for flight time duty is union contracts. And a 
union contract at the point where it matters becomes worthless 
because if you are ordered to fly by your airline and ignore 
the contract, you will be fired if you do not do it because you 
are insubordinate. You are supposed to grieve it later. Fly now 
and grieve later. The reason we need the same rules for every 
airline is to stop that.
    One of the things I describe in here, again it goes to the 
scheduling practices that become unrealistic. If it is peak 
hour scheduling that is unrealistic, it is also unrealistic to 
schedule a pilot to a 16 hour duty day or 15 hours and 59 
minutes and hope that nothing goes wrong all day long so he is 
going to be able to complete that flight. That goes on. Then 
they argue about well, it looks like you are going to 18 hours. 
Go ahead. But the federal rule says the pilot is responsible 
for safety, and if you are tired, do not fly. But if you cancel 
the flight, guess who is in trouble? They will not punish you 
for that flight. You will be punished later for canceling a 
flight. We need to have rules that make sense. And what I 
described earlier with this reduced rest, if it does not make 
sense to plan a pilot to land at 11:00 o'clock at night and 
take off at 7:00 in the morning, then do not allow them to 
schedule it that way. They can do that right now. It is 
perfectly legal to schedule, the computer will build an 
optimized schedule that does not take into account the real 
world. Because on a perfect day it might work so they want to 
save money. But when they land at midnight, two things either 
happen. You delay the flight, delay the clock in the morning, 
or some terrible experience, which happens all the time, and 
they should maybe tell somebody about that. But on the other 
hand, the worst thing I fear is sometimes the pilot is 
pressured. We need to take that flight out. Now somebody has to 
make a judgment call on both safety and if he is going to 
violate a Federal Aviation rule, if there is a dispute on that 
rule. Or is it really just your contract?
    We need to eliminate all the confusion. Air crews and 
airlines should not be fighting over this. We ought to have one 
rule for everybody, and it ought to be a safe rule, and then we 
can take safety out of the equation. But also we can stop the 
practices--they cannot seem to stop themselves. If one 
airline--again, there are comparative urges. Somebody is going 
to have more frequency and have that last flight get in at 
night, if the businessman wants the last flight out of 
wherever; but he also wants that person to turn out at 7:00 
o'clock in the morning. Until that is not legal, they will 
continue to do it. Then you are going to have that canceled 
flight in the morning.
    Mr. Pastor. Mr. Chairman, who would have jurisdiction over 
that?

                    FAA RULE ON FLIGHT AND DUTY TIME

    Mr. Rogers. Well, I was going to clarify that, if you will 
yield.
    Mr. Pastor. I will yield.
    Mr. Rogers. Are you saying that instead of this being left 
just to bargaining agreements between the airlines and pilots 
union that there should be a nationwide rule by the FAA?
    Mr. Woerth. Yes. And the rules we have had now have been 
trying to be modified now for many years. We had a new rule 
proposed in 1995. It has never been acted on. We have been 
waiting for a supplemental because industry had some disputes, 
since last year. And some of the arguments we hear back, well, 
we should not have very tight federal safety rules, we should 
let the unions bargain for that. I just explained to you, that 
does not work because----
    Mr. Rogers. Ms. Garvey, what do you say about that?
    Ms. Garvey. I think there are really two actions that Mr. 
Woerth is speaking about. One is clarifying the existing rule. 
I think he spoke about that in his oral testimony, and we will 
have something in the Federal Register. I hope it is in the 
next week to ten days. It is all completed, we are working with 
the Federal Register now. So there is a clarification, that is 
step number one.
    Step number two that Mr. Woerth spoke about is the rule, 
the federal rule at the federal level. And he is right. He has 
worked long and hard with RTCA. I know the airlines and the 
pilots worked very hard in coming up with a rule that they 
could both agree to. They were not able to, as he pointed out. 
We have taken the work that they have done. A very high 
priority for us is to get that out in short order. But the 
first is to get clarification of the existing rule. As Mr. 
Worth pointed out, there are some differences in 
interpretation. We need to make that very clear, which we will 
do in the Federal Register.

                          FREE FLIGHT PHASE I

    Mr. Rogers. Mr. Clyburn.
    Mr. Clyburn. Thank you, Mr. Chairman.
    Mr. Chairman, I have got two short questions. The first one 
for the Administrator. Ms. Garvey, I am looking on page 33 of 
Mr. Mead's submission, and he says here that the Free-Flight 
Phase One program is past the halfway point in terms of its 
planned budget and schedule, and FAA is currently spending 
about $18 million per month on FFPI [ph] initiatives. Now I 
understand that of the $700 million for this program, they have 
expended about 80 percent for all of these--for software, 
testing and all of that. Should we be really concerned that the 
program is not quite on schedule?
    Ms. Garvey. First of all, I think the 80 percent that Mr. 
Mead refers to, his point is that 80 percent of the funding is 
tied up in three of the automation tools. It is PFAST, URET and 
TMA, and that is right. I think he also points out that this is 
the hardest to do. It is the most challenging. We agree with 
that. Having said that, however, we are on schedule. And some 
of you have had the pleasure of meeting with Charlie Keegan who 
is the head of that program office. He is terrific, and it is a 
very focused team. They have met their deadlines, and they have 
met their schedules. And I have no reason to believe that they 
will not. They have a very robust risk mitigation process. In 
fact I would like to add that the IG staff has complimented Mr. 
Keegan on that being one of the best they have seen. While I 
think there is always reason to be watchful, and Mr. Mead's 
point about let us watch the implementation is right on. I 
certainly am encouraged by the record to date.

                               Mini Hubs

    Mr. Clyburn. Thank you.
    Mr. Chairman, I see that as we have these discussions about 
what we call these choke points, discussions on that. I feel so 
good that you are the chair of this committee coming from 
Columbia, South Carolina, and your being from a like-sized 
state, these people make me feel a little bit inadequate to 
serve on this subcommittee with all these discussions. But I am 
concerned a little bit about the incentives that we have talked 
about some time ago, I think in the last year, for the, to 
encourage what we call the mini-hubs or, what do we call them, 
sub-hubs? Mini-hubs. I thought we talked about trying to put 
some incentives in place that would encourage the development 
of these sub-hubs. Have you given more thought to that?
    Mr. Merlis. Yes, sir. In my testimony we have explored that 
both with our members as well have our Director of Research, do 
a little research on it. There are several examples where I 
guess the word was mini-hubs were tried about ten years ago, 
failed economically because there was not enough locally 
generating traffic. I think that as demand increases and as the 
congestion increases, what we are seeing is carriers trying to 
offset adverse costs of the delays as well as the adverse 
inconvenience to customers by finding alternative means.
    Some have suggested that the acquisition of TWA by American 
is an example of that. American now has a new hub. Instead of 
having to rely upon O'Hare, it has O'Hare, it has St. Louis, 
and it has Dallas/Fort Worth. So I think the monetary 
incentives are so large, they cannot be done. We are talking 
hundreds of millions of dollars to move large numbers of 
employees to another locale, assuming that the infrastructure 
is in place. But where the carriers' adverse cost consequences 
are great enough, then the carriers will make the decision that 
they had better move because they are going to lose business to 
other competitors. So those opportunities will develop.
    One example is Columbus, Ohio. That has developed in the 
last ten years as a hub. It was not a hub prior to that time. 
So I think they are out of sync. It does not happen as fast as 
perhaps we would like. But adverse consequences in the 
marketplace seem to be pushing some of that to happen.
    Mr. Clyburn. Thank you, Mr. Chairman.

                          Controller Staffing

    Mr. Rogers. Thank you, Mr. Clyburn.
    We want to wrap up here pretty quickly because the hour is 
getting late. We have been here a long time and the room is 
extremely hot, so we will begin to wind down here.
    Mr. Carr, one of your commitments was to encourage the 
hiring of additional controllers. Since the staffing level was 
one part of a larger negotiated compromise, the collective 
bargaining agreement signed by NATCA and the FAA three years 
ago, would not what you are advocating lead to, or cause that 
we open up other elements of that agreement? Could it?
    Mr. Carr. Well actually what I am advocating is that we 
take a really close look at our staffing numbers in terms not 
only of the collective bargaining agreement, but in terms of 
the coming wave of controller retirements, and in terms of the 
additional stresses that are being placed upon the system. The 
very fact that we are here indicates that things have changed 
over the course of the last 36 months, and that agreement was 
signed in mid 1998. Nobody contemplated in 1998 that we would 
be adding 13 additional choke point sectors to the National 
Airspace System. So we are advocating that we very closely 
scrutinize our staffing requirements to ensure that we do not 
find ourselves in the next five years where we found ourselves 
20 years ago, which was about 12,000 people short.
    Mr. Rogers. Is it safe to say or fair to say that there are 
more controllers needed at the busiest airports that are 
causing the delays?
    Mr. Carr. I think that is probably a fair assessment.
    What is really fair to say is wherever you add sectors in 
order to offload some of this traffic or to accommodate choke 
point sectors, you are going to require increases in staffing. 
A controller is not made overnight. Someone hired today will be 
a full performance level controller in about five years.

                        Controller Distribution

    Mr. Rogers. Let me ask you this. Is it possible that we do 
not need more total controllers, but perhaps to redistribute 
that staff to the hot spots, to the places where the airports 
are more busy than others?
    Mr. Carr. It is possible that that could be a short term 
solution that could be looked at, but I have to tell you, Mr. 
Chairman, there are very few places in the system now that are 
overstaffed. Actually the preponderance of the facilities that 
we have are chronically understaffed.
    Mr. Rogers. I can show you a whole bunch of airports that 
do not have many flights these days. Since the advent of the 
hub system a lot of the smaller airports like Columbia and 
Lexington, Kentucky have a lot of dead time. So perhaps some of 
those airports could lend some controllers to a Chicago or a 
Denver or where we have a problem. Is that not a workable idea?
    Mr. Carr. It is certainly worth exploration, although I 
have to tell you, like I said, controllers are somewhat like 
runways. They are not made overnight. A controller from 
Columbia who goes to Chicago O'Hare will be greeted with 
``Welcome aboard, trainee.'' And in the two to three years it 
takes for the gentleman or young lady from Columbia to learn 
the Chicago airspace and to ramp up to that traffic level----
    Mr. Rogers. I understand that. Ms. Garvey, what do you 
think?
    Ms. Garvey. A couple of comments.
    First, I think your point about reassessing is something we 
are doing all the time. I will say I am not at all in favor of 
reopening the contract. I do think that was an agreement and we 
should stand by it. Having said that, I will point out, we are 
actually in closer agreement with the controllers than it may 
seem. We are hiring 600 this year, that is under the contract 
and another 1,000 next year. I think it is really only around 
2006 where we may differ a little bit as to what the projected 
needs are. We will keep a very close watch on it, and we will 
work closely with them. But I think our assessment of it today 
is good, solid, and we will continue to monitor it.
    Mr. Rogers. What about redistributing controllers?
    Ms. Garvey. I think that is always a possibility. In fact 
to some degree we have done that. John's point about when you 
open a sector you really need new controllers is right. So 
certainly whether or not you can reassign folks from one place 
to another or redistribute work loads, I think that is what we 
have to do.
    Mr. Rogers. Do you have a list of the airports that are 
short of controllers at this time? That need controllers?
    Ms. Garvey. I do not have it with me, but I am certain that 
we can provide that for the record.
    Mr. Rogers. If you can provide that for us. And do you have 
also a list of the airports that perhaps could spare, give up a 
controller or two?
    Ms. Garvey. We can certainly provide you a staffing list, a 
list of all of those airports. Also, what we see as the 
anticipated retirements and where we see some challenges ahead.
    Mr. Rogers. You should have that in your files right away, 
we can get that right away----
    Ms. Garvey. Yes, sir.
    Mr. Rogers. Before our next get together.
    Ms. Garvey. Absolutely, sir.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    Mandatory Controller Retirement

    Mr. Rogers. Mr. Mead.
    Mr. Mead. I would just like to supplement what Mr. Carr 
said. I think that when they are analyzing the number of 
controllers they need there are factors in addition to the 
redistribution that you alluded to. We need to explain why 
there is an age 56 mandatory retirement. We let pilots fly 
until 60. There is a large body that think they should be 
flying longer than that. And we do have now an age 56 mandatory 
retirement for controllers.
    Another factor is the contract tower program, which this 
committee has been funding. Another one is Oceanic Air Traffic 
Control. Another one is facility consolidation. All of those 
factors provide some room for productivity gains and should be 
factored into any review of how many controllers we need.

                          Free Flight Phase 2

    Mr. Rogers. Now Mr. Woerth, one of your commitments was to 
develop a single list of aviation needs from the aviation 
industry. I did not see that list and I did not see it in your 
statement. Can you help us with that?
    Mr. Woerth. What I was referring to, sir, is working with 
the Free Flight Steering Committee because ALPA's list might be 
different than the airlines' list or the controllers' list. 
What we are trying to do in the Free Flight Steering Committee 
is build that consensus, and since I am a Free Flight Steering 
Committee member I am striving, so if we bring the Congress one 
set of criteria we need, not 27 programs. One program with one 
funding requirement. So I am working on that committee and 
participating in every level.
    Mr. Rogers. When will we have that?
    Mr. Woerth. Again, when the Free Flight Steering Committee, 
and Jane can probably answer that even better than I, when we 
expect the next level two to come out, which is Free Flight 
Steering Committee number two.
    Ms. Garvey. Assignments seem to be more mine. I wonder 
about that, Mr. Chairman. There are really two, I think, 
important points. One is in terms of Free Flight Phase 2. We 
have a set of recommendations from the RTCA that Mr. Woerth 
referred to. We are doing an assessment of that now. That is 
going to be finished by the end of this month. Just to make 
sure that we have both the capabilities in-house and 
understanding what the resources are and how that matches with 
our budget. So that is going to be done. The technology 
challenges will be done at the end of May. But I think even 
more importantly is the NAS Operations Evolution Plan. Again, 
Mr. Woerth is part of that effort as well. Making sure that we 
have industry and all elements of the industry really signed on 
to that operation plan.

                         alpa delay commitment

    Mr. Rogers. Mr. Woerth, you just got rid of one of your 
commitments here.
    Mr. Woerth. I am a good negotiator, Mr. Chairman. 
[Laughter.]
    Mr. Rogers. I am too----
    [Laughter.]
    Ms. Garvey. Thank you, Mr. Chairman.
    Mr. Rogers. Never negotiate with the chairman.
    Mr. Carr. He can have one of mine.
    Mr. Rogers. No, we need to think about another commitment 
for Mr. Woerth, so I will come back to you in a minute. You be 
thinking about what you are going to promise us here in place 
of the one that Jane Garvey is going to take care of for you.
    Mr. Carr. Mr. Chairman.
    Mr. Rogers. Yes.

                         controller relocation

    Mr. Carr. If I could, I would like to clarify my earlier 
remark about moving people within the system. To the extent 
that there are opportunities for advancement at the busier 
level facilities, and to the extent that there are facility 
consolidation issues that we can work on, we are well in favor 
of that. We also recognize the responsibility to provide the 
necessary resources for permanent change of station moves and 
things of that nature. I just do not want to give the 
impression that we advocate a forced relocation of controllers 
from lower level facilities to higher level facilities in order 
to try to attempt to mitigate traffic growth problems. Most of 
the larger level facilities right now currently run between a 
50 and a 75 percent wash-out rate as it is. So out of any given 
100 people you send to Chicago O'Hare, 75 of them are going 
back home. It is just not that easy a game at the big 
facilities. So to the extent that we provide promotion 
opportunities for people who are currently in the system and 
wish to go to the busier facilities, we are all in favor of 
that.

                      denied boarding compensation

    Mr. Rogers. Mr. Merlis, one of your commitments is to 
petition DOT to change the denied boarding compensation pool. I 
understand you did petition on April 3rd. But I wonder what 
relevance or effect that might have on reducing airline monies, 
if any. I want to give credit for achieving the goal, but I am 
wondering if it has anything to do with the delay problem.
    Mr. Merlis. I think the way the question was framed, as I 
said before, I was answering on the fly, sir, and that was one 
of the things that came to mind that was responsive to 
something that Mr. Mead had said and we committed to doing 
that. What that can do because of delays and people getting 
bumped is compensate people for their losses or their delay. So 
we petitioned because the compensation rate is an old number. 
Does it solve the delay problem? No, it does not. But it is 
responsive to one of the problems related to delays.

                     passenger facility charge cap

    Mr. Rogers. Mr. Barclay, we have timed these hearings to 
ensure that the commitments we are working on are doable and 
realistic. One of yours is to work to lift the cap on passenger 
facility charges. That may be desirable for the airport 
community. I wonder if it is a really practical and doable goal 
since we just raised it a year ago. I wonder if you would be 
thinking about another substitute commitment that we could 
place in place of that unrealistic commitment that was made. 
Will you be thinking about that?
    Mr. Barclay. Will do, Mr. Chairman. We did narrow that 
point in the effort to be responsive in advance of your point. 
Just making a waiver at only the biggest airports. But I will 
come up with a substitute.

                 impact of weather technology on delays

    Mr. Rogers. All right. And Mr. Carr, when Secretary Mineta 
appeared here on April 25th, in his testimony he suggested that 
controllers may be over-sensitive to the new weather radar 
displays that came on line I guess in 1998. And perhaps may be 
unnecessarily routing aircraft around modestly bad weather. You 
have controlled traffic for a long time yourself.
    Mr. Carr. Yes, sir.
    Mr. Rogers. And you represent the work force of traffic 
controllers. What is your opinion of that?
    Mr. Carr. I am anxious to sit down and have a conversation 
with the Secretary to really set out exactly what circumstances 
he was alluding to. And until I have an opportunity to see 
exactly what it was he was alluding to and where he got his 
data points, I probably would be hesitant to answer that 
question with any specificity.
    However I can tell you that as a line air traffic 
controller it is a far far greater thing I do to delay you five 
minutes too long, than one minute too few when we are talking 
about weather.
    Mr. Rogers. As I recollect, he had a chart that he showed 
that I think was depicting weather-related delays. And it was a 
fairly stable figure until 1998, and all of a sudden there was 
this huge updraft in numbers of weather-related delays during 
1998. And he was saying that is when we brought on the 
equipment that displayed on the controllers' screens the very 
latest colored radar displays of weather.
    Mr. Carr. I am uncertain whether the increase in 1998 was a 
result of the displays and the better display of the weather, 
or whether it was a result of better reporting techniques by 
the FAA and the Secretary with respect to weather-related 
delays.
    Mr. Rogers. Do you think that is right or wrong?
    Mr. Carr. To be honest with you, Mr. Chairman, until I saw 
exactly what it was he was alluding to I would be hesitant to 
reply with any specificity. I would tell you that I am proud to 
say that controllers are extraordinarily cautious around 
defective weather, and I think it is prudent.
    Mr. Rogers. And we want that to be so. But there is such a 
thing as being perhaps too cautious.
    Mr. Carr. Absolutely. And to the extent that we want to 
find that finite line between being cautious and being over-
cautious, we are here to participate. We are here to be 
solution oriented.

                           antitrust immunity

    Mr. Rogers. Mr. Barclay, your commitment, your substitute 
commitment that you are----
    Mr. Barclay. First, Mr. Chairman, I cannot resist stating 
for the record that I had six commitments, and kicking this one 
out put me only down to five. But to continue to have six, 
there is--the issue of antitrust immunity and some of the 
nervousness about those proposals was noted by Mr. Mead, and I 
think that nervousness and the different views are shared by 
people in the airport industry. But there is one element of 
that that has been brought up by Don Carty of American that I 
would like to go to our board and see if I cannot get airport 
community support for the notion that when you have a 
disruption in the system, really I think the frustration that 
we are all feeling comes about in particular when Chicago has a 
thunderstorm roll through and it causes massive delays 
throughout the system. In those cases, because the airlines do 
not have antitrust immunity, they cannot sit down and American 
and United cannot work together to straighten out that problem 
at Chicago. Say I will cancel these two if you will cancel 
those two, and we will still be serving that market.
    Working with FAA, the carriers could cooperate--not 
antitrust immunity in general, but in specific where FAA would 
call for it that day because of a problem in the air traffic 
control system, to allow the airlines to have that immunity 
with an FAA observer or listener on the phone, could really 
help the system straighten out this problem when it gets into 
one of these massive problems.
    I want to go and see if I cannot get--even though we have a 
number of members who when you say antitrust immunity get very 
nervous about providing that in that blanket sense, I would 
like to see if we cannot get airport support from our board to 
go and help champion that with the airlines.
    Mr. Rogers. Any other comments from the table?
    Ms. Garvey. I would support that heartily. I think those 
really are the tough days. If there is a way to surgically 
focus the antitrust discussions, I think we could go a long way 
in addressing some of the concerns that Mr. Mead has mentioned.
    Mr. Rogers. Who would trigger that exemption taking place?
    Mr. Barclay. I think FAA would. The air traffic control 
folks.
    Mr. Rogers. You are talking about a weather problem that 
threatens to disrupt national patterns.
    Mr. Barclay. Or a strike that occurs that affects an 
individual airport. Any major disruption of the system as 
judged by the FAA that is having an air traffic control impact 
rippling around the system for the purpose of recovering for 
just that day. Let us not allow the antitrust laws to get in 
the way of solving real life problems today in getting the 
system back on track.
    Mr. Rogers. Mr. Merlis, what do you think?
    Mr. Merlis. I would not want to get into that strike issue, 
but I think Mr. Barclay is absolutely right. The mechanism is 
this process out at Herndon. We know during the course of the 
day--let us take an example. Chicago is going to have to reduce 
its flights by 25 percent at a particular point during the day 
because of adverse weather. If the carriers who are flying 
during that point, 3:00 to 7:00 p.m. could get together and 
decide how to serve the maximum number of customers. American 
pulls down its flight to Newark, and Continental goes ahead and 
picks up all those people and gets them to Newark. That is the 
kind of thing that will serve the most number of people, and I 
think do least damage to the concerns people have about 
competition.
    Mr. Rogers. Mr. Carr, do you have a thought about that?
    Mr. Carr. I tend to agree. Without even speaking any more 
extemporaneously than that, I tend to agree.

           proposed antitrust immunity scheduling conference

    Mr. Rogers. Mr. Woerth.
    Mr. Woerth. I think they are talking more about a crisis 
management situation where day by day somebody decides they 
have a crisis. It could be a thunderstorm, it could be a snow 
storm, it could be something. I support those efforts. But I 
think it will not go far enough. I heard the concerns that some 
people have about antitrust immunity, but over a year ago I 
wrote letters to then Secretary Slater and proposed these 
scheduling conferences that were proposed or talked about 
earlier from Mr. Sweeney and by the Inspector General. And over 
a year ago ALPA was in support of that. We think we can manage 
a crisis, but it is easier to manage a crisis if you plan 
enough so there are fewer crises at the airports.
    I still think that the antitrust scheduling conferences 
should be pursued, and since there are two bills in Congress 
with bipartisan support and ALPA suggested it in the first 
place, I can add my duties to continue to support that project 
because I think it is worth doing. I think the antitrust 
concerns can be eliminated, especially if we do not talk city 
pairs--in other words, competitive city pairs--and stop talking 
prices. But why I think this will work and why it should be 
pursued despite some other concerns, I certainly think it is 
better than peak hour pricing. But here is what I think----
    Mr. Rogers. What is better?
    Mr. Woerth. The antitrust immunity scheduling conferences 
will produce a better consumer result. The big airlines are 
competing with their hubs. The big carriers, whether you are 
competing for passengers in a catchment area you are going to 
use St. Louis, Detroit, Pittsburgh, Chicago, Detroit/
Minneapolis.
    What works in competition is frequency. Frequency is what 
is killing us with air traffic delays. We have learned to 
compete with more and more airplanes that are smaller. So our 
efficiency, as Mr. Sweeney asked earlier, is going down. But 
the strategy that works is high frequency. There is not a 
single airline that does not know if they want to win the high 
yield business customer who has fully refundable tickets who 
wants to change his mind all the time, that customer prefers 
the maximum number of options. If he misses a meeting, gets off 
early, wants to go home, whatever it is. So what they need to 
do is discuss about--say you are trying to go to LaGuardia. 
Whether you are competing out of St. Louis, Chicago, Detroit or 
Pittsburgh, you all want to have 10 flights a day to compete 
for those passengers into LaGuardia. But we all know we are 
going to have the same number of seats, just change the gauge 
on a few airplanes that we can take out, we all go to seven 
flights a day. But as I mentioned before, not one of those 
competitors is going to do that unless he knows everybody else 
is going to do the same thing. You can have the same number of 
seats in the market, just fewer flights, but they are not going 
to give up competitive frequency unless they know everybody 
else is. So I think this should be pursued.
    Mr. Rogers. Mr. Barclay, you are going to work to gain 
industry-wide unanimity around the language?
    Mr. Barclay. I can try to get airport industry support 
around the language. The airlines are already in support of it, 
and FAA said it supported the thing. So I think it is a 
doable----
    Mr. Rogers. Okay. That is your project and we would like to 
see your language as soon as we could. Is that agreeable?
    Mr. Barclay. Yes, sir.

           PROPOSED ANTITRUST IMMUNITY SCHEDULING CONFERENCE

    Mr. Rogers. Now, Mr. Woerth, your substitute commitment.
    Mr. Woerth. Along those lines, Mr. Chairman, I would like 
to support the broader one, not the crisis management that Chip 
supported, but ALPA will lend its support to both bills in 
Congress to get them passed that will give antitrust immunity 
to scheduling conferences for the airlines.
    I represent 49 airlines, so I do not have an ax to grind 
with any one particular. I grind all their axes fairly 
frequently. [Laughter.]
    Mr. Rogers. Well, we will take it but it is sort of a 
general commitment. We will never know whether you have done it 
or not.
    Mr. Woerth. If the Chairman asks me to testify, I will be 
there.

                         ALPA DELAY COMMITMENT

    Mr. Rogers. I know that. But I am just saying I wish we 
could have a specific commitment from you other than generally 
to lobby for something.
    Mr. Woerth. I think that one provides the most--that comes 
to mind that can actually be done, and along with the one we 
kind of abandoned that I tried to shift to Ms. Garvey, the Free 
Flight Steering Committee is far from complete. And the work on 
that even to get to phase two and have all the industry 
technology compatible with the aircraft as well as the pilot 
training, this work is ongoing and I will continue to work with 
that.
    We have human factors--if we have a machine that people are 
trained on that is not compatible with the air traffic 
controllers, we have nothing. We will work to coordinate that, 
which is still part of what we were talking about originally 
with number one.

                  AIRLINE DELAY SOLUTIONS REPORT CARD

    Mr. Rogers. Okay. I thank you for your appearance here 
today again. It has been a long afternoon. I apologize for the 
length, but I do not think we can achieve what we are after 
unless we dig into the details as we had to today and have 
done. Does anybody have a closing statement before we wrap up 
here? If not, then we will proceed.
    We are making some progress. We heard some specifics along 
the way here of achievements that pose some real promise for 
us. We are going to blow up Mr. Mead's graph and put it perhaps 
up here so we can have a thermometer to look at and see whether 
or not delays temperature is coming down or going up. And we 
are going to look to him and the FAA for those measurements of 
the delay situation for April, May and of course the summer 
months.
    So we will be coming back. You are invited back and we are 
going to keep working on these commitments that have been made 
and that you are working on. Some of them are pretty much in 
place. Many others of them, of course, are works in progress. 
And some of them are sort of etherial promises that we will 
never really be able to objectively put a yardstick to.
    But I think this is productive, as far as I am concerned. I 
think we are beginning to understand from each other the 
problem and trying to foster some degree of cooperation where 
sometimes I think it has been lacking.
    Consequently, it is time to issue some grades here. I told 
you that we were going to have a report card, and we have the 
report card on the chart behind me here, so we are going to go 
through it, and with Rich's help we will do some work on that 
chart.
    First, Ms. Garvey, you have completed the choke point 
initiative and--well, it is practically complete, so we are 
going to give you a smiley face.
    Ms. Garvey. Excellent.

                          CAPACITY BENCHMARKS

    Mr. Rogers. And you have issued the capacity benchmarks, 
and you have developed plans at the eight airports to improve 
operational efficiency. The ones with the highest delay rates--
Atlanta, Boston, Chicago O'Hare, Newark New York, Kennedy New 
York, LaGuardia, and Philadelphia and San Francisco.
    Ms. Garvey. That is correct, sir.
    Mr. Rogers. So for that you get another star.
    Ms. Garvey. Excellent.

DELAY DEFINITION, ENVIRONMENTAL STREAMLINING, AIRPORT CAPACITY PROJECTS

    Mr. Rogers. Now you have already been awarded a star for 
your sixth commitment, number six, which is to develop the 
definition of a delay. You have informed us of that some three 
weeks ago. We have already given you a star for that.
    Now for your agreement with airlines on a national 
operations evolution plan, that is a work in progress, but you 
are making progress, and for that another smiley face.
    For number five, streamlining the approval procedures for 
airport capacity projects, in your testimony you elucidated the 
progress you are making on that. It is a work in progress. We 
are making progress. And for that another smiley face. So thank 
you. You are doing good.
    Mr. Mead is difficult to measure because he is sort of 
measuring us all anyway. [Laughter.]
    He is the guy with the yardstick. We are trying to measure 
him.
    But for his work in keeping track of the disbursals of 
flights that we are trying to force or encourage from hubs to 
smaller airports and for disbursal of flights during the day at 
certain airports, particularly Atlanta and Dallas/Fort Worth, 
he gets a smiley face, work in progress. And monitoring the 
runway construction cost and schedule status, another smiley 
face.
    Mr. Merlis, you completed, I think, your commitment on 
number five which is to petition the DOT to change the denied 
boarding compensation rules. We are going to give you a golden 
star. And you are working on putting in place the delay 
reporting advisory committee, you have a ways to go, but work 
in progress, smiley face. Your number three commitment, to 
transfer aircraft position and delay data directly to gate 
agents, work in progress. We will see how it works but you are 
headed that way so a smiley face.
    Mr. Barclay, your advocacy of streamlining the runway 
construction process, you are building a head of steam I think 
in that direction. We give you a smiley face, work in progress. 
Number two, your advocacy of FAA's ability to provide support 
staff to airports is a positive note in the right direction, a 
work in progress, a smiley face.
    And Captain Woerth, you are developing a stronger alliance 
with the NATCA. You have a meeting on the 18th of this month 
with members of both NATCA and the dispatchers. And you are 
working on standardizing flying duty time industry wide, among 
other things. We give you a smiley face.
    Mr. Carr, you have reached agreement with the FAA on air 
space redesign which is I think a major step in the right 
direction. We have got a ways to go to see what finally 
happens, but for your commitment to reach that commitment you 
get a star.
    Mr. Carr. Excellent. [Laughter.]
    Mr. Rogers. Do not get too happy. [Laughter.]
    Mr. Carr. I know at least three people that are jealous of 
me. I hope this room is guarded overnight.
    Mr. Rogers. And your work in monitoring other ideas for the 
safety impact, we have to give you a smiley face.
    And your initiation of a study with others of the ability 
to reduce separation standards which could make major 
differences in delays earns you a smiley face. All of these 
smiley face things are works in progress, and if you can 
complete them, we will replace that smiley face with a star. 
All of this to say that you are competing with each other to 
get out of this room. To get off the island, so to speak. And 
we are not going to let you off the island until you have 
earned your stripes, your stars. So that may be a little 
elementary way to do this, but so what. We can have a little 
fun.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                Closing

    Mr. Rogers. There is a lot of work that we are heading into 
here. As I said at the outset, with your help we want to help 
end the terrible disruption that airline delays are causing 
millions of Americans.
    I know all of you and I know all of your organizations, 
private and public, are committed to public service and we 
congratulate you for that. So are we.
    Our duty is to try to protect the public's interest and the 
pubic's interest is not being served adequately at this time by 
the system. So we are joining with you to try to remedy the 
faults and the problems as best we can.
    We know that you have been swamped, the air industry has 
been swamped with flyers in the last several years. Literally 
hundreds of millions a year now are flying where just a few 
years ago only a few million. So we know that this is a dynamic 
industry. You have a dynamic demand. We want to help you along 
that way.
    We are going to insist that these things be done, or as I 
said before, there will be consequences that will come from 
this subcommittee, perhaps, or from some other place. But we 
will be staying with you on this and we will be having another 
session such as this in the near future to check up on the 
progress that you have made on your commitments.
    I hope you find this useful. If you do not, 
congratulations. But I hope that you find this useful because 
sometimes it may be that you or your organization may not be 
able to take the initiative on something unless you are made 
to. And I hope that we have some effect on encouraging you to 
do things that will benefit the whole group. So I thank you for 
your time and your work, and we will see you very soon.
    The hearing is adjourned.
                                          Thursday, August 2, 2001.

              AIRLINE DELAYS AND AVIATION SYSTEM CAPACITY

                               WITNESSES

MICHAEL P. JACKSON, DEPUTY SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION
JANE F. GARVEY, ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION, U.S. 
    DEPARTMENT OF TRANSPORTATION
KENNETH M. MEAD, INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION
EDWARD A. MERLIS, SENIOR VICE-PRESIDENT, LEGISLATIVE AND INTERNATIONAL 
    AFFAIRS, AIR TRANSPORT ASSOCIATION
CHARLES BARCLAY, PRESIDENT, AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES
CAPTAIN DENNIS DOLAN, FIRST VICE-PRESIDENT, AIR LINE PILOTS 
    ASSOCIATION, INTERNATIONAL
JOHN S. CARR, PRESIDENT, NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION

             Opening Remarks and Introduction of Witnesses

    Mr. Rogers. The Committee will be in order.
    We want to welcome back once again the infamous gang of 
six, now seven and growing. All are here; one substitute. 
Captain Dennis Dolan of the Air Line Pilots Association is 
sitting in for ALPA president Captain Duane Woerth, who could 
not attend today. I am very sorry he could not be here because 
I think it is very important that the people who make promises 
be the ones who keep the promises, so extend to him our 
personal regret.
    Mr. Dolan. I will.
    Mr. Rogers. Most importantly, I want to offer a special 
welcome to the Deputy Secretary of Transportation, the 
Honorable Michael Jackson, for the first time before this 
committee; maybe the first of many appearances. He is here 
representing Secretary Mineta and is responsible in his own 
right for all of the important activities being undertaken by 
the Department as it relates to airline delays. He is the man. 
He is called Mr. Airline Delay.

                       purpose of delay hearings

    We started this series of special hearings, as you know, on 
March 15 when it became obvious that the nation was laboring 
under a terrible burden of airline delays. At that time, we 
asked these prominent professionals in the aviation industry to 
commit to five concrete and measurable things that they would 
personally attend to to help address the growing problem of 
airline delays. That was a new approach--personal commitment, 
personal accountability, cooperation across the board of this 
industry and its various parts.
    We put those commitments on a big board, as you see behind 
us, and when Secretary Mineta appeared on April 25 for his 
budget appearance he graciously agreed to add his name and 
commitments to our list, which I think was a great endorsement 
and aid to the work that we are trying to accomplish here.
    One week after the Secretary's hearing, on May 3, we had 
our second special hearing where we checked what progress was 
being made on those commitments. Although it had been too short 
a time to see broad progress at that time, we awarded stars for 
a few completed items, smiley faces in those areas where 
concrete progress was being made. We withheld the frowny faces, 
but they are in a box that has an open lid. Although it may 
seem frivolous to award stars and frowny or smiley faces, it is 
a way of us judging and rewarding or punishing, as the case may 
be, progress, or lack of it, that is being made.
    Now an additional 12 weeks have passed since the last 
hearing, and we are well into the peak travel season. If we do 
not see any real progress by now, we are missing the short-term 
opportunities and focusing only on long-term improvements. We 
need to do both, and I hope we will hear today that progress is 
being made on both fronts.
    As Mr. Mead said in our last hearing and came up with this 
phrase, the proof will be in the pudding. I thought that was so 
unique. We are here today to check that pudding and see what 
the temperature is and see what proof is there from our 
experts.

                  fiscal year 2002 appropriations bill

    I should also point out that in the three months since our 
last hearing my Subcommittee has reported the transportation 
appropriations bill for fiscal year 2002, and we have made the 
airline delay matter a priority. We fully funded those programs 
targeted by the Administration to address delays, such as the 
chokepoints initiative and the Free Flight project.
    We added money to speed up some technologies, such as the 
local area augmentation system and Safe Flight 21. We added 
money to redesign the crowded airspace around the New York 
metropolitan region and to see if we cannot safely reduce the 
aircraft separation standards. Overall, we raised funding for 
ATC modernization by ten percent and the airport construction 
program by five percent. There will be more money next year, 
and we have targeted it to address the delay problem.

                       report card on commitments

    Once again today we are here to provide a report card on 
your progress. FAA Administrator Garvey and Inspector General 
Mead have personally briefed me on the recent improvements in 
airline delays. I have appreciated that and look forward to 
hearing more details today.
    My sense is that there is still a long way to go. We have 
made marginal improvement in the problem. We cannot rest on 
those laurels. They are not big enough to see hardly. The 
airline delay problem continues to be one of the most serious 
problems facing the American traveling public, affecting 
millions of people every month, every week.
    Even with these improvements, one in every five flights is 
still delayed. The average delay is still too high. We have 
only seen marginal improvements and a shortening of the length 
of delays, and there are still too many chronically delayed 
flights. Much more can be done to promote the use of under used 
airports.
    In short, we have a system which, while improved, is not 
serving the American public like it should. We also need to 
ensure that improvements are due to structural causes, not due 
to one-time events or improvements in the weather, as we have 
seen this year. If we have bad weather next year or the economy 
bounces back and we see more travelers, we must not find 
ourselves in the same situation we have been in regarding 
delays and cancellations. The American public will not tolerate 
it, and they will not let it go back.
    I appreciate the fact that you have all but one returned 
today, and I await your progress reports. We will enter your 
written statements in the record without objection.
    Before we take further proceedings, let me first recognize 
my colleague from Minnesota, Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman. I welcome all our 
witnesses back and look forward to hearing their testimony.
    Mr. Rogers. We have two votes on the Floor we are being 
called to. Rather than start the proceedings and then be 
interrupted, I think it best that we take a couple of minutes 
here and get our chores out of the way before we get started. 
Make yourselves comfortable while we are in recess for a few 
minutes.
    [Recess.]
    Mr. Rogers. The Committee will be in order.
    Thank you for your patience with us. This is we hope the 
last day before the August recess, and we are trying to pack a 
lot onto the Floor, as well as in our committees.
    Any other statements, Mr. Sabo.
    Mr. Sabo. No.
    Mr. Rogers. Chairman Wolf.
    Mr. Wolf. No.
    Mr. Rogers. We are glad to have you here, by the way.
    Mrs. Emerson.
    Mrs. Emerson. No.

                   deputy secretary opening statement

    Mr. Rogers. Now we would love to hear your abbreviated 
opening statements.
    Deputy Secretary Jackson, we will ask you to go first. 
Welcome.
    Mr. Jackson. Chairman Rogers, thank you for having me at 
the meeting today. Ranking Member Sabo, Chairman Wolf, Members 
of the subcommittee, I am grateful to be here. I will make my 
remarks brief and then assume that we can have an opportunity 
for questions to elaborate upon them.
    I really wanted to do three things in my prepared remarks. 
First, to discuss the Department's basic strategy for dealing 
with aviation congestion issues and a nested set of additional 
issues related to the health of the aviation industry. Second, 
to give you a brief overview of some of the interim steps that 
Secretary Mineta has taken in the last several months to 
address these issues, particularly on aviation delays. Third, 
to just touch base briefly, Mr. Chairman, on the specific 
points and commitments that the Secretary had signed up for 
with you earlier this year.
    First of all, I think the issue of delays has been a 
continuous concern in the Secretary's comments and my comments 
as we talk about the problems we face in aviation. Mr. 
Chairman, I associate myself completely with your analysis of 
where we are. We have made some progress. It is important 
progress, but it is not enough. We have very much more to do. 
We are at the beginning of a long path, but we have to work at 
it hard and show results, so I think that your assessment is 
exactly on track.

                    transportation delay work group

    It is important to understand that we have had some 
progress in the short term over the last several months to work 
through the summer and spring peak seasons, and there are a 
series of efforts that we have set in motion, including a 
working group that we have established at the Department. I am 
chairing that group with Administrator Garvey, with our 
Inspector General and a series of other senior officials in the 
Department to manage these important issues on an ongoing 
basis, which we will have to do for the entire time that I am 
sitting in my chair at the Department.

                           delay improvements

    I think over the short term that we can see that on almost 
every one of the metrics that you are going to hear about from 
this group today, there has been progress. For on-time 
performance we have seen 19 percent improvement. You will hear 
about significant improvement on the reduction in ground stops. 
Similarly, through all of the FAA numbers we see incremental, 
but measurable, progress. Is it enough? No. Is it a start? Yes. 
Is it noticeable in the system today? I think the answer to 
that is yes also.
    There are three real reasons that we think that we have 
seen some of this incremental and meaningful improvement. First 
is the weather. I am not saying that weather has gotten better. 
It has marginally been better this year than last.
    I think importantly here for you and the work that your 
committee is asking us to look at is this question. What have 
we done to make management of bad weather a more effective 
process? It is on that axis that I think we have made some 
significant progress. The work that Herndon is doing to talk to 
the airlines on a routine basis throughout the day has been 
meaningful.
    I was in Atlanta earlier this week talking to the 
operations people at Delta about collaborative decision making 
because I wanted to hear from them directly how they thought it 
had worked. One individual there had spent two months on the 
road with FAA going around to TRACONs and talking about how to 
manage these things. He was back on their daily conference call 
talking about the processes they were going to use on Tuesday 
afternoon at 2:45 to make that work.
    On that score, I think we have been doing better about 
managing weather. Jane has talked about this with you, but I 
think that we have more to do, although we have made some 
progress there.

                        labor/management impact

    Second, when we were looking at this at the beginning of 
the year, we were looking at a potentially very, very difficult 
summer. One of the elements of that difficult summer was the 
possibility of significant labor/management conflict and 
resultant delays.
    That is a priority that the Secretary took on personally. I 
have assisted him in that regard in a marginal way perhaps, but 
it is something that he has spent a lot of time and energy on, 
each of the particular labor issues that we have had.
    The parties themselves have made the difference and have 
made the commitment to do this. I think they understood very 
well the impact of not getting this done. OMB has worked 
effectively. We brought the Comair people in when that 
negotiation went to a dead stop, and I think we made some 
progress there. On the labor issues, it is the one that is an 
outlier. It could have been worse, but I think that we have 
made a little progress there.

                         summer operations plan

    Finally, I think that this whole Summer Ops Plan has paid 
dividends for us in the short term, and I will let 
Administrator Garvey talk about that.
    I would just touch briefly on the commitments that we 
signed up for with the Secretary and some of the work that we 
have done to try to make that a priority for us at the 
Department. We worked to establish a process on balancing 
flight schedules. The work at LaGuardia that you are very well 
aware of, Mr. Chairman, is very important in this regard, as is 
our capacity benchmark study, our NPRM that we have released on 
management options, and better consumer information.
    These are areas that we have begun to dig into. The task 
force that we are working on has laid out a series of 
additional actions, but I think we have begun to make 
significant progress. My prepared remarks discuss this in more 
detail.
    Airport permitting and construction. I am absolutely 
unhappy with how long it takes us to do any large 
transportation project. This is a significant area for us to 
work on. It is something also that cannot be just tackled at 
the Department of Transportation.
    The Secretary and I have had conversations with the 
Domestic Policy Counsel, with OMB, with other Cabinet agencies 
about how we can collectively work on these problems. We cannot 
just make transportation infrastructure investments. We can be 
an aid to local communities as they decide what is appropriate 
for their community. We can also help clear out the underbrush 
of impediments when a community does decide to move in a 
particular direction, and we are committed to try to work on 
those. I think we have made some very good progress so far on 
that.
    Chokepoint work. I think that the Administrator's comments 
again will summarize the work that she and the Department have 
done collectively in this area, and I believe we have made some 
real progress on realigning some of the chokepoint problems for 
this year. It is also something that we have to do on an 
ongoing basis and keep addressing.
    Underutilized airports. Secretary Mineta has said 
repeatedly as he travels around the country that there are 
assets that are under utilized. We want to be helpful in making 
these under utilized assets a part of the airspace network and 
to help us drain off some of the delay issues. We have worked 
with the industry and several communities to address options 
for them to move forward.
    Finally, on developing incentives and disincentives for 
airlines, we are earnestly encouraging the type of voluntary 
actions that Delta, American and Continental have taken on 
their own nickel, but with our encouragement and help, to make 
meaningful changes on adjusting the peaks and valleys of asset 
utilization at airports.
    I visited Delta and the FAA's TRACON and tower in Atlanta 
this week, and there has been a very, very substantial change 
there. Our air traffic controllers say that it was like turning 
a switch when Delta made these changes in their traffic 
patterns, and it has made an important difference I think, so 
we are encouraging that type of continued work with the 
airlines.
    In conclusion, I would just say that these are early steps 
for us. The commitment to work on the problems this committee 
is looking at today is a full-time commitment for us for the 
long haul. We are trying to organize ourselves to look at 
short-term medium-term and long-term solutions, and on each 
axis the Department and the airlines and airports have to 
contribute to these solutions and to work on these problems 
collectively.
    Finger pointing will not accomplish a thing. We want to 
work in partnership with the groups represented at this table 
and the affected parties. We appreciate the support and the 
focus that this subcommittee is bringing to these issues. That 
is very constructive.
    There is no magic wand, Mr. Chairman. My six-year-old 
daughter has a magic wand in her Barbie set. I looked in my 
toolbox when I got to DOT, and there is not one there, but we 
will continue to work all the tools that we have effectively 
here and hope to make real progress.
    I am happy to answer questions about the Department's work 
as we go through the day.
    [The prepared statement and biography of Michael Jackson 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            ATLANTA AIRPORT

    Mr. Rogers. Thank you, Mr. Secretary.
    I applaud, like you, Delta and American and Continental for 
de-peaking their major hub airport. Essentially they are the 
dominant airline at each of those airports and can do that and 
be effective at it. It is these multi-hub airports that we have 
had difficulty with.
    Even in spite of Atlanta de-peaking, it still leads, in my 
latest statistics, the nation in the percent of the total 
delays nationwide. Atlanta still accounts for 8.2 percent, even 
above Chicago, Philadelphia, New York, Newark, LaGuardia, 
Boston, San Francisco and JFK, still Atlanta after de-peaking.
    Mr. Jackson. It is our busiest airport, and we have not 
nailed it with this one action. It is an action that can help 
us, but not alone.
    Mr. Rogers. I am glad the air traffic controllers say it is 
like throwing a switch, but there should be some more switches 
out there to throw.
    Mr. Jackson. Absolutely.
    Mr. Rogers. Atlanta still is bad news.
    Mr. Jackson. Absolutely. Hopefully that runway extension 
will help that. We have an important priority to move that one 
in Atlanta. I think that will significantly help when they can 
get there, but that again is a longer term solution. We are not 
going to give up on intermediate and short-term solutions that 
might improve the situation as well.

                         FAA Opening Statement

    Mr. Rogers. Thank you. Ms. Garvey.
    Ms. Garvey. Thank you. Mr. Chairman, Mr. Sabo, Members of 
the Committee, thank you very much. I am pleased to be here 
this morning to report on our progress to date.
    As the Deputy Secretary indicated and as you indicated, Mr. 
Chairman, in your comments, the news this year is definitely 
more favorable. If you look at the last four months, we are 
seeing a decrease, about a ten percent decrease in delays. That 
certainly is good news. I looked yesterday at the preliminary 
numbers for July, and it seems as though those numbers are 
heading in the same positive direction.

                      FAA Progress on Commitments

    Before each of you, Mr. Chairman, is a package that 
outlines the commitments that we made at our initial hearing, 
the milestones we have set and the progress to date. I am 
pleased to say that under the direction of the Secretary and 
Deputy Secretary we continue to make progress, but in the 
interest of time what I would like to do is focus on just three 
of those commitments and speak more specifically about some of 
the benefits that we are seeing because I think that is 
important. Ultimately we want to see changes, and we want to 
see some benefits, benefits both to the passengers and to the 
airlines.

                          FREE FLIGHT PHASE I

    If we start with our Commitment No. 3, which is implement 
Free Flight Phase 1, these are, as I think the committee knows, 
essentially five automation tools, five software programs, that 
are used by the controllers. The program, I am very delighted 
to say, is on budget and on track with a lot of help from this 
committee. We are enormously grateful for the commitment that 
we have received from this committee for Free Flight. We have a 
very straightforward agreement with industry. It is quite 
simply we will deploy the technology. Industry will measure the 
results.
    Is it giving us what we want? The airlines are telling us 
some very good news. In some cases, the airlines have said they 
have been able to avoid three to five costly diversions a week. 
They have been able in some cases to sequence arrival traffic 
much more efficiently, thereby increasing capacity.
    Another tool gives the controller the ability to see 
potential conflicts 20 minutes ahead of time, allowing us to 
provide much more direct routing for the aircraft. According to 
one airline, this tool alone saved $1.5 million in the two 
enroute centers where it is currently being used.
    Because of the collaborative decision making software tool, 
we have common shared data, such as weather and action plans, 
among all the airlines in the Command Center. It allows us to 
plan much more efficiently. It allows us to be on the same page 
together. Free Flight is giving us some benefits. We are on 
track, and I think it is going to be a good model to use as we 
think of the Operational Evolution Plan (OEP).

                              CHOKEPOINTS

    Chokepoints is another commitment for us. We have talked 
about before this committee in the past. We have identified 
with the airlines 21 initiatives to relieve those chokepoints. 
As you may remember from our first discussion, we focused on 
that very critical triangle from Chicago to Boston down to 
Washington. In the very broadest sense, I would characterize 
the initiative as making the most efficient use of the existing 
airspace. We have completed work on 14 of those initiatives. We 
still have some to go, but we are again on track.
    Our initiatives are starting to pay off. Most of our 
completed chokepoints initiatives have focused, not 
surprisingly, around the New York/New Jersey metropolitan area. 
As a result, we have seen a reduction in delays from both 
northbound and westbound departures out of those New York 
airports. We have seen that they are experiencing 11 to 22 
percent fewer unplanned ground stops when you compare it to the 
year 2000.
    We also in the last few months have focused more directly 
on the Great Lakes region. We have changed some of the high 
altitude holding patterns. That has led to great benefits for 
airports such as Cleveland, Chicago, and Detroit where 
departure delays have been reduced by 11 percent and arrival 
delays by 16 percent.
    We are meeting our commitments on the chokepoints 
initiative, but, I think even more significantly, we, along 
with the airlines, are tracking the benefits. We really need to 
know what works and what does not.

                    OPERATIONAL EVOLUTION PLAN (OEP)

    For the longer term solution, as we have suggested in one 
of our initiatives, we are focused on the Ops Evolution Plan. I 
am pleased to say that we have met our commitment to this 
committee to reach agreement with the airlines on a National 
Operations Evolution Plan. With great support from the airlines 
and a lot of encouragement from the Secretary of 
Transportation, this plan was released on June 6.
    The plan represents, as the committee knows, the commitment 
of the industry, the commitment of the FAA, to a ten year 
future. Our real challenge right now is to shift from the plan, 
which we have now got, and we know what all our commitments 
are, to really an implementation. That has been the major focus 
for us and the airlines.
    I just want to call your attention to one document. For 
each one, for example, of the 14 runways that are planned we 
have a detailed work plan. This is what I mean by shifting to 
implementation. We have a detailed work plan that is going to 
be up on our website in September, and it outlines very 
specifically who is responsible for what part of that work 
plan. I think that is going to be very helpful as we monitor 
and track our own progress.
    We believe, and the airlines agree with us, that 
implementation of the Operational Evoluation Plan will lead to 
an increase of capacity of about 30 percent. Again, that is 
through technology, through airspace redesign, as well as 
through new runways.
    Just in conclusion, as you pointed out at our first 
hearing, Mr. Chairman, everything that we have discussed or we 
will discuss today really comes down to serving the customers, 
serving the American people. We know, as the Deputy Secretary 
has said, that we still have a long way to go.
    We know that many of these initiatives considered in 
isolation will not offer a solution, but we continue to 
believe, as you have stated at the first hearing, that with the 
kind of constructive collaboration that we are seeing, it is 
unprecedented. The future certainly looks good, and we believe 
we are on the right track.
    Thank you again for allowing me to be here today.
    [The prepared statement of Jane Garvey and status of 
commitments follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                      Sub-Hub Airport Capacity Use

    Mr. Rogers. Thank you for being here.
    Are we making any progress on spreading capacity, using 
under utilized capacity? Cincinnati is a great airport near 
northern Kentucky, a wonderful place. Not too far away is the 
Louisville Airport with lots of unused runways. Lexington is 
just south of there. There are other airports in the region 
that could help relieve Cincinnati. I use that only as an 
example. The same thing is true in Atlanta, Dallas, San 
Francisco and so forth. What are we doing to disburse the load 
off of the hubs into the subhubs?
    Ms. Garvey. Well, from the government's perspective, and 
obviously the airlines will have a different view and perhaps 
may want to add other comments, but from our perspective I 
certainly continue to believe that the airport improvement 
program and the monies that Congress has given in record 
numbers is giving money for infrastructure development for the 
airport system. It is very helpful.
    We are trying at LaGuardia, as you know, with the lottery, 
which is in a sense a kind of capping of those flights. We 
certainly hope that there will be more of an incentive to try 
some of those other airports; Stewart, for example, which I 
know that Mr. Sweeney has been very interested in.
    I think there is still a lot of work we need to do in that 
area, and it is certainly still in a deregulated environment. 
How much we can sort of force it from the government's 
perspective is one of our great challenges. I think providing 
the infrastructure and looking at some of those demand 
management strategies that may in fact in crowded areas 
encourage use of other airports, is important as well.

                       La Guardia Airport Lottery

    Mr. Rogers. Well, by capping the number of flights at 
LaGuardia in effect you are forcing----
    Ms. Garvey. In a sense.
    Mr. Rogers [continuing]. Airlines to find alternative hubs 
in the region, right?
    Ms. Garvey. Absolutely, and I will say----
    Mr. Rogers. Why can you not do that in other places?
    Ms. Garvey. Well, I guess we always hoped that that was 
something of last resort in a deregulated environment.
    Mr. Rogers. We are fast approaching last resorts here.
    Ms. Garvey. I do think in some of the other--you mentioned 
Atlanta earlier. I do think in Atlanta we will when that runway 
is in obviously see some great benefits there. There may be 
other opportunities that some of the other panelists are seeing 
as well.
    Mr. Rogers. Well, we will have other questions in a few 
minutes.
    Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman.
    My understanding is in LaGuardia the slots by lottery 
expire in September. Is that accurate? What happens then?
    Ms. Garvey. It is, Congressman. We had a request for 
comments in the Federal Register and have agreed to extend that 
lottery for another year. There is great interest from Members 
of Congress in that as well.
    We will extend it for another year as we consider some of 
the longer solutions. The longer term solutions are pretty 
complicated. There are pros and cons on all sides. We want to 
give people enough time to really look at those, and we will 
extend the lottery for a year.

                  Inspector General Opening Statement

    Mr. Rogers. We will have plenty of time for questions as 
soon as we hear the panel. I did not intend to start with 
questions. I apologize.
    Mr. Mead, the Inspector General, our resident critic, how 
are we doing?
    Mr. Mead. Somebody told me that you were going to call me 
Pudding Man as a result of your comment earlier that I said the 
proof was in the pudding, which I did say.
    Mr. Rogers. The Pudding Man, yes.
    Mr. Mead. Mr. Chairman and Members of the subcommittee, it 
is good to be back again.
    I would like to start by saying that I think that bringing 
this group together periodically to review progress in 
addressing the delay problem really has helped to focus 
attention, accountability, and greater cooperation among the 
parties. That is just from our own audit observations. It has 
contributed I think materially, along with the emphasis that 
has been provided by the Secretary, to some bottom line 
results.

                           Progress on Delays

    What I would like to do for a moment here is I would like 
to report on where things stand today, some vital statistics, 
if you will, and then turn to the commitments that were made 
and highlight some areas that we believe require action.
    There are charts throughout our testimony, and we have a 
chart board that we can put up later to illustrate some of 
these metrics, but there are just a few that I think are key 
barometers. Comparing the first six months of 2001 to 2000: 
arrival delays, down about 13 percent; cancellations, down 23 
percent.
    A key one, number of flights experiencing taxi out times of 
one hour or more: down 20 percent. That is a big number. In the 
two hour or more taxi out category, the decrease is really 
large, about 48 percent compared to this time last year.
    Flights chronically delayed and/or canceled 40 percent of 
the time or more decreased 62 percent. I think the airlines are 
paying attention to this category. There are still too many of 
them, though. We have dropped from about 97,000 for the first 
six months of 2000 to about 37,000 still out there. Consumer 
complaints are down, too.

                            Scheduling Data

    What about scheduling? Scheduling data, frankly, are very 
mixed. You will recall that just a few short months ago we did 
not have all these metrics to compare for the committee, so I 
think that in itself is a fairly large improvement.
    For the first 6 months of this year, there was less than a 
one percent increase in scheduled flights by the top ten 
carriers, which is a marked change from the last several years. 
There were major differences among the carriers, though, and 
among the airports: BWI--up 14 percent; Dulles--down 23 
percent; Reagan National--up 13 percent; Cincinnati--down 13 
percent; Chicago, Atlanta, and DFW all down slightly by a 
percentage point or two.
    Growth that did occur tended to be in the use of small 
aircraft, so-called regional jets. Frankly, there was very 
little evidence of a dispersal of flights from major hubs to 
smaller, less congested airports.

                          AVERAGE LOAD FACTORS

    Although load factors--the percentage of passenger seats 
filled--are down overall about four percent, but there was a 
pronounced drop in the business travel market. While overall 
the load factor is down about four percent, business travel is 
down about 15 percent as measured by revenue passenger miles.
    Why are delays down? I think Mr. Jackson and Ms. Garvey 
referred to it: better weather, particularly in the eastern 
U.S.; no significant labor disruptions--I think the Secretary, 
the airlines, and the unions all deserve some credit for that; 
FAA and airline efforts to better communicate and coordinate 
actions; voluntary actions by several of the airlines, 
particularly through more responsible scheduling; and general 
economic conditions that have constrained growth in demand.
    It is sort of a double edged sword here, you might say. 
While these delay statistics look favorable, we must not be 
lured into a false sense of security. Any of these previously 
noted factors could change even this year so that we could 
relive the summer of 2000 or worse.

                        COMMITMENTS AND PROGRESS

    With that in mind, I would like to turn to the commitments 
and what progress has occurred. DOT and FAA, in our judgement, 
do continue to make progress. The most significant items we 
think are FAA's Operational Evolution Plan, the report to 
Congress on environmental review of airport improvement 
projects and, airlines actually moving their voluntary customer 
commitments into their contracts of carriage, making them 
legally enforceable.
    There are six items for which we feel progress has been 
insufficient or actions are needed sooner rather than later. 
First, DOT still lacks a uniform system for tracking the causes 
of flight delays and cancellations. Some progress has been 
made. We had hoped, though, that a system would be in place by 
this summer. DOT expects additional airlines to begin voluntary 
reporting of causal data before the end of this year and plans 
to do an expedited, negotiated rulemaking to make reporting on 
the causes of delays obligatory.
    You will remember, and I am sure every Member of this 
committee remembers, when this all started. You would get the 
airlines and FAA in the room and everybody would have a 
different reason for why a particular delay was happening. It 
is important to identify the causes of delay not only to avoid 
the finger pointing, but also for management to be able to fix 
those causes.
    Second, airlines still need to notify passengers at the 
time of booking without being asked about the prior month's on 
time performance for flights that are chronically delayed. That 
is 40 percent or more of the time. None of the airlines to date 
have done this voluntarily.
    We see this, frankly, as a truth in advertising issue. 
Thirty-seven thousand flights still fall in this category. In 
our judgement, that is the Inspector General's judgement, 
without Congressional or DOT action, corrective action will not 
be forthcoming.
    Third, the airlines need to clarify to their customers what 
their rights are when they are put in an overnight situation. 
People need to know that. The airlines formed a task force to 
deal with this. Consumers have yet to see any change.
    Fourth, FAA has made progress with respect to the seven 
major chokepoints. There are a number of areas where they need 
to set milestones, though, so they can track their progress.
    Fifth, Free Flight Phase 2 is just around the corner. The 
FAA needs to let this committee know what their milestones are 
going to be, what the budget is going to be, and how this Free 
Flight initiative is going to be integrated with the satellite 
initiative, because taken together these programs aremulti-
billion dollar undertakings.
    Finally, one of our commitments is to track runway 
projects. I think FAA has made some real progress in developing 
a system to track runway costs progress, and issues that stand 
in the critical path.
    One airport is supposed to have a new runway this year. 
That is Detroit. I think it ranks No. 15 in the congested 
airport category. It is important that they get the 
navigational aids they need to make that runway operational in 
November or December. Where the funding is going to come from 
to pay for those navigational aids also must be determined.
    That is the one airport runway that is due out of the box 
this year. In 2002, none are due out of the box. In 2003, there 
are a cluster of five or six that should become operational.
    Thank you, Mr. Chairman.
    [The prepared statement and biography of Ken Mead follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Air Transport Association Opening Statement

    Mr. Rogers. Thank you. We will be coming back to you on 
those points and others.
    Mr. Merlis.
    Mr. Merlis. Thank you, Mr. Chairman. I appreciate the 
opportunity to be back here and to review the progress we have 
made since the last hearing was held.
    I think it is important to note first off that your 
persistence is paying off. As compared to year earlier figures, 
as you have heard from the previous witnesses, delays are down, 
customer complaints are down, mishandled baggage is down, and 
on-time performance is up, so this exercise has great value.

                        COMMITMENTS AND PROGRESS

    With respect to the commitments that I made, I would like 
to review those briefly. My written statement has some greater 
detail, and I would be happy to respond to questions.
    Insofar as our first commitment both the Deputy Secretary 
and the Administrator commented on how the results of the every 
two hour conference calls out at Herndon have provided us some 
benefits. DOT's data shows that the on-time performance for 
April increased 3.9 percent over 2000 and that for May it 
increased 7.2 percent over 2000, flight cancellations were down 
in both of those months, and overall year to date delays were 
somewhere near ten percent lower.
    I think that as the previous witnesses observed, the 
relatively good weather has helped. It is very important to 
note that our ability to handle delays on days with adverse 
weather is what has really improved. We provide a higher degree 
of service on the days when there is adverse weather and we 
have to cancel flights or delay flights, and it is because of 
the communication system between the carriers and the FAA that 
has been put into place.
    This manifests itself when you take a look at the complaint 
level because the complaint level is down greater than the 
delay level is down, which means we must be doing something a 
little bit better.
    One thing that could help, as we have mentioned before, is 
if the Congress passed this antitrust authority that has been 
proposed and reported out of the Transportation and 
Infrastructure Committee. I think it is important to add to 
that bill a provision which is not there, that gives us the 
opportunity on days with weather delays to coordinate the 
schedules between the airlines so that we can serve the maximum 
number of passengers.
    There is a value, of course, to doing it for the basic 
schedule, but if we want to provide the most service for people 
on the days when we do have delays or cancellations due to 
weather there is a necessity to ensure that we can still talk 
to one another to make sure that we do not adversely impact all 
the people going to a particular destination from a particular 
city.
    Mr. Rogers. If I may interrupt briefly? This subcommittee 
had intended to place in our bill authorizing language which 
would have granted antitrust immunity so that airlines could 
talk to each other through the Department about crises and 
delays. The authorizing committee, the Judiciary, said no, we 
will handle it. We said okay, we will see.
    Mr. Merlis. Sir, if I may comment, I do not think that in 
what they have reported it deals with the issue I have 
addressed, which is how do we deal with coordinating schedules 
on days with weather delays. They have not addressed that 
issue, and I think that would provide greater service than any 
other part of the antitrust scheduling bill would provide.
    Mr. Rogers. Well, we are not through with it. This 
subcommittee is not through with that topic yet.
    Mr. Merlis. Very good, sir.
    Mr. Rogers. I hope the Judiciary Committee acts and does 
its job the way it should be done, but we will continue to 
reserve the right to have a conversation about that later in 
the year.
    Mr. Merlis. We will support you on that, sir.
    With respect to Item No. 2, we continue to provide the data 
to DOT. As the previous witnesses indicated, that process will 
soon result in some sort of requirement or rule making, which, 
as I indicated previously, the industry will comply with. We 
think it is very useful that we have a consistency in the 
reporting.

                  DELAY DATA AVAILABILITY TO CUSTOMERS

    No. 3 is the issue involving transfer of data from the 
FAA's information into carrier systems used to inform 
customers. As I indicated last time, a number of carriers have 
installed systems at airports, among them American, Delta, 
Northwest and United. They have installed some costly 
technology in order to bring this information to the customers 
at the gate. Now all ATA (air transport association) member 
carriers provide the flight data on their websites when there 
are delays, and that is one of the 17 additional customer 
service commitments to which our members agreed to undertake a 
few months ago.
    Additionally, we put together an airline/airport FAA task 
force to address the issue since some airport display monitors 
are not fed data automatically from airline operation centers. 
Airlines and airports need to review the process, which is in 
process now, and coordinate their efforts to obtain and post 
the data. Airport and airline managers will address this at the 
local level because as each airline obtains the data, it has to 
provide it to a key person in the airport who posts that 
information.
    We have a process that has begun, and I hope that we will 
complete this within the next 60 to 90 days and that 
subsequently a higher degree of accurate information will be 
available at the airports.
    Mr. Rogers. I heard a promise. I thought a heard a promise.
    Mr. Merlis. Sir, I did say we want to complete this within 
60 to 90 days.
    Mr. Rogers. Sixty to 90 days. Complete?
    Mr. Merlis. The process of identifying how we get 
information fed from the carriers to those airport display 
systems which are under the control of the airport, not the 
airline.
    Mr. Rogers. That is a new commitment, a new promise.
    Mr. Merlis. Sir, I think it is the same one I already did, 
but gives a concrete time table to one we already did.
    Mr. Rogers. Yes. All right. Please proceed.
    Mr. Merlis. Okay.
    Mr. Rogers. That goes on the board, by the way.

                      CAPACITY EXPANSION PROJECTS

    Mr. Merlis. Okay. The fourth item that I identified was 
working with the airport community to identify capacity 
expansion projects. We have been deeply engaged in this 
activity, particularly at the 14 airports identified that in 
the March 15 statement, as the industry's highest priority. Our 
members are in regular discussions with those airports about 
expansion requirements and determining how to undertake them, 
how to finance them and what is the best way to address these 
expansions.
    Specifically, though, we at ATA have been involved in 
efforts to increase the utilization of Newburgh and Westchester 
County Airports in order to mitigate delays in New York City. 
We have been involved in the building of the new runway at 
Boston Logan, being as supportive as possible to Massport, 
trying to overcome the local hurdles to that.
    We have been working with the mayor of Chicago in efforts 
to obtain the new runways that he has proposed for Chicago 
O'Hare Airport, including people on our staff testifying at 
state hearings. We have endorsed Mr. Lipinksi's bill, and we 
are trying to help him in getting co-sponsors for this 
legislation, which will overcome some of the obstacles that 
exist to the building of the O'Hare Airport expansion.
    We have been involved in the new runway at San Francisco, 
having agreed with Mayor Brown to put together an advocacy 
group, which we will participate in to try to overcome the 
local community hurdles to that. With respect to Minneapolis-
St. Paul and the issue of the low frequency noise, we have been 
engaged with the airport in finding ways to address it and 
overcome that problem, too.
    Lastly, these are specifically ATA staff, not the members 
who could identify many more activities in which they are 
engaged. We have been working with the regional coalition that 
has been put together by communities and members of the 
Congress from southern California who are looking at a regional 
fix to the congestion problems at airports in southern 
California. These will be ongoing activities because that is 
the nature of airport construction. We need to find a way to 
get these things done faster, and hopefully our efforts and our 
members' efforts will help in that regard.

                        AIRLINE SCHEDULE CHANGES

    Insofar as the fifth item goes, at the last hearing we 
reported that was accomplished so I will go on to something 
which while it is not on the board at the last hearing you did 
indicate that we should work towards efforts to deal with the 
issue of the capacity benchmarks and over scheduling at 
airports.
    What I would like to do is report on some of the activities 
the carriers have undertaken. Previously, as you know, we 
reported on American's activity at Dallas-Fort Worth, the 
rebanking of flights at Atlanta by Delta Airlines and 
Continental's unilateral rearrangement of its peaks at Newark.
    Also in response to your question about using other 
airports, Northwest, Southwest and U.S. Airways have increased 
service to less congested airports, Manchester, Portland and 
Providence, in order to try to reduce some of the congestion at 
Boston. Oakland is being used more than San Francisco in fact. 
Southwest Airlines has pulled down all its service into San 
Francisco and is using Oakland as an alternative. White Plains, 
Newburgh and Islip are three of the non-congested New York City 
airports where some of our members have increased service.
    The results of these activities to date appear to be 
somewhat positive. American's on-time performance at Dallas-
Fort Worth was 85 percent in May. Continental's Newark de-
peaking resulted in its May systemwide on-time performance 
reaching 86.1 percent, which was the highest of any major 
airline, and Delta's May Atlanta on-time performance was 83 
percent.
    One of the more dramatic improvements has occurred at San 
Francisco International Airport where United's major schedule 
refinement, through the reduction of 245 flights a week and the 
increasing of the size of the equipment it is using, has 
resulted in United's May San Francisco performance, on-time 
performance, hitting 85.2 percent, which is the highest of its 
four hubs.
    Additionally, San Francisco went from being the most delay 
plagued airport in a country with 38.9 percent of its flights 
delayed in the first half of 2000 to having a ten percent drop 
to 29 percent delay in the first half of 2001.
    One thing that United points out is that while it has cut 
245 flights at San Francisco, but other airlines have now come 
in behind, so the full benefit of its reduction is not being 
felt at San Francisco Airport, though the benefit to United's 
schedule is being felt.
    US Airways has undertaken a review to ensure that all of 
its hubs operate within the FAA capacity benchmarks, and so 
Charlotte, Philadelphia and Pittsburgh no longer exceed the 
benchmarks insofar as US Airway's schedule is concerned.
    Additionally, in the June schedule US Airways restructured 
its arrival and departure times at Philadelphia so that they do 
not get what is called cross traffic; that is, periods of the 
day when inbound flights enter the terminal area at the same 
time as the outbound flights are leaving the gates and crossing 
each other on the way causing additional problems.
    US Airways has also now taken delivery of 22 new 169 seat 
A-321 aircraft, which they are using these larger aircraft to 
reduce flight schedules in some of the congested markets by 
putting more people on fewer flights.
    Other carriers have undertaken similar kinds of 
refinements, but these are some of the concrete ones that I am 
able to identify at this point and want to be in a position on 
a regular basis to keep you apprised of these changes.
    With that, I will be happy to respond to any questions, 
sir.
    [The prepared statement and biography of Edward Merlis 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Airport Executives Opening Statement

    Mr. Rogers. Thank you. I will have some. Mr. Barclay.
    Mr. Barclay. Thank you, Mr. Chairman. I just want to do a 
very brief rundown of the argue of the progress on the 
commitments we have made, but I want to begin by thanking the 
committee first for work on the appropriations bill that was 
reported out and passed on the Floor.
    We do not even get to the point of debating the issues of 
streamlining approvals for runways if we do not have the money 
to build those, so we are very grateful. That is an absolutely 
critical starting element of solving this problem, so we 
appreciate that.
    We also appreciate the committee's work and Mr. Sabo's 
leadership on adding greater funds for noise research. In the 
long run, one of the greatest impediments to us adding capacity 
to the system is aircraft noise, so looking at that issue in 
the long term is extremely important. Number one is thank you.

               airport construction streamlining process

    On the items that we discussed before, I will spare you the 
philosophical defense of our positions on all these things and 
just run down our progress from again my point of view. The 
first one was advocate the streamlining of runway construction. 
This is our top priority. It is a long-term impact on the 
system, but we are extremely encouraged.
    People from the President to the Secretary to the Deputy 
Security to the Administrator to key Members of Congress on 
both sides of the Hill have been talking about the importance 
of adding new runway capacity at the key airports in the 
system. The entire industry is united on this issue, and today 
over in the Senate the Senate Commerce Committee is reporting 
on a bill that includes the core features of what we have been 
recommending and other parts of the industry have been 
recommending on streamlining this process. We are seeing good 
progress there, and we are encouraged by that.

          reimbursable agreements for environmental activities

    Our second commitment was to advocate support for FAA staff 
to help airports move more quickly, allow airports to pay for 
FAA staffing that would more quickly move an application for a 
new runway. We appreciate again the committee's effort to put 
that in the bill here and realize on jurisdictional grounds it 
was taken out on the Floor. That was put back in by the Senate 
Appropriations Committee, so again there is good support for 
that philosophically.
    The Transportation and Infrastructure Committee did not 
argue with the merits of that issue. Administrator Garvey and 
the FAA are working on doing this administratively. They are 
doing a very good job working with San Francisco, so on both 
the administrative and legislative ends we are seeing excellent 
progress there, and we think that that one is going to happen.

                          anti-trust immunity

    My third was we have substituted at the Chairman's 
recommendation the lifting of the cap on PFCs for the issue Mr. 
Merlis mentioned, which is recovery immunity different and 
distinct from the issue of scheduling immunity that is a more 
debatable notion.
    A number of our members have problems with the idea of 
airlines sitting down for a longer term to debate schedules for 
the next six months, but there is virtual unanimity among our 
members and I think among the industry that recovery immunity, 
which is 24 hour immunity to recover from a weather or other 
event in the system, allow airlines with FAA's oversight to 
discuss how do we recover from this one day event I think is a 
notion that is unexceptionable, but it is going to take us a 
little time to have the debate and get everyone understanding 
this is separate and distinct from the longer term immunity, 
which does have some philosophical issues attached to it.
    That item is also in the bill being scheduled to be marked 
up this morning over on the Senate Commerce Committee, and it 
is put in there separate from the scheduling immunity. They 
also have scheduling immunity in that bill.
    We are very encouraged, and we did follow through on our 
commitment to lead a membership resolution that all the members 
of association of airport executes endorsed that, which had not 
happened prior to this commitment.

                    airport revenues for remediation

    The next one was to provide more flexibility for allowing 
airports off-airport remediation in order to speed many of 
these runway projects. There are current restrictions in the 
law that say that airports are only allowed to spend the 
revenues they earn on the airport within the airport 
boundaries. Often you can remediate environmental problems off 
the airport to make up for any disruptions being caused by a 
runway extension.
    That is again a key part of allowing us and giving us the 
tools we need to build more runways. That again is in the bills 
currently in process over in the Senate. It is being considered 
by the House Transportation and Infrastructure Committee. It is 
a long-term issue, but again one that we are seeing very good 
progress on.

                    delay information for customers

    We also committed to help in the effort to get better 
information to customers, which is something that is being 
accomplished in large part by FAA and CNN with the new ticker. 
That has been accomplished. CNN on the televisions in the gate 
areas that are seen, and these are in gate areas that serve 400 
million of the passengers in the country.
    Whenever there is more than a 60 minute delay at any 
airport, a ticker starts naming those airports where there is 
greater than 60 minute delays so the passenger has a separate 
line of information coming directly from FAA by looking at 
those monitors, which are strategically placed, of course, for 
passengers to see them.
    Let me add on that one that we all in the industry 
understand that the real issue is that customers do not want 
better information about delays. They want delays to stop. We 
all realize that, but once you are in a delay situation the 
only anecdote to frustration is information in that instance.
    This is going to be I think a very useful tool because no 
matter how good a job we do on adding capacity and solving some 
of the delay problems in the system, schedules are always going 
to be secondary to safety so you are going to at times due to 
weather have flights held up, and this is going to be useful 
information for the passenger, so that is one that is being 
done.
    We are also working with the airlines and the FAA on more 
wireless information going out to people who have PDAs and 
Black Berries and other tools to be able to communicate 
directly with them on delay information.
    Finally, on coordination of air traffic control information 
for airports to use that again is something we have 
accomplished. We appreciate very much the cooperation of FAA. 
We are pushing that information out. In addition to linking in 
on our website for airports, we are actually pushing it to the 
desktops of airports with our satellite information network. 
That is one we have accomplished.
    We are actually working currently with FAA to provide even 
more detailed, broken down information, but the top 30 airport 
information is already out there.
    I would be happy to answer any questions.
    [The prepared statement and biography of Charles Barclay 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



             Air Line Pilots Association Opening Statement

    Mr. Rogers. Thank you, Mr. Barclay.
    Captain Dolan.
    Mr. Dolan. Thank you, Mr. Chairman. Good morning, Members 
of the subcommittee. I am pleased to be here this morning.
    Once again, I would like to reiterate Captain Woerth's 
apologies for not being here. He does have a great interest in 
the subcommittee. Unfortunately, his prior commitment precluded 
him from being here. I know, Mr. Chairman, you said you like to 
chew on the same people. I hope you find me as chewable as 
Captain Woerth.
    Before I get into my update on the remarks, I would just 
like to say that while I have not been directly involved in the 
subcommittee's activities, I have followed these issues with 
great interest in my position as ALPA's First Vice-President. 
There is an old adage in real estate that says location, 
location, location. I think the mantra here is communication, 
communication, communication.
    I applaud the subcommittee and you, Mr. Chairman, for 
bringing together these players in the industry to be able to 
sit down finally I think and put the hard issues on the table. 
Let us develop some solutions. These are problem solvers here. 
I am convinced of that. I feel that I am a problem solver, and 
I think that we have been given the venue to do that. I applaud 
you for that.

                     free flight steering committee

    Rather than reading my written testimony, I would just like 
to synopsize some of the salient points. In regard to Point 1, 
ALPA (Air Line Pilots Association) is committed to a high level 
of participation in the RTCA Free Flight steering committee. As 
you know, Captain Woerth sits on the steering committee. There 
is a quarterly meeting scheduled next week. He will be there, 
along with our Director of Engineering and Safety, who is our 
key staff person on safety and air traffic issues. The main 
agenda item there is to combine Free Flight with the FAA's 
Operational Evolutionary Plan.
    Along with the commitment to attend these meetings, I think 
it is important to understand that we have committed the 
resources as well to make sure that we have the pilot 
volunteers involved and that we get the line pilot input that 
is required to make sure that all the stakeholders have their 
issues addressed.
    Specifically, we are making resources available to staff 
the federal advisory committee and follow that, which is 
working on NAS architecture and integration of that. As part of 
that, there is a Free Flight working group. It has been my 
experience on a number of committees and things that I have 
worked on that the working group is where the rubber meets the 
road. That is where the work gets done in these committees. I 
applaud the Free Flight steering committee for establishing 
work groups to try to integrate these difficult issues.

                air line pilots and controller alliance

    On the second item, I think that we have made some real 
progress in our establishment of our alliance with our 
colleagues at NATCA. I have been appointed the ALPA liaison 
person with NATCA, and we have had a couple of meetings in the 
last several weeks. We have really established some good 
working relationships and good ground rules to tackle issues 
such as land and hold short operations and simultaneous offset 
instrument approaches. These are capacity enhancement tools, 
and there is a big stake in both of these for the controllers 
and the pilots as well.
    We are also planning to mutually support the Communicating 
for Safety conference scheduled in September. This will give us 
an opportunity to get pilots and controllers together. There is 
a lot of--I hate to say it--miscommunication because 
communication is a way of life with us, both of us, the pilots 
and controllers. They ride on our jumpseats, and it is a good 
experience for them, but too often the pilots do not get to 
talk to the controllers one on one to find out what their real 
issues are. This is an opportunity to do that.
    We are trying not only just at the national ALPA level, the 
elected leadership, to get pilots and controllers together. We 
would like to see the folks in the field come together as well, 
and we are working on that.

               pilot, controller, and dispatcher alliance

    The third item is bringing the dispatchers into the liaison 
with ALPA and NATCA. I am pleased to say that our colleagues at 
NATCA and ALPA both sent a joint letter to the dispatchers 
union president, and they are very enthusiastic about joining 
the liaison. Unfortunately, they were unable to make our last 
meeting on the 5th of July. Nevertheless, the next meeting that 
is scheduled will be include the dispatchers. I think this 
brings another level of experience and knowledge into the 
equation here for us to get to the root of some of these 
problems since the dispatchers are an integral part of airline 
operations.

                      FLIGHT TIME/DUTY TIME RULES

    On the fourth item, we have for a long time thought that 
the standardization of flight time/duty time issues is very 
important and will provide an ability for the airlines to have 
more practical scheduling and the ability to gather historical 
data that will allow them to build realistic schedules. I think 
that, we are still waiting, more than patiently for the 
implementation by the FAA on some flight time/duty time rules.
    I do have to say that it does not help when they do enforce 
a rule that is already in effect, and they are immediately sued 
by someone over the implementation of a rule that has been in 
effect since 1985. We need to get beyond that. We need to get 
these rules established, and we need to move on with some 
realistic scheduling practices. We would appreciate any help we 
can get from the subcommittee in making that a reality as well.

         NATIONAL AIRSPACE SYSTEM MODERNIZATION STRATEGIC PLAN

    On the last item, my understanding was that there was 
perhaps some thought that there was some redundancy at the last 
subcommittee hearing on this particular issue with the 
Association. Captain Woerth came back after the hearing. We sat 
down, and we had a very deep discussion on the issues involved. 
Perhaps I think what happened to us is we maybe did not 
articulate well enough exactly what we are doing in regard to 
the last item here.
    In 1999, our executive council, one of our governing 
bodies, approved a NAS modernization strategic plan, which we 
have since begun to implement. We have committed a lot of 
resources, both financial and pilot resources, to ensure that 
we are involved in every phase of NAS modernization. We in fact 
have gone out and recruited more safety volunteers, about 50 is 
my last count, to make sure that we are able to provide line 
pilot input on all these important projects. It does not help 
us, our service, to get down the track, so to speak, and not 
have had the ability to have our input and say what we feel are 
the important issues.
    We have definitely committed funding. In fact, we are going 
to make this a line item in our budgeting process for next 
year. I will just highlight some of the things. We want to 
basically encourage basic research development and 
implementation for new and improved air traffic management 
tools, work to strengthen and maintain industry consensus on 
these critical NAS modernization issues and other such projects 
as that. We are committed to spend the time, the effort and the 
resources to make the pilot input effective and meaningful.
    That pretty much synopsizes my written testimony, Mr. 
Chairman. I will be happy to answer any questions.
    [The prepared statement and biography of Captain Dennis 
Dolan follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           National Air Traffic Controllers Opening Statement

    Mr. Rogers. Thank you, Captain.
    Mr. Carr.
    Mr. Carr. Good morning, Chairman Rogers and Congressman 
Sabo, Members of the subcommittee. I appreciate the opportunity 
to testify this morning on NATCA's efforts to reduce aviation 
delays. I also appreciate the opportunity to go last because I 
had the opportunity to go over my remarks and make sure I was 
not making any new promises.

                    Flight Delays And Cancellations

    Flight delays and cancellations have eased somewhat over 
the past few months, and I believe that this is a testament to 
a new era of cooperation. We view the results so far as a 
beginning rather than an end, thanks in no small part to the 
leadership of this subcommittee, NATCA, the Secretary's office, 
the FAA, the pilots, the airlines and the airports all working 
together to develop and implement concrete solutions to the 
delay dilemma.
    In fact, just last week NATCA and the Air Transport 
Association co-hosted the 2001 Aviation Capacity Summit, which 
focused on forging industry consensus on airport capacity, air 
traffic control modernization and long-term funding issues. 
Thirteen different groups from every corner of the aviation 
community came together in sending a letter to the President 
asking him to make these issues a national priority.

                Air Traffic Modernization Tools Booklet

    I am also pleased to report that NATCA has made significant 
progress on the five commitments we made to this subcommittee. 
First and foremost, we are committed to operating and 
maintaining the safest air traffic control system in the world. 
We remain an advocate of Administrator Garvey's evolutionary 
approach to modernization. We are directly involved in over 65 
technology projects with the agency, and we will continue to 
lead both the agency and the industry into the twenty-first 
century.
    As a matter of fact, in an effort to provide information to 
government officials, industry and media we have recently 
created the Air Traffic Modernization Tools booklet as an 
introductory reference guide to many of the FAA's technology 
programs. We took the liberty of providing the subcommittee 
with copies of the booklet.
    With respect to the FAA's modernization effort, we believe 
it is critical to correct any misconceptions or inaccurate 
information in the interest of safety. This is especially 
important when our air traffic control system is being compared 
to that of other countries. The U.S. system is the most 
sophisticated in the world. We handle twice as many IFR 
(instrument flight rules) flights with the same number of 
controllers and at almost the same total cost as Eurocontrol. 
The FAA is modernizing our system gradually, effectively and 
very carefully.

                               NAV Canada

    On July 17, the Wall Street Journal carried a story 
entitled The Unfriendly Skies, which advocated quite radical 
reform of the FAA, touting Nav Canada as the perfect model. The 
article mentions Nav Canada's sterling safety record with two 
operating irregularities per 100,000 operations. If that is 
sterling, then the United States, with only .67 errors, is more 
than three times better than sterling.
    As a matter of fact, I testified earlier this summer on 
runway incursions, and Mr. Mead can tell you just how seriously 
we take those events. It is important to note that runway 
incursions are up over 145 percent in Canada since the advent 
of privatization.
    The article goes on to credit Nav Canada with investments 
in technology and declining delays. However, in reality they 
use their surpluses to reduce air navigation fees, as opposed 
to investments in modernization or equipment.
    The simple fact that Canada does not have a national flight 
data processing system puts them 20 or so years behind us in 
automation functionality. Without this basic system, Canada 
does not have the automated ability to hand aircraft off 
between centers within their own system. This is a very basic 
and core functionality of all United States air traffic control 
centers and has enabled us to achieve the efficiencies which 
are the model for the rest of the world.

                          Controller Workforce

    On our second item, NATCA is working to ensure that there 
are enough qualified and trained air traffic controllers to 
handle increased traffic growth, the opening of new sectors and 
to prepare for the impending retirement crunch. The President's 
fiscal 2002 budget request is consistent with the NATCA/FAA 
contract and will help the FAA address increased traffic 
levels. We support the Senate fiscal year 2002 transportation 
appropriations bill language, which includes full funding for 
the Administration's request.
    Tomorrow marks the twentieth anniversary of the PATCO 
(Professional air traffic controllers association) strike when 
approximately 11,350 air traffic controllers nationwide were 
fired. The replacement work force will reach retirement 
eligibility in a very short period of time. GAO is currently 
trying to determine whether the FAA has sufficient numbers of 
controllers to meet its short- and long-term staffing needs. In 
order to obtain accurate data, the GAO, in consultation with my 
union, has procured a survey which we are pretesting this very 
week.
    Additionally, on May 10, Senator Cleland introduced S. 871, 
the Federal Air Traffic Controllers Annuity Computation Act. 
The bill changes the annuity computation for controllers under 
CSRS (civil service retirement system) to give them the same 
annuity afforded to both federal firefighters and law 
enforcement officials. This changed annuity computation would 
provide an incentive for the 5,000 CSRS controllers to work 
beyond their retirement eligibility. We are working to co-
sponsor and to get the legislation introduced in the House.

                           Airspace Redesign

    On our third item, NATCA remains a partner in national 
airspace redesign. Since signing the national airspace redsign 
memorandum of understanding, five new sectors have been opened 
in Cleveland, Chicago and Indianapolis centers. Current testing 
is being done at three other centers to incorporate part-time 
sectors to deal with peak hour volume and demand. Additionally, 
modification of the airspace for the Las Vegas Airport is in 
the final stages of implementation. NATCA is committed to NAR 
and will continue to play an active role, especially in the 
technical aspects of this project.

                     Aircraft Separation Standards

    On our fourth item, NATCA would like to thank this 
subcommittee for the funds provided in the House fiscal 2002 
transportation bill to examine reduced separation standards. As 
I have described here before, any marginal or fractional 
decrease in separation standards could instantaneously free up 
unused capacity in the system. Any decrease must also be 
measured against the litmus test of safety, and we look forward 
to examining these separation standards in tandem with 
industry.

                      Management Advisory Council

    Lastly, NATCA continues to work to obtain the labor seat on 
the Management Advisory Council. I have sent letters and 
testified before both the Aviation authorizing and 
Appropriations Committees asking for their support. Numerous 
Members of Congress have contacted the Administration on my 
behalf, and, most recently, I have contacted the seven current 
members of the MAC to ask for their support. There are still 
four openings on the Management Advisory Council, including the 
labor seat. NATCA strongly believes that it is imperative that 
these seats be filled as soon as possible.
    Mr. Chairman, that concludes my testimony. As always, I 
will be happy to answer any questions you may have.
    [The prepared statement and biography of John Carr 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  DELAY PANEL CONSENSUS ON RESOLUTION

    Mr. Rogers. Thank you very much. Thank you for your 
testimony. I would like to thank all of you for being here 
again with us.
    First off, before any of us ask questions, it might be 
helpful if any of you wanted some rebuttal time to rebut 
something somebody else said. Does anybody want to make a point 
that somebody else may have made on the panel? We can have a 
conversation here.
    [No response.]
    Mr. Rogers. Do I take that to mean that each of you agree 
with everything the other said?
    Mr. Merlis. Mr. Chairman.
    Ms. Garvey. You go get them, Ed.
    Mr. Merlis. I am not prepared to agree with everything that 
the airline pilots said, particularly with respect to flight 
time/duty time, the litigation which ATA has brought, but I am 
not sufficiently versed to rebut him. I do not want my silence 
to be perceived as concurrence.

                            CAUSES OF DELAYS

    Mr. Rogers. Well, what I meant to do here was start a 
conversation amongst you because you are the experts in the 
field more so certainly than us; not necessarily to rebut an 
argument, but to make a point that somebody else may have made 
that you would like to play off of.
    Mr. Mead.
    Mr. Mead. It is not in the nature of rebuttal, but I would 
like to say I identified six of what I think are key action 
items for the subcommittee. I think that is consistent with our 
role and the commitments.
    Now, there are a couple of those that I believe are really 
important, but I believe the Department, the Secretary, the 
Deputy Secretary, and Ms. Garvey have discussed them. One of 
them had to do with tracking the causes of delay. I think you 
should hear from Mr. Jackson directly on what the plans are for 
that because I think you will see that that is getting 
accelerated, that the pedal will go to the medal, so to speak.
    I also mentioned, in regard to tracking new runways, the 
Detroit runway and that it is important that that runway go 
operational as scheduled this year and that the needed 
navigational aids are in place. Ms. Garvey has assured me that 
that will happen.
    Mr. Jackson. Mr. Chairman, it shows how the Inspector 
General and the Department are in concurrence about using his 
advice to guide management decisions and this was the one point 
that I wanted to make. That is just to give you a little bit of 
an update on our views at the Department on tracking the cause 
for delay and where we are.
    The four party pilot test that we did was very, very 
useful. I am very, impatient to move from a pilot project and 
talking about it to doing it. I am also eager to move to a 
requirement that airlines provide us this type of data. We have 
talked to the industry, and I believe they will be supportive 
of that. We have a regulatory process that has to happen, but 
we are committed in August to have a meeting with the industry 
to talk about how to get everybody onto a base of being able to 
do this on a voluntary basis much sooner.
    We have also instructed our General Counsel and the FAA to 
work together with me to find the most expeditious way to get 
to a rule making. We are looking at negotiated rule making 
processes. We are looking at interim final rules. We want to 
start with a conversation that tells us where is the bottom 
line, and how do we get there and then move as fast as possible 
towards this.
    I think this is a very important point that the Inspector 
has made, and it is one that the Secretary and I have absolute 
commitment to move as rapidly as possible to accomplish.

                       DELAY INFORMATION MANDATE

    Mr. Rogers. Well, it is also a point that Congress made 
when we wrote the AIR-21 law.
    Mr. Jackson. Absolutely.
    Mr. Rogers. You are required by law----
    Mr. Jackson. That is right.
    Mr. Rogers [continuing]. To modify current reporting 
regulations ``to disclose more fully to the public the nature 
and source of delays and cancellations.'' That is the law that 
AIR-21 exacted. That is to include the establishment of 
categories reflecting the reasons for delays and a requirement 
that airlines include such categories in reports to the DOT on 
airline delays. A requirement.
    I am told now that four airlines--American, Southwest, 
United and Delta--are participating in a pilot program where 
they report on a test basis the causes of delays using a 
standardized format agreed to by the FAA and the industry, but 
to date 16 months after enactment of that mandate in the law by 
the Congress DOT has not announced yet plans to formalize that 
method of reporting and, to my knowledge, has not begun the 
rule making process.
    We hear that you want to do a pilot program. I do not know 
what incentives an airline would have to participate in a pilot 
program or the fact that a pilot program would last any time or 
be worth anything. This is the law. We are not going to play 
around with this one. We are not going to give you much leeway. 
You have had 16 months. You have not, but the Department has.
    Mr. Secretary, you are new on the job, but you are Mr. 
Airline Delay down there. The Congress has said put a system in 
place. The airlines have been told to participate. We want to 
know. We want to know the causes, and we want to know the 
information about delays. This is one we are not going to turn 
loose on.
    I am chagrined that we do not have anything in place. Like 
the Inspector General has said, that is the whole problem here. 
If we had a system in place where FAA knew from the airlines 
that we have delays, a delay, and we have a system of 
determining the causes of the delay, then we can announce that 
to the world, and consumers can buy their tickets accordingly.
    I understand why the airlines do not want to give that 
information out. They need to understand why we are going to 
insist that they give it out. We cannot make this thing work 
without it. Airline delays will continue to be a problem until 
we eliminate the problem and the causes for the problem. I 
think the market will take care of it after that.
    If a person buying a ticket is told and can find out that 
the flight they want to buy a ticket for is 40 percent 
consistently late and they still want to buy the ticket, then 
that is an informed purchase. The market has taken care of 
that. They may choose something else. At any rate, they have 
had the choice. They do not have that choice now.
    The law says they are entitled to know. The way I see it, 
it is this subcommittee's obligation to make that law happen. I 
will just tell you. We got a hold of you, and we are not going 
to turn loose.
    Mr. Jackson. Mr. Chairman, I want to be right next to you 
on this one. I agree 100 percent. The pilot is over. The next 
meeting with the industry is to tell them what they are going 
to have to do and to listen one last time as we refine our 
regulatory approach to mandate that process and the parameters 
of the type of data they are going to submit to us.
    You have my personal commitment. I am going to handle this 
one through the regulatory process to get it done.
    Mr. Rogers. Hey, a commitment.
    Mr. Jackson. And I say that with full knowledge of what 
things bring, and I am happy to have it.

                     DELAY DATA INTERIM FINAL RULE

    Mr. Rogers. The next question I have is what kind of date 
can we put behind that promise?
    Mr. Jackson. Mr. Chairman, I had a conversation on that 
topic with our General Counsel this morning again to try to get 
closure on it. We are working on three different options to 
look at it, and I will provide an update for you as soon as we 
have made a decision, which will be very shortly, in the next 
several weeks, about how we can bring this to closure fastest.
    My requirement in the Department is to do it right, but 
using the regulatory mechanism that gets it done fastest. We 
are looking at an interim final rule, we are looking at a 
negotiated rule making process, and we are looking at an 
expedited rule making as well. These are the three options that 
we are assessing.
    Mr. Rogers. I am just looking for when can we expect to see 
what we mandated in AIR-21? When can we see that? I mean, that 
is not a complicated thing.
    Mr. Jackson. No.
    Mr. Rogers. Did I hear you say you are not going to decide 
how you are going to proceed for several weeks yet?
    Mr. Jackson. No, sir. We have decided where we want to go. 
We are looking at how to be able to cut that time line down to 
the smallest number of days.
    The Inspector General's testimony says that we are going to 
do this by fall of next year, and that is just totally 
unacceptable to me and so we are working through how we can get 
this done. Our proposal is to request that this be done 
immediately on a voluntary basis and to implement an obligation 
to provide us this data as fast as the Department can legally 
do so.
    I will provide you an interim update on that schedule as 
soon as we nail that down in the next several weeks.
    Mr. Rogers. It is going to take you several weeks to nail 
down an estimate?
    Mr. Jackson. We are looking at the various options, and we 
wanted to have this meeting with the industry to asses how fast 
we could bring this into closure.
    To get you a complete answer and an answer on a date that I 
am going to stick with and that you can put down as a 
commitment of the Department, I do need a couple of weeks more.
    Mr. Rogers. A couple of weeks?
    Mr. Jackson. Yes, sir.
    Mr. Rogers. Before you tell me----
    Mr. Jackson. The exact date and how long we think the 
regulatory process is going to take us to get to closure.
    Mr. Rogers. The 16th of August?
    Mr. Jackson. Done.

                   PILOT PROGRAM KEY DELAY INDICATORS

    Mr. Rogers. Now, you have a pilot program that I have been 
briefed on. Ms. Garvey, do you want to proceed and tell us what 
you have? I am looking at the charts here. Do you have those 
charts with you?
    Ms. Garvey. I do have the charts, and I believe all of the 
Members have them as well. Here is a larger display of them.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Garvey. It essentially shows and tracks the delays of 
this year and the delays last year. As you can see, the red is 
2001, and the blue is----
    Mr. Rogers. You are talking about the upper left chart?
    Ms. Garvey. That is right.
    Mr. Rogers. Right?
    Ms. Garvey. Yes.
    Mr. Rogers. And the red shows the 2001 percent of flights 
delayed?
    Ms. Garvey. Percent of flights delayed. That is correct, 
Mr. Chairman.
    Mr. Rogers. And the blue is 2000, the same period?
    Ms. Garvey. That is correct. We are seeing, as you can see, 
the percent of flights delayed. The next box is the number of 
flights.
    Mr. Rogers. That is on the top right?
    Ms. Garvey. The top right. It also shows the percent of 
flights canceled, and the number of flights canceled. 
Essentially as we said in all of our testimony, as you can see, 
the trends are heading in the right direction. This is 
something, the key delay indicator, that is very accessible. I 
think we have a great opportunity to introduce to you the staff 
person who had worked so hard on this, but it is something we 
would like to provide to the committee on a regular basis and 
certainly provide to the Secretary and the Deputy Secretary.
    Mr. Rogers. Now, these are just four airlines, right?
    Ms. Garvey. Actually, this is broader, Mr. Chairman. This 
now has 10 of the airlines at the top 32 airports, so we have 
some good information here. I think the pilot program will 
identify the causes, which is what we are talking about a 
little bit further.
    Mr. Rogers. I see. So these figures are all airlines?
    Ms. Garvey. These are the 10 airlines. We eventually would 
like, of course, to expand it even further, but it is the 10 
carriers at 32 airports, those top 32 airports that we keep 
focusing on.
    Mr. Rogers. And how timely are these?
    Ms. Garvey. These are actually very timely. We get this 
information daily, so we are getting some very good information 
from those 10 airlines.
    Mr. Rogers. It looks to me like the latest figures we have 
on the chart I have here looks to be the 1st of July. Is that 
correct? Is that the latest information?
    Ms. Garvey. I am sorry. This is through July 15. Yes. As I 
mentioned earlier in my testimony, the preliminary numbers for 
July are showing turnarounds in the same direction.
    Ken, you have worked on this as well.
    Mr. Mead. What you essentially have here is the red line is 
the 2001 number. For every one of the metrics, you will see 
that that is trending below the blue line. The blue line, of 
course, is 2000.
    These are the delay and cancellation data. In our opinion, 
the Department and FAA have moved many mountains in actually 
capturing delay and cancellation data compared to where we were 
last year.
    The question on the pilot program pertains to the causes, 
capturing the causes of delays and cancellations. That is where 
we are falling short right now.
    Mr. Rogers. Right, but this is a big deal.
    Mr. Mead. A big deal.
    Ms. Garvey. It is very, very exciting for us.
    Mr. Rogers. Why is it such a big deal?
    Ms. Garvey. It does not take much, Mr. Chairman, for some 
of us. [Laughter.]
     Sorry.

                          key delay indicators

    Mr. Rogers. When we first had these hearings and you told 
me you had been working on defining the word delay for 11 
years, I was shocked, but then I do not know what the word 
means either.
    Why is this such a big deal to for the first time 
apparently see on a graph a depiction of delays and 
cancellations? Mr. Mead?
    Mr. Mead. Well, I think there are a couple of reasons. They 
had to bring the Bureau of Transportation statistics together 
with FAA, essentially two different agencies, and then they had 
to realize that they were going to manage by this. That is what 
is being done now.
    Also, you will recall the capacity benchmarks. The capacity 
benchmarks were sensitive because they showed very graphically 
how many flights could be handled by a particular airport. If 
you were above that line, it showed that you were scheduling 
too many flights at that airport. It could not be handled.
    Those are out now, and I think that is a very significant 
development, too, because it has allowed FAA to develop their 
Operational Evolution Plan, which is based on what these 
individual airports can handle. I thought the capacity 
benchmarks were a very significant milestone, but the 
resistance there was very, very serious, and it was 
significant.
    Ms. Garvey. Mr. Chairman, there is one other I think very 
significant piece of this. We had a lot of this data, sometimes 
people say the government is very data rich, but information 
poor. We had a lot of this information, but I think what 
Carlton Wine has been able to do is to put it in very 
understandable form so that people can look at it and can see 
it on a real time basis. We are getting the information daily 
from the airlines. The fact is that it is, first of all, much 
more precise and much more accurate because it is real time, 
and then secondly the fact that it is understandable as all of 
us are looking at it I think is significant as well.
    Mr. Jackson. Mr. Chairman, I would just like to add that 
while it is a big deal, it should not have had to take a big 
deal to get us this data. This is core information which the 
public needs to know and should have, so it is a commentary on 
where we have been that it is a big deal. It is absolutely the 
type of thing that the public should have a right to see and 
do, and we are committed to providing this type of information 
in a timely fashion.
    Mr. Rogers. Well, it is a huge step because it gives lay 
people like us a chance to quickly grasp whether or not we are 
making any progress or not and for the public to judge as well.
    As I pointed out a few minutes ago now, what we really need 
now are the causes for those delays from the airlines so that 
we can begin to assess blame. If a certain airline has got a 
problem, they are going to pay for it at the ticket counter.
    Mr. Jackson. Right. It is assessing blame, but it is also 
being able to manage our way through problems so that we know 
what exactly to spend our time on and where the biggest benefit 
is to go looking at both particular airlines and also in the 
system itself.
    I think it is a tool for us to know what we in the 
government need to do, but it is a broader tool to help us move 
forward in some real way on fixing the problems.

                            Causes of Delay

    Mr. Rogers. Before I turn the mike over, Mr. Merlis, will 
the airlines cooperate with DOT and the FAA on getting the 
causes of delays reported?
    Mr. Merlis. Absolutely. We have four carriers in this pilot 
program providing the information, and the rest are mindful 
that the results will be some regulatory guidance or otherwise 
that this will now be the way that data is collected and 
submitted to the government.
    I am under the impression that some of those people who are 
providing the data feel very comfortable that the terminology, 
the rationale, makes good sense. The Department has to review 
the causes and decide which ones are going to be required, 
which terminology will be required, and then we will do it. We 
are there.
    Mr. Rogers. All right. Thank you.
    Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman.
    Since we started these hearings, I follow a little bit more 
closely what happens whenever I get in a plane. I happen to be 
lucky. I really do not have many delayed flights. They are 
close to being on time, but there are still things as I 
observe.
    I think back to my last flight a week ago. I got on the 
plane here right on time. It was 25 minutes later before we 
took off. We taxied out and waited and waited and moved forward 
a little bit. Twenty-five minutes later we were finally in the 
air. They told us the in-air time was two hours and 15 minutes.
    Then we flew. We got over Lake Michigan about Eau Claire. 
We got an announcement we were circling because of delays 
getting into Minneapolis Airport. Then all of a sudden we took 
off again and saw the airport down below. We kept going and 
going. They do that for flight patterns at times, but about the 
time I expected we should turn around they kept going. We were 
way out in the country for a while. All of a sudden we turned 
around and came back.
    The air time was supposed to be two hours and 15 minutes. 
From the time we left here to the time I got to the gate was 
three hours and 15 minutes. The schedule always accommodates a 
little more time, so it was only 15 minutes late. No big deal.
    Why so long to taxi out? Is that because the gates need to 
be available? Is it first come/first served as you get out 
there? You know, I do not know. If we knew that there is 
slowness getting in--can you hold somebody here longer? You are 
probably not relating so much to our convenience, but I assume 
lots of fuel is wasted when you are circling for a period of 
time, flying a hundred extra miles. What happens? Why?
    Mr. Carr. Mr. Sabo, if I might, I will take a shot at part 
of that question anyway.
    The practical application of getting that airplane from the 
gate to the gate, and from the time you push off that gate 
until the time you pull into the next gate is the job of the 
air traffic controllers that I represent. And I can tell you 
that it is anything from a smooth transition and a routine 
operation to herding cats. It just depends on a number of 
factors--weather, equipment, other airports, weather enroute.
    So when you came off the gate the airline was ready to 
aviate. You then got in a queue of other airlines ready to 
aviate. And any number of things could occur on your way to the 
runway. A departure gate could be shut off because of volume or 
because of traffic or because of an accident or because of 
weather enroute which would cause aircraft that are in front of 
you in that line to not be able to depart.
    For instance, maybe the weather was bad enroute to 
Minneapolis, perhaps it was weather between Washington and 
Cincinnati, for instance. So everybody between you and the end 
of the runway that was going south or southwest, could not go. 
So it requires a rearranging of all the aircraft.
    So 25 minutes is not, in my mind's eye anyway, an 
extraordinary amount of time to get 300,000 pounds of people, 
baggage, mail and fuel to the end of the runway in concert with 
all of the other things that occur to get you out there, number 
one, ready to go.
    Then enroute, it really is an extraordinarily dynamic 
environment in which----

                            airport capacity

    Mr. Sabo. I am always curious, though, as we get to that 
runway. We always see this long lineup.
    Mr. Carr. Well, that is a function of staffing, but it is 
also a function of the capacity of the airport itself, whether 
or not the single runway is being used for departures and 
arrivals or whether there are two runways which can be used in 
concert or in tandem. Perhaps there was a shutoff of traffic 
because the departure controller had an emergency. There could 
be an emergency on a controller's frequency that he is working 
and he just shuts off traffic to devote his pure and undivided 
attention to that emergency. Well, that leaves people on the 
ground on a clear day like today who wonder why they are being 
delayed, when in fact the event may be 50 or 60 miles away. But 
it is still worthy of that controller's undivided attention. So 
it is just a compendium of things that come to bear on every 
moment of activity from the moment you push off that gate until 
you step back off that airplane.

                          low frequency noise

    Mr. Sabo. Mr. Merlis, you said your association was 
involved in the low frequency noise issue.
    Mr. Merlis. Yes, sir.
    Mr. Sabo. A question to you and Administrator Garvey. Where 
are we at at that issue?
    Mr. Merlis. I do not think it is resolved yet.
    Mr. Sabo. That is what I am afraid of. It has been going 
and going. It clearly is a major new type of issue that relates 
to people living parallel to airports, not necessarily under 
the flight ban.
    Ms. Garvey. Congressman----
    Mr. Sabo. It is slow and tedious.
    Ms. Garvey. You are absolutely right. As I mentioned to you 
a little earlier, I met with some of the folks from your 
communities who have a real interest in it. We have submitted 
some additional information that they have, which we are eager 
to take a look at and told them we would be getting back to 
them very quickly.
    You are absolutely right. This is an issue that is 
relatively new to us, and we certainly have not dealt with in 
this kind of depth before. We are interested to look at what 
information they provided and had a very good discussion with 
them yesterday. So we will be getting back to you as soon as we 
have a chance to look at that and talk a little bit further 
with them.
    [The information follows:]

    The Federal Interagency Committee on Aviation Noise (FICAN) 
is reviewing the subject of low frequency aircraft noise.
    At its meeting on June 27, 2001, FICAN invited the 
Richfield (MN)--Metropolitan Airports Commission (MAC) Low 
Frequency Noise Expert Panel to present their views of the low 
frequency aircraft noise issue. In December 1998, the City of 
Richfield and the MAC agreed to convene a low-frequency noise 
expert panel to undertake detailed studies of existing and 
potential impacts of low-frequency aircraft noise in 
communities around Minneapolis-St. Paul International Airport. 
The panel concluded its work in September 2000 with the 
submission of a final report, entitled ``Findings of Low-
Frequency Noise Expert Panel of the Richfield-MAC Noise 
Mitigation Agreement of December 17, 1998, Volumes 1 through 
111, September 30, 2000.''
The panel came to consensus on the following areas:
    <bullet> Effects of low-frequency noise.
    <bullet> Descriptor of low-frequency noise.
    <bullet> Relationship between low-frequency noise and 
annoyance.
    <bullet> Criteria for acceptability of low-frequency noise 
in residential areas.
There are three main technical points on which the panel did 
not come to consensus:
    <bullet> Low-frequency noise from thrust reverse.
    <bullet> The measure of ``dose'' in the Low-Frequency Sound 
Level (LFSL).
    <bullet> Remedial treatment measures.
FICAN also is reviewing technical comments that Northwest 
Airlines made on the expert panel's report. In addition, FICAN 
will be considering comments from its member agencies, previous 
reports on the issue, and other documents. FICAN expects to 
issue a statement by the end of the year.

                        labor relations contract

    Mr. Sabo. Thank you.
    A question, Mr. Jackson. It is not directly related to 
delays but it is related to operations.
    My understanding is the FAA negotiated with AFSCME a 
contract, and my understanding is federal labor relations 
authorities issued a complaint that finds that the FAA chief 
negotiators agreed to a contract with AFSCME but the FAA has 
never implemented the contract. My understanding is that the 
problem may be above the level of the FAA. So we have 2,000 
employees working without a contract. My understanding is they 
have not received their 2001 pay raise yet while other FAA 
employees have. And I find this upsetting. When can we, do you 
think this situation will be resolved?
    Mr. Jackson. There is a hearing next week in this dispute, 
and we hope to learn something from that hearing and decide 
what the next steps need to be for that.
    The approval process for all of the FAA labor negotiations 
within the department, as I understand it, is within FAA, which 
had the special labor negotiating authority granted to it. It 
has always involved a process of obtaining OMB approval at the 
end gate. This one ran afoul of that final approval, but that 
has always been baked into this process.
    So we are very eager to see this worked through, find an 
equitable way to move forward, and are eager to participate in 
this hearing next week and see what the next steps might be.
    Mr. Sabo. I would appreciate a report.
    Mr. Rogers. Let me interrupt you. We have just a couple of 
minutes left on a vote.
    Mr. Sabo.
    Mr. Rogers. Let us recess, and then you will be recognized 
as soon as we return.
    Mr. Sabo. Okay.
    Mr. Rogers. We will stand in brief recess.
    [Recess.]

                             weather delays

    Mr. Wolf. He said he was on his way back. I passed him as 
we were running.
    Let me begin by asking a question before he comes back.
    One, I want to congratulate the subcommittee for having 
this hearing. Too often there have been times that you asked 
questions in budget hearings and they said they are going to 
get back and they never really even get back. So I think to 
have this on a constant basis where there is an accountability 
is very, very important. Also I think you all should be 
congratulated, obviously I believe the figures.
    Have you factored in the fact that if you had the same 
weather as last year and the economy were growing this year as 
it was last year, how would these numbers stay? There are ways 
of doing it with computer models. Can anyone answer that?
    Ms. Garvey. Congressman, I am not sure we have done that 
yet, but you are right. We can certainly try. I can tell you 
that last June, for example, we had 19 consecutive just 
terrible weather days that really put us on our heels, and this 
year we certainly saw much different weather patterns. But we 
can run the models and see what it would be like.
    Interestingly enough, even though the economy is a little 
soft, if you look at those key hubs we are still finding they 
are very busy. And we are finding the aircraft, and I may have 
more information on this, but at least some of the numbers I 
have seen indicate the load factors are still pretty solid, but 
there are not as many business travelers. So for the airlines 
economic bottom line it is tougher, but from our perspective of 
moving aircraft through the system in those busy hubs, we are 
still finding them pretty busy.

                           air traffic volume

    Mr. Wolf. Are there as many aircraft moving this year as--I 
know your profits are down in certain areas and the tickets are 
topping. Are there as many planes flying now?
    Mr. Merlis. Virtually. I think as opposed to the rate of 
growth and the increased flights which was somewhat more in 
previous years. There still is some measure of growth that has 
taken place because you cannot just turn this off on a dime.
    So I do not think we have reduced by any order of magnitude 
system wide the number of flights that are out there. We may 
have even increased a little bit because you have additional 
regional jets entering the system which, of course from an air 
traffic control standpoint, add a little measure of 
complication.
    Mr. Wolf. Well I would just be interested to see, and I do 
want to congratulate you. I mean if you look at this, obviously 
there has been some significant improvement but I think it 
would be helpful to factor in what the weather was last year 
and what it could be or should have been or could have been. 
For instance, the weekends we have had around here have almost 
been like this is Maine or Massachusetts. At 80, 82, very few 
thunderstorms. So if there would be a way of factoring that in, 
I think it would be helpful.
    Mr. Mead. In the Eastern United States this year there has 
been a six percent reduction in what they call significant 
meteorological events, which are hazardous to aircraft. There 
is no question that when you have one of these events that it 
slows the system down no matter what you are doing otherwise. 
So those are down. But you recall the discussion earlier about 
the importance of capturing causal data for these delays and 
the need to put the system in place. A more informed, 
quantitative answer to your question will be possible once that 
system is in place.

                           model enhancement

    Mr. Wolf. That was the other thing. Is there anything else 
that you should be doing to make this model fairer? Is there 
anything else that is being left out, factors that you all know 
that we do not know, or that somebody out there knows that if 
that were factored in the numbers would not be quite as 
improving as they are? Is there anything else out there?
    Ms. Garvey. I do not think so, Congressman. I think what 
would be interesting, and I do not know if we can do it, but I 
think we can. It would be interesting to run the model with 
last year's weather, but take into account some of the 
procedural changes we have made and some of the improvements we 
have made to see if last year might even have been better had 
we had some of those procedures in place.
    Mr. Wolf. That would be helpful.
    [The information follows:]

    The FAA has asked Mitre/CAASD to perform an analysis to 
determine what the impact of last year's weather would have had 
on this year's traffic if the procedural/airspace initiatives 
being used this year would have been in place. Because, this 
involves extensive modeling, we expect to have this analysis 
available to the committee on or about September 5, 2001.

    Ms. Garvey. We have, for example, an agreement with Nav 
Canada this year that has opened up Canadian airspace to allow 
us, in bad weather to use about 200 aircraft.
    The military has been wonderful at helping us open up some 
of the military airspace.

                      runway construction permits

    Mr. Wolf. That would be helpful if you could do both of 
them. I think that would be better.
    Secondly, one other question before I make a comment, but 
do you have the run stock with regard to runway improvements? 
Is there a one stop office that they go to without having to 
get a permit here, a permit there? Is it or is it not----
    Ms. Garvey. Yes. The answer is yes. There is a one shop----
    Mr. Wolf [continuing]. That you go for the whole----
    Ms. Garvey. Yes, but I think we will still have a lot of 
work to do. In other words, we know what all the programs are. 
We have an airport guidance panel that works for you, 
everything you have to get at the federal level. Where I think 
and where the Secretary is so helpful and will be so helpful is 
coordination among the federal agencies. In other words, my 
friends in Seattle that have tried so hard to get a runway 
through finally got through all the federal process, but at the 
end there were some additional issues. We knew that they had to 
get the permit. I think what we still need to do is more 
coordination at the federal level.
    Mr. Wolf. Years ago there was a one stop. It seems to me 
that if you had one stop whereby when they came to the FAA, 
that window, you then dealt with the Army Corps of Engineers, 
if there was a wetlands problem, you dealt with EPA 
(Environmental Protection Agency) if there was a problem, you 
dealt with whoever the case may be, but a one-stop office in 
the Federal Aviation Administration who had that.
    Ms. Garvey. That is a great suggestion. We are not there 
yet. We know what the issues are and what the permits are, but 
we have not been able to coordinate that. We have really just 
been dealing with that offer and the Secretary has really been 
very helpful at identifying some of the other key agencies to 
work with.
    Mr. Jackson. Yes, Congressman. You are absolutely right 
about needing to consolidate, a place to go to have an advocate 
that helps move people through the federal maze. I will tell 
you that President Bush has issued an Executive Order exactly 
on the point that you are discussing now on the land 
infrastructure and major energy related infrastructure 
improvements so that through the Council on Environmental 
Quality we have--I attended my first meeting representing the 
Transportation Department a week ago or so--an organization and 
an effort to try and identify major projects and move them 
through the pipeline.
    At the Department we have consolidated the Department's 
resources in one shop, but we have more to do still to be an 
advocate within the federal government for moving the various 
parts of the approval process together in a coherent and 
simultaneous fashion.
    So we are having conversations in the Administration about 
the appropriate processes we can use. I have talked to my 
counterpart at the EPA, for example, about this as an issue. So 
it is absolutely on point and very important.
    Mr. Wolf. A last question, and it is not a question, it is 
almost a statement. Again, Mr. Chairman, when you were not here 
I just said I want to congratulate you and the staff and the 
subcommittee for having this hearing and doing it on a 
continual basis because there have been many times that you 
have an oversight hearing and then everyone goes away and 
everything is submitted for the record, and sometimes it is not 
and there is no followup. So by having a regular series of 
these oversights, it does require that. So I want to 
congratulate you.
    Also, I congratulate the members of the panel for the 
significant, or what appears to be significant progress. We 
asked if we could run them based on the weather pattern that we 
have had in the past to see if that would have made any 
difference. Ms. Garvey is going to see what the weather was 
last year, and if you had not made the changes that were made, 
would it have made a difference from last year.
    I think there is an opportunity--my intention is that the 
Administration ought to seize the initiative on maybe 
modernizing or streamlining the FAA. In 1996 the committee did 
give full authority with regard to procurement, with hiring. My 
sense is, and this can be controversial, but that maybe the FAA 
ought to be an independent agency, set up similar to NASA, 
still under this subcommittee's jurisdiction. But together in a 
certain way--and I would urge you, and nobody has to answer 
this, but Ms. Garvey, this is your last year. You have an 
opportunity to be bold and creative and show initiative and 
nobody can do anything to you, you know, I do not think anybody 
can be that critical of you so you have an opportunity. 
Sometimes in the last year you can be bold and kind of try 
things.
    Also I think with regard to the Administration. This is an 
opportunity. Secretary Card is now at the White House, 
understands this probably as well as anybody that has been in 
the White House having been the Secretary. Secretary Mineta 
having been up here for so many years, understands the problem 
and the circumstances.
    I really think it all comes together with Mr. Mineta and 
Mr. Card and Ms. Garvey, and Mr. Bennett, you have been at the 
department in the past, and maybe see if there could not be 
something that is so creative and so different.
    I have a piece of legislation, it is not going to pass, we 
set up a base closing commission concept where by 21-25 people 
connected to the industry, somebody from every area, comes 
together and fashions a plan, sends it up to the Congress with 
almost an up or down vote, similar to what we have done on base 
closing whereby the Congress has to either take it or has to 
leave it.
    But I would urge the Administration that the changes have 
been a good impetus. This is very, very important. Mr. Rogers 
is very active, you have to know why.
    One of my children lives up in New York City. It seems the 
flight that they generally take on Sunday out of Dulles Airport 
is almost always late, and many times it never goes. I am not 
going to mention the airlines here, but I think----
    Mr. Rogers. Tell us who it is. [Laughter.]
    Mr. Wolf [continuing]. Later.
    To have that information just is very, very important, and 
as Mr. Rogers in the marketplace, I mean if he is told at the 
time he is buying, 40 percent of the time, 43 percent,the 
flight does not go or it is late, maybe he will clearly leave 
the first one out Monday morning or do something else. But I 
would urge the Administration, the window of opportunity is 
closing. Ms Garvey has how many more months?
    Ms. Garvey. Actually, it is a year today. [Laughter.]
    Mr. Wolf. When I was in the Army I had, in my Army hat I 
had all the days of my last month, and I would get up in the 
morning and strike it, and it was very good just to knock it 
off, another day. Are you doing that at home?
    Mr. Serrano. I was going to ask if you still have that hat?
    Mr. Wolf. Yeah, but it does not fit anymore.
    But this is your last year and you really could do a great, 
great service and I think it would be appreciated. Not in a 
negative way, but in a positive way. And I think the department 
with the President talking about the economy, talking about all 
of these things, and with Mr. Card and Mr. Mineta and yourself, 
I think you ought to seize the initiative, and I think the 
opportunity to do it will sort of run out at the end of this 
year.
    So I would urge you to think about being bold and creative, 
and let this be an opportunity and all of you together, Mr. 
Rogers, you have all forgotten more about this issue than he 
knows, but collectively put your heads together and really try 
and do something dramatic and dynamic that would really make 
both for safety, for scheduling, for on time, for all of that, 
to really make it good for the economy and good for the 
passengers.
    I would throw a challenge down to you that you do that. 
Otherwise I think we make incremental progress, but as you 
know, runway incursions. Two years ago we came to that big 
thing at the Washington Hilton, now runway incursions are up. 
So something bold I think can make all that work.
    Thank you for your testimony, and I appreciate Mr. Rogers 
having this series of hearings and I hope he continues because 
it just forces, it is like a hot compress on a boil. It just 
forces it to come out and for people to have to address these 
issues not only one time but on a continuing basis.
    Thank you.
    Mr. Rogers. Thank you, Mr. Chairman. And it is great to 
have you back in your old haunts over here. And thanks for the 
nice compliments.
    Mr. Sabo was interrupted earlier.

                          CONTROLLER WORKFORCE

    Mr. Sabo. Well thanks, Mr. Chairman.
    I just had one further question. Maybe, as the Chairman 
indicated, he would like some dialogue, and that relates to the 
question of our future controller work force that Mr. Carr 
raised and projections for a significant need for new 
controllers in the near future. I am just curious how you would 
react, Ms. Garvey.
    Is the need going to be as quick and great as Mr. Carr is 
suggesting? And do we have the capacity to get those people 
trained and on board pursuant to what may or may not happen?
    Ms. Garvey. Exactly. Congressman, actually we spent a lot 
of time during May with folks who work with us on this issue. 
We are in sync up to the year 2005. Our numbers are pretty 
solid together. In other words, we have looked at it and I 
think our numbers are pretty much in sync. I think beyond that 
we had some differences, but we think we can, and we are, 
monitoring it very closely and have opportunities with it.
    We are a little bit concerned about next year. We want very 
much to work with the committee and make sure that the members 
that are included in next year's budget will adequately be able 
to deal with what we anticipate will be necessary numbers.
    You are right, the critical piece for us is the training. 
So every time we look at hiring, we also have to look at how 
much time we need for training. When can we run them through 
Oklahoma, so on and so forth.
    We would like to work very much with the committees, and 
continue obviously the work with the controllers to make sure 
we are monitoring staffing needs carefully.
    The controllers have done a terrific job of joining us in 
all of the technology committees we have on modernization. It 
also means a lot of those controllers who were ordinarily on 
the boards are now very intricately involved in modernization. 
So those members are necessary. We have to manage that and keep 
up with that.

                          CONTROLLER ATTRITION

    Mr. Sabo. How do you sort out how many--eligible to retire 
and actually retiring is two different things.
    Ms. Garvey. John may have a different assessment of this, 
but from our perspective, what we generally do is look at what 
has been the historical data and use that as the base because 
in many ways we are really just making estimates. Not only just 
track it, give people plenty of opportunity to let us know 
ahead of time and track it as we go. So far we have been close 
to, as I understand it, to what our projections have been.
    John, if you have something else to add----
    Mr. Carr. Actually I do, thank you. We do not use 
historical data because we do not believe that it is accurately 
reflected. It is a different workforce now than maybe five or 
ten or 15 or certainly 20 years ago, and the only historical 
data the FAA can really refer to with respect to controllers is 
20 years old, because 20 years ago everybody who does what I am 
doing got fired.
    So historical perspectives we do not believe accurately 
reflect the changing workforce, 401Ks, people with smartness 
about their own retirements and their own futures.
    We surveyed the work force, and asked them what the 
difference was between estimated and actual and eligible, 
because we acknowledge that there is a difference between 
eligible and actual. And as the administrator correctly 
described, our numbers are fairly well in sync until about 2005 
and then our numbers diverge. We believe more people would hire 
than the administration currently does.
    The only other thing I would probably add is that air 
traffic controllers are very much like runways. First of all, 
the more of them you have the happier I am.
    Second of all, you cannot make one overnight. It takes 
between three and five years to make either a good runway or an 
air traffic controller. The training begins at the lowest 
possible level, and there are many casualties of that training 
process along the way. At one time the larger facilities like 
New York and Chicago had attrition rates of about 80 percent. 
It is just not an easy thing to do in those large terminal 
environments.
    So we are concerned that in light of the fact that we have 
undertaken choke point sectors, national airspace redesign 
initiatives, participation of 65 different technical work 
groups and things of that nature, we are concerned that we 
continue to funnel in a pipeline of controllers that will allow 
for even perhaps an overstaaffing as a bubble towards that 
coming wave of controller retirements.
    The collective bargaining agreement which we entered into 
with the FAA in 1998 is a five year agreement. We stand by the 
agreement we signed. We probably would not enter again into a 
written numerical value of the number of controllers we will 
need five years hence because that was not wise on our part.

                         AIR TRAFFIC OPERATIONS

    Mr. Mead. Mr. Sabo.
    Mr. Sabo. Yes.
    Mr. Mead. A wild card here is that as a result of the 
controllers agreement, the controllers got a substantial 
increase in pay. And the wild card is that a number of the 
controllers will have their high pay in soon. And we do not 
know how many of those people will say well, I have got my high 
pay now, I am going to go. It is much much more than we would 
otherwise have gotten.
    I would add that I think the administrator makes a good 
point about what is ahead in the immediate term. They do have a 
pipeline of controllers that they will be hiring.
    Secondly, you do have some safety valves available. For 
example, right now there is a mandatory retirement age of 56 
years old. I do not know why you cannot be an air traffic 
controller after 56 years old if you want to be.
    Mr. Jackson. Mr. Sabo, can I just provide a clarification 
on a question we were discussing on the AFSCME contract?
    Mr. Sabo. Sure.
    Mr. Jackson. The contract is before the Fair Labor 
Practices Board for adjudication. The meeting that I mentioned 
next week is an internal meeting to try to make sure that we 
are moving this process along. We have not been advised on a 
hearing date for a formal hearing on that.
    The other question you asked about was whether the 
employees covered under this negotiation had received a raise 
this year. They did, I am told, receive the basic federal raise 
that everyone in the federal government got, and then any 
increment above that that might result from a negotiation would 
be above and beyond what the basic----
    Mr. Sabo. But the basic pay increase of federal employees 
they had. Thank you.
    Mr. Jackson. Yes.
    Mr. Sabo. Thank you. Thank you, Mr. Chairman. It is a good 
hearing.
    Mr. Rogers. Thank you.
    Mr. Olver.
    Mr. Olver. Thank you very much, Mr. Chairman.
    Mr. Rogers. Before you proceed, you may not have noticed 
that we are doing the lunch hour here. We do plan to finish 
fairly quickly so we can get this over with so you can be gone, 
rather than come back after a lunch, if that is okay.
    Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    It has been I think, since March 15th, it is just a little 
over four months since the first of the discussions on this, 
and this is now the third. And I would say this has been an 
enormous learning process for me and I suspect other members 
who are on this side of the table.
    I also want to echo what Congressman Wolf, our former 
chairman had said. I really want to commend the chairman for 
bringing this process together. I think for us on this side it 
is an enormous learning process because we rarely get a chance 
to see a lot of the different facets of the same problem being 
talked about by the key people that are there.
    We do have a lot of experience, speaking of something that 
Mr. Carr mentioned, at herding cats, sometimes sheep, sometimes 
we are the herders, sometimes we are the herdees on this side. 
But it is a learning process and it has been a good one.
    On your side I think it has been, I suspect looking at it, 
I think it has been both a learning process and a problem-
solving process. And I think I am going to characterize this in 
a way--and Ms. Garvey, I will get around to the question here 
sometime.
    You I think are the universal joint in this process of 
actually making things go in a problem solving effort, and I 
want to comment you very strongly for what has been 
accomplished in these last several months.
    It merely takes a will to do it and a the drive that has 
been provided by the Chairman to do it.
    Now just let me say, just one example about the learning 
process. Early on in this process I thought disbursal in choke 
points, particularly, and I used the example way back then of 
the New York city area because I know where Islip and where 
White Plains and where Stewart and so forth, and Teterboro are.
    I am not so sure that that is such a good idea as I listen 
more and have talked with some other people about it because 
goodness, one might think so, but if you are going to disburse, 
then you have probably 359 to 360 passengers for all regional 
jets going into an area to disburse what might otherwise be 
headed into a 150 person jet or whatever going into one of 
those, taking that city that i know the geography of a little 
bit, might be a lot more expensive for the airline, might be 
considerably more costly in terms of fuel, and obviously in the 
total amount of traffic that is going to be there. It becomes 
more difficult in a variety of different kinds of ways.
    I suspect, and somewhere you may want to comment, different 
of you may want to comment on it if you have a chance, but I 
suspect that the disbursal of general aviation in some of the 
smaller hubs might be a lot easier where the individual 
decision is on the basis of hey, we finally figured out that it 
is easier to change your own usage patterns that have been 
there for a long period of time than discover from an 
individual's point of view that you recognize and conserve your 
interests that are by disbursal outlook a little bit up to 
general aviation.
    I am never quite sure how much of general aviation is 
involved in all of these delays and what you are doing at some 
of the airports. It undoubtedly is in some. I should imagine it 
would not be very much involved in the biggest airports because 
we did not expect that general aviation would be in doubt. But 
that is just of an evolution of my own thought process in this 
learning process.
    I wanted to ask you, Ms. Garvey, and Mr. Sabo has already 
covered some of the grounds that relate to professional 
workforce issues as well, I wanted to ask you a more general 
kind of a question.
    Clearly we have good data for the first part of this year. 
Some of it may be weather and some of it may be better labor 
relations. You have indicated some initiatives and in a general 
broad way, the initiatives are flight phase and choke point 
initiatives.
    The choke point initiatives were 21 different initiatives, 
and then the national operations plan. Well, I want to ask you, 
what maybe three of those things, which ones do you think of 
the initiatives under the flight plan, the free flight or the 
choke point 21 might have been most significant? You might say, 
you might even tell me that you have been praying for better 
weather, and that might be very important. It might improve all 
of our use of that medium.
    But clearly the National Operations Plan which has to do 
with long range infrastructure cannot have had anything 
significant to do with this.
    I want you to think what might be the things that have been 
most significant of what you have been that universal joint in.
    You gave also a list of six sort of generalized areas that 
need more work. Are there some specific things in that that you 
think of as most promising? Just something for your thought 
process here, but what seem to have been the most helpful 
things, the most important things in producing that if it was 
not just prayer and good weather. And then what you think might 
be most promising of the relatively specific sorts of things 
that you are working on in this universal joint process.
    Ms. Garvey. I will give you a quick reaction. But I may 
think about it and come back to you later.
    The choke point initiatives that focus on the New York area 
have been in some ways certainly among the most promising 
because that is such a difficult area for us. I think that sort 
of clustering of initiatives has been extremely helpful.
    The second one is perhaps a little bit harder to quantify, 
but I have to say I really do think the kind of collaboration, 
the collaboration you are having with the airlines from the 
command center. That conversation that is happening every two 
hours, sometimes even going around the clock, 24 hours a day. I 
think those have--because what it has resulted in is very 
specific, agreed upon plans, and their actions are entirely 
going to be handled today. I think that real time collaboration 
has been extraordinarily helpful.
    Congressman Sabo mentioned a little bit earlier the issue 
about how long are the ground stops. The implication is the 
fuel, if you are in a holding pattern or whatever. He was 
right.
    Rather than our making those decisions, we are doing it 
very much in collaboration with the airlines. Do we want a 
ground stop here? Do we want to put people into a holding 
pattern? Do we want to try to fly lower altitudes.
    The collaboration with the airlines which I is really 
unprecedented and is absolutely critical.
    By the way, I think one of the most interesting processes, 
to critique the people after a bad day. After a terrible day, 
it wasn't going well, they get on the phone and yell at each 
other. What did we screw up on? What should we do differently? 
It's pretty open. I have heard those conversations, I have read 
the transcripts. They are very open, very direct, and very 
productive.
    I think the third piece that is the most critical and has 
the most promising operation, because it is all of that 
commitment. In the past there may have been nothing great about 
putting out wonderful pools of technology that are associated 
primarily with the government. This is everyone's commitment. 
It is broken down into short term, so a lot of the choke points 
or free flight that we have talked about can be included in 
this. It has got mid-term issues for all of us and long term. 
So I think that holds the greatest hope for the future. What is 
critical is our standard course as an industry. The coalition 
in a consensus has expressed some competitive interest to 
industry. It is going to be absolutely essential that it be 
maintained.

                            data collection

    Mr. Olver. Just briefly, you have kind of pushed really the 
things that have worked, that produced the most of what has 
happened in the past and what might be the most promising in 
the future.
    I suspect that just getting that data, which was all 
available, has produced now some of the embarrassment that the 
airports and the airlines end up with things getting worse 
again unless there is very good reason. That is a first cut at 
data. One obviously needs good data in order to do any good 
planning.
    My guess is that if DOT finally gets through this process 
of deciding what it is that are going to be the data collection 
procedures, the comparable data in the case of the actual 
reasons for delay, you will find that has a big, positive 
effect in the future, because I suspect that again the airports 
and the airlines and all concerned in the problem solving 
aspect will find that they do not want to be caught on the 
short end of whatever is the particular criterion that is being 
set forward.
    Ms. Garvey. Absolutely.
    Mr. Olver. I do think that that will be a very good driver 
of good behavior all the way around.
    It took me a long time to get to a question, and I will 
pass back, Mr. Chairman. I know you would like to move on.

                      delay reporting requirements

    Mr. Rogers. Well, thank you Mr. Olver.
    Let me ask just a couple of questions in closing, and then 
we will have a little ceremony.
    I noticed a briefing paper that DOT or FAA had which 
describes the three categories of delays or cancellations that 
is being discussed, and I assume this is the route that you 
intend to go.
    One of the three categories that airlines would be required 
to report and which FAA or DOT would then publicize broadly. 
One, air carriers control problem; two, extreme weather; or 
three, national aviation system which would be a closed runway 
or a taxiway at an airport, air traffic control equipment 
problems, normal but disruptive weather patterns, volume of 
traffic in the system exceeds capacity, and that type of thing.
    Air carrier control would be unavailability of an airplane 
because of maintenance or other operating problems.
    Is this where we are headed?
    Mr. Jackson. Yes, sir. This is the result of the pilot 
work.
    Mr. Rogers. So this is what we will expect eventually the 
airlines to be required to report routinely.
    Mr. Jackson. Yes, sir.
    Mr. Rogers. Suppose an airline says on Flight 43 to Chicago 
out of Dallas we had a problem backing off the gate because, 
the controllers would not let us out because of some problem on 
the runway. And the controllers say no, no, no, it is the 
weather. And the airport people say no, the pilot did not show 
up. How do we know who is telling the truth?
    Mr. Carr. I am, sir. [Laughter.]
    Mr. Rogers. Is there going to be a referee of this system 
so we can have some confidence in the data that we get?
    Mr. Mead. I do not want the Office of Inspector General to 
be a permanent referee on this system, but I think initially 
that will happen. The example you described can be expected to 
happen. Weather is a good example. Somebody will say it is a 
weather caused delay. Actually the weather prevented the plane 
from being at Airport B and at Airport B the airline pulled up 
an alternate aircraft and the alternate aircraft was broken or 
had a maintenance problem. It is sort of a chicken or egg 
thing.
    The process is going to need a mechanism to sort through, 
to adjudicate differences of view. And that is what I rather 
hoped we would have been through by this summer, but we are 
still going to have to go through that phase because it will 
happen.

                       data collection validation

    Mr. Rogers. How are we going to police this thing?
    Mr. Mead. I do not know how we are going to police it 
exactly. But if I were in charge of it, I would have a 
committee set up that would screen the data and that would try 
to resolve data discrepancies. Then I would make sure that you 
had your inspector general audit that process periodically.
    I think you are going to need a permanent mechanism to 
synthesize the data and to resolve disagreements. Right now, 
since we do not have a system in place, we do not really know 
whether or the extent to which the disagreements will occur.
    Mr. Rogers. We have not come very far then. We are still 
going to be blaming each other?
    Ms. Garvey. Mr. Chairman, if I could, just speaking from 
the pilots experience, we are running into some of these. But 
it has been interesting to me, but I do not think we have run 
into as many as we thought. People actually have been pretty 
good. We have four good airlines who are reporting information.
    We are looking at it now on a daily basis with them, so in 
a sense we are dealing with those issues. The Inspector General 
has a very excellent staff person who is working with us on 
this and has been helping sort through those. I think your 
point about having a process is right. Mr. Mead's suggestion 
about a subcommittee of three to resolve some of the 
differences, is something that perhaps could be the topic of 
the Deputy Secretary's next meeting.
    Mr. Jackson. These are all particulars about how to make a 
process work on a routine basis and guarantee that the outcome 
is reliable and accurate and all of these points are well 
taken. Your question, sir, absolutely on point, and it is part 
of what we have to address in a final way in a rulemaking 
process so that it is very clear how we are going to adjudicate 
and audit. I welcome the Inspector General's willingness to 
help us keep the system honest.
    I have been told that from BTS' perspective which has been 
the sort of central point of this pilot exercise, that they 
feel the conversation back and forth amongst the parties has 
been robust and constructive and that the amount of disputes 
have been moderately small.
    So it is a very important point to focus on. That is part 
of what the rulemaking has to do.

                            causes of delay

    Mr. Rogers. Well, I mean, the last problem I had a couple 
of days ago or whenever, I think I got all three reasons from 
the desk. It's a weather problem, well, no, we had a crew 
member that did not report for work. All of this to the same 
flight, the same airline. The third reason, I forgot what it 
was, but it was----
    Voice: Volume?
    Mr. Rogers. Yeah, it was air traffic control volume. 
Whatever that means. And I am a consumer out here, and we are 
getting told everything, and people have no confidence in what 
they are being told and they get mad and frustrated and the 
ulcer level is increasing. We have to get a handle on this.
    If we do not have a system in place that forces an answer 
to who really caused that delay that is objective and is fair, 
then the flying public will not have the same information out 
there, and that is where we come in.
    Mr. Merlis.
    Mr. Merlis. Mr. Chairman, I think you have identified the 
reason we are so supportive of this process. Because using two 
of the three and not knowing the circumstances, if a pilot or 
crew member is late because of weather, which category does it 
go in? We want someone to tell us. We will put it in whatever 
category you want it to go in. But both of those may have been 
accurate. We were short a pilot because he did not get in on 
the inbound plane because of weather. Tell us which one you 
want and we will put it in that category and we will disclose 
it.
    Mr. Rogers. Good point.
    Okay, you are going to work on that.
    Mr. Jackson. Yes, sir.
    Mr. Carr. Mr. Chairman.
    Mr. Rogers. Yes.

                         air traffic operations

    Mr. Carr. I would also like to mention that, and I 
neglected to mention it when Mr. Sabo asked the question about 
his flight, because it is extraordinarily difficult to describe 
these circumstances so that it is easily understandable, but I 
would like to extend an invitation to any member of the 
subcommittee or their staffs who would like to visit any of the 
air traffic control facilities right here in the Washington 
area. National is right down the street, Dulles or the Center 
out in Leesburg.
    I think it would be helpful not only on days like today 
when the sun is out and everything is running relatively 
smoothly, but also on a critical weather day when not only the 
controllers but the airport operators and the pilots as well 
are really struggling to sort out how to get from Point A to 
Point B and it descends into herding cats quite quickly.
    The invitation is open any time, and I would be happy to 
facilitate any one on the subcommittee or their staffs in 
making those visits.
    Mr. Rogers. We appreciate that, and no doubt some of us 
will take you up on it in due course of time. We appreciate the 
invitation and we will try and do it without being in your way. 
Anyone else, anything before we begin to wrap this up here?
    [No response.]

                         airline delay problems

    Mr. Rogers. Again, let me thank you for another appearance. 
As Mr. Olver said, this is a terrific education experience for 
us at least because when we talk about, focus on airline delays 
it seems like we are slashing across the whole body of air 
traffic because you encounter all of the difficulties that each 
of you have in your respective roles when we talk about that 
one topic.
    So it is a good education for all of us and I hope some of 
you on other parts of the industry that perhaps you do not 
experience on a day to day basis.
    But we started out with these hearings with the focus of 
trying to solve or help solve the airline delay problem that is 
infecting the country and causing so much turmoil.
    I think we are beginning to identify the choke points in 
the process. It seems to me like we are making some progress 
for probably a variety of reasons. But I would hope that these 
hearings contribute somewhat to the betterment.
    We still have a long ways to go but we are beginning to 
make some progress, and at least we can see whether or not we 
are making an impact.
    So congratulations on some good work, and this will not be 
the last meeting of this group. You all seem to enjoy your 
company and we want to facilitate your friendship. [Laughter.]

                     airline delay progress report

    We will provide you another opportunity one of these days 
to get back together and celebrate.
    Now, it is hard to judge what is going on as it relates to 
the overall picture, but we started out with this rating system 
and I think we need to keep it up.
    So Rich, if you will help me out here.
    The Secretary's office, Mr. Jackson, we are going to let 
you stand in for the Secretary in this procedure.
    On your work to establish the process to balance the flight 
schedules with airport capacity, we want to give you a smiley 
face because you are making some progress there. We want to 
reward good work. You are not there yet, so a star is not in 
order, but a smiley face certainly is and we congratulate you 
for that.
    Ms. Garvey, we want to continue to encourage you on the 
choke point initiative and the ability to measure the results 
so we want to give you another smiley face to join the one you 
got in May on that point. And also the same for number three, 
your Free Flight Phase I and Phase II, that is on track. That 
is a major initiative that we think will be of great importance 
and you have it on track. We want to give you a smiley.
    You have in fact accomplished now the agreement with our 
airlines on the national operations plan, number four. That is 
a fact. And for that you get a star. And you know we rarely 
give out stars here.
    And your streamlining of the approval procedures for 
airports, number five, we want to continue to encourage you 
with a smiley face on that one.
    Now Mr. Mead, we want to give you a star for continuing to 
monitor the progress of all of these things, and you are sort 
of our resident critic, if you will, to keep us on track, so we 
want to reward you with a star for that ongoing effort, it is 
not done. As well as number three, the monitoring of the 
construction costs for runways and the schedule status, 1 a 
star as well.
    And a smiley face for continuing, number four, to monitor 
the FAA's progress in meeting its obligations, keeping track of 
its promises.
    Mr. Merlis, we want to commend you for your group's putting 
in place the recommendations of the delay reporting advisory 
committee. For that we give you a smiley face.
    And this pains me, but we are going to have to give out the 
first frowny face on number three. In our very original hearing 
we were told that you would do this immediately. That we would, 
that you would begin immediately to transfer the aircraft 
position and delayed data directly to gate agents so that the 
public could see that the aircraft has not even landed in 
Chicago yet, or that it is delayed 45 minutes.
    We were led to believe and promised that that data would be 
relayed directly to gate agents across the country, and here we 
are five months later, or 90 days later--I am sorry months 
later, and we are told that that process will be agreed upon 
within 90 days. That is just not acceptable. So I hate to do 
this, but a frowny face.
    Mr. Barclay, we want to reward you for the effort to 
advocate FAA's ability to provide the support staff to 
airports. You advocated strongly and the committee agreed that 
airports ought to be able to pay for and provide staff to help 
the FAA speed up, process applications for airports. We wrote 
that into our bill, as a matter of fact, on your recommendation 
and others. Unfortunately, it as temporarily stricken out on 
the floor, but the idea still lives, and for that we give you a 
star. A very well deserved one.
    We want to give you a smiley face for your number three. As 
an advocate for scheduling committees.
    And for airports now getting better information out to 
their customers, as you say, through the CNN monitors and other 
displays in the airports, we think we are seeing some really 
good progress there and we want to give you a star for that. 
That is an important one.
    And then Captain Dolan, you will need to share this with 
Captain Woerth. We want to give you a star, give Captain Woerth 
a star, for developing a stronger alliance with NATCA.
    But on number three, after five months we were told, 
urgently, that the airline dispatchers would be brought into 
this alliance, and five months later still no action taken. WE 
are told a meeting is being planned. Do you want to protest?
    Mr. Dolan. No, sir. We signed the formal letter cosigned by 
our colleagues at NATCA with the dispatchers, that they are 
members of the alliance now. We had scheduled a meeting on the 
5th of July, had already been scheduled before that was 
completed, and they were unable to attend the meeting. Maybe I 
was not clear on that.
    Mr. Rogers. But you have signed a letter and the 
dispatchers are----
    Mr. Dolan. They have agreed to participate in the liaison 
effort, yes, sir.
    Mr. Rogers. And they have signed the letter with you?
    Mr. Dolan. Yes, sir.
    Mr. Rogers. Can we seek the letter? Can you file it for the 
record for us?
    Mr. Dolan. Absolutely.
    Mr. Rogers. Please do that.
    Okay, we will withhold action on that item then until we 
have had a chance to work on it.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Now then Mr. Carr, on your number one item, 
monitoring other ideas for safety impact, we want to give you a 
star on that.
    Mr. Carr. Thank you.
    Mr. Rogers. Good job.
    And obviously your number two, request for more controller 
staffing, I know that was difficult for you to do. [Laughter.]
    Mr. Carr. I do what I can.
    Mr. Rogers. That is really sacrificing. We are going to 
give you a star for that.
    If any of you have any problems with these let us know and 
we will take it under review.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            Closing Remarks

    Mr. Rogers Thank you for your work, being here today. I 
know this is a tough, tough issue for you. Airlines, airports 
are besieged with tons of people, and equipment is expensive 
and complicated and people obviously are concerned about 
safety, and rightly so.
    Sometimes we are dealing with procedures that date back to 
the Wright brothers. That could stand some modernization. Yet 
government agencies are very reluctant to shake the status quo 
and yet we have got to. So I am hoping that the separation 
standards can be worked on, that we get this new equipment on 
board as quickly as we can, that the controllers accept the 
equipment, and that the airlines and airports will begin to 
disburse super hubs into surrounding areas in order to relieve 
the traffic.
    There is no way that the building of runways is going to 
solve this problem. It takes so long to build them; and number 
two, by the time you get it built the capacity is going to be 
again under challenge.
    So I suggest to you that there is lots of concrete laying 
out there unused in these adjacent cities that airlines we 
expect to utilize. I do not think it is fair for the airlines 
who devised the hub system, to then come to us and say you have 
got a capacity problem so we want zillions of dollars to build 
a new runway. And our hub city, while you have runways that we 
built laying unused within a couple or few miles of that 
airport. So we expect disbursal of capacity. And to utilize the 
assets that we have already on the ground ready and paid for.
    Is it Belleville, Illinois that is this side of St. Louis? 
The St. Louis airport, we are having to build a $2.3 billion 
runway and yet there is a beautiful new airport at Belleville, 
Illinois, maybe 10 or 15 miles or so, on the plains of Illinois 
that is sitting there practically unused, terrific capacity, 
soon to be linked up with a metro commuter line that we are 
paying for to link up that airport with the city and the other 
main airport.
    I do not see why TWA does not use that airport, and others. 
But they expect us to spend $2.3 billion for one runway at 
their regular airport while it sits out there unused as we 
talk.
    Thank you for coming. We will see you next time.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Barclay, Charles............................................1, 471, 643
Barnhart, Cynthia................................................   143
Carmody, Carol...................................................   243
Carr, J.S...................................................1, 471, 643
DeBerry, Keith...................................................   243
Dolan, Captain Dennis............................................   643
Donohue, G.L.....................................................   143
Eickenberg, A.C..................................................   243
ElSawy, Amr......................................................   143
Fisher, J.P......................................................   243
Garvey, J.F............................................1, 243, 471, 643
Hansman, John....................................................   143
Jackson, M.P.....................................................   643
Kerner, Robert...................................................   243
Mead, K.M...................................................1, 471, 643
Merlis, E.A.................................................1, 471, 643
Woerth, Captain D.E..............................................1, 471


                               I N D E X

                              ----------                              

              Airline Delays and Aviation System Capacity
                             March 15, 2001

                                                                   Page
AAAE:
    AAAE--Responsibility for Delays..............................    88
    AAAE Five Steps to Solve the Delay Problem...................   131
ALPA:
    ALPA--Responsibility for Delays..............................    85
    ALPA Five Steps to Solve the Delay Problem...................   135
ATA:
    ATA--Responsibility for Delays...............................    87
    ATA Five Steps to Solve the Delay Problems...................   132
AIR-21 Runway Construction Funding...............................    95
Air Traffic:
    Air Traffic Congestion.......................................   118
    Air Traffic Congestion Response..............................   102
Airline:
    Airline Competition..........................................   108
    Airline Customer Service.....................................   125
    Airline Delay Relationship to Safety.........................    94
    Airline Incentives...........................................   109
    Airline Monopoly.............................................   111
    Airline Profit, Competition, Hubs............................   123
    Airline Schedules............................................   124
    Local Airline Traffic........................................   109
Airport:
    Airport Grant Funding for Hub Airports.......................    96
    Airport Infrastructure Projects..............................   120
    Minneapolis and Detroit Airports.............................   128
    Pittsburgh Airport...........................................   130
    Stewart Airport..............................................   124
Airport Capacity:
    Airport Capacity--Landings and Takeoffs......................    91
    Airport Capacity Utilization...............................103, 107
    Capacity Benchmarks..........................................   105
Biography:
    Charles M. Barclay, President, American Association of 
      Airport Executives.........................................    53
    Cynthia Barnhart, Associate Professor of Civil and 
      Environmental Engineering and the Engineering Systems 
      Division, MIT..............................................   175
    John S. Carr, President, National Air Traffic Controllers 
      Association................................................    73
    Jane F. Garvey, FAA Administrator............................    11
    R. John Hansman, Jr., Professor of Aeronautics & 
      Astronautics, MIT..........................................   206
    Kenneth M. Mead, Inspector General...........................    39
    Edward A. Merlis, Senior Vice President, Air Transport 
      Association of America.....................................    66
    Captain Duane E. Woerth, President, Air Line Pilots 
      Association................................................    81
Choke Points...................................................110, 129
Competitive Pricing..............................................   106
Conclusion.......................................................   139
Closing remarks..................................................   241
Delays:
    Airline Delay Relationship to Safety.........................    94
    Arrival Delays...............................................   130
    Community Role in Airline Delays.............................   141
    Collection of Delay Data.....................................   115
    Definition of Delays..................................112, 113, 117
    Delays.......................................................   126
    AAAE Five Steps to Solve the Delay Problem...................   131
    ALPA Five Steps to Solve the Delay Problem...................   135
    ATA Five Steps to Solve the Delay Problem....................   132
    FAA Five Steps to Solve the Delay Problem....................   137
    Five Solutions to the Airline Delay Problem..................    89
    IG Five Steps to Solve the Delay Problem.....................   138
    Industrial Role in Airline Delays............................   100
    International Delays.........................................   111
    NATCA Five Steps to Solve the Delay Problem..................   136
    Progress on Airline Delays and Cancellations.................   101
    Safety Related Delays and Runway Capacity....................    93
    Timeframe for Delay Standardized System......................   116
FAA:
    FAA--Responsibility for Delays...............................    84
    FAA Five Steps to Solve the Delay Problem....................   137
HUB Competition..................................................   126
Increased Flying Times...........................................   105
Inspector General:
    IG--Responsibility for Delays................................    83
    IG Five Steps to Solve the Delay Problem.....................   138
Introduction of Witnesses........................................2, 143
Mega Mergers.....................................................   101
NATCA:
    NATCA--Responsibility for Delays.............................    85
    NATCA Five Steps to Solve the Delay Problem..................   136
New Runway Construction in Chicago-Boston-New York Region........    96
Opening Remarks:
    Chairman Rogers..............................................1, 143
    George Mason University Opening Remarks......................   209
    MIT Professor Barnhart Opening Remarks.......................   158
    MIT Professor Hansman Opening Remarks........................   177
    Mitre Corporation Opening Remarks............................   144
Opening Statement:
    Inspector General Opening Statement..........................    12
    Opening Statement of FAA Administrator.......................     3
    Opening Statement of Mitre Corporation.......................   149
    Opening Statement of President Air Line Pilots Association...    74
    Opening Statement of President American Association of 
      Airport Executives.........................................    40
    Opening Statement of President National Air Traffic 
      Controllers Association....................................    67
    Opening Statement of Professor Barnhart, MIT.................   161
    Opening Statement of Professor Donohue, George Mason 
      University.................................................   214
    Opening Statement of Professor Hansman, MIT..................   181
    Opening Statement of Vice President Air Transport Association 
      of America.................................................    56
Partnership......................................................   117
Passenger Bill of Rights.........................................   101
Passenger Only Airports..........................................    92
Peak Demands.....................................................    91
Peak Demands and Noise...........................................    90
Public Service...................................................   114
Regulation for Passenger Compensation............................   134
Runway Planning and Development..................................   123
Separation Standards.............................................   139
Whistleblower Protection.........................................   138
Witnesses........................................................1, 143

           Federal Aviation Administration Management Issues
                             March 28, 2001

Air Carrier Reporting Pilot Program..............................   404
Air Taxi Operations Report.......................................   416
Air Traffic:
    Air Traffic Compensation Plan Briefing.......................   333
    Air Traffic Control Compensation.............................   313
    Air Traffic Control Operational Errors.......................   261
    Air Traffic Growth Projections...............................   411
Air Transportation Oversight System.......................262, 286, 441
Airline:
    Airline Operations...........................................   426
    Airline Participation in Pilot Program.......................   414
    Airline Schedules............................................   417
    Joint Industry/Government Meetings on Airline Schedules......   417
    Ranking Airlines.............................................   407
Airport:
    Airport Growth Versus Projections............................   413
    Airport Improvement Program Obligations......................   434
    Airport Movement Area Safety System........................260, 437
    Capital City Airport, Lansing Michigan.....................458, 459
Airspace Redesign................................................   435
Airworthiness Directives.........................................   455
Biography:
    Carol Carmody, NTSB..........................................   264
    Keith D. BeBerry, PASS.......................................   292
    Arthur C. Eickenberg, FMA....................................   311
    John P. Fisher, FMA..........................................   403
    Jane F. Garvey, FAA..........................................   259
    Robert Kerner, PASS..........................................   300
Bonuses........................................................440, 442
Budget Allocation for the Dulles Tower...........................   465
Choke Point Initiatives..........................................   408
Civil Penalty Violations.........................................   443
Closing Remarks..................................................   462
Compensation Inequities Impacting Federal Aviation Administration   312
Controller:
    CIC Relationship to Operational Errors.......................   453
    Controller-in-Charge.........................................   387
    Controller in Charge Experience..............................   434
    Controller in Charge Program..........................427, 432, 453
    Controller in Charge Training..............................428, 429
    Controller Pay...............................................   448
    Controller Supervisor Ratio..................................   422
    Controllers Recognition at Seattle Tower.....................   260
Delays:
    Causes of Delay.......................................405, 425, 426
    Data Validation............................................406, 407
    Definition of Delays.............................246, 404, 414, 423
    Weather Delays...............................................   409
Department of Transportation Pay.................................   423
Eastern Region Towers............................................   466
Emory Freight Flight 17 Crash....................................   456
English Language Proficiency.....................................   415
Environmental Streamlining.....................................447, 451
FAA:
    FAA Management and Supervisor Oversight....................385, 386
    FAA Management of STARS Program..............................   446
    FAA Organization.............................................   436
    FAA Reform.................................................247, 301
    FAA Work Force and Mission...................................   246
    FAA and Industry Relations...................................   443
Flight Standards:
    Flight Standards Travel and Training.........................   285
    Flight Standards Work Force..................................   285
FMA Recommendations..............................................   387
Free Flight......................................................   418
George Washington and George Mason Aviation Institute............   469
Ground Radar at Reagan National................................458, 463
Improvements to Dulles Air Traffic Control.......................   468
En Route Inspections.............................................   293
Inspector:
    Inspector Staffing.........................................293, 452
    Inspector Travel and Training................................   418
Introduction of Witnesses........................................   245
Joint Industry/Government Meetings on Airline Schedules.......... 60417
National Performance Review Survey...............................   438
Opening Remarks..................................................   243
    Chairman Rogers..............................................   243
    FAA Opening Remarks..........................................   246
    Opening Remarks of Mr. Sabo..................................   246
Opening Statement:
    Federal Managers Association (Eickenberg) Opening Statement..   301
    Federal Managers Association (Fisher) Opening Statement......   385
    Opening Statement of FAA Administrator.......................   249
    NTSB Opening Statement.......................................   260
    PASS (DeBerry) Opening Statement.............................   285
    PASS (Kerner) Opening Statement..............................   293
Operational Errors........................................387, 449, 450
Operational Errors at Dulles.....................................   464
Outsourcing......................................................   422
Pay Disparity....................................................   301
Performance and Accountability...................................   438
Personnel Reform.................................................   439
Potomac TRACON...................................................   467
Ranking Airlines.................................................   407
Recess...........................................................   429
Regulation and Certification:
    Regulation and Certification.................................   441
    Regulation and Certification Staffing........................   454
Runway:
    Runway Incursions.....................................247, 410, 414
    Runway Incursions and FAA Oversight..........................   260
    Runway Incursion Surface Incidents...........................   448
Safety:
    Safer Skies..................................................   247
    Safety Oversight.............................................   453
Seattle Earthquake...............................................   248
Staffing for Busiest Eastern Region Towers.......................   467
Supervisor Ratio................................386, 416, 430, 431, 450
Supervisory Management Risk Factors..............................   430
Witnesses........................................................   243

              Airline Delays and Aviation System Capacity
                              May 3, 2001

Accuracy of Data Reporting System................................   594
Airline:
    Airline Delay Solutions Report Card..........................   637
    Airline Delays...............................................   611
    Airline Dispatchers Federation...............................   571
    Airline Flight Schedules.....................................   599
    Airline Progress on Delay Issues.............................   591
    Airline Requirement to Report Delay Data.....................   591
    Airline Schedule Public Disclosure...........................   590
    Airline Schedules Demand Management Actions..................   597
    Airline Scheduling...........................................   605
    Airline Voluntary Actions to Reduce Congestion...............   497
    Local Government Involvement in Airline Scheduling...........   606
Airport:
    LaGuardia Airport............................................   607
    Local Support of Airport Expansion...........................   601
    Philadelphia Airport.........................................   608
    Action Plan for Top Eight Airports...........................   598
    Airport Curfew...............................................   616
    Airport Reimbursement for FAA Staff Work.....................   599
 Alleviate Peak Demands..........................................   597
ALPA Delay Commitment..........................................632, 637
Antitrust Immunity.............................................603, 634
Aviation Safety..................................................   579
Biography:
    Charles M. Barclay, President, Association of Airport 
      Executives.................................................   568
    John S. Carr, President, National Air Traffic Controllers 
      Association................................................   589
    Edward A. Merlis, Senior Vice President, Air Transport 
      Association................................................   553
    Captain Duane E. Woerth, President, Air Line Pilots 
      Association................................................   578
Building Industry Consensus......................................   572
Boston Runway Expansion Noise Issue..............................   600
Capacity:
    Capacity at Atlanta and Dallas/Forth Worth...................   596
    Exceeding Capacity...........................................   595
Capacity Benchmarks:
    Capacity Benchmarks........................................475, 638
    Capacity Benchmark Report..................................595, 611
    Capacity Enhancements at Most Delayed Airports...............   608
Choke Points:
    Atlanta and Boston Choke Points..............................   609
    Choke Points.................................................   475
    Choke Points New York/New Jersey Area........................   610
CNN Airport Channel..............................................   555
Closing..........................................................   642
Conclusion.......................................................   500
Controller:
    ATCS Hiring Requirements for Fiscal Year 2001-2010...........   622
    Controller Distribution......................................   620
    Controller Relocation........................................   633
    Controller Staffing........................................579, 619
    Controller Work Force Retirement.............................   580
    FY 2001 Regional Staffing Allocation--Terminal by Level......   623
    Mandatory Controller Retirement..............................   632
Delays:
    Airline Delay Solutions Report Card..........................   637
    Airline Delays...............................................   611
    Airline Progress on Delay Issues.............................   591
    Airline Requirement to Report Delay Data.....................   591
    Airline Voluntary Actions to Reduce Congestion...............   497
    Commitments to solve the Delay Problem.......................   472
    Chronically Delayed Flights..................................   592
    Definition of Flight Delays..................................   495
    Delay Definition, Environmental Streamlining Airport Capacity 
      Projects...................................................   638
    Delay Reporting Advisory Commitee............................   545
    Delay Tracking...............................................   495
    Delays at San Francisco Airport..............................   615
    Flight Delay Public Disclosure.............................500, 593
    Impact of Weather Technology on Delays.......................   634
    Information to Customers.....................................   556
    Internet Reservation System Flight Delay Report..............   594
    Major Airline Reporting of Delay Data........................   592
    Other Delay initiatives......................................   495
    Tracking Airline Voluntary Actions on Delays and 
      Cancellations..............................................   612
Denied Boarding Compensation.....................................   633
    Denied Boarding Compensation Program.........................   546
Environmental Streamlining...........................476, 594, 599, 614
Flight Rule on Flight and Duty Time..............................   617
Flight and Duty Time Limitations.................................   616
Flight Disbursal...............................................609, 614
    Boston Flight Disbursal......................................   610
Free Flight Phase 1 and 2........................................   476
    Free Flight Phase 1........................................579, 618
    Free Flight Phase 2..........................................   632
Herndon Command Center...........................................   545
Identify Capacity Expansion Projects.............................   546
Improve NATCA Liaison............................................   571
Management Advisory Council Representation.......................   581
Mini Hubs........................................................   619
National Airspace Redesign.......................................   580
Opening Remarks: Chairman Rogers.................................   471
Opening Statement:
    Inspector General Opening Statement..........................   495
    Air Transport Association (ATA) Opening Statement............   545
    Air Line Pilots Association (ALPA) Opening Statement.........   571
    Airport Executives (AAAE) Opening Statement..................   554
    FAA Opening Statement........................................   478
    National Air Traffic Controllers (NATCA) Opening Statement...   579
Operation Specification Modifications............................   612
Passenger Facility Charge Cap..................................555, 633
Peak Demands.....................................................   500
Peak Hour Congestion Pricing.....................................   615
Proposed Antitrust Immunity Scheduling Conference..............636, 637
Revenue Diversion................................................   555
Runway:
    Runway Construction..........................................   500
    Runway Expansion at Phoenix..................................   615
    Streamlining Runway Construction.............................   554
RTCA Free Flight Steering Committee..............................   571
Schedule Comparison..............................................   500
Scheduling Committees............................................   604
Secretary Mineta:
    What I Will Do To Help Solve the Airline Delay Problem
    March 15 and April 25, 2001 Progress.......................473, 640
Separation Standards.............................................   581
Slot Allocation..................................................   606
Slot Allocation and Competition..................................   607
Slot Controlled Airports.........................................   604
Streamlining Process Statute of Limitation.......................   601
System Efficiency and Demand Management Option...................   604
Support Staff for Runway Projects................................   554
Tracking Delay Progress..........................................   590
Witnesses........................................................   471

              Airline Delays and Aviation System Capacity
                             August 2, 2001

Air Traffic:
    Air Traffic Modernization Tools Booklet......................   750
    Air Traffic Operations.....................................806, 812
    Air Traffic Volume...........................................   800
Aircraft Separation Standards....................................   752
Airline:
    Airline Pilot and Controller Alliance........................   740
    Airline Schedule Changes.....................................   715
Airport:
    Airport Capacity.............................................   798
    Airport Construction Streamlining Process....................   724
    Airport Revenues for Remediation.............................   725
    Atlanta Airports.............................................   658
    LaGuardia Airport Lottery....................................   680
    Sub-Hub Airport Capacity Use.................................   680
Airspace Redesign................................................   751
Anti-Trust Immunity..............................................   724
Average Load Factors.............................................   682
Biography:
    Charles M. Barclay, President, American Association Airport 
      Executives.................................................   737
    John S. Carr, President, National Air Traffic Controllers 
      Association................................................   787
    Captain Dennis J. Dolan, First Vice President, Air Line 
      Pilots Association.........................................   749
    Michael P. Jackson, Deputy Secretary, Department of 
      Transportation.............................................   657
    Kenneth M. Mead, Inspector General, Department of 
      Transportation.............................................   712
    Edwin A. Merlis, Senior Vice President, Air Transport 
      Association................................................   723
Capacity:
    Airport Capacity.............................................   798
    Capacity Expansion Projects..................................   715
    Sub-Hub Airport Capacity Use.................................   680
Chokepoints......................................................   659
Closing Remarks..................................................   822
Commitments and Progress.......................................682, 713
Controller:
    Controller Attrition.........................................   805
    Controller Workforce.......................................751, 804
Data Collection..................................................   809
Data Collection Validation.......................................   810
Delays:
    Airline Delay Problems.......................................   812
    Airline Delay Progress Report................................   812
    Causes of Delays......................................789, 797, 811
    Delay Data Availability to Customers.........................   714
    Delay Data Interim Final Rule................................   791
    Delay Information for Customers..............................   725
    Delay Information Mandate....................................   790
    Delay Improvements...........................................   646
    Delay Panel Consensus on Resolution..........................   789
    Delay Reporting Requirements.................................   809
    Flight Delays and Cancellations..............................   750
    Key Delay Indicators.........................................   796
    Pilot Program Key Delay Indictors............................   792
    Progress on Delays...........................................   681
    Purpose of Delay Hearings....................................   643
    Transportation Delay Work Group..............................   646
    Weather Delays...............................................   800
FAA Progress on Commitments......................................   658
Fiscal Year 2002 Appropriations Bill.............................   644
Flight Time/Duty Time Rules......................................   741
Free Flight Phase I..............................................   659
Free Flight Steering Committee...................................   740
Labor Relations Contract.........................................   799
Labor/Management Impact..........................................   647
Low Frequency Noise..............................................   798
Management Advisory Council......................................   752
Model Enhancement................................................   801
National Airspace System Modernization Strategic Plan............   741
Nav Canada.......................................................   750
Open Remarks and Introduction of Witnesses.......................   643
Opening Statement:
    Air Line Pilots Association Opening Statement................   740
    Air Transport Association Opening Statement..................   713
    Airport Executive Opening Statement..........................   724
    Deputy Secretary Opening Statement...........................   645
    FAA Opening Statement........................................   658
    Inspector General Opening Statement..........................   681
    National Air Traffic Controllers Opening Statement...........   740
Operational Evolution Plan (OEP).................................   660
Pilot Controller, and Dispatcher Alliance........................   741
Reimbursable Agreement for Environmental Activities..............   724
Report Card on Commitments.......................................   644
Runway Construction Permits......................................   802
Secretary Mineta: What I Will Do To Help Solve the Airline Delay 
  Problem Commitments Made March 15 and April 25, 2001 Progress..   810
Scheduling Data..................................................   681
Summer Operations Plan...........................................   647

 Questions for the Record for the Federal Aviation Administration From 
                            Chairman Rogers

2000 Performance Goals...........................................   964
2001 Executive Bonuses for Fiscal Year 2000 Performance Goals....   965
Accident Statistics..............................................   986
    Part 121 Fatal Accident Rates for U.S. Air Carrier per 
      100,000 Flight Hours 1990-2000.............................   987
    Accident Rate 100,000 Flight Hours...........................   989
Advisory:
    Advisory Circular............................................   908
    Advisory Committees..........................................  1020
Air Traffic Control Management and Oversight.....................  1053
Airport And Airway Trust Fund:
    Airport and Airway Trust Fund Statistics.....................   827
    Comparison of Actual and Projected Uncommitted Trust Fund 
      Balances...................................................   834
    Trust Fund Revenues and Outlays Comparison...................   832
    Trust Fund Revenues and Outlays for FY 2001..................   829
    Trust Fund Revenues and Outlays for FY 2002..................   830
Airport Improvement Program......................................  1068
Airspace Redesign................................................  1061
AMASS Commissionings.............................................   894
Assessments by OST...............................................   854
    Assessments/Reimbursables by Fiscal Year.....................   855
Average Full-Time Equivalent:
    Average Full-Time Equivalent Costs...........................   913
    Average Full-Time Equivalent Costs for Controllers...........   913
Aviation Weather Research........................................  1070
Baseline:
    Baseline Management Notices..................................  1032
    Baselines--Facilities and Equipment..........................  1033
Budget Requests to OST and OMB...................................   858
Center for Management Development................................  1024
Civil Aviation Security..........................................  1064
Civil Aviation Security--Screener Rulemaking.....................   895
Civil Aviation Security Statistics...............................   896
Commercial Space Transportation..................................  1006
Commissioned Facilities..........................................   891
Contract Maintenance Support Contracts...........................   888
Contract Tower:
    Contract Tower Cost-Sharing Program..........................  1022
    Contract Tower Program.......................................  1021
Controller:
    Air Traffic Controller Workforce Center Positions and 
      Employment.................................................   872
    Average Full-Time Equivalent Costs for Controllers...........   913
    Comparison of ATCS Staffing Standards with Onboard Levels....   880
    Controller Attrition.........................................   881
    Controller Hiring............................................  1059
    Controller Equipment/Information Display System Planned 
      System Interfaces..........................................  1084
    Controller in Charge.........................................   885
    Controller Incentive Pay.....................................   866
    Controller Staffing..........................................   869
    Controller Training..........................................  1003
    CWF Staffing vs. FCT Staffing................................   877
    End-of-Year Controller Workforce vs. Contractor Staffing at 
      FCT........................................................   875
    TRACONS-CWF Actual On-Board..................................   873
Core Compensation................................................   906
Cost Accounting System...........................................   825
Depot Spare Funding Requests.....................................   887
English Language Proficiency.....................................  1011
Executive:
    Executive Bonus Awards.......................................   949
    Executive Compensation System................................   949
    Executive Positions..........................................   937
    Executive Positions Unfilled.................................   970
Field Maintenance--``Other Object'' Costs........................   890
Five Most Important Modernization Programs.......................  1027
Forecasts and Statistics of Industry Activity....................   976
    Workload Indicator...........................................   977
    Total Combined General Aviation Instrument Operations........   980
GSA Rent.........................................................   916
Health Benefits..................................................   914
International Aviation Safety....................................   825
Leasing..........................................................  1029
Leave:
    Annual Leave.................................................   867
    Sick Leave...................................................   868
Memorandum of Understanding:
    Memorandum of Understanding between the National Air Traffic 
      Controllers Association and the Federal Aviation 
      Administration.............................................  1055
    MOUs Granting Credit Hours...................................  1054
    Settlement Agreement between the National Air Traffic 
      Controllers Associations and the FAA.......................  1058
National Air Traffic Controllers Association (NATCA) 
  Representation.................................................  1003
National Parks Overflight Plans..................................  1051
New Programs--Facilities and Equipment...........................  1029
Obligation Plan Versus Actual--Fiscal Year 2000..................   932
    Operations Fiscal Year 2000 Quarterly Direct Obligations.....   933
Obligations and Unobligated Balance--Facility and Equipment......  1046
Office:
    Office of Financial Services.................................   896
    Office of Policy, Planning and International Aviation........  1007
    Office of System Safety......................................  1017
    Office of the Administrator and Deputy Administrator.........  1015
    Regional Headquarters Offices Corporation Support Financial 
      and Staffing Resources FY 2000-2002........................  1026
    Regional Offices.............................................  1025
Onboard Staffing by Office.......................................   852
Operational Error Statistics.....................................   993
Operations.......................................................  1048
Other Services...................................................   859
    Other Services Operations Appropriation......................   859
Outlays--Facility and Equipment..................................  1044
Overseas Personnel...............................................   835
Policy Studies...................................................  1013
Positions:
    Executive Positions..........................................   937
    Executive Positions Unfilled.................................   970
    FAA Distribution of Full-Time Equivalents (FTE) Operations 
      Appropriations.............................................   935
    Federal Aviation Administration Employment and FTEs 2000.....   973
    Federal Aviation Administration Employment and FTEs 2001.....   974
    Federal Aviation Administration Employment and FTEs 2002.....   975
    Human Resource Management Positions..........................   901
    Positions and Employment Summary.............................   972
    Positions by Office..........................................   934
    Public Affairs Positions.....................................  1024
Product Development Teams Funding Distribution...................  1072
RTCA, Incorporated...............................................  1023
Runway Incursion:
    Pilot Deviation Runway Incursion By Operation Type 1997-2000.   990
    Runway Incursion Data Fiscal Year 1997-2000..................   991
    Runway Incursion Statistics..................................   990
Safety System Top Priorities.....................................  1028
Special Pays.....................................................   861
    Federal Aviation Administration Operations Appropriation 
      Special Pay................................................   861
    Federal Aviation Administration Operations Appropriation 
      Special Pay by Line of Business............................   865
Staffing:
    Comparison of March 2001 Staffing to Budget Estimates........   853
    Controller Staffing..........................................   869
    Maintenance Staffing.........................................   887
Sunday Premium Pay...............................................   869
Transit Subsidy Benefit Program..................................   916
    Estimated Costs for FAA Participation in the Transit Benefit 
      Program-Fiscal Year 1996-2001..............................   916
    Current Number of Enrollees in FAA's Transit Benefit Program.   917
Transportation Administrative Service Center.....................   854
Travel:
    Federal Aviation Administration Operations Appropriation 
      Travel and Transportation..................................   917
    Non-Routine Overseas Travel..................................   921
    Travel and Transportation Expenditures Operations 
      Appropriation..............................................   918
    Travel-Operations Funded.....................................   917
Turbulence:
    Turbulence Accidents and Incidents...........................   997
    Turbulence Alert System......................................  1083
Union Workforces.................................................  1004
User Fees........................................................   906
Wake Turbulence and Wake Vortex Detection Systems................  1078
Weather:
    Aviation Weather Research....................................  1070
    Weather Forecasting..........................................  1076
    Weather Research Activities..................................  1073
    Weather Research to ATC Command Center.......................  1080
    Weather Research Results Utilization.........................  1081
    Weather Information VIA the Internet.........................  1082
    Weather Systems and NAS Operational Evolution Plan...........  1082
Within-Grade Increases (WIGs)....................................  1050
Workers' Compensation............................................   848
    CBY 2000 Distribution of Workers' Compensation Recipients....   849
Workload Measures and Industry Trends............................   981
    Growth Rate %: Aviation Activity vs. FAA Operations Budget...   982
    Comparison of FAA Air Traffic Funding and Workload Measures..   984

</pre></body></html>
